<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED
                    AGENCIES APPROPRIATIONS FOR 2000

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                              FIRST SESSION
                                ________

  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES

                    HAROLD ROGERS, Kentucky, Chairman
 JIM KOLBE, Arizona                 JOSE E. SERRANO, New York
 CHARLES H. TAYLOR, North Carolina  JULIAN C. DIXON, California
 RALPH REGULA, Ohio                 ALAN B. MOLLOHAN, West Virginia
 TOM LATHAM, Iowa                   LUCILLE ROYBAL-ALLARD, California
 DAN MILLER, Florida
 ZACH WAMP, Tennessee               
                                    

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
    Jim Kulikowski, Jennifer Miller, Mike Ringler, and Cordia Strom,
                           Subcommittee Staff
                                ________

                                 PART 6
                          DEPARTMENT OF JUSTICE
                                                                   Page
 Attorney General.................................................    1
 Federal Bureau of Investigation..................................  275
 Drug Enforcement Programs........................................  347
 State and Local Law Enforcement..................................  469
 Immigration and Naturalization Service...........................  561
 Bureau of Prisons................................................  651

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 57-614                     WASHINGTON : 1999



                        COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                     DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                  JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia                STENY H. HOYER, Maryland
 TOM DeLAY, Texas                       ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                     MARCY KAPTUR, Ohio
 RON PACKARD, California                NANCY PELOSI, California
 SONNY CALLAHAN, Alabama                PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York               NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina      JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                  ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma        JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                   JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan              ED PASTOR, Arizona
 DAN MILLER, Florida                    CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                   DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia                 CHET EDWARDS, Texas
 RODNEY P. FRELINGHUYSEN, New Jersey    ROBERT E. ``BUD'' CRAMER, Jr.,
 ROGER F. WICKER, Mississippi              Alabama
 MICHAEL P. FORBES, New York            JAMES E. CLYBURN, South Carolina
 GEORGE R. NETHERCUTT, Jr.,             MAURICE D. HINCHEY, New York
Washington                              LUCILLE ROYBAL-ALLARD, California
 RANDY ``DUKE'' CUNNINGHAM,             SAM FARR, California
California                              JESSE L. JACKSON, Jr., Illinois
 TODD TIAHRT, Kansas                    CAROLYN C. KILPATRICK, Michigan
 ZACH WAMP, Tennessee                   ALLEN BOYD, Florida
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania     
                                    
                                    

                 James W. Dyer, Clerk and Staff Director

                                  (ii)


DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2000

                              ----------                              

                                          Thursday, March 11, 1999.

                         DEPARTMENT OF JUSTICE

                                WITNESS

JANET RENO, ATTORNEY GENERAL

                            Opening Remarks

    Mr. Rogers. The Committee will come to order. I apologize 
for being tardy, Madam Attorney General. I will not let that 
happen again.
    This morning, we would like to welcome Attorney General 
Janet Reno to appear before the Committee on behalf of the 
Department of Justice's fiscal year 2000 budget request.
    You are seeking $18.5 billion from this Committee for the 
Department, which represents an increase of $305 million, 1.7 
percent, over fiscal year 1999. It is a modest increase for the 
Department, but does not tell the real story.
    Your budget proposes to eliminate over $1.4 billion in 
existing programs, primarily those to assist state and local 
law enforcement, which has the potential to decimate the 
significant Federal/State partnership in reducing crime. 
Clearly, this will present tremendous problems and challenges 
for this Committee.
    The Subcommittee, and I personally, continue to be one of 
the strongest supporters of the Department of Justice and its 
law enforcement agencies. We have provided increases totaling 
almost $6 billion since 1995, a 48-percent increase, to give 
Federal, State and local law enforcement agencies the tools 
they critically need to fight crime, and at a time when we are 
also trying to balance the budget.
    I am pleased to see that some of this investment is paying 
off. Serious crime has fallen by 20 percent in the last 6 
years. But our work is far from done.
    We must remain vigilant in our efforts to ensure that this 
trend continues. We must redouble our efforts in the war on 
drugs. And we must adapt to a changing world, to protect our 
communities and nation from increasing threats from domestic 
and global sources.
    This Subcommittee and the Congress will do our part by 
providing the services that you need to meet these challenges. 
While we continue to support law enforcement, we will also hold 
you accountable. There are still some serious mismanagement 
problems that need to be addressed if the taxpayers are going 
to get the most out of their investment in the Department of 
Justice.
    We can no longer continue to provide resources to INS, for 
example, without some fundamental change in its structure. It 
cannot handle its responsibilities. It has botched its mission 
over the past years, and it cannot continue.
    Madam Attorney General, as always, this Committee will 
continue to work with you to ensure that law enforcement has 
what it needs to fight crime. We appreciate your being here 
with us today.
    Before recognizing you, I will recognize my colleague, Mr. 
Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. I just want to take 
this opportunity to join you in welcoming the Attorney General. 
I will have some questions regarding some very serious issues 
close to me at home.
    But in general terms, I come to this Committee for the 
first time in this position, and I want to be helpful in any 
way possible, for you to carry out your mission.
    Mr. Rogers. Madam Attorney General, we will insert your 
written testimony in the record, and we would hope that you 
could summarize briefly.

                Attorney General Reno's Opening Remarks

    Attorney General Reno. Yes. I would just like to thank you, 
Mr. Chairman, because you are very correct. You and this 
Subcommittee have done so much to support law enforcement in 
the issues that the Justice Department confronts.
    I have been privileged to work with you. Congressman 
Serrano, I look forward to the opportunity to work with you and 
your colleagues, as well. It has been, to me, an excellent 
working relationship.
    In 1994, with the full support of this Subcommittee, the 
Administration attacked the crime problem by forming what you 
recognized, Mr. Chairman, as a partnership with State and local 
law enforcement, and by making significant new resources 
available for State and local law enforcement assistance.
    With police officers and prison construction, we have 
provided resources to fight crime in communities across 
America. And because of a joint effort by Congress and the 
Administration, I think, and the effort of so many people 
across the country, the nation's violent crime rate has dropped 
by more than 20 percent over the last six years, and the murder 
rate is at the lowest level in three decades.
    I think we have a choice, an exciting choice. I have seen 
America become complacent when crime rates have fallen before. 
And they just sit back, and then we watch the crime rates go up 
again.
    I think we have a choice now, to do our job in Federal law 
enforcement, to prepare ourselves for new challenges, to focus 
strategically on crime, and to help communities build strong, 
self-sufficient communities that have a lasting capability to 
effectively deal with crime and end the culture of violence in 
this nation.
    My first responsibility has to be to Federal law 
enforcement, to make sure that we have sufficient prison space, 
and that we have the tools that are needed to do the job. Then 
I think it is important to use the limited dollars that we 
have, in the wisest way possible, to help communities become 
self-sufficient.
    For fiscal year 2000, we are requesting $21 billion for the 
Department of Justice to provide a more focused approach to 
fighting crime at the state and local level, to be prepared to 
combat cybercrime and terrorism, to curb drug abuse, to enforce 
our immigration laws, to improve Federal law enforcement 
efforts in Indian country, and to be prepared for the rise in 
our prison population.
    Mr. Chairman, I look forward to working with you. There are 
difficult issues. We sometimes disagree on what law enforcement 
needs. But I know that we agree, totally, that it is important 
that we work together to support them in every way that we can.
    Thank you, Mr. Chairman.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rogers. Thank you, Madam Attorney General, and you are 
correct. You are a pleasure to work with. And although we 
differ occasionally, we are on the same highway.
    Attorney General Reno. Mr. Chairman, if I could solve some 
of our mutual problems faster, it would probably be easier for 
you to work with me.
    Mr. Rogers. Well, you got that right. You are starting off 
well. [Laughter.]

                                 calea

    Mr. Rogers. I want to talk to you about a special topic 
here.
    Last year, I expressed to you our continued frustration and 
concern over the lack of progress in implementing CALEA. As I 
have said before, for me, there are two fundamental principles 
that both the Federal Government and the industry must work 
together to ensure are met.
    One, CALEA must happen. Law enforcement has to have it. The 
nation needs it. And continued impasse is unacceptable.
    Two, CALEA can and will be done without costing the Federal 
Government more than the $500 million that has been authorized 
for it. This is what law enforcement, the industry, and the 
Congress agreed to back in 1994. It has been four years of 
stalemate, now. It is time to settle this issue and get on with 
it.
    First, as I understand it, the FCC will soon rule on what 
final capabilities are required under CALEA--the technical 
standard. Can you tell us the status of the FCC's action, and 
when you might expect a final ruling on that?
    Attorney General Reno. As you may know, the FCC has 
tentatively concluded that five of the nine missing 
capabilities in dispute are indeed required by CALEA. The 
Department is pleased with this ruling and believes it goes a 
long way towards addressing law enforcement needs.
    We hope that the FCC will issue a final decision in early 
May. And we hope that everyone will do whatever is right and 
appropriate to press the FCC for a continued expedited review 
of this matter.
    Mr. Rogers. I think I hear you. And we will. This 
Subcommittee, of course, has oversight of the FCC, as well. We 
would have heard their testimony Tuesday, but the weather 
prevented that. So we will be hearing from them soon. And we 
will again urge them, as you have, to act fairly but quickly.
    Industry has raised concerns that these capabilities 
insisted by on law enforcement, the so-called punchlist, will 
drive the costs of CALEA up to as much as $5 billion. How do 
you respond to that concern that they have?
    Attorney General Reno. Over the course of the past several 
months, the Department and the FBI have been involved in 
discussions with manufacturers of telecommunications equipment. 
It is these manufacturers that are developing solutions. And 
these manufacturers know what the cost of CALEA will really end 
up being.
    While the information shared by manufacturers is sensitive 
and subject to non-disclosure, I can tell you that for some 
manufacturers, the level of effort associated with the 
development of these capabilities represents less than 20 
percent of their total effort.
    Mr. Rogers. Last year, you told me that once the standard 
was decided on--that is, by the FCC--we would have a green 
light to move forward to implement CALEA. We have already given 
$100 million in the pot for this.
    But as you know, there are serious concerns over the costs 
of implementing CALEA. Do you have a plan to spend the money, 
and how will it address those concerns?
    Attorney General Reno. Mr. Chairman, it has taken me four 
years to bring you some really good news on this subject. But 
today, I can finally say we are very close to an initial deal 
with a major manufacturer that will set implementation in 
motion.
    This manufacturer has recently given the FBI a best and 
final offer for the government to acquire, through carrier 
partners, a right-to-use license for its CALEA solution. The 
FBI and the manufacturer have entered into a letter of intent, 
setting the parameters for upcoming contract negotiations. 
Under this letter of intent, the manufacturer would provide its 
software at no charge to any carrier using its platforms, now 
and in the future.
    We hope to close this deal within the next 60 days. Once we 
have closed the deal, we are going to take a flexible approach 
to deployment, so that law enforcement's highest priority areas 
are upgraded first, allowing all other areas to defer 
deployment, consistent with a carrier's normal software upgrade 
and deployment cycles. We will permit sitting down with 
industry to ensure complete understanding of this proposed 
rollout.
    Mr. Rogers. Can you move forward with your plans without 
final FCC action?
    Attorney General Reno. We intend to proceed with our 
discussions with the industry, whether or not there is a timely 
decision by the FCC.
    Many manufacturers have informed us that in order to meet 
the June 30, 2000 compliance date, they began serious 
development efforts months ago. In doing so, they have 
incorporated the ability to turn on or off any of the 
capabilities determined by the FCC not to be within the scope 
of CALEA.
    Mr. Rogers. Can you assure us that these actions will 
reduce the financial burden on both the government and the 
industry?
    Attorney General Reno. Yes, we think these steps will 
address several concerns raised by the industry in our shared 
goal of keeping the Federal Government's cost within the $500 
million authorization. First, we believe we will be saving 
carriers significant costs they would otherwise bear, because 
we are providing the solution for free for all of their 
switches.
    Also, by negotiating with manufacturers on large-scale 
reimbursement of their development efforts, we are taking 
advantage of the economies of scale. Each manufacturer with 
which we have detailed discussions has assured us that their 
prices are the lowest possible, and represent a price far less 
than what they would be charging individual carriers if 
carriers had to purchase the solution directly from them.
    Mr. Rogers. Do you believe that this proposal will finally 
break the logjam on CALEA?
    Attorney General Reno. We are hopeful that this will break 
the logjam. Our efforts, to date, in pursuing a solution with 
one manufacturer have precipitated increased interest by 
others. By continuing our dialogue with carriers on flexible 
deployment, we hope we can address their concerns on the June 
30, 2000, compliance date.
    I would add, with respect to the earlier question, that we 
will also be deferring deployment until normal upgrade cycles 
should significantly reduce the financial burden on the 
carriers.
    For example, one major carrier has told us that this would 
reduce their deployment costs by a factor of 20. Another RBOC 
has said it will reduce their costs by three times. So I think 
that will be encouraging.
    Mr. Rogers. So you are building some flexibility then into 
the implementation of CALEA, within some degree of reason?
    Attorney General Reno. That is correct, sir.

                        calea and rural carriers

    Mr. Rogers. Now one of the foremost concerns with CALEA 
that we have confronted has been the problem facing small, 
rural carriers, who should not be burdened with CALEA, because 
they either lack the resources to become CALEA-compliant by the 
deadline, or they do not represent a real law enforcement 
priority. Very few taps are made in certain regions.
    Unless the Department of Justice recognizes those facts, 
many small carriers could be faced with tremendous costs, with 
little gain for the law enforcement community.
    What assurance can you give us that you intend to relieve 
the burden on these small rural carriers?
    Attorney General Reno. We recognize that the small carriers 
of the telecommunication industry may have difficulty in 
meeting CALEA's June 30, 2000, compliance date. I believe these 
concerns can be addressed in the following manner.
    First, the vast majority of small rural carriers' switches 
were installed prior to January 1, 1995. Under CALEA, these 
switches are grandfathered in until the government agrees to 
reimburse the carrier for the cost of implementing CALEA, or 
the carrier makes the business decision to significantly 
upgrade the switch.
    I know there is a tremendous amount of concern over how we 
will define the term ``significant upgrade.'' When we issue the 
rule on significant upgrade, we plan to take a very liberal 
approach to the definition. And in most cases, the impact to 
the majority of carriers would be that they would not be 
considered to have undergone a significant upgrade until after 
June 30, 2000.
    What that means for small, rural carriers is that they 
would have to virtually replace their entire switch to trigger 
the significant upgrade bar. For example, the Y2K computer 
problem, under this approach, would not be considered a 
significant upgrade.
    Secondly, under our flexible deployment concept, and 
focusing on high-intercept areas, many small, rural carriers 
will be able to defer deployment to coincide with normal 
business cycles, which will lower the overall cost.
    And finally, the Department is willing to work with the FCC 
to structure a conditional reasonably achievable exemption for 
small, rural carriers, based on factors such as: cost, size, 
and market share. We hope to sit down with industry to go over 
the precise language that will provide this exemption to small, 
rural carriers.
    Mr. Rogers. Well, Madam Attorney General, I am very pleased 
with the progress that is being made. You know, this has been 
one of the most perplexing problems that we have faced, since 
the act came into being, and actually, since the digitalization 
of the lines took place, a few years ago.
    Very few people, I think, would understand what we are 
doing here, because it is a highly technical matter. But what 
we are talking about is the capability of law enforcement to be 
able to, under appropriate court order, wiretap, and listen in, 
legally, to try to catch the crooks and the bad guys--be they 
terrorists, organized crime figures, or other criminals.
    So it is terribly important that this be completed. And I 
commend you for your progress so far. I want us to move 
expeditiously to implement these plans so that we can, at the 
very first moment, realize for law enforcement, and for the 
community, the benefits that it portends.
    Attorney General Reno. Thank you, Mr. Chairman.
    Mr. Rogers. I will have other questions.
    We have a single vote on the floor, I will inform Members. 
And I am told there will be about a 10 to 15 minute interlude 
before a recommital vote. So we will have to bear with the 
schedule this morning. And I think there is only five minutes 
left on this vote. So we will have to recess briefly and 
return.
    Attorney General Reno. That is fine.
    Mr. Rogers. When Mr. Taylor returns from the vote--we sent 
him over early--he will resume the hearing. And then we will be 
back very briefly. Thank you.
    [Whereupon, at 10:34 a.m., the Subcommittee recessed, to 
reconvene at 10:40 a.m., the same day.]
    Mr. Taylor [presiding]. Madam Attorney General, I 
apologize, we are going to have a series of votes, in about 10 
minutes. So Mr. Rogers wanted me to go ahead with the 
questioning.
    Since you and I are here alone----
    [Laughter.]

                           tobacco litigation

    Mr. Taylor. I would like to ask a couple of questions for 
myself. In going over the budget, I am somewhat concerned about 
the request, I believe, for $15 million for the Department of 
Justice to sue the tobacco companies. And I guess I would ask a 
series of questions, and let you expand on them, rather than 
just one at a time.
    Tobacco is a legal product. And I am not sure what the 
Federal Government is doing entering a suit such as this. I am 
not sure that they have the statutory authority. And I would 
like for you to speak to that.
    I am also concerned about the priority. I know I may 
disagree with the Administration about certain priorities. That 
is common.
    But we have not asked for this kind of money in a number of 
areas that I thought would be very important. For instance, I 
was very upset, on this Committee, a few years ago when we 
learned that we had millions of immigrants brought in, some 
10,000 or more, that were serious felons, that were let in on 
the basis of being able to vote quickly. And I wondered if we 
ever looked into that, or put any money toward that. I know we 
have the whole question of the China matter. I know the nation 
wants to get to the bottom of that, and I have not seen any 
large amount of money requested for that.
    And then in my district we have, probably all across 
America, the question of school mascot names. Regarding Erwin 
High School, in Buncombe County, North Carolina someone in the 
Justice Department said that they did not like their team name, 
and it was going to cost the school board a half a million 
dollars to defend that name. And I assume it would cost the 
same thing for the Attorney General's office.
    And so if you put that times the literally thousands of 
team's names that maybe the Justice Department is concerned 
about, that would be millions of dollars of the taypayers' 
money that would be suing Boards of Education because they used 
the words ``American Indians'' or ``Native Americans'' to 
describe the names.
    Now I have the Eastern Band of Cherokees Reservation in my 
district. They, in fact, have some of the same team names, and 
no one has objected. Buncombe County finally struck an 
agreement on what type names they should have.
    But it seemed like a very low priority for millions of 
dollars to be gathered from the taxpayers to sue, and costing 
the taxpayers in those counties millions of dollars to settle 
this situation. Whereas, it could be settled without the United 
States Justice Department getting involved.
    And then, of course, looking at the many areas that we are 
talking about here that I think are very serious, but no action 
being taken on them.
    Could you talk to me, primarily, about the tobacco 
question, do we need $15 million for the Justice Department to 
get involved in the civil actions?
    By the way, I think the Federal Government in this 
Administration looks for somewhere around $13 billion in tax 
revenue from the tobacco products, to carry out its spending 
programs.
    And so if it is evil to sell tobacco and worthy of the 
Attorney General to spend $15 million attacking it, should we 
be attacking ourselves for spending that money? Are we 
coconspirators in this?
    Maybe I should file an amicus brief on the basis of 
redirecting the suit for all of us. That's a real concern of 
mine. I suspect the general question is, what is the Attorney 
General needing $15 million to do?

                               team names

    Attorney General Reno. I would be happy to address that and 
the priorities that you described. You described a matter that 
involved the school board of a North Carolina county.
    The department became involved in that not because somebody 
in the Civil Rights Division thought it up, but because a 
parent wrote, saying that the issue was offensive, and created 
a hostile environment.
    We did not spend millions. Staff from the Civil Rights 
Division worked with the community and the board, and the 
result was a voluntary decision. I think it is a good example 
of how things can be worked out. And we try to do that in every 
way that we can.

                           tobacco litigation

    We try to establish priorities that reflect just what the 
issues are. According to the Centers for Disease Control (CDC), 
tobacco-related health care expenditures exceed $50 billion, a 
year. Of that, more than 20 percent, more than $10 billion, are 
Medicare expenditures.
    This does not include the expenditures of other Federal 
care programs, such as those run by the Veterans Administration 
and the Department of Defense.
    Thus, I think it is a very critical issue for all 
Americans; both those who expend the money and the Federal 
Government who expends the Medicare dollars.
    In December of 1998, I decided that we had viable grounds 
on which to pursue recovery of tobacco-related health 
expenditures. Because the Department had already submitted its 
budget request for fiscal year 2000, it was clear that an 
additional sum would be needed to handle this extremely 
important, large-scale litigation.
    Accordingly, the Civil Division developed a proposal to 
prepare to litigate, to recover tobacco-related health care 
expenditures.
    We are, indeed, asking for $15 million to fund 50 positions 
and the cost of gathering, organizing, and computerizing 
evidentiary materials, providing contractor paralegal support, 
and consulting services.
    We know that our lawyers will need to master an enormous 
evidentiary record of millions of pages of documents that have 
already been produced as a result of the State litigation, to 
conduct further discovery designed to uncover many more 
documents still held by the industry, and to identify and 
master the government's own relevant documents.
    We are asking for an additional $5 million for expert 
witness costs, based on our extensive experience with 
litigation in cases involving significant potential damages.
    We believe we have taken a responsible approach to the cost 
of litigation in this matter. The State lawsuits were 
characterized by two different approaches. Most States engage 
private counsel on contingency fee arrangements. This resulted 
in unprecedented attorney's fees.
    In that context and in the context of the more than $20 
million in medical costs, the Federal Government is estimated 
to spend each year on tobacco-related diseases, the $20 million 
request for fiscal year of 2000 seems modest, indeed.
    Now, how did we determine that? The State of California 
provides a useful analogy. Like the Department of Justice, the 
State decided not to engage private counsel, but to litigate 
the case itself.
    Very much in line with our present request, the State 
legislature approved litigation budgets for that single State's 
lawsuit against the companies of $11.4 million for fiscal year 
1998, and $14 million for fiscal year 1999.
    According to the State Attorney General's Office, this 
funded 34 attorneys, 40 paralegals, and 47 secretaries. Using 
this approach, California recovered approximately $25 million.
    Our request, I believe, is very much in keeping with that 
experience.
    Mr. Taylor. Of course, I would disagree. I know there are a 
number of suits pending in the States. In fact, tobacco 
companies are settling and providing billions of dollars in 
many of those suits. And that is why I was concerned why the 
taxpayer needs to be involved.
    Of course, I think the person who smokes has a substantial 
amount of responsibility for what is happening, especially 
since the warnings since 1964 have been pretty clear. I raise 
the question of, again, why we need to be involved.

                               team names

    In the Erwin High School situation, I did not indicate that 
you had spent millions of dollars. I know there was a 
complaint. Of course, we get, in our office, complaints like 
this many times. And where it is possible, we refer the people 
to work out the problems with their local officials.
    According to the press in our area, the Justice Department 
advised the school board that it was a violation of civil 
rights, that they would pursue it legally. And the school 
board, in discussing it with attorneys, determined it would 
take about a half million dollars to defend the name.
    And as I say, if the Justice Department is going to take 
that on as a civil rights violation, I assume it would cost the 
same thing to pursue.
    If you do that all across the nation, then you are talking 
about millions of dollars in Justice expenditure, not millions 
of dollars at the Erwin School.
    Do you consider that a civil rights violation?
    Attorney General Reno. Under the facts that were alleged, 
it was a civil rights violation. But as we pointed out, there 
is a vast difference. The community worked that out.
    You asked what interests the Federal Government has in 
tobacco litigation. The American people have spent more than 
$50 billion per year. Of that, more than 20 percent, more than 
$10 billion are Medicare expenditures.

                     rationale for tabacco lawsuits

    Mr. Taylor. Your argument sounds persuasive. If we could 
tell you, look at all the other products--have you analyzed the 
fat and so forth that is in a Whopper?
    Attorney General Reno. No, I do not eat Whoppers. 
[Laughter.]
    Mr. Taylor. I do not, either. And I do not smoke, either. 
But I assume that following your logic, we will be seeing a $20 
million request next year to go after McDonalds, because there 
is probable disease being caused by them. Hodgkin's disease is 
a very serious problem. And as medical authorities will tell 
you, a large portion of it is based on the diet that we have.
    And so we have commercials on television right at the time 
when I am the most hungry----
    [Laughter.]
    Mr. Taylor [continuing]. Coming out with a layer of cheese, 
two fat burgers, bacon, and bread--all of that, about 1,500 
calories, or something like that, of solid fat, and my 
cholesterol is moving up, just by looking at it.
    Can we devise at least a $20 million suit against those 
people for the contribution that they are making to Medicare 
and hospitals and the veterans and so forth, the cost of that?
    You see what I am saying? We go on and on and on. And, yet, 
there is not even a warning label there.
    And alcohol: we know how tragic alcohol is, and we can 
point to close to 25,000 deaths a year due to alcohol. Why are 
we not suing all the wine, beer, and liquor companies?
    You see, carried it to its logical conclusion, you will 
have the Justice Department involved in every facet of life. 
Why did we pick tobacco, which is somewhere, as far as health 
is concerned, in the middle?
    I mean, you could make a debate on which one is the worst: 
alcohol, fat, tobacco. And, yet, we have chosen to attack only 
tobacco, even though we have warned and tried to steer people 
away from it for some time.
    Attorney General Reno. I can not discuss the theory of our 
case. But if you have evidence that suggests that we should 
pursue other areas, we would be happy to review it.
    Mr. Taylor. Well, I will be happy to do that. By the way, 
the President and I both smoke cigars. And we could be put in 
the position here where we have to be a defendant in this case. 
I do not know if we will spread it that wide.
    But I think that the government has an obligation to 
educate. I think the government has an opportunity to warn, 
which it has done. I think the individual has the right to sue. 
But I am not sure about this $15 million request.
    I would like to yield to Mr. Miller for just a moment, 
before we have to recess.
    Mr. Miller.

                        extradition of del toro

    Mr. Miller. Madam Attorney General, I think you probably 
know the subject I am bringing up. It is unfortunate that I am 
having to bring it up again, because I think both of us would 
have thought that it would have been resolved by now.
    And it is very disappointing that such a horrible, horrible 
heinous crime was committed in Sarasota like the murder of 
Sheila Bellush, back in October of 1997. The accused, Mr. Del 
Toro, fled to Mexico, and remains in Mexico.
    But if you do want to go get your vote in--did you plan to 
recess?
    Mr. Taylor. Yes. Well, there are going to be about five 
more.
    Mr. Miller [presiding]. Five more votes?
    I know you have been involved in this case. I know you have 
talked to the Attorney General of Mexico. I know you have 
talked to Earl Moreland, who is the State's Attorney for our 
area of Florida.
    First of all, my community has been so upset about this 
issue, from day one. And I know you are upset. And I know 
people at the Justice Department are outraged by this horrible 
crime. I find it amazing that it is still going on.
    Can you give me any updates right now?
    Attorney General Reno. Well, as you may know, the 
government of Mexico has approved the extradition. Del Toro has 
appealed that decision, and will remain in custody in a Mexican 
prison until the appeal is resolved.
    Appeals in Mexican courts, as some appeals in this country, 
can be lengthy, because their judicial system affords many 
opportunities for procedural challenges.
    That is one of the frustrations we all feel in a number of 
instances. A country can feel somewhat frustrated at our 
extradition process. The government of Mexico has been 
supportive in this area, and we are now pending the appeal.
    Mr. Miller. I am sure you can understand the frustration of 
our community, because of the nature of the type of crime.
    Attorney General Reno. One of the great challenges I think 
we face here and around the world is how do we make justice 
thorough, fair, firm, and speedy? And we have got some doing to 
do ourselves.
    Mr. Miller. Well, this is the first case that I have been 
involved in where the Federal Government need to get involved. 
There has been good police action, all the way through, from 
the state and local to the federal people to locate Mr. Del 
Toro so quickly.
    Originally, the intent of the Mexican Government was to 
deport Mr. Del Toro. And apparently, they do deport people 
frequently. You know, it has been hard to get all the 
information pertaining to such cases. You just pick them out 
from news articles.
    There was a case last December of a person who was accused 
of murder in Arkansas, who was arrested by Mexican police, and 
was deported to Texas authorities.
    You know, Mexico made a conscious decision not to deport 
Mr. Del Toro. I do not know why. Deportation moves more 
quickly. And justice delayed is justice denied. And that is 
very unfortunate.
    So do you know anything about this situation of deportation 
versus extradition, or if more can be done to encourage in the 
deportation route, since he was there illegally?
    Attorney General Reno. I would be happy to check on it, 
sir. I do not know the details.

                      criminals fleeing to mexico

    Mr. Miller. The more we can encourage Mexico to deport, the 
better--you know, it would avoid this type of problem.
    Is there anything, any other incentives we can have to get 
these people back quicker? We had a trial in Sarasota a couple 
of months ago for one of the accused in this case. Another one 
pled guilty. They need Mr. Del Toro back. His absence has 
complicated the other trials.
    You know, Del Toro is the key. He was the one that actually 
slit her throat and shot the gun.
    Is there anything that we can do? Because this is not just 
one case in Sarasota. In searching the Internet, we found an 
article from--what city is this--San Antonio.
    In Texas City, they published a list of the 12 most wanted 
people in their community. And eight of them, all the way down 
the page, it says, thought to have fled to Mexico, thought to 
have fled to Mexico, thought to have fled to Mexico, believed 
to be in Mexico, believed to have fled to Mexico.
    This is a growing problem, because of the large border. And 
now there is the well-publicized case of the person who escaped 
from death row in Texas here, a few months ago.
    The article that was in the paper said that they thought 
the person was going to immediately leave for Mexico.
    And so the problem is a growing concern. And it is a 
growing concern for you, because it brings the Federal 
Government into play.
    What can we do? Are there any ideas as to how to avoid the 
problems like we have with Mr. Del Toro?
    Attorney General Reno. Well, for me, it has not been a 
growing concern. It has always been a concern because I have 
had as a local prosecutor in Dade County, people flee, and I 
have understood the frustration.
    I think one of the first steps we take is to make our 
justice system as speedy as possible, so that we show people 
what can be done.
    One of the cases that I think back to that does not involve 
extradition, it just involved us. It was a case involving the 
shooting of a police officer. It happened in April of 1978. 
Thirteen years later, I walked into an office, and there was a 
13-year-old girl who had just been born when her father was 
shot. And this person still had not been finally sentenced. So 
I think we can show the world what we can do by providing more 
effective, speedier, fairer justice.
    But then I think the next step, and one that I have been 
deeply involved in, is to let the world know by the systems we 
develop that there is no safe place for a criminal to hide.
    I have spent a great deal of time with the Ministers of 
Justice, particularly in this hemisphere, and around the world, 
trying to stress that; trying to ensure the extradition of 
nationals, so that the person can be tried where the crime was 
committed; trying to ensure that the processes between 
countries are clearly understood.
    My dream is to develop a system where all the extradition 
processes and papers are computerized. We push a button, and we 
know exactly what Mexico needs, or exactly what Brazil needs; 
and that we have a line of communication that provides for 
immediate prosecution, consistent with due process, and 
immediate extradition, wherever appropriate.
    I think we have made significant progress, but it is not 
sufficient. I am going to continue to try to do my best to make 
sure that the Del Toros of the world and others know there is 
no safe place to hide.

                    solutions to extradition delays

    Mr. Miller. Mexico is sort of a unique case, because of the 
large border.
    I had a resolution on the floor of the House about this 
situation last October. And, all of a sudden, people came out 
of the woodwork, members of Congress, and said, I had this 
problem in my home State of Texas or California.
    You know, this happened to be a particularly heinous crime. 
And so it got attention, and maybe this has publicized the fact 
that Mexico is a haven for murderers.
    This is difficult for me because, I have supported trade 
with Mexico. And my people back home said, Mexico is our 
friend. Why are they doing this?
    Attorney General Reno. Mexico, as I indicated to you, has 
approved the extradition.
    Mr. Miller. But the bottom line is, he is still not in 
Sarasota County Jail, and has not been to trial. And it has 
affected the other trials.
    Attorney General Reno. One of the things that I can not do, 
and neither one of us has figured out a way to do it, is to 
make courts do things when we want them to do things.
    Mr. Miller. Are there any other disincentives that we can 
create to keep this from happening?
    Attorney General Reno. I think the first step that we can 
do is to make sure that our processes are as expedited and as 
clean as possible, so that we show the world what can be done.
    And we are in the process of doing that. We are working 
with the ministers of justice to streamline the process, and to 
share information about how the process occurs and takes place, 
so that people will know that it is speedy.
    Mr. Miller. Deportation is a quicker process. That is my 
understanding. Can that be encouraged more?
    Attorney General Reno. I will be happy to, as I said, check 
on the deportation issue, and get back to you on it.
    Mr. Miller. Mexico has used it in kind of an arbitrary 
fashion. We have found at least four cases where people were 
deported--arrested by Mexican authorities and deported back to 
the States.
    Attorney General Reno. I will be happy to check on that for 
you.
    [Clerk's note.--The following information was provided 
subsequent to the hearing:]

    In the case of United States citizens who flee to Mexico after 
committing crimes, deportation or expulsion by Mexican authorities is 
often a faster and simpler means than extradition, of securing their 
return to face criminal charges in our country. The Department of 
Justice pursues this option through INS and U.S. Marshals Service 
officials based at the U.S. Embassy in Mexico City. When Mexican 
authorities choose not to deport or expel, the Department pursues the 
remedy of extradition. This takes a little more time to accomplish, but 
in most cases it results in the return of the fugitive to the United 
States.
    In the case of nationals of Mexico who commit crimes in the United 
States and return to Mexico, deportation is not an option at all and 
the only remedy available is extradition. Although Mexican law and 
practice has made it rare for them to extradite their nationals, there 
have been recent cases in which Mexico has extradited, and the 
Department hopes to see this trend continue. When Mexico does not 
extradite based on Mexican nationality, it is obligated by treaty with 
the United States to prosecute that person in Mexico for the crimes 
committed in the United States. The Department is working with Mexico 
to make sure this obligation leads to more, and more successful, 
prosecutions in the future.

    Mr. Miller. Anything that we can do to encourage 
deportation would be very beneficial.
    I hope we do not have to talk about this again. I know you 
do not want to talk about it again.
    Attorney General Reno. Well, I will tell you that you are 
going to be talking about it again. Because the next time, you 
are going to be there, and it is going to be a case in the 
Eleventh Judicial Circuit. Earl is going to be complaining, 
because the appeal is taking too long, and the collateral 
attack on his death penalty is taking too long.
    I think it is something that we have got to look at as an 
overall picture. Because the time it takes for Earl Moreland to 
see a death penalty finally executed, many people will think is 
too long. I think we have got to devise procedures so that we 
can do it promptly, fairly, and thoroughly.
    Mr. Miller. Can you identify what you have done on this 
case? I know you have had some conversations. I do not know if 
you want to discuss what you have done.
    Attorney General Reno. I have discussed with the Mexican 
Attorney General how important the case is. I have talked to 
Earl. And as I have indicated, the Mexican government, the 
Mexican Attorney General, has agreed to the extradition.
    Mr. Miller. Anything more you can do, well----
    Attorney General Reno. Well, what I am going to do when I 
leave here is check on deportation, and call you back.
    Mr. Miller. Thank you very much.
    And I think the Committee now will stand in recess. Thank 
you very much, Madam Attorney General.
    Attorney General Reno. Thank you.

                          border patrol agents

    Mr. Rogers [presiding]. The Committee will come to order. 
Madam Attorney General, I apologize for inconvenience the votes 
on the Floor have caused your hearing this morning. Somehow, 
those scheduling votes do not understand the important things 
that are taking place off the floor.
    Let me ask you now, and we will try to be as brief as we 
can, INS's budget does not add one more Border Patrol agent for 
fiscal year 2000. In addition, it does not appear that INS is 
likely to hire all of the 1,000 Border Patrol agents provided 
for in the fiscal year 1999 bill.
    Six Border Patrol training classes have been canceled. Less 
than 400 agents are currently in training. Even if the INS were 
to fill every remaining class to capacity, they would probably 
still fall short of 1,000.
    What are you and Commissioner Meissner doing to ensure that 
all 1,000 agents are on board by the end of fiscal year 1999?
    Attorney General Reno. Let me describe the issue to you, 
because this has been something that I have followed. This is 
something that may be beyond INS' control right now and I would 
like to go through it with you carefully.
    I have worked with INS in the past to speed up recruitment, 
to bring in good people, to make sure that we did not sacrifice 
quality for quantity, and to meet hiring goals.
    There is no doubt that INS is experiencing pipeline 
problems. It is receiving a considerable level of applicants. 
But the screening process, including background, medical, and 
drug testing screens--the considerable lapse of time from 
initial application to testing--and a very competitive job 
market, all contribute to the loss of candidates.
    For example, in fiscal year 1998, only four percent of 
those who applied were actually hired. Other factors, such as 
language requirements, salary and promotion potential, the 
nature of the work, and the job location, also contribute to 
the recruitment and hiring difficulties.
    The language requirement, as you know, is to possess or 
develop a significant facility in Spanish, and it is unique to 
the Border Patrol. While some assignments in other non-
Immigration and Naturalization law enforcement occupations may 
require facility in a second language, none require it to this 
extent.
    There are also pay issues. The full performance, or 
journeyman level, for the Border Patrol is GS-9. Other INS law 
enforcement positions, such as investigators, have full 
performance levels of GS-12 or 13, and other law enforcement 
agencies are also recruiting, and are more competitive in 
certain situations.
    To fix this problem, we are doing everything that we can. 
The military, as you know, is suffering the same problem with 
respect to lack of people in the pipeline. One of the things 
that we are focused on is how we reduce the time from the 
receipt of the application to the testing, and that we combine 
and try to make as efficient as possible the time taken to 
complete all the tests and all the screening mechanisms.
    We are examining the feasibility of enlisting the 
recruiting assistance of all INS employees by offering a hiring 
award. We are initiating a contract to survey why candidates 
who were initially interested failed to take the test. And we 
will use the findings to improve the process.
    We are studying the applicant pool, those who pass the 
Border Patrol tests, and actual hires. And we are exploring 
more focused, local recruitment and examination procedures.
    These are some of the steps that we are taking. And I will 
be happy to provide your staff with the complete report on 
this, and what we are trying to do.
    I know you do not want to take too much time on the 
details. And I think we can provide you a written statement of 
just the steps that have been taken.

                       ins application processing

    Mr. Rogers. In fiscal year 1998, we provided INS with over 
$163 million; and in fiscal year 1999, another $176 million in 
program increases to address the naturalization caseload, and 
to improve the integrity of the naturalization process, a total 
of $339 million in two years.
    We provided the money. INS said they would process a 
million and-a-half applicants this year. Now it is down to 1.2 
million. INS also promised that application processing time 
would be cut to 12 months.
    Is INS on target to process 1.2 million naturalization 
applications this year? And if not, why?
    Attorney General Reno. I can not represent to you that they 
are. They feel that they will be able to achieve it. I do not 
think that they feel they will be able to achieve a processing 
time of less than 12 months for every one.
    But the reason I can not give you assurances is that in the 
first two months of October and November, we were below the 
goals that had been set for the 1.2 million. In December, we 
reached the goals, Mr. Chairman, which gave us all cause to 
believe that we were beginning to be on target. But in January 
and February, as I hope your staff has advised you, because we 
have tried to make sure that they have the information, we are 
now behind in the naturalization process by approximately 
25,000.
    Here is my analysis of why it happened. We know the 
history, and our first effort, after we discovered the process, 
and made an absolute commitment to zero tolerance for 
naturalization of anyone unqualified and took steps to develop 
a system that was based on sound principles of management, and 
provided the integrity necessary to do the job.
    KPMG, who did the quality assurance and reviewed and 
validated our integrity procedures, early on gave us a ``C.'' 
By October of 1998, they had given us an ``A.'' And that was 
our first goal, to make sure that the system was done the right 
way.
    There apparently have been systems problems in implementing 
the Claims IV system. We have now identified one jurisdiction, 
the largest in Los Angeles, that has worked out the issues with 
respect to the processes and the systems problems that exist, 
and we are now trying to share that in the other five major 
cities.
    I think the other problem is--and it is not an 
explanation--but I think people are having problems 
understanding how to operate a de-centralized system. And this 
is something that I think is an issue that INS has got to face 
on a regular basis.
    We also had problems recruiting and retaining temporary and 
term employees during this period of strong economic growth. We 
have now taken steps to convert the term employees so we can 
attract people who will stay, so we will not see the high 
turnover.
    Our benefits systems branch is providing training and 
problem resolution support for field offices on the computer 
systems problems. Backlog reduction experts are working with 
key cities in implementing efficient production management 
techniques. Quality and production standards are being 
incorporated into the performance work. Additional managers are 
being assigned to field offices. We are developing a request to 
convert 300 term adjudication officer positions to permanent 
positions.
    Mr. Rogers. Will INS be able to process applications for 
naturalization, no matter where they file them in the U.S., 
within 12 months?
    Attorney General Reno. I do not think that by the end of 
this fiscal year they will have achieved that, Mr. Chairman. 
They have concluded--they understood that it would be an 
average. I do not think that they will meet a goal of 12 months 
or less.
    I have asked and expect a suggestion as to what they 
realistically can do. And as soon as I have that, I will share 
it with you.

                               detention

    Mr. Rogers. You know, it is just broken promise after 
broken promise with INS. They promised us, when we gave them 
the money, that they would cut the case load--that they would 
process a million and-a-half applications a year. They can not 
do that now.
    They promised us they would cut the application processing 
time down to 12 months. Now that is by the boards. They have 
still got the money. They just will not live up to their 
promises.
    Let me ask you about detention. And what I am doing here, I 
am asking you a series of questions about problems within INS 
for a purpose.
    Now, detention--INS has asked for $80 million in emergency 
supplemental funding for 3,000 additional beds to detain 
criminal aliens from Central America, and illegal aliens from 
Central America.
    If we do not provide the funds, criminal aliens could be 
released into the community while awaiting deportation, and 
waves of new illegal aliens may reach our southwest border on 
the hopes of being released, for lack of detention space.
    The need for emergency detention space is, in large part, a 
direct result of INS' failure to plan for and request, in a 
timely fashion, sufficient detention space to meet its 
statutory requirements. And it represents the latest in the 
long and continuing series of mismanagement failures by the 
INS.
    In spite of having two years to prepare for the mandatory 
detention of criminal aliens--criminal aliens--INS failed to 
request the necessary funds to prevent criminal aliens from 
being released into our communities.
    This is not the first time that INS has failed to request 
sufficient detention space to house criminal and illegal 
aliens. In fiscal year 1997, Congress provided program 
increases of over $114 million--$70 million over what was 
requested--for detention, due to the then shortage of space, 
which resulted in INS releasing criminal and illegal aliens.
    In fiscal year 1998, we provided over $178 million for 
detention and related costs, including construction funds for 
expanding INS detention facilities, the full amount that the 
Administration requested for such costs.
    In fiscal year 1999, the first year that the mandatory 
criminal alien detention rules became fully effective, the INS 
request fell far short of its needs for immediate space.
    Madam Attorney General, knowing that INS did not have 
enough detention space to detain all the criminal aliens 
required by law, why did they not request funds for contract 
space earlier?
    Attorney General Reno. I think one of the major reasons is 
that INS was hoping that the TPCR would be extended, and then 
informally approached the Immigration Subcommittee to seek the 
extension. These discussions were ultimately unsuccessful.
    I think it, in retrospect, was a mistake not to include a 
request for additional detention resources in fiscal year 1999, 
and much the same can be said of the request for fiscal year 
2000. In hindsight, both budgets should have included requests 
for much greater detention resources.
    Mr. Rogers. INS knew they did not have the space. What 
happened? Why are we, once again--every year, we are called 
upon to bail out some massive mistake that the INS has made, in 
spite of the fact that you have told us now for, I think, four 
or five years running, that you are going to personally oversee 
the problems at the INS? Help me out.
    Attorney General Reno. I think that INS, again is--I think 
I described to you what happened. I would like to work with you 
to address the projected shortfall to that end.
    I have written to OMB Director Lew to develop a 
comprehensive solution to the problem. It is uncertain what the 
funding implications are for fiscal year 2000, because we are 
working on a comprehensive package.
    But among the options I want to explore with OMB and the 
Congress are, in addition to the funding and legislative 
amendments, to restore some measure of discretion to release 
lawful, permanent residents who do not present a danger to the 
country.
    Somebody who has been here for 30 years as a lawful, 
permanent resident, and had a burglary conviction when he first 
got here, and has his family and everyone here, and is 
established in business, I don't think should be detained. But 
that is a small number, relatively speaking.
    We need to take further steps to improve the management of 
detention resources, including improvements to INS efforts to 
expeditiously identify and remove criminal aliens from Federal, 
State and local prisons. We will need to work together on 
amendments to the Fiscal Year 2000 budget.

                    disciplinary action of ins staff

    Mr. Rogers. No matter how many problems or catastrophes INS 
has, and there have been tons, no one is ever held accountable 
over there.
    After the Citizenship USA catastrophe, absolutely one of 
the lowest points in American history, in my opinion, selling 
of American citizenship, and then the deception--deliberate 
deception--by INS agents of a congressional task force, during 
a visit to Miami, we gave you, in 1998 and 1999, the direction 
and authority ``to impose disciplinary action, including 
termination of employment, for any employee of the INS who 
violates policy set forth by the Department, relative to the 
granting of citizenship, or who willfully deceives the Congress 
or Department leadership on any matter.'' And we directed you 
to take appropriate disciplinary action.
    How many INS employees have been disciplined or fired as a 
result of what happened and the authority we gave you?
    Attorney General Reno. First of all, let me clarify 
something. You spoke of the situation in Miami. That occurred 
before Citizenship USA. And as you know, the Department took 
firm action.
    As I suggested to you in previous years, I look forward to 
working with you in reviewing the processes and procedures of 
the Merit Systems Protection Board to ensure that these 
disciplinary actions are properly processed. With respect to 
this issue, no one has been fired. The Inspector General is 
reviewing the issue.
    However, I can tell you that in fiscal year 1999, the 
following actions were taken. Three district directors received 
letters of concern and strong management counseling from the 
Executive Associate Commissioner, the field operations relating 
to their respective district's performance under the KPMG audit 
of naturalization quality procedures. One regional director 
received a letter of concern and management counseling. The 
head of a district sub-office was reassigned to lesser duties, 
after it was determined that performance in adjudication 
processing was subpar. Three large districts' project managers 
for naturalization had been superimposed over the current 
management structure, in order to focus attention of needed 
production management.
    Mr. Rogers. Well, I am sure they are all quaking in their 
boots, now that they have gotten a letter saying, do not ever 
do that again.
    You have the authority to override the Merit Systems 
Protection Board in this specific matter. Here we had evidence 
of the selling of American citizenship. We had deliberate lying 
to the U.S. Congress. And no one has been punished.
    Attorney General Reno. Are you referring, by the lying to 
the United States Congress, to the issue that arose in Miami?
    Mr. Rogers. I am.
    Attorney General Reno. I will be happy to review that with 
you, to the extent that the matter is not subject to the 
Privacy Act, and show you, Mr. Chairman, exactly what was done, 
the steps that were taken, and what the result has been.
    I am unaware of any authority I have to overrule the Board. 
But I would like very much to sit down with you, because this 
is the second year in a row that we have discussed this. It is 
as frustrating for me as it is for you.
    With respect to the second matter, if I can find, or if the 
Inspector General, at the conclusion of the investigation, 
gives me anyone who has sold citizenships, I will pursue them 
as vigorously as I possibly can.
    Mr. Rogers. You are the prosecutor. When you were a 
prosecutor in Miami, and when I was a prosecutor in Kentucky, 
no one had to ask me to prosecute somebody when I found 
evidence of committing a murder, or robbing a bank, or 
something. That is your job.
    And, we have got tons, wheelbarrels full of evidence of 
crimes in the INS that are just going unpunished.
    Attorney General Reno. I will be happy to sit down with you 
and review the wheelbarrow full of evidence that you have, and 
tell you exactly what steps we have taken.
    Mr. Rogers. I do not have it. You have it. I do not want 
it. It is your job to prosecute. It is your job to oversee.
    Attorney General Reno. I will be happy to----
    Mr. Rogers. In this agency, it seems like they have a badge 
of innocence that no one can penetrate. I do not know what it 
is about the INS that carries, it seems like, a shield around 
them, that no one can penetrate, even the Attorney General.
    Attorney General Reno. Let me go back over it again, Mr. 
Chairman, so there is no doubt about it.
    The Miami situation, which you lump with Citizenship USA, 
arose some time before. The act that you referred to had not 
come into effect. The INS and the Justice Department took 
action.
    Mr. Rogers. You wrote some letters.
    Attorney General Reno. No, sir, we did not write some 
letters.
    Mr. Rogers. Transfers.
    Attorney General Reno. We have been through it before. We 
disciplined people, demoted people, terminated one person, as I 
recall. We went through this at this last hearing, where you 
were so emphatic, and I would like to be as emphatic back.
    Now the process through the Merit Systems Protection Board 
did not sustain those issues. I would like to really sit down 
and go over it with you, so we can see what can be done.
    Now with respect to the Citizenship USA matter, the 
Inspector General is reviewing and investigating. You, as a 
prosecutor, know that the prosecutor does not go out and file 
the charges before the investigator has completed the work.
    We are determined to pursue any wrongdoing here. I am the 
one that is ultimately responsible for it. I am going to be 
responsible to you.
    Mr. Rogers. There has been nothing done about Citizenship 
USA.
    Attorney General Reno. The Inspector General is completing 
his investigation.
    Mr. Rogers. It is not the Inspector General's purpose to 
prosecute. It is the Attorney General.
    Attorney General Reno. I cannot prosecute until the 
investigation is complete and I have the evidence, Mr. 
Chairman, and you know that.
    If your sheriff in Kentucky had said, I have not finished 
my investigation, and you went out and filed charges without 
the investigation being complete, you would not think much of 
what you had done.
    Mr. Rogers. But you are not relying on the Inspector 
General to furnish you evidence of the crimes or other 
misdoings in the Citizenship USA matter, are you?
    Attorney General Reno. I have asked the Inspector General 
to review all of this, and to develop any evidence that he can.
    Mr. Rogers. Is he the only person looking into this?
    Attorney General Reno. No, he has a considerable staff that 
is looking into it.
    Mr. Rogers. But who else is looking into it?
    Attorney General Reno. The Inspector General is looking 
into it.
    Mr. Rogers. Is that the only agency that is investigating 
Citizenship USA?
    Attorney General Reno. It is usual practice in the 
Department of Justice for the Inspector General to review 
matters that relate to misconduct on the part of INS. And the 
Inspector General is doing it.
    And I will be happy to keep you advised, consistent with 
what I can release, about the steps that are being taken.

                              ins problems

    Mr. Rogers. I would like to share with you a list of INS 
shortcomings, failures, even negligence:
    Failure to include in the fiscal year 2000 request one 
single Border Patrol agent, in spite of an authorization for 
1,000; failure to plan for adequate and immediate detention 
space, putting Congress in the position of either granting an 
emergency supplemental request or releasing criminal aliens 
back onto our streets, and then blaming the Appropriations 
Committee for inadequate funding in testimony before the House 
Judiciary Committee on the subject, when INS failed to request 
adequate funds for four years, 1997 through 1999, and now 2000; 
failure to get the Institutional Removal Program running 
effectively, to swiftly but fairly remove criminal aliens, with 
the benefit of saving detention space, costs, and money; 
requesting funds for interior enforcement in 1999, without a 
strategy, and producing a strategy nine months late; 
Citizenship USA, whereby criminals were naturalized by 
sidestepping or ignoring FBI criminal background checks; 
representation to Congress, the press, and the American people 
that naturalization application processing times would decrease 
to 12 months by the end of Fiscal Year 1999, as a result of new 
resources, and then not abiding by that promise; an over two 
million application backlog in benefits, other than 
naturalization, primarily because INS is placing most of its 
service resources into making the naturalization process work, 
and still falling short; serious financial management problems; 
audits in 1997 and 1998, which state that INS does not have 
sufficient internal controls to ensure that accounting records 
and relevant documentation support balances in their financial 
statements; an outside organization report in 1999, which gives 
INS a ``D'' in financial management; a $300 million shortfall 
in base fiscal year 1999 funds; an apparent failure to manage 
its automation program, evidenced by a March 1998 Inspector 
General report, which has predicted unnecessary cost increases; 
failure to meet even an extension in deadlines for reports 
requested by this Committee; misrepresentation of the fiscal 
year 2000 budget to the Congress, the press, and the public by 
stating that INS was proposing additional funds for 
naturalization backlogs and improvements, when it was not 
proposing any additional funds; refusal to postpone a press 
conference, so that Members could be given adequate notice that 
they were about to receive new INS resources in their 
districts; the release of Committee reports by a high-ranking 
INS official to the public over the express objection of this 
Committee--even the Commissioner was aware of that request not 
to release those reports; and finally, no accountability for 
any of those problems.
    Madam Attorney General, what will you do about the INS, an 
out-of-control agency that we have discussed now for these many 
years? The problem just gets worse and worse and worse. And I 
am at the end of my rope.
    Attorney General Reno. As I told you at the outset, and you 
said it was a fairly good beginning, there are problems that we 
have; that are my problems, that I am responsible for, that I 
wish I could get solved faster than I have.
    But you have given us a litany of the wrongs. I would like 
to tell you why it is a better agency, and what we can do to 
make it an even better agency.
    When I took office and went to the border, people came 
across the border with impunity. There was, in effect, no 
Border Patrol capable of even beginning to stem the tide. They 
did not have the equipment, the technology, or even the 
beginnings of sophisticated automation. They had papers stacked 
in boxes and no plans.
    After that, almost immediately came the Peso crisis. Now we 
see a fragile economy throughout the hemisphere. We see one of 
the worst hurricanes of this century, and the impact it has 
had.
    But nonetheless, we have an enhanced control of the border. 
We have doubled the size of the Border Patrol. We have provided 
an effort focused on alien smuggling, which has now become the 
concern of everyone, whether it be along the southwest border, 
or along the Florida Straits. INS announced in November the 
dismantling of the largest, most sophisticated alien smuggling 
operation in U.S. history. Some three weeks later, it announced 
another example of what it was doing to interrupt this 
trafficking in human misery.
    In addition, they had to be responsible for becoming 
lifesavers along the border. As they increased their number 
along the border, they became ever more responsible for dealing 
with the drug traffickers.
    At the same time, when I first went to the border, there 
were lines everywhere. INS, working with Customs, has now 
streamlined many of the ports of entry, and will continue to do 
more along the border. In technology and in efforts at the 
airports, 97 percent of the time INS is completing its check 
within the 45 minutes that Congress mandated.
    In asylum, when I took office, the enforcement of the 
asylum laws made a mockery of our immigration laws. Now, we 
have confidence in the system. Petitions numbered 124,000 when 
I took office. They number 35,000 now. There were new laws to 
deal with that were massive in implication: the 1996 Act and 
the Welfare Reform Act.
    With regard to naturalization, Mr. Chairman, INS inherited 
a system that was slap-dash, that had processes that were 
archaic. They have reformed that system and developed a zero 
tolerance for mistakes and a system that ensures the integrity 
of the system, and it does not rely just on itself to say so. 
It has gone to KPMG to make sure that we see results and that 
when we check, we can be sure that these results are validated.
    In 1998, they naturalized some 610,000 people. In 1999, in 
the first four months, they naturalized 307,481 people. Yes, 
Mr. Chairman, it is too slow. But considering all that this 
agency has had to deal with, where it began, and the 
responsibilities that continue to be placed upon it, in many 
instances through forces that INS has no control over, they 
have done, I think, not a job I would like to see them do, but 
a job that indicates that they can solve problems, just not 
fast enough.
    They are one of the fastest-growing agencies in government. 
Their numbers have increased from 18,000 to 32,000 employees 
since I took office. As you know, managing growth, along with 
managing the other issues that they have faced, is a very 
daunting task. What we are going to do is continue to address 
the detention issue closely.
    I would like to work with you on the issue and get that 
addressed. One of the things that I have asked Commissioner 
Meissner to do is to talk with the Director of the Bureau of 
Prisons to see if we can identify somebody who is an expert in 
detention who can deal with some of the issues that we are 
confronting in the detention process.
    I have directed steps be taken to immediately speed up the 
process with respect to the Institutional Hearing Program, and 
to reach out to the State Department to ensure that we have 
appropriate papers and that we address the issue of necessary 
travel documents. I have discovered that one of the causes for 
people not immediately being sent back to the country of origin 
is the lack of necessary travel documents. These are some of 
the steps that we are taking in that regard.
    With respect to Border Patrol, let me take issue with you 
there. It was not negligence. It was not sloppiness. It was not 
malice or evilness or badness or dumbness that made the 
Commissioner and myself determine that we should not ask for 
additional Border Patrol agents in this budget. It was 
representation by law enforcement officials over a long period 
of time who said that when 30 percent of the people in a police 
force have limited experience, you are beginning to run a risk. 
We now have about 40 percent or more of the people in INS who 
have three years experience or less on the Border Patrol. That 
creates a situation that police chiefs will tell you is not in 
the interest of the organization.
    We made this budget request based on the desire to make 
sure that these agents were assimilated with appropriate field-
training officers with enough experience who could guide them 
as they came to the field. We wanted to make sure that we had 
technology in place that maximized their use in every way 
possible. This was a conscious decision. You may disagree with 
it, but please do not ascribe bad motives to it.

                           restructuring ins

    Mr. Rogers. I would not do that. I do not think I have. If 
I have, I withdraw that. But what I am saying to you is that 
this is an agency that cannot handle the problems it is charged 
with handling as presently organized. Money is not the answer. 
We have proved that. We have thrown money at INS that they 
cannot spend. This is evidence of that.
    We have given them huge budget increases. We have 
quadrupled this agency's budget in a short span of time. It is 
an agency that is not organized properly. I do not know what 
the problem is with changing it around. It needs to be 
reorganized and streamlined, it seems to me, and a lot of other 
people, including Barbara Jordan's Commission, which 
recommended that the agency be reorganized to get away from 
this inherent conflict in its missions--at once punishing 
immigrants and also granting them their rights.
    It is an inherent problem in the makeup of that agency. You 
and I have talked about this at great length. In fact, there is 
one recommendation of your Department that the INS be 
reorganized in a certain fashion, and I agreed with a lot of 
that, but I did not think it went quite far enough.
    Do not you agree that there should be some degree of 
reorganization of this agency to try to accommodate the huge 
problems that they are faced with?
    Attorney General Reno. We have been working on 
restructuring issues, and we would like very much to work with 
you to address these problems. I do not agree necessarily with 
your suggestion that there is an inherent conflict between the 
two missions. I think they go together, and I think it is 
important that we work together to address them. You may not 
think we go far enough, but we, I think, can both work together 
in a spirit of cooperation. I pledge to you to do that.
    Mr. Rogers. I thank you. My frustration with INS continues. 
I have to tell you, it is the most frustrating agency of all 
the ones that we deal with, and we deal with many, from the 
Supreme Court to the embassy in Moscow.
    Attorney General Reno. It is the most frustrating problem 
that I deal with.
    Mr. Rogers. And, well, I am glad to hear that. I mean, it 
is good news, and it is bad news.
    Attorney General Reno. Mr. Chairman, the most important 
thing that we can do right now, and I would like to make a plea 
for it; we have got to make sure we can restructure, and we 
will work with you in every way that we can. There are so many 
dedicated people in that agency that do a tremendous job for 
the American people.
    Mr. Rogers. I agree.
    Attorney General Reno. We have got to make sure that when 
they hear us talking, they know that we are supporting them 
when they do their job. I know you feel that way, but it is an 
agency that picks up the paper, and goes, oh, my goodness. I 
want them to know that they do a great job, those Border Patrol 
agents, the inspectors, the investigators, the detention 
people. They make me very proud, and we have got to give them 
not just money, as you point out, but a structure and a 
function that can enable them to do their jobs.
    Mr. Rogers. You and I are in perfect agreement on your last 
statement. You have got some wonderful, dedicated people out 
there trying their best to give the American people good 
service. But you and I have got to give them an agency that is 
structured in a way that does not cause them to fail, and I 
think that is what is happening. Those dedicated people are 
being let down by you and me because we are not organizing this 
agency to accommodate their talents.
    Attorney General Reno. Well, I look forward to working with 
you to do it.
    Mr. Rogers. It has been a long time.
    Attorney General Reno. Well, sometimes things take a long 
time, Mr. Chairman. But this has taken longer than I would 
like. But every time I think that we have turned the corner, 
there is a new crisis, or a new hurricane, or a new something 
that is impacting the agency. So, we just take it from one day 
to the next and keep trying to build something that will have 
lasting effectiveness.
    Mr. Rogers. Could we set a timeline for restructuring? Can 
you and I agree on some timeline, any timeline, for 
reorganizing this agency to some degree. I think we both know 
where the major problems are.
    Attorney General Reno. Here is what I would like to do, 
because I said that we could agree on it. I am sure that we 
could agree on an ultimate timeline. Rather than make a blithe 
promise, could Mr. Colgate and I come see you and talk to you, 
at your convenience, about how we would work together on this 
issue?
    Mr. Rogers. Would you charge him with the responsibility of 
making this reorganization take place? He would love that.
    Attorney General Reno. Yes, but he might not like all that 
you want done. We have got to work together. I have an open 
mind and a commitment to trying to build something that you 
will have confidence in, that will serve the purposes of INS 
and that will give the people, who are doing such a wonderful 
job for this country, the knowledge that they have the most 
efficient way of doing it.
    Mr. Rogers. Well, I am at the end of my rope.
    Attorney General Reno. Do not give up yet, Mr. Chairman.
    Mr. Rogers. Well, I am just about ready to. In fact, I have 
been wanting to abolish this agency now for a year or two.
    Attorney General Reno. I know.
    Mr. Rogers. I think we are not serving the American people, 
and we are wasting and spoiling the work of the people in the 
INS, those talented people, because the structure is so 
botched. It is built for the 18th century, and we are into 
almost the 21st now. And I think you and I are going to suffer 
in history because we did not do anything about it.
    Attorney General Reno. I am going to get in my truck and 
drive off and not worry about what history thinks of me.
    Mr. Rogers. Okay. Will you help me out, then?
    Attorney General Reno. I just want to try to do my job now, 
Mr. Chairman, and I am going to try to do my best. That 
includes trying to do everything I can to work with you to 
address this problem.
    Mr. Rogers. Mr. Latham has not had a chance, I do not 
think, have you? I am sorry. Mr. Serrano has not had a 
question. I am sorry. Mr. Serrano.

                   additional comments on immigration

    Mr. Serrano. That is okay, Mr. Chairman. It is that kind of 
a day.
    Let me first apologize for the scheduling today, which both 
parties are probably somewhat responsible for.
    Attorney General Reno. Please do not worry about that. I 
just have to tell you, I do not see how you all do it; go home, 
run for office every two years, go back and forth, handle a 
budget that staggers the imagination and keep up with the 
votes.
    Mr. Serrano. Thank you.
    Attorney General Reno. I'm proud to be a part of a 
government that has people willing to do that.
    Mr. Serrano. And somehow manage to make baseball and soccer 
games, too.
    You know, one of the difficulties in this kind of a 
relationship is that you make a new friend. Mr. Rogers and I 
have quickly struck a bond here that I think will work well, 
but we also, because we come from two different political 
philosophies, at times we do what many human beings do and look 
at things differently.
    I think when Mr. Rogers shows his frustration some of it is 
well based. Some of it is the aftermath of a very important 
turning point, I think that took place here a few years ago. We 
see on TV, and we read in the newspapers about the meanness in 
American politics. That seems to be the subject. I think that 
meanness, in all honesty, started when some people went to the 
House floor and made targets of immigrants and began hitting 
immigrants really hard. And I think that that created a feeling 
then that the agency that was in charge of dealing with these 
immigrants was a bad agency.
    Now, had you been present, and I was not, at the 11 o'clock 
Congressional Hispanic Caucus meeting this morning, I am sure 
if INS had come up, the issues would have been totally 
different from the ones we have discussed here, and most of 
them probably not favorable to INS. But we do understand two 
things, that they have a lot of good people--this has been said 
here--who are trying to do a very difficult job, and that you 
have made a gigantic effort to try to get this agency under 
control and to help them out in dealing with the issues.
    And so, in my district office you will hear the complaint 
that I am waiting too long to become a citizen, and I have done 
everything the right way, and in another district office in a 
different part of the country you might hear that INS is 
allowing all of these people to come into the country and 
nothing is being done. It is the same agency, and you wonder 
how could they be accused of doing all of these different 
things at the same time.
    Now, you will hear people throughout these debates talk, 
for instance, about the Border Patrol. But some of those folks 
were the same ones, and not the Chairman--I never heard him say 
it--who wanted the Army at the border, which is another issue 
altogether.
    And so all that is to say that I know, and I think a lot of 
people know, the effort that you have undertaken. I know that I 
will try to work very closely with the Chairman to make sure 
that the concerns we both have about INS are dealt with and 
that we can begin to solve some of these problems. But we do 
have to be careful, as you have said, that we do not send the 
wrong message to the people who day after day do this kind of 
work.
    And I am careful, incidentally, in moving on to another 
subject, to ask questions that deal with things that you have 
undertaken or are intending to undertake. I respect the work 
you do, and I respect the office that you represent. With that 
in mind, let me publicly thank the Department of Justice for 
joining EPA in my congressional district in undertaking the 
first ever environmental civil rights investigation in New York 
State.
    I think that will set a tone for behavior in this country. 
The question is, why did my congressional district get singled 
out for 73 waste-transfer stations in an area with two schools 
and the Hunts Point Produce Market, which handles 80 percent of 
fruits and vegetables throughout the Northeast. And I want to 
thank you for that.
    On the other hand, I do have a question. And let me quickly 
preface my question, Madam Attorney General, by saying, that I 
realize that my role here, especially this new role I have, is 
to look at all the issues, national and international, that all 
of our agencies deal with, and I try to do that. But you happen 
to be involved, or could be involved, in some issues that 
affect a lot of people in this country. One of them, which has 
gotten national attention happened just a few blocks from where 
I live and where I have been all my life.

                 ``PATTERN OR PRACTICE'' INVESTIGATION

    And as you know, on February 4, 1999, an unarmed West-
African immigrant with no criminal record was killed during the 
morning hours by four New York City police officers who fired 
41 shots at him in the doorway of his Bronx apartment building. 
It is unclear why the police officers opened fire. The man, 
Amadou Diallo, 22 years old, is a gentleman who came here to 
America more than two years ago from Guinea and worked as a 
street peddler in Manhattan. Diallo died at the scene. The 
Bronx District Attorney's Office is investigating the shooting, 
the details of which are still murky.
    Now, I have been in constant contact with the Civil Rights 
Division of the Department of Justice, and I have requested 
that an investigation of ``pattern or practice'' of the New 
York City Police Department be made public and broader in its 
scope. And I would like in a few seconds for you to comment, if 
you can, on my request that that investigation be a public one 
so that the public will feel good about it.
    And let me tell you where I think I can single out the 
difference between the relationship between the police and the 
people in New York City today and how it used to be in the 
past. I grew up in a Puerto Rican and African-American 
community, and if there was one thing about the police 
department you always knew, it was that you had a few young 
people complaining about the police, and then all of the older 
Hispanic and Blacks telling the younger people they are here to 
help us. They are our friends. You guys have to stop doing 
this, stop picketing, stop complaining. They are our friends.
    Now, Madam Attorney General, when I go to a street 
demonstration, or when I see a rally in my district in New York 
City, it is senior citizens, Blacks and Hispanics, on the 
picket lines and the demonstration lines saying, we do not feel 
safe, we do not feel safe for our children, and we do not feel 
safe for our grandchildren.
    If that does not worry people in this country and in that 
city, I do not know what should. When you begin to lose the 
respect and the support of the very people who have supported 
you throughout history, you have got a problem. It is in some 
ways, similiar to the situation that happened in China where, 
the Chinese people always saw the army as their strongest 
supporter, and when the army took to street the against the 
people, something broke that will never be the same.
    The people in New York City, the older folks, the ones who 
are retired, the ones who used to support the police, are 
asking for help, and we need your help. We need you to do what 
you do best, which is to come in and take a look, take a 
serious look and find out, indeed, if there is a pattern of 
abuse.
    Let me just close with this. We know crime numbers are down 
throughout the country. We even had some people suggest in the 
city that the war against crime is like any other war, that 
there are innocent casualties. But that is not the sense of the 
people that I represent. The sense is that there is no respect 
any longer, and they ask do you feel more threatened at times 
by the police than you do by the local mugger?
    You know how to deal with the local mugger. You really do. 
You know what street to stay away from, what corner. It sounds 
terrible that you have to do that in this society, but you know 
how to do that. I can show you how to avoid trouble in the 
South Bronx, but I cannot show you how to avoid trouble from 
the police. And I would hope you would comment on whether this 
investigation will be made public and what the extent will be 
of your Department in bringing about justice, because everybody 
is waiting.
    Attorney General Reno. Mr. Serrano, I just appreciate your 
comments very, very much, and I can assure you that we are 
actively investigating the Diallo case. On the criminal side, 
the FBI opened an investigation into this shooting the day 
after it occurred. The FBI, the U.S. Attorney for the Southern 
District of New York, and the Civil Rights Division have been 
working closely and actively with the Bronx District Attorney's 
Office on the investigation.
    We are not just monitoring this case while the district 
attorney handles the investigation. Mary Jo White, the U.S. 
Attorney of the Southern District, is personally involved in 
supervising the federal role in the investigation.
    We take the matter of police misconduct very seriously. 
When these incidents occur, the entire community, as you point 
out, are the victims. Since 1993, we have prosecuted over 300 
law enforcement officers who have engaged in misconduct, 
resulting in over 200 convictions. Since 1994, we also have the 
authority to file civil suits against police departments that 
engage in patterns or practices of police misconduct.
    These investigations can result in court orders or 
settlements requiring police departments to change the way they 
operate so the problems of the past are not repeated in the 
future. We have used this authority effectively in addressing 
systemic problems. We reached consent decrees with two police 
departments, Pittsburgh, and Steubenville, Ohio, and we have 
several other pattern-and-practice investigations under way.
    After the incident involving the beating of Adler Louima, 
the United States Attorney for the Eastern District of New 
York, Zachary Carter, began a preliminary inquiry to determine 
whether the Department should invoke its pattern-of-practice 
authority against the New York Police Department. This inquiry 
is ongoing, and the Department is now coordinating its efforts 
with the Civil Rights Division, the two United States 
Attorneys' Offices for the Eastern District and the Southern 
District, to examine other aspects of the New York Police 
Department in light of the issues raised by the Diallo 
shooting.
    Also, as you probably know, the U.S. Civil Rights 
Commission press reports indicate it will hold a hearing 
concerning police practices in New York City and will also 
undertake a review in other cities.
    I think that the issue you raise is one that is critical to 
this country--how we reduce crime and make people feel safe 
while at the same time having confidence in their police. I 
think one of the most gratifying things that I have seen is 
that because of community policing, because of police officers 
who made that elderly lady feel safe enough to come out from 
behind her door and go to the local community center and voice 
her opinion, because of the efforts of community police 
officers who become the mentor rather than the enemy of the 
young people in their neighborhood, we have seen a new attitude 
about policing in many communities across this nation. I think 
that it has not only helped, but this attitude has helped 
reduce crime because people want to help their police officers.
    To that end, we had a program last year, approximately six 
months ago, as I recall, where the National Institute of 
Justice and our COPS Office held a conference on police 
integrity and the use of force. I think we can do so much, in 
addition to our enforcement responsibilities in terms of 
training and encouraging and recruiting people into policing 
who see it for the remarkable role that it can be, not just of 
a sword or a shield, but also of the peacemaker and the problem 
solver in the community.

                           COMMUNITY POLICING

    Mr. Serrano. Thank you. One of my concerns, you know, is 
what happens when one of these issues comes forth, and it is 
been happening too often in New York recently. Right away 
people speak about a residency requirement, to have police 
officers live in the city, or changing the 48-hour rule which 
says that a police officer involved in a shooting does not have 
to speak to anyone for 48 hours, which always gives the 
impression that somehow the story is being ironed out for the 
press and for the investigation.
    But, you know, I am wondering if your Department, in its 
oversight and investigations in the future, can begin to deal 
with suggestions to the New York City Department on how to 
prepare its officers, because I have a feeling that the answer 
may not be residency, although it is tied to where you come 
from to be a police officer. I really think that one of the 
major problems is the following, and in all honesty, not too 
many people are paying attention to this.
    Most of the police officers in New York City, according to 
statistics, are young people who come from the suburbs of New 
York. And I have to say this very carefully, Madam Attorney 
General, but I think it is a reality of life. If you grow up 
white, in a middle-class neighborhood, in a suburban 
neighborhood, chances are you might hear some people in your 
neighborhood speak about other groups as either being anything 
from lazy to criminal, from violent to scary.
    And I wonder if you grow up that way if there is any way 
before you become a police officer and are given a gun and X 
amount of rounds, bullets, a way to find out if you fear these 
folks that you are going to police.
    Now, that may not sound dramatic to some people, but I 
think at the heart of the problem in New York City is 
individuals who have no knowledge of the people they are 
policing and who, from the time they look at them, fear them. 
And so if you fear, you may reach for the equalizer, which is 
your weapon, when the weapon should be the last thing you use.
    And I am suggesting that maybe in the conversations, in the 
investigations and the consent decrees and whatever, is a 
suggestion to New York City--You know, there are some people--I 
could not be a police officer. That is why I admire 98 percent 
of police officers in New York City because I could not do that 
job. But if you fear people, if you have a preconceived feeling 
that these people are going to hurt you the minute you look at 
them, you should not be allowed to be a police officer. If you 
hate children, you should not be a teacher.
    Attorney General Reno. I think these are the issues that 
are addressed in pattern-and-practice investigations relying on 
people who have expertise in the area, and I will share your 
thoughts when I return to the Department of Justice.
    I think being a police officer is probably the single most 
difficult job I know to do. You have got to make legal 
decisions without going to law school. You have got to make 
medical decisions without going to medical school. You have got 
to quell an angry crowd. You have got to solve crimes, protect 
the communities, build trust. But there are an awful lot of 
great policemen and policewomen, and we have got to make sure 
that they are surrounded by others.
    Mr. Serrano. And let me close by saying that it is for 
their protection, too, that we make sure that we do not allow 
other people to misbehave.
    Attorney General Reno. I have already told the Chairman, I 
think he does a good job. I think you do a good job, too, no 
matter what you say.
    Mr. Serrano. Thank you.
    Mr. Latham. Thank you very much. I hope after I am done you 
will say the same thing about me. Thank you.
    Attorney General Reno. Yes.

                    competition in the pork industry

    Mr. Latham. The reason I am staying around, I know we have 
a markup at 1 o'clock and have to get done, and I want to 
submit some questions for the record later, but as you may be 
aware of and may be not, in the Midwest in agriculture we have 
tremendous problems today. We had a situation in the livestock, 
particularly in pork in December where prices went to historic 
lows.
    And I have had 25 town meetings since the first of the 
year, and the thing that I hear all the time is that if, in 
fact, the Justice Department were doing its job, they would be 
looking at the issue of the packer concentration, the lack of 
competition, problems with contracts that are questionable to a 
lot of producers right now. And I guess I understand you have 
got--you know, the Department monitors the meat-packing 
industry, and you have got some attorneys and economists that 
focus your attention on the industry. I just wonder, has the 
Grain Inspection, Packers and Stockyards Administration 
referred any matters to you as far as competition?
    Attorney General Reno. I am not sure whether they have 
referred any matter formally. Obviously, this matter has come 
to our attention, and we have focused on it. The Antitrust 
Division has spent lot of time trying to determine whether it 
has authority in this area.
    What I would like to do, if I may, is, since I have not had 
a chance to talk directly to Joel Klein, the head of the 
Division, is talk with him. Then if it would be okay with you, 
call you and go over it in detail so that we give you not just 
talking points, but something where I have really had a chance 
to talk with Joel and give you the best opinion we can. Because 
apparently, from what I see, there is concern that there is not 
Antitrust authority, because there is not a restraint of trade. 
Let me go over it with him, understand what the situation is, 
and make sure we give you the best opinion we can.
    Mr. Latham. I would suggest that the vast majority of 
producers out there would disagree, and you are probably well 
aware of the reason of the collapse of the market was because 
of the over 80 percent of the hogs are captive on contract to 
packers, and the capacity was not there. The ones with the 
contract have the ticket in the door. The rest of them, if they 
cannot be killed when they are ready, they are not worth 
anything, and that is what happened.
    Attorney General Reno. I would like to make sure that we 
have the exact facts, and that I go over it and I understand 
it, so that when I come back to you, I give you both the 
informed and expert opinion of the Antitrust Division, plus my 
limited antitrust overlay of it.
    Mr. Latham. I just want to emphasize how important this is 
in agriculture today in the entire Midwest, and I think it begs 
a lot of questions. Vertical integration has been brought to my 
attention. You know, look at the track record in the Justice 
Department. All kinds of mergers and consolidations. Nothing 
seems to be beyond stopping, whether it is in the financial or 
the oil industry or grain or whatever, communications. But that 
is what I hear all the time.
    Attorney General Reno. Let me review it very, very 
carefully for you.
    Mr. Latham. Okay. The reason I stated it was to bring pork 
to your attention today.
    Attorney General Reno. Well, let me tell you why I have a 
particular sensitivity to it. We had cows, and we had a dairy 
down the street from us. It was profitable for the dairyman to 
sell me a small calf, and I would take it home and raise the 
calf and make some money on it. Then, the bottom dropped out of 
the calf market, and that was the most terrible day of my life, 
I thought, at that point. So from a very narrow, very limited 
point of view, I just remember the feeling, and I will pursue 
this as thoroughly as I can.
    Mr. Latham. And we have tens of thousands of pork producers 
in Iowa who are on the verge of going into bankruptcy and out 
of business, and it is a huge issue. Thank you, Mr. Chairman.
    [Clerk's note.--The following information was provided 
subsequent to the hearing:]

    At the Attorney General's appropriation hearing, Congressman Latham 
asked the Attorney General about the Justice Department's involvement 
in investigating the meat packing industry for possible antitrust 
violations, and whether the Department of Agriculture's Grain 
Inspection, Packers and Stockyards Administration (GIPSA) had referred 
matters to the Justice Department.
    Following the hearing, an attorney in the Antitrust Division 
contacted Congressman Latham's legislative assistant. After describing 
the Antitrust Division's enforcement authority and recent enforcement 
activity with respect to meat packing, the attorney sent the 
legislative assistant a copy of congressional testimony given by Deputy 
Assistant Attorney General David Turetsky, in June 1996 describing in 
more detail, in the context of the livestock and meat industry, the 
types of conduct that the antitrust laws prohibit. The attorney invited 
the legislative assistant to call back if there were further questions 
or concerns.
    In most respects, the Justice Department has the same antitrust 
enforcement authority in the livestock/meat packing sector as in other 
sectors. One exception is that the Capper-Volstead Act provides limited 
antitrust immunity for cooperative associations of agricultural 
producers, including livestock producers. The Department has conducted 
a number of investigations in the agricultural sector in recent years, 
leading to a number of enforcement actions, including the criminal 
prosecution of Archer Daniels Midland and others for fixing the price 
of the feed additive lysine, and the merger challenge resulting in the 
divestiture by Monsanto of certain corn seed biotechnology assets, 
among others.
    The Antitrust Division has a good working relationship with GIPSA; 
for example, an investigation conducted with GIPSA's assistance led to 
the criminal indictment of two cattle buyers in December 1997 for bid 
rigging.
    The antitrust laws prohibit specified kinds of conduct: collusion 
among two or more firms to restrain competition, exclusionary conduct 
on the part of a firm to acquire or maintain a monopoly, and anti-
competitive mergers. These are the kinds of activities against which 
the Antitrust Division has enforcement authority.
    The Antitrust Division has conducted extensive outreach in recent 
years in the livestock industry, and is familiar with the issues of 
concentration and vertical arrangements about which Congressman 
Latham's constituents and others have expressed concern. Neither 
concentration nor vertical contracting in and of themselves violate the 
antitrust laws. These factors can be important, however, in determining 
whether a proposed merger is likely to substantially lessen 
competition. These factors can also be a helpful backdrop, along with 
other market information, against which to assess allegations of 
collusion or monopolization.
    The Department opens antitrust investigations only when there is 
information giving a reasonable basis for believing there may be an 
antitrust violation. The Department is always on the lookout for such 
information, and asks anyone who believes they may have such 
information to contact the Antitrust Division.

    Mr. Rogers. Thank you. Who says this Committee does not 
deal in pork?

                        DEA Financial Management

    Madam Attorney General, as you know, this Committee has 
been very supportive of the DEA. In fact, we have provided 
enormous budget increases over the last three years for DEA, 
over and above your budget requests. But I am disturbed and 
appalled by the fact that, despite these efforts, DEA has not 
been spending their money the way we provided it.
    In fact, it is come to this Committee's attention that 
other than the last two years the DEA has shifted over $200 
million within its budget without any notification, not to 
mention approval, from this Committee, which has jurisdiction 
over those changes, changes which would be subject to approval 
by this Subcommittee. What do you have to say about that?
    Attorney General Reno. Well, I was as upset as you were 
when I first learned of it. I tried to figure out how we would 
not have found out about it. Apparently, it was a practice that 
had been engaged in for some time. And I wondered, since we 
provide for financial audits each year, why we had not picked 
it up. As soon as we picked it up, we advised the Committee and 
advised the Senate as well.
    One of the things that I am exploring with Mr. Colgate now, 
having realized that the audit cannot catch it, is whether 
there is some programmatic procedure or audit that we can use 
to address the problem? I would like to come back to you on 
that. We are looking at the implementation of a connection of a 
financial management system that provides control and would 
review the programs, as well as the expenditures.
    We have contracted with Price Waterhouse Cooper to review 
DEA's centralized payment process. The January 1999 report 
acknowledges the work DEA has done in an internal control and 
makes recommendations for further improvement. We are looking 
at the allocation of resources to make sure that they have the 
financial capability of doing it.
    The other thing, Mr. Chairman, I asked Mr. Colgate: how do 
we know that the others are not doing it as well? We need to 
take steps to make sure that they are not. I am going to have a 
meeting of component heads, law enforcement component heads, to 
make sure that we address the issues, that we address a number 
of issues, with respect to making sure that we have properly 
supervised this.
    Mr. Rogers. Well, I wish it were just an accounting glitch, 
but it is not. I mean, you have got some officials over there 
that cannot even tell you where $30 million went, for example. 
But there seems to be a pattern. In 1997, they shifted around 
$68 million without notifying us or getting our approval. In 
1998, they shifted $124 million without notifying us or getting 
our approval.
    We only discovered it when they confessed about it at the 
end of 1998. But the pattern seems to be they are taking money 
from the foreign program, large amounts of monies, the very 
areas that the Congress provided additional money for over the 
request, for the foreign operations. But they are shifting that 
money back into management and administration--headquarters--
and domestic programs and task forces, which need money, but 
these are the monies that we wanted to go to foreign 
operations.
    And this seems to fit the disturbing policy of the 
Administration to withdraw from the international drug war to 
concentrate everything here, which we, the Congress, have 
disagreed with. So we put additional monies into the foreign 
program. We also gave you all of the monies you asked for and 
more for domestic operations. But we also believe the foreign 
operations of DEA are terribly important, we put extra monies 
in for that, too. Now that money is being siphoned back away 
from that very purpose. We will not stand for that. This is not 
an accounting glitch or some small error. This is a policy 
shift of $200 million contrary to the Congress's desire, and we 
want it stopped.
    Attorney General Reno. Well, I want it stopped, too. Let me 
explain, because I am delighted to hear you talk about the 
international consequences.
    I sometimes worry when I deal with some Members of Congress 
that they do not understand or appreciate our concentration 
around the world in terms of effective efforts in law 
enforcement, prosecution, money laundering, and other 
initiatives. I have recently had the opportunity to visit in 
Bogota and in Lima to see the DEA in action in both cities, in 
both countries, and to see the respect and regard that law 
enforcement in those countries have for DEA and for the agents. 
So let me second your motion.
    [Clerks note.--Subsequent to the hearing, the following 
information was provided:]
                     DEA Foreign Program Allocation
    Thanks to the efforts of this committee, Drug Enforcement 
Administration (DEA) has received many new agents for its foreign 
offices in the past few years. DEA is grateful for these increases, and 
has placed priority on allocating positions and filling vacancies.
    As of April 1999, DEA had 61 more agents on board in the Source 
Countries of Bolivia, Burma, Colombia, Mexico, Peru, Thailand, and 
Pakistan than it had in 1996. To address the specific concerns about 
Bolivia and Colombia, I can provide you with the following: (1) in 
Bolivia, there were 40 agents on board, an increase of 13 over 1996 and 
(2) in Colombia, there were 38 agents on board, an increase of 21 over 
1996.
    I don't know why you are hearing information that differs from what 
I have been provided. We will follow up on this to resolve the 
discrepancy and to reassure you that these resources have been 
allocated and deployed as I have described.
    As of April 1999, the total allocation of agents for the 7 Source 
Countries was 208. On board, also as of February 1999, was 183. 
Therefore, there were 25 vacancies, which means that 88 percent of the 
agents allocated were at post. A total 17 agents have been selected to 
fill these vacancies, 5 are awaiting transfer documents, 8 are in 
language training, and 4 are awaiting medical clearances.

    Mr. Rogers. So will you get to the bottom of it and let us 
know what happened, get the money back and stop it in the 
future?
    Attorney General Reno. I cannot tell you that I can stop 
everything, but I am going to do everything I know how to do to 
stop it in the future.
    Mr. Rogers. Do you want us to do it, or do you want to do 
it?
    Attorney General Reno. Well, we are not all going to be 
around for ever and ever and ever, Mr. Chairman, so I cannot 
give you the total future. I can give you what I am here to do 
and the steps that I am taking. Now, with respect to finding 
the money, I think, and I will ask Ms. McAuliffe to work with 
you all to make sure that we have identified it, know where it 
is and know where the people are.
    I am told that the agents are not in all of the countries 
and not in all the numbers identified by Congress. There has 
been an allocation of the agents, and we will make sure that 
you have the full information, that we get to the bottom of it, 
and that you are satisfied that we have done everything that we 
can.
    Mr. Rogers. All right. I want to know where every dollar 
that we allocated was shifted to go where it should not have 
gone. I want to know why it was shifted, that it is back in its 
place, and who caused that shift.
    [Clerk's note.--Subsequent to the hearing the following 
information was provided:]
                           DEA Reprogramming
    DEA is working hand-in-hand with staff from the Department of 
Justice (DOJ) and the Office of Management and Budget (OMB) to provide 
the House Appropriations Committee with the following:
    A complete accounting of all unreported reprogramming activity that 
occurred in Fiscal Years (FY) 1996-1998.
    A full explanation of how this unreported movement of funds 
occurred.
    DEA's plan to rectify the situation through significant changes in 
management oversight, procedures and policies. Once these procedures 
are in place, DEA is confident that all reprogramming activity will be 
fully reported to Congress.
    DEA will submit a revised FY 2000 base budget for Congressional 
review. This new budget will be thoroughly reviewed by DOJ and OMB 
staff. Any and all changes that take place as a result of this base 
`scrub' will be fully documented to ensure congressional understanding 
of any changes implemented by DEA to better manage and track its 
resources by program.
    DEA and DOJ are in active communication with House Appropriations 
Committee staff on this project and will provide supplemental 
information to this report upon request. This report is scheduled to be 
provided to Congress in May, 1999.

    Attorney General Reno. Yes, sir.
    Mr. Rogers. And when can I have that report?
    Attorney General Reno. Within 30 days, Mr. Colgate says.
    Mr. Rogers. And I want names, addresses, and telephone 
numbers.
    Attorney General Reno. To the extent that I can under the 
law, I will give you what I can.
    Mr. Rogers. And I want the assurance that if they do this 
again, that it will not be fun.
    Attorney General Reno. That it will not be fun?
    Mr. Rogers. Any fun.
    Attorney General Reno. It will not be any fun if they do it 
again, but I think I could say something firmer.
    Mr. Rogers. Well, we will not stand in your way.
    Attorney General Reno. Thank you.
    Mr. Rogers. We are going to get you out of here very soon.
    Attorney General Reno. I am fine.
    Mr. Rogers. I know we are going over.
    Attorney General Reno. I do not mind at all.

                       ojp grant program requests

    Mr. Rogers. I apologize for keeping you here beyond the 
appointed hour, but we will be as brief as we can.
    Now, not only does the Administration's budget request once 
again propose to eliminate the Local Law Enforcement Block 
Grant--you zeroed that out--and the Juvenile Accountability 
Block Grant, zero. But most surprising is that you are asking 
us to eliminate the State prison grant program as well. Now, I 
am curious. Is this something OMB did, or is this something 
that you did?
    Attorney General Reno. Well, I did ask to fund the Local 
Law Enforcement Block Grant, the State prison grant program, 
and the Byrne grant program. I did not ask for the Juvenile 
Justice Block Grant program.
    Mr. Rogers. But OMB said no.
    Attorney General Reno. Yes.
    Mr. Rogers. Well, have those programs been so unsuccessful 
that they warrant elimination?
    Attorney General Reno. First of all, with respect to the 
Byrne grant, we did not ask for the 1999 level. It has been 
successful, and it will continue to be successful. But, Mr. 
Chairman, you are in the same situation that I am in. You were 
a local prosecutor. You understand that local prosecutors and 
local law enforcement are on the front line. You also 
understand that they need certain independence.
    We made a decision when we took office that crime was of 
such magnitude in the United States that we had to forge strong 
partnerships, and we had to provide some assistance to 
communities to give them the chances Congressman Serrano has 
pointed out: to build trust, to get people out from behind 
their doors, and to get communities working again.
    Because of your efforts, this Subcommittee's efforts, the 
Administration's efforts, and a lot of dedicated people around 
this country, crime is down six years in a row. Juvenile crime 
is now down three years in a row. When we passed the Violent 
Crime Act, I think we realized that the amount of money spent 
for State and local law enforcement and corrections was not an 
unlimited pot. It could not go on forever and still forge the 
principles of federalism that we hold dear. At some point there 
would not be the necessity for it.
    We made a decision that with crime down so significantly, 
with our responsibility in terms of Federal prisons, we should 
put our money where our prime responsibility was and recognize 
that States had to be able to assume, on their own, the 
responsibilities for their correctional systems. At the same 
time, the Government would provide initiative monies that could 
help them forge new plans and new programs.
    That is what we have tried to do here; come up with a 
focused effort that supports community building and supports 
community self-sufficiency as effectively as possible.

                          cops budget request

    Mr. Rogers. And on the COPS program, how much was your 
request to OMB?
    Attorney General Reno. What I did with the COPS program, is 
ask for $697 million for programs that ended up under the 21st 
Century Community Policing Initiative. When it became clear 
that the Administration did not have enough discretionary 
budget authority under the caps to meet the resources, we sat 
down, and put our heads together to develop a responsible State 
and local financial assistance package, within the caps, that 
provides resources where we felt they were most needed.
    Mr. Rogers. Specifically, on COPS, how much did you ask 
just for the COPS program?
    Attorney General Reno. Approximately $300 million.
    Mr. Rogers. And OMB, I mean, the budget request we got says 
$1.3 billion. You only asked for $300 million.
    Attorney General Reno. You are talking just about the 
COPS--
    Mr. Rogers. Just about COPS.
    Attorney General Reno. The $300 million. What about 
technology? The $300 million was for COPS----
    Mr. Rogers. Right.
    Attorney General Reno. The $300 million was for COPS as we 
have known it, and then the balance of about $400 million was 
for technology.
    Mr. Rogers. OMB increased your request for the COPS program 
from $300 million to $1.3 billion. Correct?
    Attorney General Reno. Not to $1.3 billion. I did ask for 
$697 million, that was approximately $300 million for COPS for 
bodies and re-deployment, and the balance of about $397 million 
for technology.
    Mr. Chairman, what police agencies are telling me these 
days is what they need more than anything else is the capacity 
to develop the technology, understanding that they will not be 
dependent upon us forever, but rather, trying to develop a 
partnership. If there is technology that we can share, we want 
to try to do that. If we have an expensive piece of equipment 
that is necessary in terms of investigation of cybercrime, we 
want to be able to share that. In other instances, we have got 
to be able to develop the capability in local law enforcement.
    We also have to address the communication needs and the 
wireless needs of local law enforcement. So what we tried to do 
was to fashion, with OMB, a package that addressed local law 
enforcement needs.
    Mr. Rogers. Mr. Serrano, anything?
    Mr. Serrano. No.
    Mr. Rogers. I have some questions that I can submit for the 
record, I think----
    Attorney General Reno. Okay.
    Mr. Rogers. That could be answered as easily for the record 
without your testimony.
    Madam Attorney General, we especially thank you for staying 
late, but more importantly, we thank you for being here, and we 
thank you for your service to your country.
    You and I and all of us here, we will disagree on some 
things, but I do not disagree or take away from your intent, 
your motives, which I think are pure and patriotic, and I 
appreciate your sacrifice in serving your country.
    It is a sacrifice. You have made reference to our 
schedules, but I think we could also make reference to your 
schedule and the complexity of the issues that you are faced 
with, which are staggering to us and to everyone else.
    So we appreciate your service. We thank you for your 
testimony here today and for your presence and the followup 
information that we look forward to receiving.
    Attorney General Reno. Thank you, sir.
    Mr. Rogers. Thank you very much. The hearing is adjourned.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, March 17, 1999.

                    FEDERAL BUREAU OF INVESTIGATION

                                WITNESS

LOUIS J. FREEH, DIRECTOR, FEDERAL BUREAU OF INVESTIGATION;

                            Opening Remarks

    Mr. Rogers. The Committee will come to order.
    This morning we would like to welcome the Director of the 
FBI, Louis Freeh, appearing before the Committee on behalf of 
the FBI's budget request for fiscal year 2000.
    You are seeking $3.293 billion from this Committee for the 
FBI, which represents a net increase of $210 million, 7 percent 
over the total comparable amounts available to the FBI in 
fiscal year 1999.
    We have tried to respond to your resource needs so that the 
United States is better protected, better prepared to respond, 
and better informed on the threat of terrorism, violent crime 
and other violations of Federal criminal law. In the last four 
years, we have increased funding for the FBI by almost one-
third, including $700 million in new resources to assist you in 
responding to the increasing terrorist threats that we face 
both at home and abroad. The FBI's mission is to perform these 
responsibilities in a manner that is responsive to the needs of 
the public and is faithful to the Constitution of the United 
States.
    In 1999, law enforcement all over the country will have new 
tools to fight crime, as we will finally witness our large 
investments in IAFIS and NCIC 2000 come to completion. 
Investments in a new crime laboratory, DNA identification 
systems, command and control centers and training will also 
allow for a better response to the crime problems facing the 
nation.
    This will be an extremely difficult budget year for this 
Committee, and I guess all of the others. The FBI will be given 
no exception to having to justify every dime that it needs and 
to demonstrate to us that the additional resources will make a 
difference. Hopefully, this hearing will provide you one 
opportunity to do that today, and we appreciate your being 
here.

                        recognition of wade houk

    Before we proceed, Mr. Director, I would like to take a 
moment to inform the Committee about a tremendous loss this 
Subcommittee and the Bureau will soon face. As you know, 
Director Freeh, this will be the last appropriations hearing 
for your Assistant Director and Chief Financial Officer, Wade 
Houk, who is retiring next month after 33 years of service to 
this country.
    Wade has probably spent more time working on issues 
affecting this Subcommittee than any person that I know of, 
starting with the USIA in 1966, later moving to the Department 
of Justice, the Bureau of Prisons and, finally, for the last 
two years, at the Bureau. Wade has always been responsive and 
candid to this Committee, and in doing so, he has earned our 
trust and our high regard. He will be missed, but we wish him 
well in his new endeavors.
    Wade, thank you very much for your service.
    Mr. Houk. Thank you, Mr. Chairman. I appreciate that very 
much.
    Mr. Rogers. Mr. Serrano?
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Chairman, I also want to welcome the director to this 
hearing and thank all of the people that are here with him. I 
had the opportunity, for the first time, with the chairman to 
go to the FBI offices here in Washington last week. As you 
know, on many occasions I have introduced my political 
philosophy here by making the statement, ``I am a child of the 
sixties.'' So it was quite an experience for me to go to the 
FBI office. It was a great meeting, and I learned a lot, and I 
found out a lot about the FBI's needs.
    I am looking forward to the director's testimony and I 
thank him in advance for the service he renders our country and 
the service the whole Bureau renders our country.
    I look forward to this hearing today, Mr. Chairman.
    Mr. Rogers. Thank you.
    Director Freeh, if you would like to open with your 
comments summarizing your written statement, which we will make 
a part of the record.

                    FBI Director's Opening Statement

    Mr. Freeh. Thank you very much, Mr. Chairman and members of 
the Subcommittee. It is a pleasure to be before you again.
    Let me just add my thanks and appreciation to you, Mr. 
Chairman, and members of the Committee for outstanding support 
of public safety in the United States and national security, 
which is reflected in the budget history which you just 
recounted for us.
    The country, I believe, and the people that we protect are 
better today, because of the time, attention, care and 
resources that have been furnished not just at the FBI, but to 
all Federal, State and local law enforcement agencies.
    I also want to add my appreciation to Wade Houk for his 
tremendous service to the country, and only most recently to 
the FBI. I have not begun to deal with the issue of how I will 
replace him. He has been a tremendous asset to us. And the 
credibility that he has not just within the Bureau, but as you 
expressed very generously, with the Committee, has been a great 
asset for all of us.
    I thought I would just summarize, very briefly, my written 
testimony, and highlight some of the initiatives and planning 
that we have incorporated into our budget process and a few of 
the particular items which we feel are worthy of some attention 
and which, as always, this committee will carefully consider.

                       challenges facing the fbi

    We recently celebrated, as you know, the 90th anniversary 
of the FBI. I am a little bit past my midpoint in terms of my 
term of service, and I want to ensure that both the resources 
which we already have utilized, but more importantly, the 
planning, particularly in areas of infrastructure, technical 
ability and capabilities that will give us the ability to work 
in the next century. In a new environment and in a world where 
technology has impacted directly on what we do, which is the 
gathering, use, analysis and dissemination of information. I 
want to make sure that, as we enter the next century, the FBI 
and the American people have the tools to deal with this 
technology.
    With respect to some of the overall problems and 
transcending issues that we deal with, we see more and more now 
the integration of different programs represented in various 
initiatives by the FBI. For example, the Southwest Border 
initiative. It is a multi-agency counterdrug effort, 
principally led by the DEA, the FBI and Customs who are working 
better together than ever before in the history of those 
agencies--but it not only represents counterdrug programs, it 
represents white-collar crime programs, in terms of corruption.
    We deal not only with Mexican cartels, but with gangs in 
Logan Heights that work directly for some of those 
organizations. We deal with a broad array of different crime 
problems integrated into one large initiative, and that is 
becoming more and more the trend of enforcement activities.
    Another challenge, in terms of dealing with what we do, is 
the internationalization of crime, which continues on a rapid 
basis to change the way we investigate crime and also prevent 
crime, including terrorism. I think the example of the very 
tragic East-African bombings in August highlights not only the 
internationalization of what we do, but the necessity to plan 
and prepare for those types of incidents. So I want to 
particularly thank you, Mr. Chairman, and members of the 
Committee for preparing the FBI to deal with that situation as 
well as I believe we did.
    As I noted before to you, the first agents on the scene of 
those tragic bombings in both cities were newly established 
legats, FBI legal attaches, one from Cairo and one from 
Pretoria. Had they not been in their newly established legats 
it would have been perhaps a day, instead of hours, before they 
were at the crime scene and talking to the leadership of that 
country. As a result we were able to get two of these 
defendants brought back to the United States within 20 days of 
the bombing.
    Another broad challenge we need to continue to deal with is 
the demographics of our FBI workforce. Thirty-one percent of 
our Special Agents have under five years of service. This is a 
dramatic change over just the last few years. In 1995, for 
instance, 9 percent of our agents were GS-10--that is the entry 
grade level. Today, it is about 17 percent.
    On the other end, in terms of experience, in 1995, 74 
percent of our agents were GS-13s. That is the journeyperson 
position, or a senior investigator. Now it is down to about 61 
percent. The training, not just the basic training, but the in-
service training of these agents is a very important issue for 
us to deal with.
    The increasing pace of technology, as I mentioned, is 
presenting challenges to our very method of doing business; 
gathering information, analyzing it, and then disseminating it 
promptly and in a timely fashion, not just to FBI consumers, 
but to the other agencies who need information in that regard.
    The Title V exemption, which you granted us on a trial 
basis, has been very successful in helping us to meet that 
challenge. Some of the people who are being hired in the FBI 
are of extraordinary talents. We are hiring Ph.D.s in computer 
sciences and Ph.D.s who ran chemical programs in major private 
industry companies. They are coming into the FBI because of the 
flexibility and the expanded authority which that exemption has 
given us.
    With respect to our necessity to keep upgrading the science 
and capability of our laboratory, our National Infrastructure 
Protection Center dealing with cyber crime, these are very, 
very good investments and very successful initiatives.

                        fbi national priorities

    With respect to our strategic plan, we have identified a 
number of different national priorities. All of those 
priorities are predicated by our assertion and restatement of 
our FBI core values. Our FBI core values are not just 
highlighted by our 90th anniversary ceremony, but really in 
everything we do. They are an important part of our mission 
around which we want to assemble the tools and skills to 
perform it, and that is the obligation to rigorously obey our 
Constitution, to respect the dignity of those that we protect, 
compassion, fairness and uncompromising personal, as well as 
institutional, integrity. We feel that with all of the other 
changes going on, in terms of our mission, technology, 
demography, these essential core values have to be protected.
    Our three national priorities in our five-year strategic 
plan are: first, national and economic security; second, 
criminal enterprises and public integrity which affect not just 
institutions of Government, but the entire level of crime and 
safety in our country; and third, crimes with respect to 
individuals and property.
    Our five operational support strategies to perform these 
priority missions have to deal with intelligence, information 
technology; applied science and engineering; management; and 
assistance to our State, local and international partners--that 
latter strategy becoming more and more important not just in 
terms of the programs which you mentioned, Mr. Chairman, IAFIS, 
NCIC 2000, NICS, and our laboratory upgrading. We have become 
much more of a participant, and much more supportive of the 
State and local police communities and the integration between 
the FBI and that community, which represents 14,000 police 
chiefs around the country.
    I met yesterday in Alexandria with the IACP leadership, in 
terms of the State and provincial chiefs, which is the largest 
component of the IACP. The relationships and support between 
the FBI and those State and local chiefs has never been better. 
I was very proud to see them yesterday.

                         information collection

    Quickly, with respect to the overview of the 2000 budget, 
we have summarized exactly what it is that we have asked for. 
We have broken that down into a number of specific areas where 
we sought some increases. One has to do with the information, 
collection, and analysis of what FBI agents and support 
personnel do on a daily basis, which is acquire and access 
information and evidence. We have asked for 56 positions, $48.9 
million with respect to that.
    We are finding, as Assistant U.S. Attorneys around the 
country are finding, that as important as FBI special agents 
are to perform our work, the skilled analysis and collection of 
information by expert support personnel, which form the 
products that guide and direct our investigators, as well as 
solve cases, is a very, very important area and one where we 
need to strengthen ourselves.
    With respect to information sharing, we have highlighted 
this project as a five-year upgrade, with the basic ability to 
acquire information, understand it and then share it with our 
State and local partners, as well as FBI consumers.
    This initiative, which is broken down into three phases, is 
not the invention of new software and new systems. This is to 
put us in the same position as every major corporation in the 
United States where electronic management of information, its 
analysis and dissemination, can be done efficiently and 
according to the state of the current art, which we do not 
have.
    With respect to collection management, again, we have asked 
for some resources to give us information specialists in all of 
our 56 offices to help the information sharing initiative get 
online and become effective and efficient.
    With respect to investigative information services, we have 
asked for the continuation of support to use currently 
available and publicly available databases which help us 
conduct searches and collect law information in furtherance of 
our investigations.

                       technology and cyber crime

    In the area of technology and cyber crime, as you know, Mr. 
Chairman and other members of the Committee, for the last three 
years I have tried to highlight this particular program 
increase area. And the reason for that is, as we do enter the 
new century, we do need the basic tools of information 
technology to conduct our job. We deal with people sitting in 
Russia who use laptop computers to break into New York City 
banks and steal millions of dollars. We deal with pedophiles 
using Internet technology to come into someone's home and make 
an arrangement to meet a minor someplace, and with people who 
break into other information systems, sometimes Government, 
sometimes private.
    Criminals, are using computer technology and cyber tools to 
commit crimes such as extortion. There is also the potential 
for terrorism which this now brings to bear.
    So we have asked for continuing support to expand what we 
call our computer squads. We have, as you know, ten computer 
squads around the country now. We are asking to expand that and 
to procure equipment which will allow us to work in every 
division with computer tools that cross-cut throughout our 
programs.
    We, generally and historically, have built up our offices 
by program. We have a bank robbery squad, we have a terrorism 
squad. We are finding that we need an interdisciplinary squad 
with the computer tools to not just investigate computer crimes 
forensically, but to also detect and, in some cases, prevent 
crime. We also set up fire walls and work with industry, as we 
have been doing very actively, to ensure that private 
information systems are protected.
    And that takes us into the increase that we have asked for 
with respect to the National Infrastructure Protection Center 
which we stood up in the FBI several years ago. This is the 
center of learning, as well as operational tools and skills, 
that gives not just the FBI, but all of our Federal, and State 
and local partners the ability to investigate crimes in a cyber 
environment, to set up warning systems when it is necessary to 
disseminate information that is relevant to the protection of 
information systems, and to really be equipped to deal with 
what we believe is just now the tip of the iceberg.
    We think that in several years, and perhaps only a few 
years, the incidence of not just computer crime, but the 
necessity to use computer tools to investigate crimes, will 
grow astronomically. FBI agents who go out now and conduct 
searches come back more and more frequently with hard drives as 
opposed to boxes of records. And this is going to 
revolutionize, in many ways, the manner by which we conduct 
investigations, and use information and, of course, prevent 
crime in that particular environment.
    We have asked for, in that regard, continued and increased 
assistance for our Computer Analysis Response Teams. These are 
teams of FBI agents who are expert in the use of computers, 
forensic detection. We have approximately 2,600 exams which 
were conducted in 1998 relevant to computer investigations. We 
expect that to double in the year 2000. We have currently 95 
field agents on a part-time basis who conduct these exams and 
26 permanent positions in Headquarters. And we think that, 
again, this is an area of exponential growth that we need to be 
prepared for.
    We also render, with our CART teams, assistance to many 
State and local departments around the country who are faced 
with problems of investigative complexity involving computers. 
This is a technology that we want to share and tools that we 
want to make available to everyone.
    In that regard, we are setting up, with our State and local 
partners in San Diego, a forensic computer laboratory, which 
will be a pilot project for us. The notion there is to work 
directly with our State and local partners and make this a 
center of expertise and operational assistance to all of the 
State and local police departments in that area. We think we 
can do this around the country in a manner that will allow 
these tools to get directly to the State and local detective 
squads who need them, as much as we do, whether it is a 
kidnapping case or an extortion case or even a robbery case.
    With respect to technical support for investigations, we 
have asked for continued assistance in the control and lawful 
use of digital telecommunications interception technologies and 
the ability to continue to work in a digital world while still 
protecting all of the privacy values and constitutional 
protections which these techniques do not compromise. We are 
not asking for any expansion of our authority. Everything that 
we do in the area of interception will still be strictly 
limited, as it has always been, by court order. But we are 
looking for increased ability to work in a digital environment, 
where the switches are no longer at the end of a copper wire on 
a lug nut, but actually in software, which require new access 
and new tools. As I have said before, many times, Mr. Chairman, 
we certainly appreciate your leadership in this area going back 
several years now.
    In the area of digital communications and the enforcement 
of the 1994 CALEA statute, you have truly been a leader in 
terms of law enforcement concerns, balanced very properly 
against commercial and privacy concerns, and we thank you very 
much for that leadership.

                        law enforcement services

    With respect to law enforcement services, we have asked for 
some funding to put into place the Federal Criminal Offenders 
DNA database. The Congress has given us the authority in 
several categories with respect to collecting DNA samples from 
Federal-convicted prisoners. With respect to crimes against 
minors and violent sexual crimes, we want to get that sampling 
process underway. Some legislation will be needed to do that. 
But the funding that we ask for will stand up the Federal DNA 
database, which will then supplement what we have currently 
been operating for several years, under your authority, which 
is the CODIS system. CODIS allows State and local police 
departments, according to their own statutes, to submit DNA 
samples to a database which is then interfaced and usable for 
identification purposes. Many, many crimes have been solved, in 
particular, many violent sexual crimes have been solved by the 
use of CODIS. We believe, in many cases, crimes have been 
prevented and lives have been saved by this technology. So our 
increase, our request has to do now with the implementation of 
the Federal authority which the FBI has.

                             fbi laboratory

    With respect to our FBI laboratory, we are very proud of 
the accreditation which has been achieved since we last met. We 
are in the process now of finalizing the construction bids. We 
hope to do that in the next several weeks, and the laboratory 
should be open for business in 2001. This will be a state-of-
the-art laboratory, which will not only serve the FBI and other 
Federal agencies, but continue to serve all of our State and 
local partners around the country.
    We are constructing it, and formatting it as a teaching 
laboratory. So beyond forensic examinations, this will become a 
scientific center of excellence where we can teach and also 
conduct research and development, as so many new technologies 
are necessary to perform our job.

                national instant background check system

    With respect to the NICS System, the National Instant 
Criminal Background Check System, we are pleased with the 
success of that program as it has been operated since November 
30th out of our West Virginia CJIS Headquarters. We have done 
approximately two million background checks. Seventy-one 
percent of those were allowed to proceed within three minutes. 
We have probably disqualified over 22,000 people, most of whom 
were convicted felons. In some cases, people coming in 
purchasing these weapons have been identified quickly enough to 
be arrested, actually, in the store. We had an individual 
recently in West Virginia arrested by the West Virginia police. 
As he waited for his information to come back, the FBI examiner 
was able to determine an outstanding warrant for a gun charge 
in Indiana, and he was arrested as he was waiting in the store 
for his gun application to be approved.
    This is a program which, as you well know, needs to be 
funded in some manner if it is to continue. We understand the 
issues involved with respect to how that funding is achieved, 
but I do report to you that we believe the program has been 
successful and that the necessity to continue it in some 
fashion with respect to the funding is important.

                   departmental funding requirements

    Some other, just very briefly, departmental funding 
requests with which we are very interested, of course. The $15 
million request for additional reimbursements for CALEAs 
implementation is very, very essential and will build on the 
recent successes that we have achieved in our negotiations with 
the industry to finally implement, with some success, we 
believe, the 1994 statute.
    A request for narrowband communication resources, a lot of 
which, $32 million of the $45 million will have to do with the 
replacement of FBI radios which are obsolete. We have about 
23,000 radios which have to be replaced over the next few 
years, and a large portion of that appropriation would deal 
with that problem.
    We have asked for $45 million for State and local bomb 
technician equipment which, again, is part of the Department's 
request, but these monies, which will be disseminated by the 
FBI is also very essential, we believe.

                               danger pay

    And, finally, in terms of some legislative proposals, we 
have asked the Committee once again to consider giving me 
danger pay authority for our agents assigned overseas in high-
risk locations. The DEA agents have it. They have had it for 
years. It is appropriate, as far as I am concerned. The FBI 
agents who, in many cases, serve in the same office, do not 
have that, and we just ask you, once more, for your 
consideration of that and some other matters which I will not 
take your time to discuss right now.
    Again, thank you for the opportunity to present these 
matters to you, and thank you more importantly for the support 
that you have given to the FBI. I believe the country is better 
protected because of your leadership in that area.
    Thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                     chinese espionage allegations

    Mr. Rogers. Thank you, Mr. Director. Now, as you know, 
there has been a great deal of controversy and concern in these 
last few days here surrounding the recent revelations about 
Chinese espionage in the Department of Energy.
    According to the information that we have, to date, mostly 
from press accounts, it appears that U.S. national security 
interests may have been seriously compromised. Would you agree 
with that assessment?
    Mr. Freeh. That is the assessment that the President's 
national security adviser made over the weekend, and I believe 
that is accurate.
    Mr. Rogers. Do you believe that the Administration took 
swift and appropriate action when they were informed of the 
problems in the summer of 1997?
    Mr. Freeh. The problems go back, unfortunately, many, many 
years. In fact, back in 1988, the Congress, through Senator 
John Glenn, held some hearings before his committee that 
pointed out the serious deficiency with respect to security and 
the potential that that had on counterintelligence in the 
national laboratories.
    Since his hearings and report in 1988, there have been six 
others. The FBI did some of them, the Director of Central 
Intelligence did others. There have been GAO reports. So, 
unfortunately, this situation has been well documented for over 
ten years, and the changes, particularly the change with 
respect to the implementation of the new counterintelligence 
hierarchy at the Department of Energy, which was the result of 
an FBI recommendation in April of 1997, have now been put in 
place. It took some time to do that. But given the history of 
this problem, it was done, perhaps, after too long a period of 
exposure, but at least, finally, done after many, many years of 
criticism.
    Mr. Rogers. But an actual breach was discovered in 1997? Is 
that correct? It came to light, it came to your knowledge in 
April of 1997 or the summer of 1997?
    Mr. Freeh. Actually, a little bit before that.
    Mr. Rogers. But in 1997.
    Mr. Freeh. Yes. Certainly, by 1997 we were aware of this.
    Mr. Rogers. You became aware of it.
    Mr. Freeh. Yes.

            fbi recommendations to the department of energy

    Mr. Rogers. And then the FBI made, as you say, certain 
recommendations to the Department of Energy relative to 
security at the labs, correct?
    Mr. Freeh. That is correct.
    Mr. Rogers. Could you summarize what they were?
    Mr. Freeh. Yes. In April of 1997, we completed an 
assessment and reported not just to the Department of Energy, 
but also to the Senate Intelligence Committee who had asked for 
the report in the 1996 authorization language, a study on the 
counterintelligence vulnerability of the laboratories.
    Our findings were that there was no centralized 
counterintelligence structure; that the regional laboratories 
were performing counterintelligence on a contract basis and, in 
some cases, a sporadic basis; that there was no control over 
foreign visitors in the laboratory, and this was a situation 
which had been going on for many years, but also was one of 
great vulnerability. And we made very specific recommendations, 
16 of them, including for the establishment of a centralized 
counterintelligence office reporting directly to the Secretary, 
training, education, and checks in terms of backgrounds of 
visitors who come to the laboratory. Over 20,000 visitors come 
to the laboratories every year from foreign countries, many 
from threat countries. A whole series of other recommendations, 
including the necessity for resources to deal with that 
problem. It is a very comprehensive set of recommendations.
    Mr. Rogers. And what was Energy's response to your 
suggestion?
    Mr. Freeh. The response was the signing, in February of 
1998, of a Presidential Decision Directive, which incorporated 
those recommendations. I sent over to the Department of Energy 
one of my top counterintelligence officers, Ed Curran, who 
became, and now is, the director of counterintelligence at that 
department laboratory.

                      response to recommendations

    Mr. Rogers. When did they respond to you? Your 
recommendations were made in April of 1997, correct?
    Mr. Freeh. Yes, sir.
    Mr. Rogers. And when did they take action on your 
recommendations?
    Mr. Freeh. The directive was signed in February of 1998. It 
began to be implemented over the next 90 days.
    Mr. Rogers. That is almost a year after your 
recommendations, correct?
    Mr. Freeh. Yes, sir.
    Mr. Rogers. What happened during that period of time? You 
warned the Department of Energy, the Secretary of Energy, that 
there was a real problem there, correct?
    Mr. Freeh. That is correct.
    Mr. Rogers. And they did nothing about that for almost one 
whole year?
    Mr. Freeh. Well, I would not say they did nothing about it. 
What they had to do, in effect, was create a whole new 
structure that was created in a vacuum. It is like trying to 
turn a battleship 180 degrees.
    Mr. Rogers. But in the meantime, the exposure was laying 
there, was it not? The personnel that presumably were suspected 
were still on board, correct?
    Mr. Freeh. The overall exposure to the laboratories was 
extreme and continued after our report.
    Mr. Rogers. And continued for almost a year after you told 
them, ``You have got a hellacious problem there,'' correct?
    Mr. Freeh. It continued actually since 1988. I mean, it was 
a longstanding problem.
    Mr. Rogers. I know that. But when you informed them of the 
problem in April of 1997, they did nothing for almost one whole 
year knowing that they were exposed to serious deterioration of 
America's national interest, correct?
    Mr. Freeh. They did do some things in terms of implementing 
the presidential order, even before it was signed. Let me give 
you a couple of for instances. What they did in March of 1998, 
at the request of myself and George Tenet, was to bring in all 
of the laboratory directors, and we met with them at FBI 
Headquarters and basically presented to them the necessity, as 
well as the vulnerability, that the laboratories were absorbing 
because of a lack of a counterintelligence program.
    Mr. Curran, who was my deputy that I sent over there, was 
on station in early January. He started to organize a 
counterintelligence office. He started to centralize their 
investigations. He started to hire mostly former FBI agents as 
individual laboratory directors. They began to do some vetting 
and background checks. So they got underway. But as I said, it 
was like turning a big ship at high speed. The change of not 
just the structures, but the culture, a culture which is more 
of an academic culture than a security culture, had to be done 
and worked on very hard.
    Mr. Rogers. But when you informed them in April of 1997 of 
the problem, did you specifically tell them that they were 
exposed to an espionage matter that dealt with one of America's 
most valuable secrets, and that is how to miniaturize atomic 
weapons? Was that a part of what you warned them of?
    Mr. Freeh. Yes. The 1997 report, which I gave to the 
Secretary on April 7th, clearly described the specific, as well 
as the general and structural, counterintelligence 
vulnerability. We emphasized it was very high and had been 
continuing for a long period of time and had to be addressed 
forthwith.
    Mr. Rogers. But why would they wait almost a year to sign 
an order saying let us clean this up and stop the leaking of 
this most valuable information vital to our national security?
    Mr. Freeh. Well, I think they reacted to it, and perhaps 
they could have done it quicker. It is an area of extreme 
importance and vulnerability.
    Mr. Rogers. Do you believe that the DoE's delays further 
jeopardized our national security interests?
    Mr. Freeh. I cannot say that they did. I do not know of any 
specific cases in that interim which would have been----
    Mr. Rogers. But you cannot be sure. You cannot be sure it 
did not.
    Mr. Freeh. The vulnerability was as great in April of 1997 
as it had been for many years and as it continued to be until 
these changes were made. So this was a very bad situation.

                     adequacy of the fbi's response

    Mr. Rogers. I have to ask you this. There have been some 
questions raised about whether the FBI aggressively pursued the 
investigation into the Los Alamos matter. A March 6th story in 
the New York Times, in late 1996, DoE officials complained that 
``the Bureau had assigned few resources to the case.'' How do 
you respond to that?
    Mr. Freeh. We believe we pursued this case very efficiently 
and very aggressively. We began working on it with the 
Department of Energy in September of 1995. It was an area of 
extreme importance, as is reflected in the number of people who 
worked on it at Headquarters, in particular. We were asked to 
come into a case, just to give you the perspective, we were 
asked in 1995 to come into a case and investigate an incident 
that happened, they thought, between 1984 and 1988. There are 
no witnesses. There are no informants. There is nothing which 
gives us anything except an historical view of a case where 
somebody did not take something and leave their fingerprints on 
it. But in the field of things like computational fluid 
dynamics, some information had to be evaluated for whether it 
was transferred or not.
    So the difficulties of this case were great, compounded by 
a counterintelligence structure which did not work. So it was 
hard to find records of travel. It was hard to find records of 
assignments, in part, because of that problem. But I believe we 
worked on the case very hard given what we had and continue to 
work on it.
    Mr. Rogers. Now, what prompted you, in April of 1997, to 
say to DoE, ``You have got a problem. Here is what we suggest 
you do''? What prompted that?
    Mr. Freeh. It was the review of the history of the 
situation with respect to counterintelligence or the lack 
thereof in the laboratories. And we took our 1988 records, 
which were the records Senator John Glenn had during his 
hearings. There was a 1989 study that the FBI did, a 1990 
study, a 1992 study that we did. There were several GAO 
studies. Every study said exactly the same thing. There is an 
extreme counterintelligence deficiency. There is no control 
over the foreign visitors, and something has to be done. So 
this was something which became highlighted by the particular 
case that we were asked to investigate, but a situation which, 
nonetheless, was severe from its inception back in 1988.
    Mr. Rogers. Did your investigation and/or your report or 
your suggestions to DoE in April of 1997, did it deal with any 
specific individual employees or personnel?
    Mr. Freeh. No, not that report, sir.
    Mr. Rogers. Did a later one indicate individuals?
    Mr. Freeh. No, not in terms of a report. We have had 
discussions over the period of the investigation about 
particular individuals, but that was specific to the case we 
were looking at.
    Mr. Rogers. But all of those individuals that you may have 
mentioned to them continued to work there, did they not, or 
have access to the facility?
    Mr. Freeh. Some of them did, yes. In some cases, they did. 
In some cases, we asked that they remain in a particular 
position so we could conduct what was historical, but also a 
clandestine investigation, and that is a standard operating 
procedure.
    Mr. Rogers. But the gentleman who was fired only a few days 
ago, I do not recollect his name----
    Mr. Serrano. Mr. Lee.
    Mr. Rogers. Mr. Lee, he continued to work there all the 
while, did he not?
    Mr. Freeh. Yes. I would rather not talk about a specific 
case, at least in this forum. This is--I know everyone else 
has--in New York papers and all of the other papers--has done a 
summation of the evidence, or lack thereof, in the case. I 
cannot really do that. What I can tell you is that this is an 
active investigation. We have not made charges against anybody. 
So nobody should be accused of anything, certainly not by me in 
public. This is a very important case. It is a very difficult 
investigation not only given the time frame, but given the 
leaks and the publicity which it has received.
    I would be happy, in executive session, to go into 
specifics that I can go into on the case, but I would prefer 
not to do that here.
    Mr. Rogers. Well, I appreciate that. We do know this, 
though, from public accounts: The W-88 warhead, which this 
country spent decades and millions of dollars developing in our 
laboratories, which allows this country to be able to mount 
small atomic weapons atop rockets for delivery anywhere in the 
world, a secret that is of invaluable, incalculable importance 
to our national security, was leaked out of that laboratory. It 
was stolen, obviously, by the Chinese.
    And now they are able to use that knowledge, gained not by 
study, experience, and decades of time and millions of dollars 
of their own money, but by stealing it from us, from that 
laboratory. They are able to mount those warheads on top of 
rockets and deliver them to our shores, when before they could 
not. That is a serious matter, and it has been three years 
since the investigation at Los Alamos began. There have been no 
arrests, to my knowledge, only the firing or removal of one 
person from the premises out there. In the meantime, other 
people from other nations are swarming all over the secret 
documents and material at Los Alamos and other places.

               punishing individuals committing espionage

    I have to ask you what confidence does all of this give the 
American public that we have the ability to identify and punish 
people responsible for those types of very serious espionage, 
treasonous acts?
    Mr. Freeh. Well, I think there are two parts to that 
answer. One part is there is no more important priority, in 
terms of investigations, that we could conduct. And we do 
successfully deal with that problem.
    We convicted, in December of 1997, a scientist in another 
laboratory, the Lawrence Livermore laboratory, who actually had 
worked previously in Los Alamos. He was convicted of giving 
classified information to a foreign country. That was the 
result of a seven-year investigation by the FBI, which gives 
you some idea of the complexity.
    Again, it was an historical investigation, where we were 
asked to come in and look at something that had happened years 
before. We took seven years to conduct our investigation. We 
used all of our techniques. We finally successfully interviewed 
the individual and received the admissions from him, which 
formed the basis of his guilty plea.
    We can go back much further to other cases, even back to 
the Rosenberg case. We do treat these cases with enormous 
importance and priority. Some of them are solved. Some 
allegations are not solved. Some cases, because of the 
complexity or the lack of evidence or witnesses, become much 
more difficult. But there is no more important case for the FBI 
or for the Department of Justice or for the Congress to 
investigate.
    What we should not do is make--what I should not do, and I 
cannot do--is make conclusions about any particular case, 
particularly one that is under investigation. I am aware of all 
of the allegations with respect to this case. We are looking at 
them. We have been looking at them since 1995. We will take as 
long as necessary with whatever resources to resolve them. We 
will, hopefully, resolve them. But we have not made any 
conclusions, and we have not charged anybody in this particular 
matter, although we have in many others.
    Mr. Rogers. Mr. Serrano?

                 complexity of espionage investigations

    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Director, you have very clearly stated that a lot of 
these problems started in the nineteen eighties and that we 
know that there were, in fact, or we have been informed that 
there were, in fact, ongoing investigations all through this 
period of time. What we are reading about now is not 
necessarily something new. This problem has been around for a 
while.
    Is it not true that the FBI, while they had ongoing 
counterintelligence investigations at the time these reports 
were being developed, investigations may have been compromised 
if the process had been handled in a less careful matter. In 
other words, is it not true that part of what was going on was 
that we hear about people who were on the job and who stayed on 
the job, that those people might have been, at that time, 
targets of investigation, and removing them or suggesting that 
they be removed would have just compromised the whole 
investigation?
    Mr. Freeh. Well, that is correct. I mean, one of the 
essential ingredients to a successful counterintelligence 
investigation--because they are very hard to make historically. 
I mean, you can do them historically, but they are very hard. 
The way we solve most of these cases--and you can look at the 
Ames case or the Nicholson case, the Pitts case, who was an FBI 
agent--are usually solved by leaving the subject in place to 
commit acts of espionage or intelligence activities, that then 
become the basis for our proof.
    The historical cases are very hard. So Mr. Ames was left in 
place in a very a sensitive position at the CIA, as was Mr. 
Nicholson, and Mr. Pitts, less so, in the FBI. But in terms of 
an espionage investigation, probably the last thing I want to 
do initially is remove that person from where they are because 
it alerts them to the investigation and makes the case very 
difficult.
    But by the same token, that has got to be balanced against 
the potential damage to the national security. We would not 
leave someone there and investigate them if, on a daily basis, 
unbeknownst to us or undetected by us, but within our 
contemplation, they were sending top secret material to another 
country, and that was seriously damaging the national security. 
Then we would intervene and stop that case. And those are 
judgments that go case-by-case.
    But the classic mode of investigating one of these cases is 
to leave the subject in place and hope, through electronic 
surveillance, trash covers, bank account reviews, we find 
evidence of the espionage.
    Mr. Serrano. And that was what was going on. I am sure that 
it must be frustrating to the Bureau to know that this is the 
kind of information that never gets published. You know, the 
big question is always, ``Well, why wasn't that person let go 
immediately?''
    And it must be incredibly frustrating to you, sir, to know 
that this is the way you have to handle something. This is the 
way your predecessors handled it. And all of a sudden this 
becomes an issue, why are we leaving people in some places? 
Well, if we do not leave them there, we are not going to find 
out what they are doing, and we are not going to find who they 
are doing it with, or how extensive their behavior is. Am I 
correct?
    Mr. Freeh. You are absolutely correct, but it is a valid 
question to also ask is the risk of leaving the person in 
place, does that outweigh the value of making the case. Again, 
it is an individual decision on a case-by-case basis.
    Ames was left in place for about seven years. Many, many 
other cases people were left in place many, many years after 
the suspicions first arose.
    Mr. Serrano. There is also a lot of emphasis, and 
rightfully so, made on the facilities where supposedly the 
information was taken from. Without, obviously, and I do not 
have to preface my comments by telling you without telling me 
what you cannot tell me. You are not going to tell me what you 
cannot tell me anyway, but we will do one blanket, without 
telling me what you cannot tell me, for the day.
    My understanding of some of what has been rumored or even 
reported is that some of these contacts and some of this 
information was gathered outside those facilities in foreign 
countries. So it is not the fact that people were staying at 
these facilities, it was also the fact that people were 
available to go to other places. And couple that with the fact 
that, as you so aptly put it, it is an academic culture. I 
think what you called it, at Energy rather than a security 
culture, which obviously now is becoming both, and it has to 
be, so I guess it would be unfair to say that everything 
happened there. Some things happened elsewhere.
    Mr. Freeh. You are correct, and I could talk about the case 
that I referred to before, which was the December 1997 guilty 
plea of another scientist who admitted giving information to a 
foreign country. He did that, however, not by sneaking formulae 
out of the laboratory or using dead drops or meeting 
intelligence officers at the bus stop. He did that by going to 
that country and giving the information over in terms of 
discussions in the briefings.
    And that is one of the problems with these cases, not 
problems, but realities. Our classic espionage cases are set up 
to find the spy who is going to the dead drop, who is meeting 
the intelligence officer on the subway platform. That does not 
happen here. What happens here is someone has in their brain, 
and sometimes they have been the person who has invented it, a 
code or an algorithm or a dynamic protocol, which is the top 
secret information, per se. So they do not have to sneak a 
record out. They do not have to break into a vault. They do not 
have to go to a dead drop. They have to sit down at dinner with 
another scientist and have a discussion that, if I had an FBI 
agent sitting there, we would not know what they were talking 
about.
    So that is the kind of espionage that we are looking at, 
and it is very complex, which is why cases are long term. Some 
are made, some are not made, but we work as hard as we can to 
solve them.
    Mr. Serrano. Director, are you at liberty to tell me if 
this started in eighties. Have there been ongoing 
investigations since the eighties, when in the eighties, how 
far back?
    Mr. Freeh. In terms of the overall counterintelligence 
deficiencies in the national laboratories, as I mentioned, 
Senator Glenn first highlighted this, at least in terms of our 
search, in 1988. He had hearings. He wrote a report, and there 
were a series of other reports, six of them, between 1988 and 
1997--actually, our April 1997 report--where this was 
catalogued, this was described, this was laid out in very 
expansive fashion.
    So the problem, in terms of a problem, has been around for 
a long time. I am not saying that is good. I am saying the 
problem has been out there. It has not been addressed, and I 
believe it is addressed by the current structure which is at 
work in the Department of Energy.

                  Progress at the Department of Energy

    Mr. Serrano. Which leads me to this question: I know that--
we all know--that Secretary Richardson has been working with 
the FBI to put new security measures in place. Is the FBI 
satisfied with the progress and direction of the 
counterintelligence efforts being made at Energy?
    Mr. Freeh. Yes, I am very satisfied with it, and 
particularly with Secretary Richardson. I met with him, in 
fact, before he was sworn in. George Tenet and I met with him 
and told him about the seriousness of the problem. He 
immediately comprehended it, reacted to it, and has been very, 
very vigorous, extremely vigorous and efficient in getting the 
things done at the Department of Energy which need to be done, 
should have been done a while ago, and he has been an extremely 
aggressive leader.
    I think part of it is his own intelligence background, 
having served, I think, on one of the intelligence committees 
in the House. But he also has the will and the leadership to 
get that done. So I could not say more about his work in that 
regard. It has been very successful.
    Mr. Serrano. I have no further questions.
    Mr. Rogers. Correct me on this. The New York Times ran a 
story that says that the FBI investigation was stalled when, in 
September of 1997, there was a meeting between FBI and Energy 
Department officials and you concluded that the Bureau did not 
have enough evidence to arrest a suspect. The story goes on to 
say that even if the Bureau could not build a case, the Energy 
Department could still take some action against an individual 
holding a security clearance. The story also says that you told 
DoE officials that there was no longer an investigative reason 
to allow the suspect to remain in his sensitive position. Is 
that story generally accurate?
    Mr. Freeh. It is generally accurate. The meeting was 
actually in August of 1997. And what I presented, at that time, 
was--it is generally accurate.
    What I said to them is, look, we have an investigation with 
respect to a subject, which, of course, they were well aware 
of, and we were not in the position at that point to make an 
arrest. There was not sufficient evidence to make an arrest. 
And what I said to them is that case, in itself, although 
important, was not as important as the protection of the 
information that he might have access to and, more importantly, 
the need to address the larger institutional CI deficiencies in 
the laboratory. So what I said is forget about our case, take 
it off the table. If it is a question of protecting information 
or fixing the bigger problem, the case should be deferred to 
that larger concern. And that was my communication.
    Mr. Rogers. Did you tell them that there was no longer any 
investigative reason to allow that suspect to remain in his 
position?
    Mr. Freeh. I did not use those terms. But what I said to 
them is the case was not as important as what damage he may 
continue to do by accessing information, and they could forget 
about the case.
    Mr. Rogers. I see. And that was in August of 1997.
    Mr. Freeh. August 12th of 1997.
    Mr. Rogers. And that person remained in that sensitive 
position with a security clearance until a couple of weeks ago?
    Mr. Freeh. He was fired a week ago, yes, sir.
    Mr. Rogers. A week ago.
    Mr. Taylor?
    Mr. Taylor. Mr. Chairman.
    Mr. Director, how many agents, approximately, did you have 
in 1988 at the Bureau, do you know?
    Mr. Freeh. In 1988?
    Mr. Taylor. Yes.
    Mr. Freeh. I would have to get those for you.
    Mr. Taylor. Any idea?
    Mr. Freeh. I would say probably around 8- to 9,000.
    Mr. Taylor. And how about in 1997?
    Mr. Freeh. In 1997, closer to 10,000, maybe 10,500. I am 
just guessing.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted for the record:]

    In 1998, the FBI was authorized a total of 9,730 agent positions. 
For 1997, the FBI was authorized a total of 11,179 agent positions.

    Mr. Taylor. As I recall, as a member of this committee for 
five years, I think, Mr. Chairman, the President's first budget 
actually proposed to cut FBI agents, several hundred agents in 
that first budget.
    Could you answer another question for me? How long does it 
take for the employees in the White House to receive their 
background investigations for handling sensitive materials, for 
all of those people who handle our Nation's secrets to get 
clearance, investigated, that sort of thing?
    Mr. Freeh. I do not honestly know the answer to that. We do 
not do the backgrounds for the people in the White House, 
except the presidential appointees in some cases.
    Mr. Taylor. Is it not true that some employees never got 
them and some were employed for years before those types of 
efforts were allowed to be made at the instruction of the White 
House?
    Mr. Freeh. Again, I do not know. We never were involved in 
that.

                       ERIC Rudolph Investigation

    Mr. Taylor. As you know, I represent Western North 
Carolina, where Mr. Eric Rudolph is said to be located, I 
believe, by the FBI. How many agents do you have in the Andrews 
area, generally, can you say? There are ATF and FBI, and I know 
they are not all yours.
    Mr. Freeh. We do have, in addition, of course, to the FBI 
and ATF agents, we have some officers from the local sheriff's 
departments, we have some Georgia as well as Alabama officers 
who come there from time to time. I think it fluctuates between 
50 and 100 investigative agents, and there is other support 
personnel.
    Mr. Taylor. Approximately, then, the Federal agents, ATF 
and FBI, would be somewhere in the range of 100, more or less?
    Mr. Freeh. It would be less than 100, but over 50, I would 
expect.
    Mr. Taylor. And that has been since the beginning of 1998. 
We are going into our second year there. I would say, for 
myself and most of the people that I have talked with, 
certainly anyone who has committed the murder of an officer--
and I am not making any judgments because there has been no 
arrest and there is no trial--but that is a very serious crime 
and should be prosecuted.
    For the benefit of the chairman and others, the Andrews 
community is not much larger than the staff that the FBI 
brought here today. When you have that few people, you know, my 
office gets complaints about helicopters flying over the 
churches and so forth, and individuals being stopped by 
uniformed officers and that sort of thing. NAFTA has done a 
hard job out there, and they certainly appreciate the economic 
benefits of the FBI's presence, but they wondered how long the 
FBI is going to be there.
    There has not been any trace of Mr. Rudolph found, has 
there?
    Mr. Freeh. There has not been a live sighting since July of 
the year before. So you are right. It is a very good question. 
It is a very important case, as you mentioned. I cannot think 
of a more important case, and I am just looking here at the----
    Mr. Taylor. I can think of a more important one--we just 
talked about it--in New Mexico, I mean, a lot more important. 
But it is----
    Mr. Freeh. In terms of the criminal program that we have 
there.
    I am looking at an editorial in the Asheville Citizen 
Times, which I would be happy to give you. And what they say 
there, actually summing it up probably better than I could, is, 
``It can be said that if anything positive has emerged from the 
Rudolph search, it is while the man hunt has been going on, he 
has been unable to do an additional bombing.''
    We actually think that the pressure that we have maintained 
on him has prevented more bombings. This is clearly someone 
charged now in five different bombings who, over time, has 
evidenced the ability, as well as the will, to commit very 
destructive and life-threatening attacks.
    We are looking to modify those resources in some degree, in 
terms of downsizing. We have been very sensitive to the 
community. We work, as you probably have heard from your local 
sheriff and police chiefs, very carefully with them. We try to 
be as low profile as you can be conducting a search like this.
    The citizens of those communities, I will say, have been 
outstanding, in terms of their support and cooperation, in many 
cases. But we do feel that our presence there and the search 
has prevented him from committing additional crimes.
    Mr. Taylor. When was that Asheville editorial written?
    Mr. Freeh. I have got everything but the date on here. I am 
sorry. I will get you the date.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

    The Asheville Citizen Times editorial referred to by Director Freeh 
was published on January 31, 1999.

    Mr. Taylor. It has been several days ago. And yet this 
weekend there was a bombing of an abortion clinic in Asheville. 
And according to the press, the AP, says, ``The fugitive, Eric 
Rudolph, not ruled out as a suspect.'' Maybe he read that 
editorial, I do not know. Maybe they should not be writing the 
editorial. But this bombing was not as serious as some of the 
others. There was a limited amount of property and no 
individuals involved, and that is a blessing.
    Mr. Chairman, I will ask further questions later.
    Mr. Rogers. Mr. Dixon?

                responsibility for preventing espionage

    Mr. Dixon. Thank you very much, Mr. Chairman. I join in 
welcoming you, Director Freeh, to the committee. You may not 
know that the chairman and I are very good friends, and I 
admire your restraint and soft-peddling of your answers. So my 
questions to you may be repetitive of what the chairman talked 
about. I just would like you to yell them a little bit louder.
    There seems to be a focus in this dialogue on blame. Would 
you agree that ultimately the labs are responsible for what we 
believe has been an exchange of information with the Chinese?
    Mr. Freeh. They are initially responsible for protecting 
that information, yes, sir.
    Mr. Dixon. The problem, as described to me, and you may 
disagree, is that there has been a lack of strong 
counterintelligence programs at those labs; is that correct?
    Mr. Freeh. Yes, sir.
    Mr. Dixon. And that goes back to the beginning of those 
labs, reaching back as far as the Atomic Energy Commission; is 
that right?
    Mr. Freeh. I would agree with that.
    Mr. Dixon. And there have been reports by the Senate, by 
your agency, and by the GAO over an extended period of time 
about the inadequacy of the security of those labs. And when I 
say an extended period of time, it reaches back past the 
Clinton Administration and past the Bush Administration; is 
that correct?
    Mr. Freeh. That is correct. As I said, my own documentation 
goes back to 1988, but I have not done the research before 
that.
    Mr. Dixon. And this taking--or exchange--we are not sure 
whether there was a taking of some physical documents, or a 
transfer of some intellectual or scientific material that one 
may keep in his head; is that correct?
    Mr. Freeh. Our investigation is trying to answer that 
question.
    Mr. Dixon. And the best evidence is that it was taken, 
whatever it was, between 1984 and 1988.
    Mr. Freeh. That is the hypothesis, yes.
    Mr. Dixon. And it only came to the FBI's attention most 
recently in 1997.
    Mr. Freeh. 1995, yes, 1997.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

                             Clarification

    ``1995'' refers to the investigation initiated by the FBI 
in September 1995, of suspected national security violations at 
the Los Alamos National Laboratory. ``1997'' refers to the 
assessment of the Department of Energy's counterintelligence 
program that was issued by the FBI in April 1997, pursuant to a 
request from the Senate Select Committee on Intelligence.

    Mr. Dixon. Right.
    And it came to your attention through the Department of 
Energy, but indirectly from the Central Intelligence Agency, is 
that correct?
    Mr. Freeh. Yes, a combination of both sources.
    Mr. Dixon. Right.
    And thereafter an assessment was made by the FBI as to 
something that you were well aware of long before and that is 
the counterintelligence of the three labs?
    Mr. Freeh. In terms of the vulnerability, yes.
    Mr. Dixon. In terms of the vulnerability.
    Mr. Freeh. Yes. No, clearly.
    Mr. Dixon. Right. And then Secretary Pena began to 
implement some of the recommendations that you made to him, is 
that correct?
    Mr. Freeh. Yes, he surely did.
    Mr. Dixon. I assume one of the recommendations that you 
made was to put in place a counterintelligence person who was 
the top of the field and in this case, you cited Ed Curran, is 
that correct?
    Mr. Freeh. Yes, we did.
    Mr. Dixon. So, there has been, during this administration 
an effort to modify a program that had existed for years and 
basically the difficulty is that scientists are very reluctant 
to adhere to very rigid programs because of what is called some 
academic or scientific freedom, is that your understanding of 
it?
    Mr. Freeh. Yes, that is correct.
    Mr. Dixon. Now, is it true that over the period of your 
investigation that you have, in fact, applied to courts for 
additional techniques to follow-up on the investigation?
    Mr. Freeh. Yes, sir.
    Mr. Dixon. And that, in fact, the court----
    Mr. Freeh. Well, in terms of this specific investigation or 
all our investigations?
    Mr. Dixon. All of the investigations.
    Mr. Freeh. Yes. We frequently do that and receive orders 
from courts.
    Mr. Dixon. Right. And that, as you stated very softly, the 
problem is, in fact, that in the new world that 
counterintelligence programs are very difficult to investigate. 
And one of the reasons is because normally you are looking for 
some transfer of money or some motive that is tangible.
    Mr. Freeh. Yes. That is what I said. I did not mean to say 
it softly at all.
    Mr. Dixon. Right. But I just want to go over these things 
again.
    Mr. Freeh. No. As I said, we generally have looked for, in 
these cases as you well know from your experience, dead drops 
and bank accounts and travel and----
    Mr. Dixon. Right.
    Mr. Freeh [continuing]. And Intelligence Officers (IO's).
    Mr. Dixon. Bank accounts, some physical evidence or some 
record representing some physical evidence.
    Mr. Freeh. Those are our basic tools. Yes.
    Mr. Dixon. So, a combination of two things: The staleness 
of the case when you originally got it, and the fact that it 
probably did not follow that method of operation has made it 
very difficult for your agency to come to a conclusion, is that 
correct?
    Mr. Freeh. That is correct.
    Mr. Dixon. Thank you, Mr. Chairman.
    Mr. Rogers. I almost feel like objecting to the leading 
questions in here. [Laughter.]
    Mr. Dixon. I indicated, Mr. Chairman, that I wanted to 
amplify that but when you start by saying something about this 
administration, I think it is fair to lead the witness.
    Mr. Serrano. Do you know how it feels to sit between two 
prosecutors? [Laughter.]
    Mr. Rogers. I am not going to answer that.
    Mr. Latham.

                  Need For Security Conscious Culture

    Mr. Latham. I guess I have some concern. First of all, 
welcome, Mr. Director. But it would seem to me that maybe the 
Department of Energy is different but for anyone who is brought 
into that culture, security should be the first part of that 
culture.
    And you talked about being from academia or whatever, but 
in reality the Department of Defense also does a lot of 
research, and security is first. That is the culture. I mean is 
it a cultural problem at Energy or what? Has security never 
been a priority or what?
    Mr. Freeh. I would not say security has never been a 
priority but the culture has not been security conscious or 
certainly counterintelligence security conscious. I think part 
of that is because the laboratory directors who are under 
contract to the Secretary in turn subcontract with 
universities. Some of the scientists in these laboratories are 
not DOE employees, they are actually employees of universities, 
and in some cases, foreign nationals, who are resident in the 
laboratory but do not really work except by contract to the 
Department of Energy.
    There is a great deal of scientific benefit, I am told--I 
am not a scientist--that the laboratories obtain by having, as 
in 1996, 8,000 foreign visitors come into the laboratory and 
foreign national scientists residing in those laboratories.
    Conversely we have a lot of American scientists resident 
all over the world in other countries' national laboratories. 
So, there is some benefit to be taken out of that. But the 
answer to your question is, the culture as it has developed 
over the years has not been a security-conscious culture. It 
has not been a counterintelligence-aware culture. And that has 
been the greatest vulnerability in the laboratories.
    Mr. Latham. And they have been aware of the problem since 
at least 1988. I mean we are talking about research going back 
to the Second World War.
    Mr. Freeh. Yes. This was not a secret to anyone. This was 
not a newly discovered fact in 1996. No.

                         Bank Robberies In Iowa

    Mr. Latham. Incredible. To get more to issues, I guess, at 
home, in Iowa the FBI apparently saw a marked increase as far 
as bank robberies and the U.S. Attorney said they more than 
doubled. Can you give me any idea if there is anything special 
going on to address the problem? Is it related to drugs or what 
is happening?
    Mr. Freeh. There is a series of different initiatives 
around the State that I know you are aware of. Let me just 
highlight them for you.
    There is, for instance, a methamphetamine problem in terms 
of trafficking as well as some production which has resulted in 
the formation of a tri-State drug task force. DEA leads it. We 
are a participant on it, as well as some State and local police 
officers.
    We have in terms of our FBI programs, 24 cases being worked 
at this time in the organized crime and drug area, ten in the 
violent gang area, which is probably related to those cases. We 
have got task forces in Davenport, Cedar Rapids, Des Moines, 
Waterloo. We are not a participant in all of them but we do 
work on a few of them.
    As we have, unfortunately, in many States, particularly in 
the Midwest, a growing incidence of methamphetamine 
trafficking, and the appearance of drug traffickers who come 
from out of State to set up distribution networks which taxes 
any community but particularly a place like Sioux City that is 
not equipped for the interstate characteristics of this type of 
violation.

                        Indian Reservation Crime

    Mr. Latham. According to the Bureau, for the resident agent 
in Sioux City, the primary responsibilities are crimes 
associated with the Indian reservation. Can you tie anything at 
the reservations with meth or is there infiltration now in 
those areas? Why the concentration there?
    Mr. Freeh. Yes. With respect to, of course, the 
concentration of the Indian reservations in that State, as you 
know, is very, very high. Because we are the only law 
enforcement authority that has jurisdiction there, it is the 
number one focus. A lot of the crimes on the reservations are 
related to drugs, increasingly with respect to gangs, also, 
some of the other violent type offenses. So, it is an area 
where I guess you are seeing a little bit of everything 
including, although I do not have the numbers or the 
information, I will get that for you, probably also in the 
public corruption type of area.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]
                    Crime Problems in Northwest Iowa
    The FBI's Sioux City Resident Agency (RA) is staffed by three 
special agents and a secretary/typist. The Sioux City (RA) encompasses 
18 counties in northwest Iowa and 12 counties in northeast Nebraska, a 
territory comparable to the size of Vermont and New Hampshire combined. 
The population of the area covered by the Sioux City (RA) is about 
500,000.
    Sioux City (RA) considers its primary crime problems to be those 
associated with the Winnebago, Omaha and Santee Sioux Indian 
Reservations. Portions of the Winnebago and Omaha Reservations, which 
both contain gaming casinos, are located in Iowa. Crimes of violence 
and child physical/sexual abuse predominate, but arsons, thefts, 
embezzlements and casino-related crimes are common. Gangs on the 
reservations are growing in popularity. The Sioux City (RA) assigns one 
agent on a full-time basis to investigations of Indian Country crimes.
    Other investigative priorities of the Sioux City (RA) are Violent 
Crimes and White Collar Crimes.
    Violent Crimes cases in the Sioux City (RA) primarily involve bank 
robberies, extortions, and interstate-related theft matters. A recent 
significant Violent Crime case in Iowa involved the kidnap and murder 
of Gregory ``Sky'' Erickson in June 1997. After failing to pay a drug 
debt, Erickson, a 15-year-old, was kidnaped from an apartment in 
Spencer, Iowa, placed in the trunk of a car, beaten, and then driven 
into Minnesota where he was shot and killed. A multi-agency task force, 
including the FBI, charged 10 people with kidnaping. Nine individuals 
have been convicted, with three serving life terms.
    White Collar investigations in the Sioux City (RA) include 
financial institution fraud, public corruption and bankruptcy fraud. A 
recent joint investigation resulted in the conviction of Dan Tritle, 
the patriarch of a prominent Spirit Lake-area family, and several of 
his family members on charges related to a bank fraud scheme. This 
scheme included providing false documentation to banks and other 
investors, which led his cattle-feeding business to sustain losses of 
$2 million. Three banks suffered the bulk of this loss and one was 
forced into receivership. Seventy other businesses and individuals 
suffered losses as a result of dealing with Tritle.
    Drugs, particularly the trafficking of Mexican methamphetamine, is 
a growing problem in northwest Iowa, particularly in the Sioux City 
area. Drug investigations in this part of the territory are primarily 
handled by the Tri-State Drug Task Force, an eight-agency task force 
headed by Drug Enforcement Administration. While the Sioux City (RA) is 
not a regular participant in this task force, the office does regularly 
exchange intelligence with it and provides operational assistance when 
requested.

                      Southwest Border Initiative

    Mr. Latham. Over the past few years we have provided a lot 
of resources for the Southwest Border Initiative, and we talked 
about this last year a little bit, to investigate major drug 
organizations and public corruption along the U.S./Mexican 
border. You were talking about the problem in Iowa and there is 
a direct tie, pipeline up to our area.
    Can you give us an update as to what is happening with the 
initiative and maybe talk a little bit about cooperation with 
Mexico and your counterparts across the border?
    Mr. Freeh. The Southwest Border Initiative has been, at 
least as a United States operation, we think very successful. 
As I mentioned before, it is really a integration of agencies 
that historically have not worked to the degree of efficiency 
together as they have here; Customs particularly, DEA and the 
Federal Bureau of Investigation.
    We are spinning off many cases from the Southwest border 
strategy which is not localized to just the borders but we have 
spun off major drug investigations, including court authorized 
wire taps, into places like California and Chicago, even New 
York City and Florida.
    We have a very active and we think successful intelligence 
operation that gathers information from the Southwest Border 
Initiative and then formats it into actual cases being opened 
and targets being selected. Money laundering activities. And 
corruption activities along the border is one of the FBI's key 
roles in the initiative is to work corruption cases with 
respect to U.S. officials. So, we are very pleased with that.
    You know, the bilateral cooperation is an issue of great 
importance to us, as well as to the Mexicans. We work on more 
than one program with our counterparts there, including violent 
crime and fugitive cases, kidnapping cases, white collar cases 
and it is an area that certainly needs a lot more attention and 
development.

                     Motivation In Espionage Cases

    Mr. Latham. Just to get back to the espionage, you say you 
have not been able to follow leads because there are no leads 
as far as money drops or those type of contacts with the other 
folks, but so what benefit is there for the exchange of the 
information? Is this just an intellectual thing that they like 
to sit and talk about secrets back and forth with people?
    Mr. Freeh. You know, I think that in some cases that may 
actually be what is happening. I do not think it is happening 
in every case. But it may happen in some cases. It is a very 
different kind of espionage. There is a great Alfred Hitchcock 
movie called, ``The Torn Curtain.'' I do not know if any of you 
have seen it. But it is a movie which exemplifies the issue 
that Mr. Dixon and I were talking about.
    And what it is, is the Americans want a piece of 
information that the Russians have developed, a scientific 
formula, in fact. So, they ask an American scientist if he 
would work as an intelligence agent to get that information. He 
goes over to the laboratory, actually the classroom of the 
Russian scientist, I think, and they start discussing formulas. 
Now, his objective is to get the formula. So, to get it, what 
he does is, he accuses the counterpart scientist of being 
stupid, that his counterpart cannot figure out a particular 
formula. His counterpart gets exasperated and writes the 
formula on the board correctly. And Paul Newman stands there 
for a minute and the other scientist realizes now he is 
memorizing what he has just written and that is the exchange.
    Now, that is an espionage operation. But I think in many 
cases we are dealing with an area of information exchange that 
may not be espionage in the sense that the person is not 
intending to transmit top secret information to the detriment 
of the United States, which by the way is a very high standard 
to prove. You may have in some cases--and I am not saying that 
this is the case here at all or in any other particular event--
but you may have a case where top secret information gets 
transferred between two scientists and at least one of them, 
maybe the one furnishing it, has no intent at all to transfer 
top secret information, which just highlights the difficulty of 
getting a handle on these cases.
    Mr. Latham. So, it is merely intellectual property between 
them?
    Mr. Freeh. I do not think that is what we are dealing with, 
certainly not what the FBI's is dealing with.

                        Certification of Mexico

    Mr. Latham. Just one last question. And getting back to the 
relationship with Mexico. Did you recommend certification of 
Mexico to the administration and cooperation?
    Mr. Freeh. I did not. I actually had no role in that 
process whatsoever. The Drug Enforcement Administration, as you 
know, provides the factual reporting to the Administration and 
I was not active in that.
    Mr. Latham. You had no role or you had no input to the 
administration as to the question of certification or 
cooperation with your counterparts in Mexico?
    Mr. Freeh. What I furnished to them, no. I did not have any 
role in the certification process.
    Mr. Latham. Amazing.
    Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Mollohan.

                    FBI IAFIS and INS Ident Systems

    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Freeh, welcome to the hearing today.
    Last year you and I engaged in dialogue regarding the FBI's 
premier fingerprint system IAFIS and INS' system IDENT. I was 
exploring the hypothesis, that there was duplication, excessive 
costs, and operational or law enforcement disadvantages to 
standing up these systems in stove pipe methods.
    I have not reviewed your responses from last year but I 
sense that there was at least some sympathy from you with 
regard to some of those concerns.
    The Justice Management Division, Management and Planning 
Staff, did a review, partially in response to my request. It 
issued a report in May of last year. I do not know that you had 
an opportunity to review this personally but I am sure your 
staff has. I would like to ask you a couple of questions with 
regard to the conclusions found in the report. I quite frankly 
do not agree with these.
    My sense is that the management division has done this 
study, and tried to accommodate the needs and wishes of both 
agencies. It has been sensitive to the territorial aspects of 
this issue to the detriment of a cogent analysis of the 
problem. That is my hypothesis. I now just want to explore a 
few of the questions with you.
    Mr. Freeh. Yes. I would be happy to. I have not read the 
report but I will try to answer your questions.
    Mr. Mollohan. I will read the pertinent part of the report 
to you.
    With regard to the issue of response time, the INS has 
asserted that it has developed the IDENT system for a fast 
response time. The report seems to be very sensitive to that 
concern.
    Sure, it is an operational requirement that it has a fast 
response time. The report, I think, I can fairly characterize 
as concluding that the IDENT system, with its two fingerprints, 
and with it being developed as a discreet data base, satisfies 
this operationally. Therefore, that conclusion allows the 
division to say that, there is no longer duplication.
    That unique operational requirement is justification for 
standing up the two systems. I do not agree with that because 
the response time is driven more by the size of the data base 
than it is with two fingerprints. Tell me if you agree or 
disagree. Indeed, if the FBI was to create, a subset data base 
in IAFIS, which I think could be easily done, and was to take 
ten fingerprints at the border and drew on that data base; if 
it was a contest between the two print search and a ten print 
search in similarly sized data bases, I would suspect that the 
ten print search would have the greater chance of winning and 
being accurate. Is that correct?
    Mr. Freeh. Yes. If the size of the data base were equal, I 
agree with that. I think that is right.
    Mr. Mollohan. All right. So, the issue about speed has a 
lot more to do with data base than it does the number of 
fingerprints. If fingerprints are a discriminating factor, ten 
will get you there faster, and more accurately than two. Will 
they not?
    Mr. Freeh. Certainly more accurately and I believe faster, 
too.
    Mr. Mollohan. Secondly, the contention by the INS, as it 
related its concerns to the people that did this report, was 
that taking a two print is so much faster than taking a ten 
print. We would have to spend millions of dollars, and INS 
would have to assert millions of dollars with holding 
facilities and additional personnel to take ten prints, instead 
of the system of taking two prints. So, operationally at the 
border the two print system is far superior to the ten print 
system. It just seems to me, that that is nuts.
    If you, at the beginning of this process, based this on a 
ten print system. You could have spent a tremendous amount of 
money that was spent in development on buying scanning 
machines, electronic scanning machines which would have made 
the time of the taking the two print fringerprint system or a 
ten print system about equal or comparable.
    I am wondering if you can personally comment on that issue?
    Mr. Freeh. Well, certainly if you are taking inked 
fingerprints, which I used to do a long time ago, it will take 
you much longer to do ten than two. If you are doing----
    Mr. Mollohan. Say that again?
    Mr. Freeh. If you are taking inked fingerprints it will 
certainly take you much more time, maybe five times as much, 
than to take two fingerprints. But if you are using a scanner, 
you know, a digital scanner, it is the same time process. I do 
not think it makes any difference whether you are taking two or 
ten.
    Mr. Mollohan. What method are we moving towards? Are we 
moving away from ink to electronic scanning?
    Mr. Freeh. Yes. I mean that is going to take some time 
because particularly because or the State and local needs, but 
I mean ideally that is where I think the discipline is moving 
to an electronic digital fingerprint.
    Mr. Mollohan. The technology is available.
    Mr. Freeh. The technology is available.
    Mr. Mollohan. So, it is a question of the respective 
jurisdictions having the money?
    Mr. Freeh. And interoperability.
    Mr. Mollohan. You are working on interoperability. So, you 
are moving toward a digital scanning system hopefully 
nationwide?
    Mr. Freeh. Sure. Well, of course, the IAFIS bedrock 
principle is the electronic transfer of fingerprint images 
which, although they are inked fingerprint cards, they are 
being sent electronically.
    Mr. Mollohan. Well, I am really not satisfied with this 
report. I think there are millions of dollars involved, and 
that the people who do these kinds of studies and come to these 
conclusions, without just going through the simple analysis I 
have gone through, do not do justice to the responsibility of 
reviewing programs of this nature and devising solutions that 
save money. These solutions are superior operationally.
    I understand territorially that INS is very proud of its 
IDENT system. Reading this report, however, just reinforces my 
thinking that INS has developed it for proprietary pride and 
not in a way that best serves the interest of law enforcement. 
I am not even going to ask you about the superiority of having 
a ten print system that is integrated. I think that is far 
superior to be able to do for law enforcement purposes.
    Okay. Well, thank you.

                     Update on IAFIS and NCIC 2000

    That gives me a little appreciation for this. Can you give 
us an update on the IAFIS and the NCIC 2000 systems?
    Mr. Freeh. Yes, certainly.
    With respect to both of them they will be fully on-line, 
within budget by July of this year. The IAFIS builds, as you 
know, have gone very successfully and they have all been pre-
tested in terms of the integration. All of those services will 
be available as well as the NCIC in its separate components.
    We have done a lot of work over the last year, particularly 
with our State and local partners. In fact, I was there 
yesterday addressing the State and provincial chiefs making 
sure that their equipment both on a basis of the YK2 issues and 
also the interoperability and interface will be working. We 
have got a number of things that have been done by my advisory 
policy board to contact the State and local central officer to 
make sure that they have tested, that any YK2 problems that 
they have are being addressed, that we are looking at ``red 
teams'' to go out and help them if they need assistance, as 
some of them have asked for.
    So, we are very optimistic that these will be on-line and 
be working and really revolutionize the whole criminal 
identification process in the country.
    Mr. Mollohan. Thank you, Mr. Chairman.

                                 calea

    Mr. Rogers. Director Freeh, at the hearing last week, the 
Attorney General reported to us that we may be reaching a 
critical breakthrough in the four-year stalemate over CALEA. 
You mentioned or alluded to that in your opening statement. At 
that hearing she indicated significant progress on two fronts. 
CALEA intended to preserve, not expand, law enforcement's 
ability to intercept communications pursuant to court order, as 
telecommunications were advancing into new technologies.
    Law enforcement and the industry have been unable to come 
to an agreement over what capabilities are required under the 
CALEA statute that Congress passed in 1994. Last year, after 
three years of stalemate, we asked the Attorney General to 
petition the FCC to resolve the impasse over what technically 
is allowed or required under the law. And we expect the final 
FCC ruling this Spring.
    Do you agree that it is important to have that issue 
resolved once and for all and get it behind us?
    Mr. Freeh. Yes. Both industry and the Government believe 
that that has to be resolved and we think the FCC is well on 
its way to doing that. And the industry is, I think, preparing 
to respond whether or not the other additional four ``punch 
list'' items are approved or not.
    Mr. Rogers. In addition to disagreement over the technical 
standards which will be decided by the FCC, serious concerns 
have been raised over the cost of implementing CALEA. Last week 
the Attorney General outlined a plan which would set 
implementation of CALEA into motion. Key aspects included a 
buy-out of the CALEA solution for manufacturers, flexibility in 
deployment, and relief for small rural carriers.
    She indicated her belief that such an approach would 
minimize the costs to the industry, as well as ensure that the 
Federal Government's cost would not exceed the $500 million 
authorized, which is my interest.
    Do you support the proposal laid out by the Attorney 
General last week?
    Mr. Freeh. Yes, I do. Very completely, Mr. Chairman. The 
letter of intent the FBI has signed now with one manufacturer 
will, as she described to you, affect the buy-out of a CALEA 
solution which will be applied not just to a major set of 
platforms but that software will be made available really 
without charge to many of the common carriers.
    It also indicates that the cost, using the cost of this 
particular contract as a baseline, that the cost will be well 
achievable within the $500 million authorization. We are going 
to apply, as the Attorney General mentioned, a flexible 
standard with respect to reasonable achievability. We will 
also, with respect to the small carriers, both by priority of 
CALEA compliance but also by exemption, make sure that a 
company that has little or no occasion to be the subject of an 
interception platform will have to do in the extraordinary 
course that is not a normal upgrade, but an extraordinary 
manner, upgrading their whole system will not be required. And 
I think that will be a fair and equitable way to protect both 
their interests and the Government's interests.

                    importance of wiretap capability

    Mr. Rogers. How important is it that you have the 
capability to wire tap?
    Mr. Freeh. I think it is critical. And when I say that I do 
not say it just for the FBI, I say it for every law enforcement 
authority in the country, including 14,000 State and local 
police departments. They do about half of the court ordered 
implementation, the Federal Government does the other half. 
Without this tool, we cannot work drug cases, we cannot work 
terrorism cases, we cannot work counterintelligence cases, we 
cannot do anything that requires the timely and understandable 
interception of communications.

                       calea funding requirements

    Mr. Rogers. Now, to date, a total of a $100 million out of 
the $500 million that is authorized has been provided to you to 
fund the implementation of CALEA. Your fiscal 2000 budget 
request is for an additional $15 million. Given the progress 
that is being made to resolve the stalemate all of the sudden 
here, is that $15 million sufficient to meet your CALEA 
requirements in fiscal year 2000?
    Mr. Freeh. I do not believe that it is. We asked the Office 
of Management and Budget for $150 million. Particularly now, 
when a buy-out is being achieved, the economies of scale, as 
well as the baseline price which is being set which many of the 
other manufacturers are going to want to comply with, we 
believe, the lack of available resources to complete that buy-
out I think is very disadvantageous at this point.
    Mr. Rogers. So, we should consider this increased funding 
for CALEA to be a high priority as we look at your fiscal year 
2000 budget request?
    Mr. Freeh. I would consider it a very high priority, sir.

                     information sharing initiative

    Mr. Rogers. Now, again, this year the largest single 
increase in your budget, $39 million, is for a multi-year 
project to improve the automation systems that you use for your 
case management and investigative databases. Last year, you 
told us you needed $400 million for the project, which is a 
very large sum of money. Given the FBI's track record on 
delivering major systems we were, pardon me, skeptical. But we 
gave you $60 million to begin the initiative, however, we asked 
you first to give us a plan before you spent the money. We have 
not yet received this plan.
    Why is it taking so long to develop the plan?
    Mr. Freeh. We have developed maybe not the four-year final 
plan but the incremental plan and I will make sure that we 
furnish that to you in the current form that it is.
    What I wanted to stress about this, and your skepticism is 
certainly a well-founded one, is two things. One is that we are 
not, as we were with IAFIS and NCIC, writing and acquiring a 
whole new software system, a whole new electronic system. This 
is equipment which is now currently available on the shelf 
which is being used by, as I mentioned, major companies. Each 
one of these purchases is beneficial in itself. In other words, 
if we do not get any more money than what you generously gave 
us last year, that will give us within the FBI a tremendously 
enhanced capacity to manage electronically our cases.
    So, it is not like it was, you know, with the IAFIS, where 
we build up to a final $640 million goal which then is going to 
rise and fall on the success of the integration. Each of these 
incremental builds, in itself, is very, very important. I will 
get to you a plan and a description as quickly as I can.
    Mr. Rogers. Well, we specifically wanted a comprehensive 
multi-year plan because this is a huge multi-year expenditure. 
Given the problems we have had with IAFIS, NCIC 2000 and 
others, I want to see your plan upfront.
    Mr. Freeh. The plan is sitting at OMB and we are told it is 
about to be approved. And should be here, my note says, quickly 
but let me go back and find out what that means. But I will get 
it out of there one way or the other for you.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

    The Office of Management and Budget (OMB) cleared the Information 
Sharing Initiative Five-Year Implementation Plan on March 15, 1999. The 
Department of Justice transmitted the plan to the House and Senate 
Committees on Appropriations on April 5, 1999.

    Mr. Rogers. Well, we will need to see that before we markup 
this bill.
    Mr. Freeh. I understand that, sir.
    Mr. Rogers. Or else there is no money.
    I am not going to go down that road again----
    Mr. Freeh. I understand.
    Mr. Rogers [continuing]. Of giving money without seeing 
what we are doing upfront on something this large.
    Mr. Freeh. Okay.
    Mr. Rogers. I want you to have the tools you need, but we 
want that plan upfront before we mark up.
    Mr. Freeh. I understand, sir.
    Mr. Rogers. How much do you expect the project to cost?
    Mr. Freeh. I think our estimates were $432 million.
    Mr. Rogers. And when do you expect the system will be 
finished?
    Mr. Freeh. It will be four more years including this fiscal 
year.
    Mr. Rogers. Is this years in terms of IAFIS years? 
[Laughter.]
    Mr. Freeh. We hope not.
    We promise not.
    Mr. Rogers. How confident are you that you can deliver that 
project on time and within budget?
    Mr. Freeh. I am very confident and I am not a technician. 
The reason that I say that is when I visit my friends in the 
private industry they show me on their desks what they have. 
So, I know it has been invented and I know it is out there, and 
I just want to get it into the FBI.

                      fbi laboratory construction

    Mr. Rogers. Now, we previously provided a $130 million for 
your new FBI laboratory. You were set to begin that 
construction in January 1999. What is the status of 
construction?
    Mr. Freeh. We have the bids. We are prepared to award 
within the next couple of weeks. Some of the delays had to do 
with the restructuring of the laboratory because it is being 
built, as you know, on the Quantico facility and because of 
some of the training that goes on in that vicinity we had to go 
back and re-harden the infrastructure so it would not be 
affected in terms of instrumentation.
    We had an environmental issue that delayed us for some time 
but we are ready to award the contract to the appropriate 
bidder and start the construction. And I believe we can do it 
as efficiently as we did the CJIS project out in West Virginia.
    Mr. Rogers. When will you award the contract?
    Mr. Freeh. Within the next four weeks we believe we can do 
that.
    Mr. Rogers. And when are you scheduled to be finished with 
it?
    Mr. Freeh. At the end of 2001.
    Mr. Rogers. Are you still on target within the $130 
million?
    Mr. Freeh. Yes, we are.
    Mr. Rogers. That was agreed to, that figure was agreed to.
    Mr. Freeh. It was agreed to.
    Mr. Rogers. And we appropriated it.
    Mr. Freeh. Yes, sir.
    Mr. Rogers. You got the money.
    Mr. Freeh. Yes, sir.
    Mr. Rogers. And you will not ask for any more?
    Mr. Freeh. No. If we need any more, we will have to do it 
on our own and we will do it on our own with your permission. 
One of the things, let me just mention it, the Inspector 
General report, which was a very critical report of parts of 
our laboratory operation, and which was very, very helpful to 
us in restructuring things, was given to us after the 
laboratory price was estimated to you at $130 million. That 
report called for separate work spaces for every examiner for 
contamination purposes. And there have been some other things 
that will require some additions. But we will not, I am told 
that we will not be asking for more money. I certainly will not 
be asking for more money but we may ask for some reprogramming 
consideration if we need to look at those contamination issues.
    Mr. Rogers. Well, now, you are requesting an increase of $5 
million to begin purchasing equipment for the lab, which is not 
scheduled to be finished until late 2001.
    Mr. Freeh. Yes.
    Mr. Rogers. Why is that necessary this year?
    Mr. Freeh. A lot of this equipment I am told, like the gas 
spectrometers, has to be custom built. A lot of the 
instrumentation that we are asking for is not available off the 
shelf. You need to put orders in to have the equipment actually 
built and instrumented.
    Mr. Rogers. What do you estimate that the cost of new 
equipment to be in the new lab?
    Mr. Freeh. Beyond the $5 million?
    Mr. Rogers. Yes.
    Mr. Freeh. I am told that that is approximately $29 
million.
    Mr. Rogers. That is $29 million?
    Mr. Freeh. Yes, sir.
    Mr. Rogers. And what about relocation expenses?
    Mr. Freeh. We estimate about $4 million for that, Mr. 
Chairman.
    Mr. Rogers. Well, I just have to tell you that we are 
squeezed beyond belief this year for money. Anything that you 
can do to trim or delay the those costs within the parameters 
of getting the job done would be helpful because the caps are 
still binding on us and we have got inordinate demands this 
year.
    Mr. Freeh. Right. I will do that. Some of the $5 million, 
for instance, I know has to do with the instrumentation. Some 
of it is furnishings and let us take a look at that and see if 
we can delay some of those things.

                           title v exemption

    Mr. Rogers. Now, two years ago, you expressed a critical 
need for an exemption from the Federal pay system for 
recruitment of personnel for certain highly specialized or 
technical positions in the FBI. We gave you that authority for 
up to 3,000 positions as part of the fiscal year 1998 bill. But 
we also requested that you provide to the Committee an outline 
of the proposed new personnel system and a description of the 
problematic provisions of Title V.
    You failed to submit that report in a timely fashion. In 
fact, we got the draft of your plan a full six months after the 
statutory deadline. And because of that delay your budget now 
proposes that we give you a two-year extension on the program. 
Why were you late in providing the proposal for the new system?
    Mr. Freeh. Well, the delay is our responsibility and 
clearly my responsibility. We had a long series of discussions, 
I guess you could call them, with OMB, with some of the other 
Governmental personnel departments. A lot of objections had to 
be resolved over negotiations and there was a series of delays, 
but we do have a plan.
    We think it will be very, very beneficial to us. As I 
mentioned in my opening statement, some of these people we are 
hiring, we could not have hired without the Title V exemption 
categories. We are hiring major scientists and people who will 
make all these systems that are so important to us and which 
you have funded work and work efficiently.
    So, I think the program is still as vital as it was when we 
asked for it and we are simply asking for the full three-year 
period to perform this hiring operation.
    Mr. Rogers. How many people have you hired to date using 
that authority?
    Mr. Freeh. We have two on duty, we have nine who have been 
accepted for positions, and this is an initiative which I 
believe will move very, very quickly, now that we have the 
positions defined, advertised, and we are getting a very good 
response for them.
    Mr. Rogers. How many vacancies would you fill this year?
    Mr. Freeh. At least 59 to 60 and these would all be in the 
very senior technical classes.

                       infrastructure protection

    Mr. Rogers. Now, as you know, great concern has been 
expressed over the vulnerability of the nation's critical 
infrastructure. In fact, last year Presidential Decision 
Directive Number 63 was issued which outlined a Government-wide 
initiative to assess, prevent and respond to vulnerabilities in 
attacks on our nation's infrastructure. This Directive came as 
a result of the recommendations of the President's Commission 
on Critical Infrastructure-Protection.
    The FBI was given primary responsibility for warning and 
investigations of threats to our infrastructure and we provided 
you over $28 million in new resources in fiscal year 1999 to 
meet your responsibilities under that directive.
    Have you utilized those increases that we have provided and 
what are you requesting in the year 2000?
    Mr. Freeh. Mr. Chairman, the NIPC is nearly fully staffed 
and that has been, as I mentioned, we think a very, very 
successful endeavor. The participation there, as you know, is 
not just from FBI personnel but personnel from many different 
Federal agencies including some of the security agencies. We 
are now looking to incorporate into that some of the private 
industry participation that was contemplated when we set this 
up.
    This is a program, both in its headquarters capacity and 
now in its field representation, particularly the computer 
squads and the ones that we have asked for on enhancement, this 
is a capability that did not exist in the law enforcement 
community two years ago until this was set up.
    And the benefits from this will be phenomenal in terms of 
the capacity to do our job and protect people.
    Mr. Rogers. And what are you asking in 2000?
    Mr. Freeh. We are asking for a $1.6 million enhancement.

                       private sector cooperation

    Mr. Rogers. Now, have you made any progress in convincing 
the private sector to deal with the problem of computer and 
network intrusions? Many private companies have been reluctant 
to report intrusions to law enforcement due to fear that it 
would become public. Have you made any progress in that 
respect?
    Mr. Freeh. Yes, I believe we have. First of all, the number 
of reported intrusion cases has increased very markedly. We 
have a very active community liaison/industry liaison program 
that deals not just with the awareness of this issue but 
encourages them to come forward.
    A lot of the cases that are being developed now under the 
Economic Espionage Program, which is a statute that Congress 
passed three years ago, have been generated because industry's 
willingness to come to us. There is a case in Philadelphia 
involving the Bristol-Meyers company which has to do with a 
very, very sensitive and tremendously expensive trade secret 
which was the subject of the theft and the prosecution. They 
came forward, in part, I believe because of the awareness of 
the program.
    Secondly, the statute, as the Congress wisely wrote it, 
includes a provision to protect trade secrets through the 
course of discovery. So, I think that the program is growing 
very quickly and the number of cases I think is in part because 
of the industry's confidence that one, their trade secrets will 
be protected and, secondly, because we will respond to them 
quickly.

                aircraft for terrorist incident response

    Mr. Rogers. Now, the fiscal year 1999 omnibus conference 
report included funding for the DoD to procure a new aircraft 
for dedicated use by the Federal Bureau of Investigation to 
respond to terrorist incidents among other things.
    Could you give us a status on that, and tell us what 
additional capabilities that might give you to respond to 
terrorist incidents?
    Mr. Freeh. The capability that would give us is really 
essential for us. If we were to have another major bombing 
within our jurisdiction, some place around the world, our 
current plan calls for sending an advance team of agents and 
communicators, within four hours, in the air, wheels up to the 
scene.
    That is only the first part of the deployment. The fast 
aircraft, and Congress contemplated a Gulfstream V in the 
legislation, gives us the theater capability to move witnesses, 
and perhaps pick up prisoners as we had to do in the African 
bombings. We had many countries who would not let us land the 
short-range aircraft to bring them back. We had to bring one of 
them back in this huge plane because we did not have a fast 
aircraft to get where we have to go.
    I also want the plane in theater for medical evacuations 
and for sending agents to places for leads. We had to put 
people, for instance, in the Comoro Islands within a couple of 
hours.
    That is the fast plane capacity that we need. Unfortunately 
we have not been able to resolve this yet with the Department 
of Defense and we have had a number of negotiations. I have 
been in touch with Secretary Cohen. We have another meeting 
scheduled this week. We have not been able to agree in a manner 
that meets those particular needs and specifications that I 
have. So, we are working to get that done now.
    Mr. Rogers. What is their hangup?
    Mr. Freeh. The dispute or the disagreement has been the 
aircraft furnished to the FBI for purposes of the deployment 
and then each time I have to do another redeployment. In other 
words, if I have to pick up a prisoner or a witness or move 
somebody out for medical, I have to go back through the White 
House Military Office and through the Department of Defense for 
a whole new authorization. And our theory of the emergency is 
that the emergency exists for purposes of conducting the case. 
You do not send a Delta Force over and then take their plane 
away.
    So, we need to work this out.
    Mr. Rogers. Yes, you do. And it absolutely flabbergasts me 
that the bureaucrats cannot get a simple thing like a small 
plane for the counterterrorism operation of the country to use 
to help stop terrorism. That is beyond me.
    I mean I have heard a lot of things but this one, it tops 
the bill.
    We have been working on this for a while. I have been 
working on this for a year or more. I want the name of the 
bureaucrat who is holding up the use of a small jet plane to 
transport the bombers of our embassies back to this country for 
trial.
    I want the name, address and telephone number of that 
bureaucrat. Will you get that for me?
    Mr. Freeh. Yes, sir.
    Mr. Rogers. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    I thought the FBI did not give out that kind of 
information. [Laughter.]
    Mr. Freeh. That kind, we do. [Laughter.]
    Mr. Serrano. Remember, I am your friend. [Laughter.]

                     criminal use of new technology

    Mr. Serrano. Director Freeh, you stated well, very well, 
the challenges that the Bureau is meeting in dealing with cyber 
crime, if you will, criminals who are using the new technology. 
You also spoke about your challenges in the Bureau to be up to 
date in the use of these technologies. I suspect, if I prodded 
you, you would tell me that you are not where you want to be 
regarding technology within the Bureau. And, that some of the 
criminals may be better equipped to commit their crimes than 
you are maybe to understand what they are doing.
    How do you balance that? How do you balance the fact that 
if you are not up to par where you want to be, to know that 
someone out there is, in fact, committing a crime, because a 
lot of these crimes are not yet identified as such. A lot of 
what is happening out there that is misuse of the Internet and 
so it is not identified as a crime yet, I imagine.
    Mr. Freeh. Yes. You know, a lot of it has to do with, as we 
have done, thanks to your Committee and the other Committees 
here, coming to you with our problems and asking for the tools 
and the statutes to respond.
    For instance, the economic espionage statute, which the FBI 
requested several years ago is an incredibly important statute. 
With a computer you can break into a company and download a 
trade secret, perhaps worth millions and millions of dollars in 
terms of development and billions of dollars in terms of 
product, thousands of jobs perhaps involved. You can download 
that and ship it around the world in a couple of seconds.
    Now, until we had the economic espionage statute, there was 
a serious question whether that was a crime. We had a court in, 
I believe it was Massachusetts, who said that that was not the 
interstate transportation of stolen property because 
intellectual formula and property downloaded is not a good as 
the statute contemplated, so, therefore, it was not a crime. 
So, one response is to get those kinds of tools that we needed 
to do the crime.
    Pedophiles, you know, working on the Internet where they 
are not looking for your children on the street corner but 
actually coming into your home requires a whole different set 
of computer skills and capability which, you know, must be 
received and then used properly to deal with that particular 
crime.
    Bank robbers using, laptop computers to steal money out of 
banks as opposed to notes and guns requires a lot of different 
tools. So, if you look at the last couple of budgets that I 
have asked to be considered here--and you have considered them 
very generously and very prudently--I am talking about 
infrastructure, whether that be continued ability to use 
electronic surveillance without expanding our powers, 
computers, information infrastructure, these are things to get 
us into the game. Because as you point out, a lot of the people 
we are working against have these tools and are using them 
effectively against the people we protect.
    So, we always have a little bit of catching up to do. As we 
solve these technical problems I am sure we will see other 
ones. But I think the ability to come back here and present 
them and get the response we have gotten has been what is 
keeping us in the game.

                            privacy concerns

    Mr. Serrano. Well, that then brings me to another thought. 
While at times throughout the history of the Bureau, there have 
been some feelings by some folks that their rights and their 
privacy have been abused, there has always been an attempt, I 
think by Congress and by the Bureau, itself, to keep a check on 
that and to deal with law as it is and to protect and respect 
people's privacy.
    So, now, in the process of finding out about this whole new 
series of crimes and this approach to crime, how do we continue 
to balance the desire to get these folks with my rights to use 
the Internet and not have my rights violated as an innocent 
bystander?
    Mr. Freeh. Well, I think you have to insist, not only in 
your oversight but in our internal oversight and really the 
oversight ultimately of the people that we work for, that the 
advent of new crimes and new techniques does not mean that we 
abridge the Fourth Amendment or the First Amendment. That the 
same rights and constitutional protections have to apply.
    In fact, we have to be more conscious of them working in 
some of these environments. We need internal guidelines. We 
need oversight. As I have said before, probably we should be 
the most scrutinized agency in the country because of the 
enormous powers that we have and the impact that we have on 
people's rights and liberties.
    I think that is the case and I think that the oversight of 
not just this Committee but many others, and our internal 
guidelines, the Attorney General's oversight, our internal 
processes will, to the best we can, ensure compliance with the 
Constitution and statutory authorities that have to control and 
even limit the things that we can do.
    Nothing that we have asked for, even going back to CALEA in 
1994, expands in any way our statutory or constitutional 
authorities. Now, there are those that argue that and I have 
said many times publicly that that is really not a valid 
argument. We are not asking for new powers to do digital 
investigations, we are just asking for the powers that the 
Framers and the Fourth Amendment gave to the constable. The 
Fourth Amendment says that everyone should be protected in 
their homes and papers unless the Supreme Court says we can 
convince a magistrate, a neutral and detached magistrate, that 
someone is using their papers or homes to commit a crime.
    Mr. Serrano. And, that includes your computer?
    Mr. Freeh. Exactly. That has not changed. We are not trying 
to disturb the balance of the Fourth Amendment. But the Framers 
were not thinking about the Internet, obviously, they were not 
thinking about a computer environment. But the same requirement 
adheres. I have go to, the constable has to go, into the 
magistrate, neutral and detached, and make my case with 
probable cause, with reasonable suspicion, with whatever the 
standard might be, and then that magistrate has to approve or 
disapprove of that authority. That has not changed and should 
not change and we are not asking that it change. We are just 
saying that if we need a digital formula instead of a key to 
get into a place that a judge says we can get in, we have to 
have that new tool.
    Mr. Serrano. But the difference, it would seem to me, and 
where we have to be careful and where you have to become, the 
Bureau has to become a defender of the Constitution and 
constitutional rights is that my understanding usually when you 
want to find out what two people are saying you get a court 
order to find out what those two people are saying. And in the 
process you may listen to that person's laundry guy or grocery 
clerk or something coming in and talking to them, but you are 
not intending to listen to those folks because you are not 
reaching the whole neighborhood. You are not listening in on 
the whole neighborhood.
    But on the Internet it is possible that while listening or 
trying to find out what two people are doing or one person is 
doing, you run across a thousand people from throughout the 
world or at least throughout the country which is our concern 
here. And how do you protect against that, against those 
people, innocent people being involved in something that they, 
you know, or their information coming across or whatever?
    Mr. Freeh. Yes.
    Mr. Serrano. I mean you could be chasing a criminal who 
likes to chat and he is in a chat room with, you know, 
students, and lawyers and doctors and ministers who also like 
to chat. How do you protect them from the fact that you are 
trying to get him?
    Mr. Freeh. It is a great question and a valid question. We 
protect his rights and the rights of the people he may talk to 
the same way we do it now and the same way we have done it 
since 1968. When we get a order from a Federal judge that 
allows us to conduct electronic surveillance, the standard of 
proof and specificity in that application is higher than any 
other application that we make to a Federal judge.
    One of the provisions of that order that is required by the 
statute is what they call the minimization of innocent 
conversations. It is not just third parties, but the innocent 
conversations of the person who the judge has found by probable 
cause is probably committing a crime on that facility.
    So, when our agents now monitor a telephone line or a room 
where there are a lot of people sitting in a room and one 
subject is engaged in a conspiracy with another participant but 
the other people are innocent, our requirement--and this is a 
statutory requirement--and a court requirement is that we 
minimize all those innocent conversations. So, if the two 
subjects start talking about baseball, we minimize that and we 
turn that off.
    Now, we have the power, the physical power to keep that on 
and listen to everything and record everything. That would be a 
crime, first of all, and that would be something which in the 
suppression process and the discovery process would result not 
only in a dismissal but sanctions and charges against the 
people who violated, in this case, the statute.
    So, the law really has not changed. We are talking about 
the changing of the venue. We are going to the Internet as 
opposed to a wire room in a gambling operation. We are going 
onto a digital plane as opposed to an analog plane. So, 
everything has changed except the basic rules. The rules of the 
Constitution and the statute are clear. If we violate them we 
should be prosecuted as well as any other law enforcement. So, 
we still have to rely on the honesty and integrity of our 
police forces and the FBI, which I think is very, very high.
    If we fail in that, we should pay the price. But the same 
trust, and reliability is going to exist whether you are asking 
me to investigate a gambling case or look at a criminal who is 
committing pedophile offenses on the Internet.
    Mr. Serrano. Right. And, I guess if two criminals are 
discussing baseball that is okay. But, if one of them knocks 
the Yankees, let me know about it. [Laughter.]

                             amadou diallo

    Mr. Serrano. Let me bring you--speaking of the Yankees and 
the Bronx--bring you back home to something, a question I have 
asked a lot of people that have come before this Committee. You 
are obviously aware of the incident that has brought national 
attention to this whole issue of how the police behave with 
certain folks and it is the incident of Amadou Diallo, who was 
shot 41 times by four police officers in the doorway of his 
home.
    He was an African immigrant who, by all accounts, was here 
just to learn computer science, incidentally, because that was 
the one thing his middle class family could not provide for him 
back home in terms of finding those studies.
    He was making his way through life and he was shot 41 times 
and there is no indication that there was any reason, other 
than a reaction or whatever. Reports from New York now say that 
the Justice Department and the FBI are more than monitoring 
that investigation. I am not going to ask you whether you are 
or not. That is improper. But I will ask you is there something 
that the Bureau can do to deal with this issue, this growing 
issue and this growing concern, whether it be obviously an 
investigation and information for prosecution or just helping 
police departments deal with this issue?
    Mr. Freeh. Yes, there is. And we do that as a matter of 
course. Part of our civil rights program is specifically 
dedicated, not just by program but by resource, to education, 
particularly of police departments on a weekly basis all over 
the country. We have our agents in the civil rights program 
going into police departments and presenting courses, seminars, 
materials, written and otherwise, on the importance and the 
critical need for police officers, those who enforce the law, 
to be within the law, particularly with respect to civil rights 
and due process and all those other things. So, that is an 
important part of our program.
    Because of resources, we probably do not do as much of that 
as is even requested by our state and local partners. A lot, 
most of the program has to do with criminal enforcement. In 
fact, the case you mentioned, because it is publicly known, we 
are very involved even at the crime scene. But a part of our 
program has to do with that education.
    It would probably be money well spent because of the impact 
that this problem has on communities to upgrade that and do it 
more as an FBI program. The Department of Justice does it much 
more expansively because they have resources for it. We do it 
as an adjunct to our enforcement program.
    Mr. Serrano. Well, I thank you. Mr. Chairman, I do not have 
any further questions and I suspect that there might not be, I 
suspect, another round. So, I just wanted to take this 
opportunity to thank the Director, not only for coming before 
us today, for the work he does and hope that he stays on top of 
all of these issues. And just in closing, I suspect that one of 
the challenges you are going to meet, different than when you 
listen in on a roomful of people, is that some of these guys 
who know how to use computers and girls who know how to use 
this equipment will not only be on line when you are 
investigating someone but they will probably let people know 
who you are listening, who you are looking at to the Internet. 
Because they will have that ability and that is a challenge 
that we all have to meet.
    Mr. Freeh. Yes, sir.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Rogers. Is it possible in the Internet to go back to 
the beginning of time so to speak on the Internet and find out 
who invented the Internet? [Laughter.]
    Mr. Serrano. Well, probably this Committee, I think.
    Mr. Rogers. Mr. Dixon?

                       defensive arming proposal

    Mr. Dixon. Thank you, Mr. Chairman.
    Director Freeh, I notice in your proposed language, in 
Section 123, that you are asking for a demonstration project to 
arm up to 50 employees. Your justification indicates that they 
are non-agents.
    Mr. Freeh. Yes.
    Mr. Dixon. Could you talk a little bit about that?
    Mr. Freeh. Sure.
    Mr. Dixon. The necessity and the exposure to the 
Department?
    Mr. Freeh. Yes. These are non-agents. We call them our 
special SSG program. They have traditionally been involved and 
are involved in doing surveillance, particularly in the 
counterintelligence area. But they have also more recently 
become involved in the counter-terrorism area.
    And my request for the firearms pilot program--and this 
would be, by the way, done as we train all our people with 
firearms. They would get the full training, all the scrutiny, 
and all the selection. We would do it on a test pilot basis.
    My concern is to have it as a defensive position because we 
are sending these employees, in many cases, very young 
employees, into what I feel are very dangerous situations. 
Because the people that we are following are not just classic 
espionage agents, in some cases now they are terrorists. We 
would like to have in their group, not all of them but, some 
kind of defensive capacity. They would get all the training, 
the deadly force policy indoctrination and we would evaluate 
it.
    But they have made that request to me, personally. I have 
looked it. We have all looked at it, we think it is reasonable 
and would like to proceed with it.
    Mr. Dixon. Is there additional compensation involved here?
    Mr. Freeh. I do not believe so, no.
    Mr. Dixon. Would they just----
    Mr. Freeh. I am sorry, not for the demonstration project. 
Your question is, will they then become an 1811 officer? That 
is a good question. I do not know the answer to that.
    Mr. Dixon. Well, I suspect this is the first step.
    Mr. Freeh. Yes. Let me get back to you with the answer to 
that.
    [Clerk's note.--The following information was submitted 
subsequent to the hearing:]

    The legislative proposal for the Defensive Arming Demonstration 
Project includes language that ``personnel designated under this 
authority shall not be deemed law enforcement officers under Title 5, 
United States Code, for pay, retirement, or position classification 
purposes.''

    Mr. Dixon. Okay. Has any authorizing committee looked at 
this issue?
    Mr. Freeh. We submitted it last year. I do not know if it 
was reviewed.
    Mr. Dixon. Was it knocked out last year?
    Mr. Freeh. No. It was not knocked out.
    Mr. Dixon. Well, maybe we can, if it was not knocked out, 
is that the state of the law at the present time?
    Mr. Freeh. We have no such authority right now.

                            use of polygraph

    Mr. Dixon. Oh, okay. I suspect that is quite controversial.
    Let me ask you generally, and this is the last question I 
have, as I understand it, counterintelligence, in general, 
would be using and relying on polygraph more and more. Is that 
true?
    Mr. Freeh. I think it depends what facet of 
counterintelligence you are talking about. The Energy 
Department now is using it. They never have used it before. We 
have always used it selectively. The CIA has used it more 
expansively.
    Mr. Dixon. Right.
    Let me ask, would it be better--based on some past 
experiences--to have those kinds of examinations centralized? I 
am not suggesting that they be in your department, perhaps the 
FBI is the best one to do it. But we have the CIA doing their 
own polygraph. We are going to have more and more at Energy. 
And we have the FBI doing the same thing. Would it be better to 
centralize all polygraph in the same agency of Government? Has 
any thought been given to that?
    Mr. Freeh. I do not know of any. But it is certainly a good 
suggestion because many times, I will not say many times----
    Mr. Dixon. I do not know if it is good or bad. It just 
seems to me, with all these people running around they may get 
different results.
    Mr. Freeh. I know on, not an infrequent basis, because I 
can think of a couple of instances as I sit here, we have 
reviewed polygraph examinations of other agencies that have 
found no deception, and we have found deception very quickly. 
We've gone back to them and they have agreed. So, there is a 
degree of differences in terms of the expertise, I think.
    So, it may be well to consider something that you suggest. 
I do not know that we have ever done that.
    Mr. Dixon. Has there ever been any discussion about that?
    Mr. Freeh. Interestingly, not that I know of. Let me find 
out and I will get back to you.
    [Clerk's note.--The following information was submitted 
subsequent to the hearing:]

    The FBI is not aware of any previous proposals to centralize all 
polygraph examinations within a single agency.

    Mr. Dixon. Thank you, Mr. Chairman.
    Mr. Freeh. Thank you, sir.
    Mr. Rogers. Your job, Mr. Director, has become immensely 
more complicated given the technological marvels that are 
taking place in the world, which makes the information that you 
are seeking in criminal investigations harder to get.
    And the complexity of the crimes that you are investigating 
continues to grow. So, I think you and the Department are doing 
a good job keeping up with these changes.
    I know there are things that you need that you do not have, 
and cannot get perhaps at the moment.
    But this Committee wants to be there to try to help you do 
your job, and we want you to convey to your associates the 
thanks that the country has for the job you are doing.
    Mr. Freeh. I will do that.
    Thank you very much, Mr. Chairman.
    Mr. Rogers. It is good to see you.
    Thank you very much.
    Mr. Freeh. Thank you very much.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, March 25, 1999.

                       DRUG ENFORCEMENT PROGRAMS

                               WITNESSES

THOMAS A. CONSTANTINE, ADMINISTRATOR, DRUG ENFORCEMENT ADMINISTRATION
DONNA A. BUCELLA, DIRECTOR, EXECUTIVE OFFICE FOR UNITED STATES 
    ATTORNEYS
JAMES K. ROBINSON, ASSISTANT ATTORNEY GENERAL, CRIMINAL DIVISION, 
    DEPARTMENT OF JUSTICE

                     Mr. Rogers' Opening Statement

    Mr. Rogers. The Committee will be in order. We are pleased 
to welcome this afternoon Thomas Constantine, the Administrator 
of the Drug Enforcement Administration; Donna Bucella, the 
Director of the Executive Office for the United States 
Attorneys; and James Robinson, the Assistant Attorney General 
of the Criminal Division, to discuss the Department of 
Justice's law enforcement efforts in the war on drugs.
    Our Nation is being weakened by the prevalence of drugs and 
drug-related crime in our communities. Without investments in 
law enforcement to take down and punish drug traffickers and 
prevention programs that are aimed at stopping children from 
using drugs, we cannot and will not succeed in the war on 
drugs. Cocaine and heroin are cheaper and more plentiful than 
ever on the streets of America. Methamphetamine, which can be 
produced fairly simply in any kitchen in any community, is 
spreading fast to all areas of the country. To respond to these 
very serious problems, this Subcommittee has tried to give you 
the resources you need to fight the problem. We need all of us 
to work together. Law enforcement is a vital component, and 
this Committee will seek to ensure that adequate resources are 
provided to address the problem.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    This is probably the easiest issue for you and I to agree 
on. I, as you know, represent the South Bronx and the drug 
problem has always been a problem. I am here to welcome the 
three of you and to support you, Mr. Chairman, in anything the 
subcommittee can do to do the right thing. I would also, during 
the question and answer period, be paying some special 
attention to the other district that I represent, which is the 
Commonwealth of Puerto Rico, and I would like to hear some of 
your thoughts about what is going on there.
    I thank you.
    Mr. Rogers. We will include all of your written statements 
in the record. We welcome your opening remarks, and 
Administrator Constantine, we will ask you to proceed.

                  Opening Statement of Mr. Constantine

    Mr. Constantine. Thank you, Congressman. I thank you and 
members of the subcommittee. In the numbers of times I have 
testified in Congress during the year, I have always felt that 
this is one of the most important presentations that I make, 
because it is an opportunity to act as an advocate for the 
thousands of DEA agents, task force officers and court 
personnel who do so much for all of us in this country.
    About an hour ago I just left a graduation of 47 new DEA 
agents and their families. I have been in law enforcement now 
almost 39 years and I have never seen such a quality of people 
who have decided to enter this profession, who are willing to 
dedicate their lives and, unfortunately, sometimes sacrifice 
their lives for all of us.
    So the first task that I do is to thank you and the 
Committee for the extraordinary support that you have given us 
over the last 5 years. The continued efforts to enhance DEA's 
resources have improved our ability to pursue and to bring to 
justice the leaders of the increasingly powerful drug 
syndicates throughout the world. We have tried to use these 
assets in an effective way to pursue the international 
organized crime syndicates that are responsible for trafficking 
within the United States. In fiscal year 1999 we achieved 
significant results in a series of investigations directed 
against major trafficking.

                       joint drug investigations

    To give you an example of one such investigation and why 
such cooperative investigations are important I would like to 
briefly discuss an investigation that was conducted by the DEA, 
the FBI, the Department of Justice, the Texas Department of 
Public Safety and the Michigan State Police. It was code named 
Operation Reciprocity, and dealt with one major organization 
operating out of Juarez, Mexico. We arrested 41 individuals 
during the course of that investigation and seized 7 tons of 
cocaine and $11 million in cash. More importantly, a 
cooperating witness in that same investigation has advised us 
that in the space of 18 months he delivered 90 tons of cocaine 
into the United States and returned $100 million in cash back 
to his leaders in Juarez. One of the key aspects of that 
investigation was a very, very observant pair of troopers in 
Tyler, Texas operating on a highway interdiction program. They 
seized $3 million in cash and about $4,000 in marijuana and the 
information on all of the traffickers in Michigan, New York and 
Texas.
    To give you a sense of the effectiveness of this highway 
interdiction program carried out by uniformed police officers 
and deputy sheriffs, in 10 years they have seized 116 tons of 
cocaine, 872 tons of marijuana, and $510 million in cash, and 
they have also given us key information. I have been around law 
enforcement long enough to know that the statistical 
accomplishments in and of themselves are not the true measure 
of success. However, when you couple that with the strategy of 
targeting the right groups and the right organizations, we can 
be and have been effective.
    From 1994 to 1998 we have almost doubled the numbers of DEA 
arrests that our agents make: 22,000 to over 39,000. From 1997 
to 1998, our cocaine seizures were up 21 percent, heroin 40 
percent, methamphetamine 70 percent, and laboratories 28 
percent. But probably the most successful program that we have 
had is attacking the violence that is occurring in the United 
States as a result of drug trafficking.

                        mobile enforcement teams

    In 1995, we embarked on a strategy of targeting drug 
trafficking groups that were responsible for a significant 
amount of community violence. We called them mobile enforcement 
teams. We have now deployed 250 of the new agent positions we 
have received over the last several years to form 24 such 
teams. Since 1995, we have deployed these teams to over 203 
cities, towns and counties throughout the United States. Often, 
these are the cities, towns and counties that are dealing with 
violent drug trafficking gangs, but at the same time have 
limited resources. We arrested over 8,000 individuals, most 
often people who were violent and arrested for other crimes in 
addition to drug trafficking.
    We have done a study of the 6-month pre-deployment and 6-
month post deployment of 126 of those 223 assignments. We can 
only do 126 because some of them are ongoing as we speak. We 
have determined there were 127 less homicides in those 
communities, 3,644 less robberies, and 3,183 less assaults. It 
is easy to see how that number of homicides may reach 200 once 
the studies are completed, and if the community is able to 
continue that level of safety, we will have saved a number of 
lives over the years.

                     migration of the drug problem

    The one changing threat that I think is important for all 
of us to note is the continued migration of the drug problem, 
once thought to only be in the major urban centers of the 
United States and is now in the smaller cities, suburban areas 
and rural communities. This is a shift to communities that have 
limited resources.
    On February 23rd, 1999, we hosted a symposium for officials 
from almost 200 midsized communities throughout the United 
States. In a survey, before we brought them there, they told us 
in the last 5 years there has been a 70 percent increase in 
drug activity in their communities and a 50 percent increase in 
drug-related crime. They have also told us that the drug 
traffickers operating in their localities come from outside of 
their communities 95 percent of the time, and 70 percent of the 
time they come from outside of the United States. They have 
also asked for additional assistance. So now our strategy has 
become threefold. We have used the resources that we have been 
given over the last several years to establish the regional 
drug enforcement teams, including one for the Southeast region, 
which will be in Charlotte, North Carolina, one for the Midwest 
in Des Moines, Iowa. Second, we are trying to get as many of 
our new agent positions as possible into our district offices, 
resident offices and posts of duty, and third, we are 
formulating numbers of task forces to be able to deal with 
them.

                             budget request

    In the budget request for this year there is $9 million for 
27 new positions to enhance our special operations division. 
This is a key element of our success. It will coordinate all of 
the major long-term investigations that target the most 
powerful organized crime systems that are dealing in the United 
States today. It depends to a great deal on the ability to 
interdict their communications and technology. Major criminal 
organizations based outside of the United States are sending 
thousands of people into the United States to carry out the 
drug trafficking and the collection of money. Communications 
becomes vital to them. The interdiction of their communications 
similarly becomes vital.
    We will use all of this money and equipment to enhance our 
positions as we are able to go through this, increase our 
FIREBIRD system, which is the spine of our whole information 
and internal communications system.
    I would close, and I have a written statement that is much 
longer, Congressman, by just saying that I thank you for the 
opportunity. I think we have been able to prove in the United 
States, without a doubt, over the last 5 years that law 
enforcement makes a significant difference. I watched in the 
early part of my career while spending 34 years, from 1960 to 
1990, with the State Police in New York as that State's crime 
rate was almost unbelievable for those of us who have lived 
there.
    Likewise, I now see substantial reductions in violent crime 
in virtually every major city throughout the United States. The 
dramatic drop is to a great degree the result of effective law 
enforcement strategy directed against violent drug gangs. We 
have played a major role in these improvements. We are now 
attempting to focus our assets on those midsized, suburban and 
rural communities that have now become the target of these drug 
organizations. I believe that a well-staffed and fully 
supported DEA can continue to reduce crime and continue to 
improve the quality of life in every community in the United 
States.
    Thank you very much for this opportunity.
    [The statement of Mr. Constantine follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rogers. Thank you.
    General Robinson.

                    Mr. Robinson's Opening Statement

    Mr. Robinson. Chairman Rogers and Representative Serrano, 
members of the subcommittee, I want to thank you for the 
opportunity to speak in support of the fiscal year 2000 budget 
request from the Criminal Division and from the Organized Crime 
Drug Enforcement Task Force, the OCDETF, program. This is my 
first opportunity, since I am still relatively new in my 
position as Assistant Attorney General in charge of the 
Criminal Division. As you can see from the depth of my briefing 
book, I am delighted to have with me today Deputy Assistant 
Attorney General Mary Lee Warren, who has appeared before this 
committee, who will help me out if I can't answer all of your 
questions.

                             Budget Request

    I would like to begin by expressing, as the Administrator 
did, the Department's appreciation to this Committee for the 
resources you have provided to the Department to fight the 
Nation's war on drugs over the past several years. This 
important and difficult work would be even a greater challenge 
without the support that law enforcement has received from this 
Committee. I believe that we have put these resources to good 
use and achieved impressive results. However, there is always 
more to do, and in this area we certainly have much more to do.
    For fiscal year 2000 the Criminal Division is requesting an 
increase $1,130,000 for 13 additional positions to support the 
division's overall narcotics program. Several programs within 
the Criminal Division are in need of additional resources to 
support the increase in workload associated with larger and 
increasingly more complex narcotics problems which face this 
country. For the Organized Crime Drug Enforcement Task Forces, 
the President's budget seeks $316,792,000, supporting 2,973 
workyears in the FBI, DEA, INS, Marshals Service, United States 
Attorneys offices, the Criminal Division, and the Tax Division 
of the Justice Department.
    This budget, Mr. Chairman, reflects the staffing levels 
which have been in place for the previous four fiscal years. My 
written statement, which I have submitted for the record, 
provides more details regarding both OCDETF's and the Criminal 
Division's fiscal year 2000 budget request.

            the department's national drug control strategy

    At this point I would like briefly to highlight the 
Department's effort with regard to the National Drug Control 
Strategy and the dramatic growth in the OCDETF program 
productivity during fiscal year 1998.
    The 1999 National Drug Control Strategy and the resources 
requested in our 2000 budget submission to implement that 
strategy are aimed at improving our ability to coordinate and 
facilitate national and international narcotics law 
enforcement, building on past successes, responding to new and 
emerging drug threats, and enhancing coordination in the law 
enforcement community. The Congress has established ambitious 
performance objectives for our National Drug Control effort, 
including substantial reductions by December 31, 2003, in the 
availability, use, and purity of illegal drugs, and the 
incidence of drug-related crime in the United States. With your 
continued generous support of law enforcement, the Criminal 
Division pledges to use our best efforts to contribute our 
share in achieving these very important objectives.
    Pursuant to this Committee's instructions, the Department 
of Justice submitted a Drug Control Strategic Plan in September 
of 1998. This strategic plan sets forth a framework to 
implement concrete action plans to combat illicit trafficking 
and use of drugs and establishes objectives to implement the 
policy goals of the 1999 National Drug Control Strategy.
    The development of a comprehensive DOJ strategy has been a 
collaborative effort. All of the DOJ law enforcement agencies, 
prosecutorial offices and program offices and the Office of 
Justice Programs have participated in this important process. 
We have drawn upon the expertise, experience and resources of 
the Department's numerous counter-drug components, particularly 
in the areas of enforcement, prevention, education, treatment, 
drug testing, data collection, research and evaluation, 
financial analyses, and international cooperation. This has not 
been an easy task, but it has been an important one and very 
productive. It is an evolving process, one which requires us to 
continue to evaluate what we do and to develop and refine 
meaningful measurements of our results.
    In that regard, during the past 4 months, we have been 
involved in developing a cross-organizational report that can 
be used as a basis for evaluating our efforts to achieve the 
stated objectives. The written statement that I have submitted 
describes this process and the challenges more fully.

                        Primary drug objectives

    The Department's primary objective is to identify, disrupt 
and dismantle drug trafficking organizations which are 
international, multi-jurisdictional, or which have an 
identified local impact. We also seek to assist State and local 
efforts to develop and implement programs and activities to 
reduce drug-related crime and violence. We counter the illegal 
activities of international drug trafficking organizations most 
effectively by collecting, integrating and distributing 
information, targeting organizations through the use of OCDETF, 
instituting financial sector approaches to their money 
laundering schemes, as well as working cooperatively with 
foreign governments to develop productive counter-drug 
relations.
    We have called upon the substantial expertise, experience 
and capabilities of our law enforcement components through the 
OCDETF program that targets the highest level traffickers and 
their organizations by coordinating the collaborative efforts 
of the 9 Federal law enforcement agencies working in 
conjunction with State and local law enforcement.

                         OCDETF accomplishments

    The task forces experienced a truly remarkable year in 
fiscal year 1998. There was a dramatic increase in the OCDETF 
program participation and, as the statistics which Ms. Bucella 
will reveal, show that FY 1998 was clearly the most single 
productive year in OCDETF's history. The extraordinary growth 
in the program, exemplified by the statistics which have been 
provided to this Committee in materials submitted in connection 
with this hearing demonstrates a total commitment to what we 
consider to be the Department's premier counter-drug effort.
    The OCDETF program, once thought to be diminishing in its 
importance, has been infused with the agency's determination to 
work together in a coordinated, focused fashion, and the 
program has seen an aggressive expansion indicative of the 
agency's belief that Federal, State and local partnerships are 
the most effective means of combating drug-related crime.
    The OCDETF model works in every district in the country, 
integrating investigators from a variety of agencies with their 
singular expertise, including State and local departments, and 
involving an Assistant United States Attorney from the 
inception of an OCDETF case. OCDETF cases target organizations 
responsible for the importation and distribution of all classes 
and categories of drugs, and target the major drug trafficking 
networks in virtually every region of the globe.
    OCDETF investigations initiated in fiscal year 1998 range 
from those coordinated by the Special Operations Division, 
which targets the national priority organizations identified by 
DEA, FBI, and Customs, from the Cali cartels, the Mexican Drug 
Federation, to street corner gangs, which bring homicides, 
shootings and fear to our cities and neighborhood.
    The country's most significant high-profile cases have 
typically been OCDETF cases, and fiscal year 1998 is no 
different. Recent successes illustrate the continued force and 
strength of our efforts to dismantle large drug organizations. 
The outstanding accomplishments of the OCDETF program are 
representative of the level of achievement attained during the 
three-year upward trend in the program, and reflects the law 
enforcement agencies' continued commitment to this centerpiece 
drug law enforcement effort.
    This sustained commitment by all agencies comes after 
OCDETF funding for Treasury agencies ATF, Customs and IRS--was 
split off from the Justice Department. This continued agency 
support in the face of separate funding sources satisfies the 
Department of Justice that the request in the President's 
fiscal year 2000 budget to provide OCDETF funds directly to 
individual DOJ OCDETF components; DEA, FBI, INS, the Marshals 
Service, United States Attorney's offices and the Criminal and 
Tax Divisions, will not diminish the effectiveness of the 
program.
    The change in the budget mechanism is consistent with 
efforts to comply with the Government Performance and Results 
Act and reinvention goals to simplify administrative processes. 
The Attorney General fully supports these goals and believes 
that this change will in no way alter the agencies' allegiance 
to OCDETF and its effective way of operating collectively. The 
Department is putting mechanisms in place, outlined in full in 
my submission for the record, to ensure that this budget shift 
does not alter the effectiveness of the OCDETF program in any 
way.

                 criminal division 2000 budget request

    Before I close, I would like to note also that in addition 
to the enhancements to the Criminal Division's counternarcotics 
programs, the fiscal year 2000 budget request includes an 
increase of $1,760,000 and 13 positions for the Criminal 
Division to maintain its leadership role in the Department's 
efforts to combat cybercrime and cyber terrorism. As a result 
of emerging computer technology over recent years, significant 
attention has been and continues to be focused on the 
vulnerability of the critical infrastructure as a result of 
cybercrime and cyber terrorist attacks.
    As the Department takes the lead in addressing the growing 
threat to the Nation's information infrastructure, the criminal 
Division has been directed to broaden its responsibilities in 
several areas. Approval of these resources for this initiative 
would permit the Division to meet its mission priorities and 
maintain its leadership role in the Department's effort to 
combat cybercrime and cyber terrorism.
    I would like to conclude by expressing the appreciation of 
the OCDETF program and the Criminal Division for the strong 
support this Committee has given to us in the past in this very 
important fight the narcotics problem that we face in this 
country. Stemming the drug trafficking and abuse in this 
country remains a top priority for the Department of Justice, 
and the Department will continue to follow a comprehensive, 
coordinated interagency approach to fighting drug trafficking 
and illicit drug abuse and their consequences for this country.
    I can say, having been the United States Attorney in 
Detroit, almost 20 years ago and coming back to the Department 
last year, I am really encouraged by the substantial increase 
in the interagency working process on this very important 
problem, and I look forward to working in the future, along 
with the Administrator and other Federal law enforcement in 
this area.
    [The statement of Mr. Robinson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Rogers. Thank you.
    Just a reminder, your written statements are a part of the 
record if you would like to summarize them.
    We will hear from Director Bucella.

                    Opening Statement of Ms. Bucella

    Ms. Bucella. Chairman Rogers, Congressman Serrano, Members 
of the Subcommittee, I am pleased to be here today with my 
colleagues at the table. We are also joined by Joe Famularo, 
the United States Attorney from the Eastern District of 
Kentucky. With him, I represent the 10,000 men and women of the 
94 United States Attorney's offices nationwide, and thank you 
on their behalf for your continuing support of our critical law 
enforcement mission.
    To carry out our mission, in addition to our base 
appropriations request, we have asked for 352 new positions and 
$25.5 million, an increase in the five following initiatives: 
violence in Indian Country, counterterrorism and computer 
crime, civil defensive litigation, firearms prosecution, and 
child support enforcement.

                 united states attorney's drug program

    I address these needs in my longer statement which I have 
submitted for the record, but for my oral testimony I will 
focus on the work of the United States Attorneys in drug 
enforcement.
    The United States Attorneys' drug strategy continues to 
target and prosecute significant drug traffickers and complex 
drug organizations. The Organized Crime Drug Task Force--
OCDETF--program is a very effective tool against criminal 
organizations responsible for the greatest volume of drugs and 
violence in our country. In 1998, it has been the most 
successful year for OCDETF investigations since the program 
began in 1982. We achieved an increase of 45 percent in the 
number of cases filed when compared to the prior year, with an 
88 percent conviction rate of the defendants whose cases were 
terminated in 1998. Ninety percent of all convicted defendants 
were sentenced to prison, and of those, 65 received life 
sentences. This reflects our commitment to the drug enforcement 
efforts.
    While the President's budget for fiscal year 2000 does not 
request additional narcotics resources for the United States 
Attorneys, we received additional narcotics resources from this 
Subcommittee each of the last three fiscal years, and we 
appreciate your strong, continued support. We have used these 
resources well. In addition to the OCDETF cases I mentioned a 
moment ago, the United States Attorney filed 12,795 cases 
against 20,641 non-OCDETF drug defendants during 1998, a 23-
percent increase in the number of cases filed over 1997. The 
1997 case filings were 15 percent higher than 1996. Ninety 
percent of these defendants were convicted, and 90 percent of 
them went to prison.
    Also, the Assistant United States Attorneys have increased 
their productivity again this year. The average number of drug 
cases handled per attorney workyear rose from 28 in fiscal year 
1995 to 36 in fiscal year 1998, a 29-percent increase in 
productivity over the last three years. Taken together, the 
total number of narcotics cases filed by United States 
Attorneys in 1998 represented 32 percent of all criminal cases 
filed. Prosecuting drug offenders is clearly the biggest thing 
we do, but we can always do better.

                            drug convictions

    Violent gangs are frequently involved in drug trafficking 
activities, and firearms are the tools of their trade. Violent 
gangs destroy the fabric of our society, taking parts of our 
streets over, flooding the streets with drugs, guns, 
terrorizing and killing innocent bystanders. This past year, 
United States Attorneys dismantled violent criminal gangs, 
using Federal racketeering laws, Federal and state narcotics 
laws, and outstanding warrants to take these gang members off 
of our streets.
    Some recent examples include: In the Eastern District of 
Virginia, an individual was sentenced to 93 months in prison 
for carrying a firearm while committing drug offenses, which 
was part of the multiagency task force operation. In less than 
a year, by targeting individuals who use guns to commit crimes, 
it has resulted in 85 indictments, 50 convictions, and the 
removal of 113 firearms from the streets of Norfolk, Virginia.
    Last month, a Tampa grand jury indicted four members of the 
Clemente drug organization for drug conspiracy, distribution, 
murder and firearms used to murder the victims. Seventeen of 
the defendants had already had previous convictions.
    Earlier this month, in the Central District of California, 
an individual pled guilty to a conspiracy to distribute nine 
tons of marijuana as part of a large-scale drug trafficking 
cartel. Another member had previously pled guilty after 
involvement in a shoot-out with rival drug gang members.
    As noted, guns go hand-in-hand with drug trafficking. 
Although the focus of this hearing is on narcotics and our 
requested increases are in other desperately needed areas of 
the budget, we want you to know that any increases you give the 
United States Attorneys will be used wisely and well. In this 
area of tight budgets, finding and using resources effectively 
is a continuing challenge for all of us in law enforcement.
    Once again, I appreciate your continued support in helping 
the United States Attorneys offices, and I will be happy to 
answer any questions that you may have.
    [The statement of Ms. Bucella follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                          Mexico certification

    Mr. Rogers. Well, I thank all of you for your testimony.
    Now, Administrator Constantine, again this year, your 
statement speaks extensively on how Mexico is a major transit 
point for drugs into the United States and that the Mexican 
cartels are the most organized and dangerous organizations. The 
situation is not only getting worse, but it is also expanding. 
In fact, you publicly stated that quote, ``Mexico poses the 
greatest criminal threat to the United States that you have 
seen in your 40 years in law enforcement,'' end quote.
    Last year, a DEA intelligence report stated that every 
major investigation in Mexico,

    Uncovers significant corruption of law enforcement 
officials that continually frustrates our effort in building 
cases on and apprehending the most significant drug 
traffickers, and is the primary reason there has been no 
meaningful progress in drug law enforcement in Mexico.

    Now, from DEA's point of view, did Mexico deserve 
certification as fully cooperating in the war on drugs?
    Mr. Constantine. I think you know, Congressman, as I have 
said here before and before the rest of the committees, I have 
avoided certification----
    Mr. Rogers. You are not going to avoid it here. Do they 
deserve to be certified as fully cooperating on the war on 
drugs?
    Mr. Constantine. I just can't say whether they would be 
certified or not, Congressman, because there are a lot of 
other----
    Mr. Rogers. Did they deserve it?
    Mr. Constantine. I would not say they are fully 
cooperating, but I don't think that is the total----
    Mr. Rogers. Did they deserve certification as being fully 
cooperative on the war on drugs? You above everyone else knows 
whether or not they are cooperating with us.
    Mr. Constantine. I just don't think that is my decision, 
Congressman.
    Mr. Rogers. It is not your decision, but what is your 
recommendation?
    Mr. Constantine. I didn't even recommend. All I do is 
provide information on the criminal organizations, their 
impact, and the levels of corruption, and I have made it a 
point since I have been in Washington that a decision like 
that, a public policy, diplomatic decision is inappropriate for 
someone in my position.
    Mr. Rogers. What percentage of the drugs coming into the 
country are coming through Mexico?
    Mr. Constantine. Probably about 70 percent of all of the 
cocaine entering the United States today comes from Mexico.
    Mr. Rogers. And are you getting cooperation from your 
counterparts in Mexico?
    Mr. Constantine. My counterparts at the highest level are 
cooperating. The rest of the law enforcement system is just 
unable to contend with the problems they are faced with, either 
because of competency levels, corruption, or a lack of will.
    Mr. Rogers. If the government of Mexico, and I am talking 
about in the larger sense, the governments of Mexico, local, 
Federal, State, if they were fully cooperating with us and with 
you in the war on drugs, would we be able to make a significant 
dent in the 70 percent of the cocaine traffic that comes to us 
coming through Mexico?
    Mr. Constantine. I think we would have an impact--I think 
more importantly, Congressman, is if we could have arrested 
those key organized crime leaders who direct the activity 
within the United States who we have identified and made 
criminal cases against, arrested, and then extradited and 
brought to the United States, we would have a major impact on 
the power that we have seen growing for the last 5 years.
    Mr. Rogers. Last year at the hearing we discussed at length 
several issues regarding Mexico's cooperation, issues which I 
believe are critical measures in assessing the true level of 
Mexican cooperation. Here are three of them: whether we have 
strong, effective and uncorrupted joint U.S.-Mexican task 
forces operating to attack the drug problem.
    Mr. Constantine. Not presently, Congressman.
    Mr. Rogers. Whether the Mexican government is allowing DEA 
and other law enforcement to carry firearms for their own 
protection in Mexico?
    Mr. Constantine. Not presently.
    Mr. Rogers. Whether Mexico is committed to extradition of 
Mexican drug fugitives?
    Mr. Constantine. I am not involved in the extradition 
issues. That deals with the State Department and the Justice 
Department.
    Mr. Rogers. Well, has anybody been extradited?
    Mr. Constantine. It is my understanding reading this 
morning's paper that there is an individual who escaped from 
prison in California and went to Mexico and who has been 
extradited back to the United States. I don't know a lot about 
it. I read it in this morning's paper.
    Mr. Rogers. Is he a major player?
    Mr. Constantine. No, sir.

                law enforcement cooperation with mexico

    Mr. Rogers. Two years ago we were told the Administration 
was going to work on those issues. Have any of those problems 
been solved?
    Mr. Constantine. There has been an attempt on the law 
enforcement issues, the people that I deal with, as I 
mentioned, the Attorney General and the Deputy Attorney General 
have been very hard-working and appear to me to be honest, and 
want to make a difference. The problem as far as I see it as a 
law enforcement professional is that all of the layers 
underneath them have been so severely impacted by corruption 
that the ability for them to be able to effect an arrest or to 
effect a serious incursion into their operations is very, very 
limited. Again and again when we do investigations we will find 
that uniformed municipal, State and Federal police officers in 
Mexico act as the uniformed, armed escort for the traffickers 
in the convoy of drugs headed for the United States. For them 
to be able to change that--as honest as they may be and as much 
as they would like to change it--at least from my present 
position of seeing it, they have a 15, 20, 30-year task ahead 
of them to be able to overcome the systemic corruption that 
they have there.
    Mr. Rogers. Well, you are not able to even share any sort 
of intelligence with them, are you?
    Mr. Constantine. We share sensitive information on a need-
to-know basis with certain high-ranking individuals in the 
organization. We have been trying to build what we call vetted 
units, which are individuals in the law enforcement community 
in Mexico who have been hand-picked by the government, who have 
passed polygraph tests. We bring them to the United States 
where DEA, the FBI and the Department of Justice go through a 
5-week training program. Some of those individuals are very 
heroic and very honest. We received a very serious setback this 
year in which high-ranking individuals of that organization 
were determined to have connections to major traffickers and 
failed to pass polygraph tests. They have been removed from 
their positions, and a number of major investigations appear to 
have been compromised.
    Mr. Rogers. Well, until we solve these problems that we 
have talked about briefly here, will we ever be able to have an 
effective fight against the drug problem?
    Mr. Constantine. I think they have to be solved; I have 
seen them solved in other arenas. What I have told people, is 
that there is not an infinite number of drug traffickers, there 
is not an army of them. They are not held together by any 
religious or political philosophy, they are only held together 
by greed and corruption.
    We have been effective against organized crime in the 
United States over the last 30 years. Italy has been effective 
in changing a lot of the dynamics of their organized crime 
problem. I think Colombia, specifically the Colombian National 
Police and General Serrano have done an outstanding job. If you 
were to ask me 5 years ago whether that was possible in 
Colombia I would have questioned it, but I have been very 
impressed with what they have done. So I think it can be 
changed.
    Mr. Rogers. But has it changed for the better with respect 
to Mexico?
    Mr. Constantine. That is a----
    Mr. Rogers. It has gotten worse, has it not, since you were 
here last year?
    Mr. Constantine. The problem of organized criminals from 
Mexico trafficking drugs into the United States is worse than 
it was last year.
    Mr. Rogers. Were you asked your opinion about whether or 
not we ought to certify that Mexico is cooperating?
    Mr. Constantine. No, I was not, and I have taken pains to 
avoid that because I don't think a police official should be 
making those kinds of decisions. There are a lot of other 
issues involved, that I don't get involved in. I am much more 
comfortable just providing the facts of the situation in a very 
objective fashion.
    Mr. Rogers. Well, were you asked what is the situation with 
respect to drug trafficking through Mexico?
    Mr. Constantine. Yes, sir, I was.
    Mr. Rogers. Who asked you?
    Mr. Constantine. I provide my information to the Attorney 
General's office.
    Mr. Rogers. Did you tell her more or less what we have 
talked about here?
    Mr. Constantine. I just reviewed the present situation with 
drug trafficking, the present situation with the law 
enforcement components.
    Mr. Rogers. Did you pull any punches?
    Mr. Constantine. No, sir, I don't ever pull any punches.
    Mr. Rogers. Well, then tell us what you think.
    Mr. Constantine. I almost never pull any punches. But that 
is not my ring to be in, and I don't pull any punches in the 
ring that I am in.

                    extradition of mexican nationals

    Mr. Rogers. Now, Mr. Robinson, the Criminal Division is 
responsible for coordinating with foreign governments 
extradition of fugitives that have charges pending in the U.S. 
Last year, we were told that Mexico has never extradited a 
Mexican national on drug charges. In this morning's Washington 
Times there is a report that they have agreed to the first-ever 
extradition of a Mexican national on drug charges, but 
according to the story, the individual doesn't appear to be a 
major player.
    How many active extradition requests are currently pending?
    Mr. Robinson. Let's see. I am not----
    Ms. Warren. I don't think we know. We have filed a great 
number. We have perhaps 30 priority cases.
    Mr. Rogers. Identify yourself for the reporter.
    Ms. Warren. I am sorry. Mary Lee Warren from the Criminal 
Division, Deputy Assistant Attorney General.
    Mr. Rogers. You say 30. Thirty----
    Mr. Robinson. Priority.
    Mr. Rogers. What does that mean?
    Ms. Warren. Well, they are either the major traffickers 
that Administrator Constantine referred to, or are the major 
fugitives from the State governments, those who have caused 
enormous violence and harm within the State and local 
communities.
    Mr. Rogers. In the U.S.?
    Ms. Warren. In the U.S.
    Mr. Rogers. And none of those have been extradited, 
correct?
    Ms. Warren. They have not yet been extradited. The 
important thing this past year was the arrest of the two 
Amezcua brothers, the leaders of the methamphetamine 
organization out in Mexico. We look forward to the day they are 
surrendered to the United States.
    Mr. Rogers. Do you expect that to happen?
    Ms. Warren. The foreign minister has ruled that they should 
be extradited. Their cases are in court.
    Mr. Rogers. How long has that been pending?
    Ms. Warren. The Amezcua case has just been a year.
    Mr. Rogers. And the 30 major ones that you mentioned, how 
far back do they go?
    Ms. Warren. Some of them go back 5 or more years.
    Mr. Rogers. Is this one extradition we read about this 
morning, is that a major breakthrough?
    Mr. Robinson. I think it is important; it doesn't fall into 
the level that Deputy Assistant Attorney General Warren is 
talking about. I think we need to continue to work hard, and I 
think at virtually all of the meetings that we have been to, 
the subject of extradition has been a high priority. We push on 
it. It is important.
    I can say that I share the frustration that Administrator 
Constantine has about many of these issues. It is our feeling 
that our relationship with Attorney General Madrazo has been a 
good one. We think there are good people there working hard to 
try to help, but as the Administrator indicated, these are 
serious problems that the government of Mexico has, ingrained 
serious problems, and it has been our view that we need to work 
closely, and we have been trying obviously to continue a 
working relationship. We don't want to break that ability to 
continue the cooperation.
    I think the kind of issues that are raised by this 
Committee help keep visibility on the importance of making 
progress on extradition and other cooperative efforts. Many of 
these things have not been solved, and we need to keep working 
on it to get it solved, because this is a big problem with 
Mexico.
    Mr. Rogers. It seems to me like we are cooperating to no 
avail. I mean what can we point to that all of this cooperation 
with them has gained for us in terms of stopping the river of 
drugs killing our kids? I mean at some point in time, don't we 
have to stand up and say, look, no more.
    Mr. Robinson. Well, I think what we can't do, and what we 
shouldn't do, is close the lines of communication to try to 
make it better.
    Now, that is----
    Mr. Rogers. What good are the lines of communications doing 
us except to hear them say no, no, no, no, no?
    Mr. Robinson. I don't think we are seeing that at all 
levels. We are going to have to continue to work on it. We have 
seen improvements. I was privileged to attend the joint 
Mexican-U.S. law enforcement training program that we had 
together to develop the kind of relationships between Mexican 
law enforcement and U.S. law enforcement. It is a work in 
progress, it requires enormous effort, but I think that is 
obviously what we are expected to try to do. Those of us in law 
enforcement are expected to try to figure out who we can trust, 
try to share information, try to work cooperatively with them, 
and we are going to continue obviously to do that. I think the 
moment we sever the lines of communication and quit trying, the 
problem isn't going to get better, it will get even worse.

                           extradition cases

    Mr. Rogers. Well, now, you have 30 on the priority list of 
major Mexican drug traffickers who committed major crimes in 
this country whom they refused to extradite to us for justice. 
How many others are there besides the major players that we 
have pending?
    Mr. Robinson. We could get back with the specific number of 
outstanding extraditions.
    Mr. Rogers. Do you know now?
    Ms. Warren. No, and many are not active, but we can give 
you our best estimate of the numbers that are pending.
    Mr. Rogers. Well, just give me a raw figure today and then 
you can give us a rough estimate in your submissions.
    Ms. Warren. Um, I believe there are at least 20 more who 
are under arrest pursuant to our extradition request who have 
been ordered extradited but we don't have yet. Those cases are 
still in the courts. There are probably another 10 who have 
never been arrested, the leaders of the major organizations 
have never been arrested, although we have provisional arrest 
requests in.
    Mr. Rogers. Now, these 30, do they include the 20 that have 
been arrested?
    Ms. Warren. The 20 are within the 30 that I named before.
    Mr. Rogers. Have those 30 been arrested?
    Ms. Warren. Twenty of them or less are under arrest now.
    Mr. Rogers. And are being held in detention?
    Ms. Warren. On our extradition request.
    Mr. Rogers. They are in detention in Mexico?
    Ms. Warren. That is correct.
    Mr. Rogers. But they refuse to ship them to us?
    Ms. Warren. Their cases are still in their courts. The 
extradition process can sometimes take up to 4 and 5 years in 
Mexico, and sometimes in the United States it can take that 
long as well.
    [Clerk's note.--The following information was provided 
subsequent to the hearing:]

    Because of the limitations of our current database, it is 
not possible to determine the precise number of open cases in 
which provisional arrest or fully-documented extradition 
requests have actually been presented to the Government of 
Mexico. Even if we could, however, the number of open 
extradition cases is very fluid, and any number provided would 
not be accurate from one day to the next. Nevertheless, we 
estimate that, at any given time, there are over 300 open U.S. 
extradition cases in which provisional arrest or fully-
documented extradition requests have been presented to the 
Government of Mexico. Of these 300+ cases, we estimate that 
approximately 100 to 150 are ``active'' cases. The remaining 
cases are considered ``inactive'' for various reasons, but 
often include those cases for which all current leads as to the 
fugitive's specific location in Mexico have been exhausted by 
Mexican authorities and the case has been placed on hold until 
new leads can be developed.

                         colombia certification

    Mr. Rogers. Now, Administrator Constantine, for the first 
year Colombia has been certified as fully cooperating in the 
war on drugs. Is that warranted?
    Mr. Constantine. Yes, sir, I think so. I think they really 
have been heroic in some of the issues they have faced. In 
1995, the major criminal organizations of Cali were so powerful 
that they controlled the telephone companies, and the taxi cab 
services; they had corrupted significant political leaders, and 
there were concerns about allegations that the President of the 
country might also be corrupt. And despite all of that 
environment, when provided with very, very sensitive 
information about the highest level traffickers, they were able 
to execute those warrants and to bring them to justice and hold 
them presently. They have gone even farther than that. They 
have become an effective law enforcement agency that does 
proactive investigations within Colombia and provides us with 
critical information about the shipment of drugs and the 
location of individuals. They have suffered greatly.
    The biggest problem right now is the guerilla movement that 
they are trying to address through the peace process. They have 
had hundreds of people killed or kidnapped and are being held 
hostage in the jungles, many times because of the fact that 
they were advanced bases like Miraflores, which is an 
eradication base. I have met General Serrano, Colonel Gallegos, 
Colonel Duronio, and I think that they are some of the highest 
quality law enforcement officials in this area in the world, 
Congressman. I am very impressed with them.

                      colombia compared to mexico

    Mr. Rogers. How do the successes in Colombia compare to 
Mexico, and are there any lessons to be learned about our 
efforts in Colombia that we can use with Mexico?
    Mr. Constantine. They are totally different cultures, 
totally different law enforcement institutions. In Colombia you 
have the police with a history of traditions and kind of a 
system of excellence that had become seriously corrupted. When 
General Serrano took over, he fired 9,000 policemen for being 
corrupt in his first year in office. In Mexico, you have the 
municipal police, and State police. Both of them allegedly have 
no narcotics enforcement responsibility, but they virtually act 
as emissaries of the traffickers. The Federal law enforcement 
institutions have been reconstituted three times during my 
tenure here as head of DEA trying to find some system that will 
work. So it is very difficult to transport the lessons and 
issues of Colombia to Mexico.
    Mr. Rogers. Did you say that the gentleman's name was 
Serrano?
    Mr. Serrano. I am Jose Serrano.
    Mr. Rogers. Which reminds me. I will yield.

                     increase in drug-related crime

    Mr. Serrano. My opening line should be, next time you see 
the General, tell him that this Jose Serrano is not one-one-
hundredth as courageous as he is. I only have to deal with 
Republicans. That is not that difficult, sometimes, as long as 
I don't bring up the census issue.
    Sir, there is a confusion here about something. I want you 
to try to clear it up for me. We are told in this country that 
crime is down, and I believe that. I believe that. And you tell 
us that crime--drug-related crimes are up, and I believe that. 
But coming from the South Bronx, I always thought that the vast 
majority of crimes were related to drugs. So how can crime be 
down and drug crimes be up? Does that mean that my neighborhood 
didn't get any decrease in crime?
    Mr. Constantine. No. My comments here in the first part of 
my statement dealt with people from midsized rural and suburban 
communities throughout the United States that report an 
increase in drug use and drug crime. Drug usage was at a very 
low level in this country until the late 1960s. It was 
virtually a nonviolent criminal enterprise until the advent of 
crack cocaine, for the most part, in the early 1980's. With 
that drug we had a phenomenal amount of violence attached to 
the distribution, usage, and control of the drug markets. A 
decision was made that something had to be done about crime and 
it had reached a crescendo in the early 1990's. But to give you 
a sense of how large the problem was, in my State and your 
State, in 1960 there were 482 murders. By 1990, with no change 
in the population, we had gone to over 2,600 murders, of which 
2,252 were in the City of New York and the armed robberies in 
our State had gone from 7,000 to 120,000 in a 30-year period of 
time.
    I have since talked with all of the district attorneys in 
the five counties of New York, the special narcotics 
prosecutors and the law enforcement officials, and by targeting 
the violent drug gangs in New York City they were able to 
reduce crime, and everybody tells me that is the key. What once 
was 2,252 murders in that State were 629 murders last year. So 
in the last year alone, there are over 1,600 people who are 
alive, who would not be alive, in my opinion, if there had not 
been that interest in reducing crime. I had a long presentation 
from Marty O'Boyle, who is head of the Organized Crime Control 
Bureau in New York, and they can show from 1994 to 1998, drug 
arrests went from 64,000 to 130,000. The index crimes in the 
city--homicide, assault, robbery, burglary, and manslaughter--
went from 400,000 in 1994 to under 200,000 in 1998. So by 
focusing in on violent drug trafficking groups, they have, in 
essence, over a 7- or 8-year period of time in that city, 
reduced the number of crime victims by 200,000.
    Now, the unfortunate part of this, on the other side, I 
don't think there is any real reduction in the drug usage or 
drug distribution. I think what has happened is that the drug 
trafficking and the attendant violence have been removed by 
very effective efforts by the people in that city. I think the 
next thing is to stabilize a community and you can stabilize a 
situation. The next issue for the next generation and of 
importance is the reduction of usage of drugs in our population 
which works with prevention programs. People in Congress have 
been very good with the Partnership for a Drug-Free America. I 
have spent an awful lot of time with Mr. Califano trying to do 
things with the Center on Addiction and Substance Abuse at 
Columbia University.

                         drug shipment patterns

    Mr. Serrano. Well, that leads me, sir, to my next question. 
Is the United States used as a place from which drugs are then 
shipped elsewhere, or are other places used to ship drugs into 
the U.S.?
    Mr. Constantine. Very seldom are drugs produced within the 
United States. I can remember during the crack epidemic when I 
worked for Governor Cuomo, he said there are no opium poppy 
growers in the United States, there are no coca plants that 
grow here. Marijuana does, but the manufacture of these drugs 
takes place outside the United States and then the drugs are 
shipped to the United States. On occasion they could be 
transshipped further in almost kind of a drop-shift type of 
arrangement maybe to Canada, but it is very rare, Congressman.
    Mr. Serrano. So we are the consumers?
    Mr. Constantine. We are the target of the traffickers, the 
populace of the United States.
    Mr. Serrano. Are we the largest target in the world, or are 
we one of the smallest targets in the world?
    Mr. Constantine. Well, for South America and Mexico we are. 
The heroin problems which are almost of an equivalent nature in 
Europe are, for the most part, from Southwest Asia--Afghanistan 
and Pakistan, and they are directed by organizations out of 
Turkey into Central Europe and into the United Kingdom. They 
have a heroin problem that is equally as severe as ours.
    Mr. Serrano. Are there percentages on the drugs that come 
in from other countries, originate overseas, and what 
percentage of our drug use is that?
    Mr. Constantine. We estimate a lot of it, and we think the 
estimates are fairly valid. I always tell people you have to 
remember that they don't give us their bills of lading, so we 
are really operating in what we see for the most part.
    Our sense is that the cocaine traffic in the United States, 
probably at any given time, ranges between 60 and 75 percent 
coming across the southwest border with Mexico. About 80 
percent of the methamphetamine traffic in the United States is 
under the control of organizations in Mexico. Now, 
methamphetamine is either produced in Mexico and transported 
and smuggled into the United States, usually California, or 
they establish these big laboratories where they manufacture 
drugs and move it from there.
    Heroin on the East Coast of the United States--and people 
remember the movie ``The French Connection''--used to be 
primarily from Southeast Asia, Burma, Thailand, and to a lesser 
degree from Southwest Asia, Pakistan and Afghanistan.
    Now, our studies show about 75 percent of all of the heroin 
that we seize in the United States, and people have to remember 
we start with that as the platform, comes from Colombia. The 
other 15 percent from Mexico, and 10 percent is split between 
Southeast Asia and Southwest Asia. We have just had the ABT 
Associates from Harvard come in and do a study of what we think 
is a usage pattern based on those seizure statistics, and they 
indicate that about 29 percent of the heroin we use in the 
United States is from Mexico. About 50 to 55 percent of the 
heroin is from Colombia, and the remainder between Southeast 
and Southwest Asia.
    The marijuana available in the United States is a 
combination of marijuana smuggled into the United States or 
home-grown, but to give you a sense of the expansion of the 
marijuana traffic coming from Mexico in 1992, there were 105 
tons of marijuana seized along the border of the four border 
States. In 1998, there were 750 tons of marijuana seized along 
the border, and we know we only get a percentage of that. That 
is kind of a breakdown of the three major drugs.

                     impact of mexico certification

    Mr. Serrano. We are going to have, Mr. Chairman, more 
questions on that. Let me just give you one more here, a 
followup question.
    While you may not feel that it is your place to pass 
judgment, as you well stated to the chairman, on whether Mexico 
should be certified, can you comment on whether the granting of 
certification will have a positive impact on achieving more 
cooperation from Mexican law enforcement authorities?
    Mr. Constantine. No, I can't. I have only seen it occur 
once since I have been here, and it occurred with Colombia, 
which was decertified in 1995 or 1996. There was at that point 
in time, from a law enforcement perspective, a very positive 
response on the part of the law enforcement institutions in 
Colombia. They were virtually revolutionized in the space of a 
year. Whether that was in response to the decertification or a 
unilateral decision in the government of Colombia, I couldn't 
tell you.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Latham.

                     international drug trafficking

    Mr. Latham. Thank you, Mr. Chairman. I think I will kind of 
follow a little bit the same discussion as far as some 
international trafficking. You may be aware there was a recent 
story in the Times of London that claimed that the Kosovo 
Liberation Army is funded by international drug money, and 
apparently it is quite well-known in certain circles. According 
to the article, there were three Western European nations, 
including Sweden, who are looking into it, and I guess with our 
current involvement over there it is timely. At the end of the 
article it says ``the sudden ascendancy of the Kosovar 
Albanians and heroin trading in Switzerland, Germany and 
Scandinavia coincides with the sudden growth of the KLA from a 
ragamuffin peasant's army 2 years ago to a 30,000 strong force 
with grenade launchers, anti-tank weapons and AK-47s.''
    Can you give us any insight into that?
    Mr. Constantine. No. We have never, to my knowledge, had an 
investigation that involves any organizations that would be 
operating in that region of the world. My knowledge of it is 
limited to my international responsibilities of meeting with 
law enforcement officials from these other areas.
    The so-called Balkan route has always been the primary 
conduit for heroin trafficking from the sources of origin of 
Pakistan and Afghanistan to the major markets in Western Europe 
and now Eastern Europe. Several things happened, obviously, 
with the change between the Soviet Union and the Newly 
Independent States. A lot of the border controls that were in 
place, both in what was formerly the Soviet Union and what is 
now part of also the European Union changed the vulnerability 
along that Balkan route. I am far from expert in this area, 
Congressman; I have to look at a map every time somebody asks 
me these questions. But the various violence and disruption and 
civil insurrections all the way along those Balkan areas 
continue to disrupt the group and move back and forth.
    People in the law enforcement community in Europe always 
feel that those routes and the protection of those routes have 
been involved with organizations, criminal organizations in 
those areas. But I just read last night, I think it was, in a 
Time Magazine or U.S. News and World Report, I saw something 
like that and that is the first time I have ever heard that in 
my job.
    Mr. Latham. You are not aware then of a connection?
    Mr. Constantine. No, sir.

                     origination of methamphetamine

    Mr. Latham. Last year you stated that 90 to 95 percent of 
the meth in Iowa originated in Mexico and ended up in Iowa from 
California or Texas, and that only about 5 to 10 percent was 
home-grown in the labs. I shouldn't say--homemade, I guess, in 
the labs. Has that changed in the last year?
    Mr. Constantine. Not markedly, Congressman. The criminal 
organizations that we see controlling Iowa's methamphetamine 
are, for the most part, based in California and then are 
directed out of, usually out of, Guadalajara, Colima, and 
Sinaloa in Mexico. The reason for this is the ability to 
produce high-quality methamphetamine in bulk, in a price market 
for people who are addicted to methamphetamine. It always 
places them in a superior position. Obviously, there are people 
in all of these States who get an Internet message for what 
they call the Nazi method of how to manufacture methamphetamine 
using batteries and using hydrous ammonia out of farmer's 
fields and various precursor drugs, cold medicines and things 
that they could buy in the store which are now increasingly 
ephedrine or pseudoephedrine. But once a person is addicted, if 
you can buy it cheaper, rather than having to make it yourself 
and live with the risks of a laboratory, I believe users would 
prefer buying from those organizations. They will always be 
more powerful than the smaller ``mom and pop'' labs.
    Mr. Latham. If that is the case, I think what really sounds 
alarming is the fact that the number of arrests have doubled in 
the past year.
    Mr. Constantine. Ours have quintupled across the country. 
It is the big labs that produce about 90 percent of the 
methamphetamine, and many of the small labs that use the method 
I talked to you about may only produce 6 to 12 ounces at a 
time.
    Mr. Latham. I think you are aware of a case a couple of 
years ago where we made the arrest--where they literally turned 
the 11-year-old girl in Iowa over to the traffickers as a 
hostage for payment. The girl was driven as a hostage, out to 
California to deal with these organizations that then bought 
what they thought were large amounts of methamphetamine. They 
stored the methamphetamine in the platform sneakers of this 11-
year-old girl who was then brought back by the traffickers.
    Last year we provided you with additional resources for the 
networks and labs. Did you give us any additional, I guess, 
update on progress and other funds requested in the 2000 
budget?
    Mr. Constantine. Yes. The cleanup of these laboratories 
have become a major environmental cost issue for local law 
enforcement. Ten percent of the money we used last year was 
used in Iowa. We are using another resource we received last 
year in the budget called regional teams. Two of those teams 
are being established to respond quickly to a drug problem 
until we can get more resources into an area. Sixteen agents 
will be in Des Moines, Iowa.
    Mr. Latham. Can you tell more about that? Will you be 
working with local law enforcement?
    Mr. Constantine. Certainly. When these huge drug problems 
exploded, we couldn't figure out what was happening in Iowa. It 
happened to us so quickly. It takes so long to spot the problem 
and then be able to educate everybody who is in a policy 
position or appropriate authorizing position to get resources. 
So we will set these teams up in various places in the country, 
and will be able to go to Marshalltown where we can deal with 
the sheriff there a great deal, or the chief in Des Moines or 
Ames or wherever it might be. If they have a major problem, we 
can move 6, 8, 12 agents in for a 3- or 4-month period of time, 
until the person in charge of our Midwest Division can start to 
fill up some of those regular offices on a permanent basis with 
these agents within Iowa. So we think these teams will be very 
effective in helping out.
    Last month DEA sponsored a conference where we brought 200 
people in, a number of them from Iowa by the way. The chief of 
Des Moines was one of the chief speakers there as was the 
sheriff from Marshalltown. They told us what their problems are 
in this area and what they need. So we are going to try to 
address those problems in the future. As soon as that report is 
available, we will make it available.

                  availability of qualified personnel

    Mr. Latham. Just kind of a followup for that. I think we 
talked about the availability of qualified personnel last year. 
Are you able to secure enough people?
    Mr. Constantine. I will tell you something. I never in my 
life have seen so many talented, bright people in this 
profession, as over the last few years. We have been able to 
hire many individuals because of retirements, and the help that 
we received from this Committee and the Senate allowed us to 
get caught up on staffing. Today, we probably only hire 1 out 
of every 20 people that come in. We just graduated a class this 
morning, about 47 young people. I will tell you what they look 
like. Probably 10 percent of them already have law degrees or 
advanced degrees. Most of them have significant law enforcement 
experience or military experience before they come in. They 
have thought about this. For some of them, it is their third 
time through a basic training. They have been through basic 
training in the military, basic training as a police officer, 
and then they have come down to Quantico for 17 weeks to redo 
it again. And I will tell you, this country is well served. I 
just stand in amazement.
    I meet with each of them, spend 5 or 10 minutes with them 
in my office, and then I meet with the next group to talk about 
ethics and integrity and issues like that. I think they are 
fantastic. And so we are getting the highest quality that you 
could possibly get. In one class there were four service 
academy graduates. I am amazed, having been in law enforcement 
this long, to see that quality level of entry.
    Mr. Latham. Sounds like you are recruiting in Iowa. Just 
one thing more--I really appreciate what you are doing with the 
Tristate Drug Task Force in Sioux City and your leadership in 
that, and I would hope you would consider that the task force 
is fully certified and eligible for overtime for those people. 
But also Chairman Rogers has really helped in the education of 
local law enforcement by the Regional Methamphetamine Training 
Center in Sioux City. We recently had DEA instruct some courses 
there and it is a tremendous success.
    I will tell you, just everywhere I go in the district, I 
have law enforcement come up and thank us for that program. It 
is fantastic, and I think it is making a real difference. I 
have not seen the number before, but in your testimony it says 
of the 4,000 babies in Iowa that were born being affected by 
drugs, 3,600 or 90 percent of them were affected with meth. It 
is a critical need and I and all Iowans really appreciate the 
cooperation.
    Thank you, Mr. Chairman.
    Mr. Rogers. Ms. Roybal-Allard.

                   compromised agents and inspectors

    Ms. Roybal-Allard. Thank you, Mr. Chairman. I would like to 
preface my questions by saying that I went down to the San 
Diego area and I met with DEA officers, had a briefing, went 
down along the border, and watched you work. I was extremely 
impressed with the professionalism, the commitment of the 
personnel. I had an opportunity to talk to some of them, one on 
one, about different issues and problems, and it was really for 
that reason that I was surprised by some of the things that I 
have heard or have been brought to my attention. You know, just 
like any agency or any business or even Congress, we all have 
our problems.
    And so I would like to ask some questions and give you an 
opportunity to comment on some things that have been brought to 
my attention with the understanding of how I preface this, 
because I do agree with you, I think they are hardworking, very 
dedicated people. But I don't know if it was yesterday or the 
day before in my Treasury-Postal Subcommittee, there was a 
subject on Customs Service integrity and the Customs people 
produced a report for our committee which had said that--let me 
take a quote out of it.
    It said, quote, ``Most serious, however, is the belief that 
inspectors who are hired locally particularly along the 
Southwest border and assigned to local ports of entry could be 
at greater risk of being compromised by family members and 
friends who may exploit the relationship to facilitate criminal 
activities.'' And then the report went on to say that they had 
no solid evidence, no proof of that, but primarily they were 
talking about the Hispanic community that lives along the 
border.
    What surprised me was that during the line of questioning, 
that the person who wrote the report said to me that this was a 
common attitude that was not just an attitude that was shared 
by people in Customs, but that all the Federal law enforcement 
agencies had that same attitude about the Southwest border 
operations. And I would like to hear your comments on that. 
That was something that was said in the hearing.
    Mr. Constantine. I can only speak for DEA. The only caveat 
we have is we don't assign people to their hometown. If you 
come from New York City, we won't assign you to New York. You 
may go to Boston, you may go to Washington. We do look on the 
southwest border for people who have language skills. It is 
very helpful to them in carrying out their responsibilities. 
They may be born in McAllen, Texas and wind up being assigned 
to Tucson, Arizona. People have been police officers in a city 
or village someplace in New York, and they think it might be 
better for them to go back there. We feel it is better for them 
to be enforcing law in a neutral site where they don't have all 
those pressures and connections.
    Now, if later on, if money would be available--we have a 
voluntary transfer program, and what we have said is supposing 
a spouse is transferred with their position and the agent wants 
to get transferred at their own expense, because we just can't 
afford all of these transfers, we will go through with that. 
But it has never been an issue of a relationship to families on 
the border of Mexico and the United States. At least for us 
that has never been a significant problem.

                               profiling

    Ms. Roybal-Allard. Also, I want to bring your attention to 
two articles. One was the one Esquire magazine has sent to me, 
and I believe it is going to be published next month. And what 
the article contends is that DEA's Operation Pipeline 
essentially has become perhaps the chief factor in the training 
of local law enforcement agencies, and that the emphasis is to 
use race-based or culture-based profiling for traffic stops, 95 
percent of which never result in any kind of arrests.
    The other article is one that came out in the Pittsburgh 
Post Gazette. And in this particular article, it says they have 
documented an array of unethical and sometimes illegal 
practices which are routinely practiced by prosecutors at the 
Department of Justice, again where they use profiling methods 
in order to stop people and then the statistics show that very 
little results from it.
    Let me just read you a quote from one of the California 
highway patrolmen who took the Operation Pipeline training; 
where he says, ``It is sheer numbers. Our guys make a lot of 
stops. You have got to kiss a lot of frogs before you find a 
prince.''
    California Highway Patrol canine units kissed 34,000 frogs 
in 1997. Only 2 percent of them were carrying drugs. In other 
States, up to 95 percent of the pipeline searches have been 
found to be dry holes. Now, the concern is that there are a lot 
of American citizens that are being stopped merely based on 
their experience, and obviously their rights are being 
violated, with very few results. I mean, it can't even be 
substantiated on the results, and I would like for you to 
perhaps comment on these.
    Mr. Constantine. It is difficult for me to comment on an 
article I have never read. It is my understanding--in fact is 
Gary Webb the author of that article?
    Ms. Roybal-Allard. Yes. This one is Gary Webb. This is the 
Pittsburgh Post Gazette.
    Mr. Constantine. Gary Webb is the one with San Jose Mercury 
News that said the CIA controlled all the distribution of crack 
cocaine in the United States. That was disproved by the 
Inspector General's Office of both the Department of Justice 
and the CIA. So the credibility of Gary Webb as a source of 
information on that I think is questionable.
    Let me get into Operation Pipeline. One thing we do know is 
that the traffickers will bring the drugs first to either 
Mexico or to the Caribbean; but someplace, once it hits the 
United States, somehow the drugs have to be moved from a major 
location, either along the border or in the continental 
southeastern part of the United States to get to the markets of 
Philadelphia, New York, Chicago, Milwaukee, or wherever it 
might be. That is always done by motor vehicle transport for 
the most part, usually large trucks.
    This became very obvious as we did the investigations. 
Informers would tell us how they transported the drugs. What 
happened over a period of time, officers started to develop 
significant skills. The significant skills include interview 
techniques where the bills of lading didn't match, or the truck 
driver said he was going to or coming from, the rental 
agreement didn't match, they had no license or registration 
themselves. The equipment was not working. You would interview 
the driver who would say they were going to Detroit. You would 
interview the passenger who would say they were going to 
Seattle. Something is wrong with the people in this cab. They 
don't know where they are going. Then there would very often be 
a consent search, and they would sign a written consent for the 
most part as they go forward. All of those external 
manifestations that drug traffickers unfortunately utilize were 
put together in a course of study.
    Now, I have to tell you two things. One, our own counsel's 
office reviews that curriculum to make sure it fits all the 
constitutional safeguards. We review that with the Department 
of Justice and we include it in the training of local 
prosecutors. Never once ever was racial profiling a part of the 
instruction. Just the opposite. We tell people that racial 
profiling is not part of the instruction because we never know 
who is going to be utilized by drug traffickers.
    I referred to a case here of an 11-year-old Iowa girl who 
had been kidnapped and held hostage by the traffickers. So you 
never really know exactly what is going to occur.
    Let me give you a sense of what are the results of some of 
these things. I hope I can find them because I had them 
earlier. What Operation Pipeline really means, in that program, 
is that over the last 10 years those officers have seized 116 
tons of cocaine. That is over $1,500,000,000 worth of cocaine. 
They seized 872 tons of marijuana and $510 million in currency. 
Unfortunately, much of that cocaine, marijuana, and heroin, is 
specifically directed at poor people. People who are the most 
vulnerable and suffer the most because they can't afford 
expensive rehabilitation programs. They can't afford private 
guards at their house. They are the individuals who are the 
victims of so much of this violence.
    So I think any time you can remove billions and billions of 
dollars' worth of drugs and take $5 million that these 
traffickers took off the backs of poor people, I think you are 
doing an outstanding job. And I think those statistics stand in 
contrast to what is written by Gary Webb, who is willing to 
publish information in this country claiming the CIA is 
involved in distribution of crack cocaine in the United States. 
I think Operation Pipeline is a very, very valid program.
    I can't speak for the Department of Justice's U.S. 
Attorneys issue. I have to say, as someone who has dealt with 
prosecutors all my life, I have the greatest respect for them. 
I mean, I work for Attorney General Reno and Eric Holder and 
Jim. These are ethical, decent, honorable people who do the 
best they possibly can. I know most U.S. Attorneys in this 
country. They are first class people who try to do the right 
thing. Do we make mistakes from time to time? Are we human 
beings? Yes. But I don't see people making intentional mistakes 
that hurt other people. But I think the attorneys' question 
might be better directed to Mr. Robinson.

                        prosecutorial practices

    Ms. Roybal-Allard. Would you like to respond?
    Mr. Robinson. I was a little confused--if that is the 
series that I think it is----
    Ms. Roybal-Allard. I can let you have it and then respond--
--
    Mr. Robinson. Well, watch Dateline NBC tomorrow night 
because I talked about this on that. But my recollection, 
though, unless I am mistaken is that there isn't anything in 
those stories. Those stories pick out a number of cases in 
which the claim has been that there was prosecutorial abuse of 
power. I don't recall anything in there that involved this 
issue that you have raised which is a legitimate issue, and I 
think the Administrator and I both would say that some of those 
concerns may be State and local issues in terms of stops on the 
highway and things like that where some of those issues are 
raised, which obviously is not within our jurisdiction. But I 
don't recall anything in those articles that specifically 
relate to issues like racial profiling.
    Of course, once cases get to the investigative stage with 
the United States Attorneys and Federal prosecutors, obviously 
those issues are down the road; but I agree with the 
Administrator that I think that the Justice Department is very 
conscious about the need to avoid any inappropriate 
stereotypical targeting of individuals based upon race or 
ethnicity. I think that is a matter of concern that all the 
United States Attorneys throughout the country would be 
sensitive to.
    Ms. Roybal-Allard. Well, what was interesting--I know my 
time is up, Mr. Chairman--but in talking to the DEA agents, 
they were saying that the drug traffickers are catching on to--
call it what you want, profiling, whatever--and as a result, 
they started noticing that now, instead of those who look like 
Saddam or me, look like you. So beware. They said they started 
to notice that change in who has been targeted to carry.

                       international extraditions

    Mr. Rogers. Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. Mr. Constantine, it is 
a pleasure to hear from you, I really have been impressed with 
the challenges that you face and agents that work with you, and 
we owe you all a great deal of gratitude for that. The best 
thing I heard so far is your comment about the ability to hire 
and recruit people. That makes me feel very good. Let me switch 
to an issue of extradition. I suddenly became interested in 
extradition issues a year and a half ago, but not through a 
drug-related issue. Do you do only drug-related extraditions?
    Mr. Robinson. No. Within the Office of International 
Affairs in the Criminal Division, we really serve nationally 
not only for Federal law enforcement but for State law 
enforcement as well, seeking extraditions. For example, some of 
the high-profile extraditions that we have been involved with 
include the Sheinbein case in Israel and the Ira Einhart case 
in Philadelphia. Those are issues that we work on. We are 
involved in negotiating extradition treaties as well as mutual 
legal assistance agreements, carrying the legal papers across, 
trying to make sure that we are working with our counterparts 
in other countries.
    Mr. Miller. I have a case in my Congressional district. Mr. 
Del Toro. Are you familiar with that case?
    Mr. Robinson. Vaguely familiar.
    Mr. Miller. This was a case of a horrible murder that took 
place in my district in Sarasota, Florida, in November of 1997. 
A man drove from San Antonio, and brutally murdered a young 
mother of six children including 2-year-old quadruplets, 
slashing her throat. The teenage daughter came home that 
afternoon and found her mother. The suspect drove back to San 
Antonio. He was born and raised in the United States. It was a 
conspiracy, a hired killer. The suspect fled to Mexico. Great 
law enforcement, local, State, Federal; the man is arrested. 
Mexico was going to deport him. They suddenly switched over to 
extradition. We are still waiting for his return. Shortly after 
his capture, the death penalty was waived, which was in January 
of last year. It is very frustrating to my community. Sarasota, 
Florida, is a nice area. We never experienced anything like 
this, not until this case came up. It is so maddening and 
frustrating. I don't understand how the system can work like 
this.
    You made the comment--that extradition can take 4 to 5 
years. We have been waiting over a year. I remember when we 
waived the death penalty back in January 1998. Now it is going 
to be May 1999. Then the fall. Now we have no idea when Del 
Toro will be returned. I'd like to know--how does deportation 
work in these cases?
    And I am going to ask about numbers, too, because Dateline 
NBC is doing a story on extradition.
    Mr. Robinson. I know that. I am going to be talking to them 
as well.
    Mr. Miller. They have talked to me already about Mr. Del 
Toro. Again, this was a U.S. citizen accused of a crime in the 
United States, against a U.S. citizen, and he is still over 
there. So explain to me what kind of statistics we're talking 
about, the process, and the length of time. You know, you talk 
about the corruption. You mentioned Mexico. Is corruption 
involved?
    Mr. Robinson. I wish I could give you one clear answer flat 
across the board. Unfortunately with each country, we have a 
different set of challenges, if we have an extradition treaty 
and have established a method of operation, then it helps us. 
We have some Criminal Division people located in various parts 
of the world who work with our embassies and can facilitate. 
The procedures vary from country to country and they do take a 
fair amount of time. And that is true in our system as well, 
because we facilitate handling extradition requests from 
foreign countries where we are seeking to have people in other 
parts of the world who committed crimes there extradited back 
to their countries. It is particularly challenging if we don't 
have an extradition treaty with a particular country. We do 
have a treaty with Mexico. And then we run into----
    Mr. Miller. We share a large border with Mexico. They have 
to be the biggest one we deal with.
    Mr. Robinson. Certainly a major customer of this kind of 
work. We also then run into sovereignty issues. With regard to 
many countries, as you know, in this particular case they will 
not extradite their nationals. Some will not extradite people 
who are going to face the death penalty because in their 
country they are opposed to the death penalty and they won't 
extradite them.
    So it takes more and more and more of the time of the 
Criminal Division. I think we are going to see in the future 
requests probably in this area, as the world shrinks, the need 
to make sure that there is a policy of no safe havens for 
fugitives who committed crimes. And our primary objective is to 
see to it that to the extent possible, people are returned to 
where the crimes have been committed to face the music, and 
that is our objective.

                     recordkeeping for extraditions

    Mr. Miller. In this case, this is a U.S. citizen. Another 
person in this case has been convicted and yet other one pled 
guilty in the case. There is a suspect, another person who 
hasn't been charged yet. But the actual person that committed 
the murders is the one sitting in a Mexican jail. And this 
ordeal goes on and on and on. My community is still irate about 
this issue. Do you keep a record of how many extraditions we 
request?
    Mr. Robinson. Sure. We certainly have----
    Mr. Miller. Dateline NBC is upset about this issue and is 
going to be quizzing you on why you don't keep the numbers.
    Mr. Robinson. Okay. I will be briefed on that tomorrow.
    Mr. Miller. Is there a record of the numbers for each 
extradition treaty? Do you have to file a specific request? Is 
that the way it works?
    Mr. Robinson. Well----
    Mr. Miller. Use in my case the sheriff in Sarasota County. 
Does he make a request through you?
    Mr. Robinson. One of the things we are trying to do is 
develop a network and get the information out to law 
enforcement, State and local law enforcement all around the 
country that the Department can facilitate sometimes. 
Occasionally you have local law enforcement trying to go 
directly to a foreign country, so we are trying to put together 
a manual for assistance of----
    Mr. Miller. Sometimes local law enforcement can go directly 
without going through you; is that right?
    Mr. Robinson. Ordinarily they are not going to get anywhere 
with a foreign country.
    Mr. Miller. You should have the statistics of extradition 
requests. Is it a formal written document when you make a 
request?
    Mr. Robinson. Well, we certainly keep records of the number 
of applications pending in our Office of International Affairs, 
in that there is a group of attorneys that basically have 
divided the world up and are responsible for processing these 
extradition requests.
    Mr. Miller. Get back to me on these statistics. But what 
type of records do you keep with regards to Mexico as far as 
the number of extradition requests and such? We have searched 
for information on the Internet. Amarillo had on the Internet 
the 12 most wanted people in their area, and 8 of them had fled 
to Mexico, they thought. Thought to have fled to Mexico. Well, 
we don't know. I guess you can't do an extradition if you don't 
have the person arrested.
    Mr. Robinson. When you are talking about numbers, we 
probably don't have the information when a formal request to 
the Department has not been made to seek the extradition of----
    Mr. Miller. Those who had formal requests, you should have 
those available?
    Mr. Robinson. There should be how many pending extradition 
requests we have made to Mexico and the status of those.
    Mr. Miller. There was an article in the Washington Times 
this morning, I don't know where these numbers come from; 150 
extradition requests have failed to be acted on by the Mexican 
Government. Is that accurate?
    Mr. Robinson. We will certainly check.
    [Clerk's note.--Subsequent to the hearing, additional 
information on U.S. extradition request to Mexico was provided 
to, and is on file at the Subcommittee.]
    Mr. Miller. Is 4 or 5 years an unusual amount of time? I 
hope that is not typical.
    Ms. Warren. That is the extreme. But there is a trial court 
proceeding and appeals, and then a similar process for habeas 
corpus. So then they can file a habeas corpus request and that 
can be appealed and they can drag it out. I believe the average 
time is probably closer to 2 years if it is litigated.
    Mr. Miller. How about the issue of corruption? Is there 
anything you can tell me about that? Is that a problem?
    Mr. Robinson. Corruption with regard to extradition?
    Mr. Miller. Yes.
    Mr. Robinson. Well, I think for many of these cases I think 
it is probably--it may not be a major issue but perhaps the 
Administrator has a view on that. I think undoubtedly judicial 
systems in various countries can be the subject of influence 
and a powerful individual in some countries certainly can 
present problems as a hypothetical matter.
    Mr. Miller. Not just when there are drugs involved. Del 
Toro is not a wealthy person, according to the newspaper. 
However, the ex-husband is tied into this whole thing, although 
he still hasn't been charged yet.
    Mr. Robinson. It is fair to say that in some situations 
around the country, the difficulty of actually securing a 
person's extradition who is in their legal system--the subject 
of influences could undoubtedly have an impact. It is an 
additional challenge.

                      alternatives to extradition

    Mr. Miller. One more question. Deportation. Mexico does 
deport people sometimes. I found a case recently where somebody 
was accused of murder in Arkansas and they quickly deported him 
and he was arrested in Mexico, and they deported him to Texas 
authorities. Is this an arbitrary decision?
    Mr. Robinson. I don't know that it is an arbitrary 
decision. It is an alternative avenue to the lengthy 
extradition in certain instances and something that we explore 
among many options. Our objective in these situations is 
obviously when we are seeking the return of an individual to 
face criminal charges in this country, the long hard way is 
extradition. Under certain circumstances, a person can be 
deported to us or a variety of other ways. Our objective is to 
get the person back here through legal channels, obviously you 
have to follow the law.
    Mr. Miller. This is going to be a bigger problem because of 
the people who escaped jail down in Texas. I remember reading 
the articles about their escape from death row. Authorities 
were afraid they were going to Mexico because Texas executes 
murderers. It takes years maybe to get them back. The more you 
publicize a case like the Del Toro case, the more people become 
aware, hey, go to Mexico. It is not a pleasant place to stay, I 
imagine, Mexican jails.
    Mr. Robinson. I think not, from what I know.
    Mr. Miller. But at least they are avoiding the death 
penalty in the United States if applied in that State. I think 
this is a serious problem in the United States. I didn't 
realize this but the more I read about it and talk about it, I 
hear from Members of Congress: Hey, I have a case like yours in 
my district. This is not a partisan issue at all. Anything you 
can do on this issue is appreciated.
    Mr. Robinson. I think, as I said going forward, there is no 
doubt in my mind that as the borders become less relevant, 
people can get on planes and travel. We will see the need for 
increased activity in terms of extradition and working out 
arrangements with the international community to meet this 
objective of providing no safe havens for people who have 
committed crimes.
    Mr. Miller. If you can provide that information, will you 
also give us the latest update on Mr. Del Toro? Did I talk to 
you on the phone that one time?
    Ms. Warren. Yes, we have spoken.
    [Clerk's note.--The following information was provided 
subsequent to the hearing:]

    The Government of Mexico has approved del Toro's 
extradition to the United States. Del Toro has appealed this 
decision, and the case is currently before the Mexican Supreme 
Court. Del Toro remains in custody in a Mexican prison pending 
final resolution of the appeal. Appeals in Mexican courts can 
be lengthy, sometimes taking two years or more, because the 
Mexican judicial system affords many opportunities for 
procedural challenges.

                        ocdetf funding mechanism

    Mr. Rogers. The fiscal year 2000 budget request proposes to 
eliminate the separate funding mechanism which has existed for 
over 18 years, which funds Organized Crime and Drug Task 
Forces. That mechanism was specifically created to ensure a 
coordinated and targeted effort against drugs. Mr. Robinson, 
your own statement highlights the importance these task forces 
have played in the drug war. The National Drug Control Strategy 
indicates that their effectiveness is going to be a key measure 
of our success in the drug war.
    Ms. Bucella, you have been genuinely quiet so I am going to 
ask you: How important do you view these task forces? And I 
want Mr. Robinson to respond as well.
    Ms. Bucella. The task forces have been very effective in 
actually having all of our agencies, law enforcement agencies, 
to include State and locals, and to include Treasury agencies 
with the U.S. Attorney's Office and all of our local 
prosecutors, to actually sit down and work together. So they 
have been very, very effective.
    Mr. Rogers. Mr. Robinson.
    Mr. Robinson. There is no question about the effectiveness 
of it. And I think that the Administrator probably, based upon 
his long experience, could speak more effectively to it than I 
could, but I think one thing is clear, I think Federal law 
enforcement these days have become believers in the need for 
interagency cooperation in this effort. I see significantly 
less sort of turf difficulties, than those that existed before. 
I think the kind of results that we get from the OCDETF 
approach of bringing together different law enforcement 
agencies and the task force effort and the kind of results we 
have had, have made everybody believe we have got to do this in 
order to maximize the use of our resources.
    So we are persuaded that the lesson has been learned; 
people are believers in the need for interagency cooperation. 
We are convinced that the experience that we have had thus far 
will continue to exist.
    Mr. Rogers. Administrator Constantine.
    Mr. Constantine. I agree. I believe when OCDETF was first 
proposed--and I was on the OCDETF Board in the Northern 
District of New York in the early 1980s--it served a purpose at 
that point in time of consolidating everybody's efforts. And 
the big thing that you need in law enforcement very often is 
the availability of resources and funds on a quick basis to 
accomplish some of these things. You get a big investigation 
and good target.
    Now things, you know, some people may think are 
inconsequential, rent for surveillance posts, undercover buy 
money, lease lines for a court-ordered wire tap, and of course 
overtime for some officers that you need. Those are the things 
that choke. Everybody wants to get along but you don't have any 
money. Everybody was strapped at that point, and I think that 
it served a purpose.
    But I have to say that the whole attitude of the law 
enforcement community in the United States today of working 
together on these issues is just revolutionary compared to what 
it was when I first started. We spend a lot of time in DEA at 
every meeting of our senior managers saying this is one of our 
primary areas. I mentioned to you those mobile enforcement 
teams that are effective in reducing violence. We are very 
specific with the instructions to our people that we take no 
credit for the accomplishments of these teams that a local 
chief or sheriff or prosecutor who asks for our help handles 
all of that. That makes them more willing to ask for assistance 
in the future.
    So that part of the whole OCDETF account that provides 
positions, I don't think you need that to force people together 
anymore, but those areas of OCDETF funding which help you with 
the incidentals, those are the things that impede us on a major 
investigation. So I think this will work out very well.
    Mr. Rogers. Since all of you have spoken so highly about 
OCDETF--and I agree with you--does anybody want to take 
responsibility for the fact that the budget requests no 
separate account for OCDETF funding.
    Mr. Robinson. It maintains a level that we have had and I 
think we feel that we can do the job with this, coupled with 
the contributions that are being made by the various agencies. 
There is a significant extra effort, as you can tell from the 
testimony, being put in by each of the agencies, and we 
understand that there are priorities and that this one isn't 
the only priority. But we feel that when you see the kind of 
progress that has been made, we believe that it will continue.
    Mr. Rogers. But the funding mechanism that you are talking 
about is what we did 18 years ago when we discovered it didn't 
work, funding Justice's share of these task forces within the 
individual Justice agencies' budgets, with no coordinated 
OCDETF funding. Eighteen years ago we created this umbrella and 
funded it so that there was coercion to bring the agencies 
together on common programs.
    That is what I am asking you--is it imperative that we have 
some sort of an umbrella OCDETF-funded effort to meld the 
various Justice organizations together?
    Mr. Robinson. There will continue to be that kind of 
coordination. I think what we are talking about is where the 
money goes and eliminating potential layers of bureaucracy in 
the process. But our OCDETF supervision and coordination in the 
Criminal Division is going to continue. I think it will require 
one less check to be written, and I think it is consistent with 
the notion of some efficiency. We didn't see that splitting it 
off to the Customs folks set us back, and we feel that we can 
do this and do it effectively.
    Mr. Rogers. Well, the FBI is the biggest component. What 
makes you think, for example, that they will continue to 
contribute to the OCDETF operation? We all know that money is 
the key, and the only reason that the OCDETF operation has been 
successful, in my opinion, is that it controls the money and 
all of you had to go to them. What makes you think you can turn 
back history and correct history and that this will continue as 
it is when it didn't work 18 years ago?
    Mr. Robinson. I was there 18 years ago, trying to do this. 
The point that I think people have learned is that the 
coordinated effort with the involvement early on of the United 
States Attorneys Office and a cooperative effort between the 
law enforcement agencies is producing results, cases, and 
convictions. People have understood that playing well with each 
other does produce results, and my sense is that people aren't 
going back to the old ways of business where they are guarding 
cases and competing with each other as opposed to cooperating.
    Mr. Rogers. You and I have a little bit of difference 
there. I don't think it will work. It didn't work before.
    Mr. Robinson. We are going to do the best we can to make it 
work, I assure you.
    Mr. Rogers. I don't want to see you tear up a good thing. 
We have a good thing going here.
    Mr. Robinson. We do.
    Mr. Rogers. You do have a good deal more optimism.
    Mr. Robinson. I haven't been in the job long enough to be--
it is less than a year. I continue to be very optimistic.

                          role of intelligence

    Mr. Rogers. I run a little bit. It just seems to me that 
money talks, and OCDETF, I think, will be a thing of the past 
if it has no separate money.
    Now, as drug trafficking organizations become increasingly 
sophisticated, using advanced technologies to evade detection 
and expand their reach, good intelligence plays a more critical 
role in the drug war as we see it. As a result, governmentwide 
spending on drug intelligence has increased significantly to 
almost $285 million in 1999. That is a 189 percent increase 
since just 1992.
    This Subcommittee has tried to do its part in that effort 
by providing DEA more personnel, resources, all the other 
agencies that have to be added. In fact, we gave DEA $9 million 
over and above what was requested last year, to add more 
intelligence analysts and equipment.
    Now, in fiscal year 2000, additional funding is requested 
for both DEA and the Criminal Division in this area. 
Administrator Constantine, in your opinion, has this increased 
funding enhanced your efforts to successfully fight the war on 
drugs?
    Mr. Constantine. Absolutely. It may answer some of the 
questions on cooperation in OCDETF because the key to the 
cooperative venture is the intelligence and the sharing of 
intelligence. We have developed three systems based on enhanced 
resources that you have given to us, that I think over the next 
4 or 5 years will put us at a level in the sharing of narcotics 
intelligence information that I would have thought absolutely 
impossible.
    One is a program for electronic reporting rather than 
pencil-and-paper reports. If you look at the DEA and all of our 
task force personnel, we have over 1,200 people in our task 
forces in addition to our agents, the FBI and all of their task 
force personnel, Customs and all of their task force personnel. 
You are probably talking about the agencies that are 
responsible for about 80 percent of all of the major narcotics 
investigations in the United States, because they tend to be 
either international or certainly interstate.
    The secret now is to make sure all of these three agencies 
share information amongst each other as well as joint targets 
and coordinate them. We do that in the Special Operations 
Division. We have enhanced their assets, which is included in 
this year's budget. That is the Department of Justice, Customs, 
DEA, and the FBI, which acts as kind of an overseer of every 
major international and national organization going on in these 
particular groups.
    Second is with the electronic reporting systems, we are 
virtually on the brink of--I was going to say on top of a 
cliff, but that is not a good analogy because that means the 
results would be negative. When an agent in Newark finishes his 
day's or her day's tour and enters into their electronic report 
all of the license plate numbers, the individuals interviewed, 
telephone numbers analyzed, addresses, they all will go into a 
central data bank. When that agent comes to work the next 
morning, he or she will be advised that one of those addresses, 
one of those names, one of those telephone numbers, one of 
those license plates was part of an investigation conducted by 
an FBI agent in Sacramento, California, or Customs agent in New 
Orleans. That had been unheard of before. That then allows them 
to recognize a joint target and put that information together.
    Now, to do that, you need these intelligence analysts who 
can go over all of this factual information that is provided.
    The second program we have will include all of the rest of 
the law enforcement communities of the United States. We went 
to the State and local law enforcement agencies. They said, Do 
us a favor. Don't develop a new intelligence system. Make the 
ones that you now have work. So they devised an index system 
whereby we provide the service to every law enforcement agency 
in the United States so that they will then be able to use a 
similar system by names of targets and names of addresses.
    Another development is the opening of our new academy in 
Quantico in the spring of this year. I have dedicated 50 beds 
for that facility, for the training of narcotics intelligence 
experts not only in the United States, but from many places we 
will be able to get a faculty from several counties, States and 
local law enforcement, and we will have a joint advisory 
committee of the FBI, Customs, the CIA, the DEA, and ourselves 
to run that program. We will have a joint faculty from all of 
those agencies. I have already talked with some of the law 
enforcement officials from Europe and South America about who 
would be willing to offer visiting instructors for long periods 
of time. And we can take that from the basic intelligence 
analyst course up to a program at the University of Virginia 
for a masters degree. And we will at the same point in time 
reach out to State and local law enforcement, and if we run 50 
weeks a year, we can reach 2,500 people or maybe 2,000, and so 
every narcotics intelligence analyst in this country will be 
trained in the same systems, the same formats, the same 
technology and will be able to share information.
    All of these things, Congressman, would have been 
impossible 4 or 5 years ago without the help that you have 
given us. And when you say, How do you recreate the money of 
OCDETF if you have to share the intelligence data together and 
you are all part of it, that will act--and I hope and I believe 
it will--as the web that brings everybody into the same 
investigations.
    Mr. Rogers. Mr. Robinson, your budget also requests 
increases. How will that affect your current capabilities?
    Mr. Robinson. One of the most amazing things that I did was 
to go out and see the operations that we are doing in terms of 
intelligence gathering. I think the Administrator is exactly 
right. The notion of pulling together this information and 
making it work and being able to trace the organizations and 
the roots is absolutely essential for us to get ahead and stay 
on top of it.
    I think the support the Committee has given to law 
enforcement in providing these intelligence tools is absolutely 
essential, and I think that the only way we are going to get 
this done is to be able to make sure we get the information. As 
the Administrator said, share it throughout the Federal law 
enforcement agencies and work with our State and local 
counterparts in trying to get ahead of the curve on this.

                wiretapping and electronic surveillance

    Mr. Rogers. One of the major challenges facing law 
enforcement has been to maintain wiretapping and other 
electronic surveillance capabilities as technology is changed, 
particularly telephones. We passed the CALEA statute almost 5 
years ago to ensure we could maintain those capabilities, but 
that statute has yet to be implemented. What percentage of your 
drug investigations, Mr. Administrator, have relied on court-
order wiretaps?
    Mr. Constantine. The major investigations of the organized 
crime systems, I will say 90 to 95 percent of our 
investigations are dependent upon that because the trafficker's 
greatest vulnerability is that they have to communicate with 
one another. If they are living in Guadalajara or Cali or Peru, 
and the people they have sent to carry out their orders are in 
New York or Chicago or Houston, they can't meet with them and 
walk and give them instructions. They have to give them 
instructions on a daily basis.
    We know of one organization we are working on right now 
that is shipping five tons of cocaine every 2 weeks, into the 
United States. That is 130 tons of cocaine by one group. Their 
profit is about $1,800,000,000 a year. They invest a great deal 
of that money not only in corruption in their own grade; they 
invest that in technology. So they are constantly working----
    Mr. Rogers. Tell us some of your problems that you have had 
because of the advance in technologies that you are seeing out 
there.
    Mr. Constantine. Well, the switch from analog to digital 
became a major issue in developing technology at the switching 
stations. There are so many carriers in the service right now. 
There has to be entry access. We will do the surveillance, get 
the information, we will see some narcotics, and then we will 
be told that the traffickers are using a certain phone. We will 
go to the U.S. Attorneys. We get affidavits that thick. We will 
finally get a judge who will go over the material and say, 
``You have exhausted every possible investigative remedy. 
Here's a court order. Go ahead with it''. And we will go to the 
carrier and find out they have not designed any ports or 
switching stations to work with it.
    The second area we have is the problem of encryption. 
Encryption of communications used to be something that was the 
domain of intelligence services and the military. Now it is 
available to every citizen in the United States.
    The third thing is calling cards. If you get off any 
airport in the United States if you get off at Dulles or 
National, you see a big vending machine for calling cards. That 
then allows them to make long distance telephone calls without 
any connection to a telephone number or an individual. Two-way 
pagers also have become very difficult. The combination of a 
cellular phone and a radio transmitter which exists between 
some major corporations, where you pick up a phone and then it 
starts as a phone conversation which would then be available to 
us to interdict an access port, and then switches halfway 
through the call to a radio transmission that is difficult for 
us to seize. Those are some of the areas that are confounding 
us and we are always racing to keep up with the traffickers.
    Mr. Rogers. In the event the industry does not upgrade its 
equipment so as to allow you to have court-ordered wiretaps, 
what effect will that have on your cases?
    Mr. Constantine. We will be out of business. The 
traffickers will have a sanctuary.

                        dea financial management

    Mr. Rogers. Thank you. Now, Mr. Administrator, I recently 
learned more troubling news about DEA's financial management. 
Last year we discovered there was a $6 million embezzlement of 
DEA funds by a DEA budget analyst, the second embezzlement in 
recent years. I was assured that was under control. But now we 
have discovered that over the past 3 years, DEA has shifted 
around over $330 million in funds that we provided, without 
ever notifying or seeking approval of this Committee, in direct 
violation of the law. More troubling, when questioned, the DEA 
couldn't provide a full accounting of how that money was 
actually spent. I am not alleging that the money was stolen. 
That is not the point here. The point is the money was spent in 
matters other than what we provided for, and that cannot be 
tolerated. You are the head of this agency. It is occurring on 
your watch, so I want to know how it happened, what you did 
about it. If you didn't know about it, why not?
    Mr. Constantine. Let me separate the two things. One is the 
embezzlement. During that investigation we uncovered an 
employee who had been embezzling funds since 1990. We were able 
to determine how he embezzled the money. We were able to indict 
him and were able to identify at least those assets that were 
left to be seized. We have been unable to bring him to trial 
because of his terminal illness, muscular dystrophy, but we 
have moved civilly for all of the assets that are available.
    The reprogramming of the money which you brought to our 
attention we now find out is, much to my chagrin and our 
chagrin, a process that has been occurring in DEA since 1988. 
And as we look at how this process was occurring, individuals 
would for several reasons--and I have to first of all make it 
very, very clear, we have gone over all the information we have 
presently. There is no embezzlement of this money. There is no 
money missing. Even though it is bad and it is wrong, it is an 
important issue that has to be laid on the table.
    What we found out is a former chief financial officer, 
since retired, and a budget officer, made decisions on their 
own. I can't find one executive, past or present in DEA, who 
was aware of these reprogrammings that were taking place. They 
are on their own, I think, for probably as far as I can see 
three various reasons. The one which I think is probably the 
biggest problem for me, and I am sure for you and the 
Committee, was the decision that they were going to reprogram 
money from one area or budget to another because if Congress 
knew before it was done, somehow they would lose the money or 
they saw some negative connotation. I don't know what that 
would be, but it appears to be it.
    The second part was from kind of an end-of-the-year review 
that occurs within DEA where we would find out that we wouldn't 
spend certain money on salaries or whatever problems, and 
apparently they would say if we don't spend this money now and 
we turn it back in, it will be lost. By the way, I have not yet 
interviewed or had interviewed for purpose of a disciplinary 
matter of these individuals, but our people are looking into 
it.
    The third part appears to be lack of competency. They got 
the money in the beginning of the year. They had an antiquated 
accounting system. They put it in the wrong pot at the 
beginning of the year where it shouldn't have been in the first 
place. When they took it out of there and put it where it was 
probably designed to be in the first place, it had then to be 
reprogrammed.
    The next area would be, for example, the foreign accounts: 
if we were to deploy people overseas, it takes us 12 to 14 
months to eventually get them approved by the State Department, 
language-trained and overseas. In addition to that, there is 
certain equipment that goes with them: cars, computers, and all 
of that. Rather than leaving that money in the foreign account 
at the beginning of the year, they wrongfully moved the account 
into some categorical area of DEA, to buy the car or buy the 
computer out of there, and if they would have left the money in 
a foreign account in the first place, it would have had to be 
reprogrammed.
    All of that said, we are wrong. It is on my watch. I take 
the responsibility for straightening it out.
    Now, we have done two things. We removed officers. We 
removed one. The individual retired. I don't know what our 
legal abilities are in that particular area. We have, with the 
assistance of the Justice Department, continually gone through 
our accounts, the ones in 1998 which are easiest to go through, 
because we now have a state-of-the-art accounting system that 
looks to be okay, and we are looking at 1996 and 1997.
    In the area of the embezzlement, I personally asked for a 
contract with Price Waterhouse to come in and look at all of 
our cash transactions areas. They have indicated that we are 
doing the right things in that particular area. In our 
financial statement other than this issue, Peat Marwick has 
given us, as part of the governmentwide audit, an unqualified 
audit the best level of audit that you can get in that 
particular area.
    I have hired three financial analysts to make them part of 
our inspection team to inspect every part that deals with 
financial issues. If, as the end of a result of the scrub of 
our books, you or any member of the Committee is still 
uncomfortable with the reprogramming aspect, where the money 
goes, I have committed myself to either an outside audit or 
assistance from any other agency that will help us.
    There are some things I can do, obviously, in an 
administrative discipline area. In foreign money, we had 
specifically told everybody over the last 3 years, do not touch 
any of the foreign money, that Congress has dedicated that to 
specific functions. Yet, despite our best instructions, that 
occurred. So I apologize for all of the work that this has 
caused everybody. I have to tell you, none of it has affected 
our foreign enforcement programs. All of them are staffed 
fully. The statistics that I have given you for arrest and 
seizure effectiveness of the agency I don't think has been 
diminished, and if anything, I would probably say that our 
people have done an outstanding job over the last 3 or 4 years. 
It is up to us to do this to your satisfaction. And my biggest 
fear of this would be because of mistakes that we have made 
that somehow it would impact citizens who depend on our service 
greatly. I will do everything possible to make sure that 
doesn't happen.
    Mr. Rogers. Well, we expect you to get to the bottom of it 
real quick, and we want to know right away the whole story 
before we mark up. We will be asking the Committee staff to 
assist you in that review. This is a serious matter. We will 
not allow any agency to spend the monies that we give them 
under false pretenses, and that is what happened here. We gave 
you $330 million over a period of time and whomever at the 
agency decided that they wanted to spend that another way. If 
that is what they want to do, let them run for Congress. But 
until that time, I expect that they will spend these monies 
exactly as we appropriated. If you want to change that in some 
fashion, as you well know, we routinely entertain reprogramming 
requests and most always approve them, given some 
justification, just by a simple letter. That is all we ask. We 
want to be kept informed and have information sought when you 
are changing the taxpayers' dollars from one account to 
another. But for somebody to do that on their own, we want to 
know who it was, when it happened and why. And I expect you to 
take appropriate action in regard to those personnel. If you 
don't, we will.
    Mr. Constantine. We are wrong, you are right. If you know 
my reputation, I don't shrink from taking appropriate action. 
That is not hard for me.
    Mr. Rogers. Well, as I say too, this has nothing to do with 
you personally. I have every confidence in you. I am not happy 
with your financial management team that you have had. I don't 
know what you have done about that. We want to know.
    Mr. Constantine. We have a new team.
    Mr. Rogers. Are they with us today?
    Mr. Constantine. I believe one of them is. Whether he wants 
to stand up at this stage of the game or not is another 
question.
    Mr. Rogers. I think we want to see their faces.
    Mr. Whetstone. Jim Whetstone, Chief Financial Officer of 
DEA.
    Mr. Rogers. All right. Has he been charged with running a 
straight ship?
    Mr. Constantine. He has not only been charged, I think I 
have beat him in the ground within the last 2 months, and one 
of his assistants has wound up in the hospital. They have 
worked tirelessly for 2 or 3 months to try to address the 
mistakes that other people made. I will tell you something, I 
could not ask more of how hard they have worked as have the 
people from the Justice Department. It is up to us to make you 
feel comfortable, and that is our job.
    Mr. Rogers. I won't feel comfortable until I see some 
personnel discipline. Because I don't want the other agencies 
to get the idea they can get by with this. I don't want anybody 
to get by with violating the law. In dealing with taxpayers' 
dollars it is appropriately handled by the Congress. That is 
what we are charged with doing. If we don't do it, they can 
come at us, the public can, and they should. So that is enough 
about that. I don't want to dwell upon it, but I think it needs 
to be dealt with very quickly, forthrightly and severely. And 
we will talk about this some more when we get your report. When 
can we expect to hear from you?
    Mr. Constantine. The scrub of the books to determine where 
all the money has gone, as I have mentioned to you is 
proceeding. I have statements for 1996, 1997, 1998 for the 
accountability of the money, but not the formal agreement, I 
think the Justice Department staff and your staff is set for 
April 14th, which I believe is a correct date.
    Mr. Rogers. All right.
    Mr. Constantine. And if any other agency is thinking about 
this in the future, have them call me and I will tell them what 
it is like.
    Mr. Rogers. Well, any other agency would have gotten a 
harsher lecture.
    Mr. Constantine. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Serrano.

                               profiling

    Mr. Serrano. Thank you, Mr. Chairman.
    Let me just before I ask some questions and touch on some 
subjects, Mr. Chairman, just comment on some of the things that 
I heard as we went around. First of all, I think we should take 
very seriously, and I know you did, the comments made by Ms. 
Roybal-Allard about the profiling of people. That is a big 
issue in this country now and it is a big issue in communities 
like mine. In fact, had I asked Ms. Bucella to bring Mr. Carter 
and Mary Jo Wyatt with her today, she would have had to tell me 
that they are pretty busy with the Justice Department and 
investigating the police department in New York City right now, 
something that has created such an uproar in New York right now 
that 250 people were arrested yesterday at civil disobedience 
demonstrations. The number arrested is reaching 1,000, 
including Members of Congress. It is not a pretty site to be 
handcuffed, as I was this past Monday, just to make a point 
that the police department has to be looked at. When you have a 
26-year-old son who travels with a 26-year-old African-American 
and they tell you the fact that they are college graduates and 
one of them works for the U.S. Marshal's office, and so on, 
that it is not important that they get stopped routinely 
because they look like the people that may be causing problems. 
That really hits home.
    So what we have to do in this country is find a way of 
striking a balance between the gains we have made against crime 
and people's rights to be able to go on. I have no doubt that 
without a suit and a tie and congressional license plates, I 
would get stopped in New York City by the very forceful 
policing that is taking place now. Aggressive policing. Of 
course, with the license plates I could be stopped by a lot of 
citizens who just are very upset at me. But, that is a 
different issue all together.
    Another at least for me, interesting point for the future 
generations to pay a little attention to, is that we seem, in 
this country, to be overrun now or outraged at everything that 
is happening at the south Texas border and how it is affecting 
us. Being a child of the 1960s, I remember when we used to say 
in addition to asking the question, are you a Communist, and if 
they said no, we would then say okay, then, carry on, that we 
should have been asking them, and how else are you setting up 
your societies and what other business are you involved in 
other than anti-Communist activities. I think a lot of what we 
are seeing today is that we focused on winning the Cold War and 
we never focused on winning the drug war and so communism was 
the fear. In the long run, I wish they would have heard us 
more, and we will find out soon.

                         computer related crime

    One quick thing. If I may, Ms. Bucella, just moving on to 
an issue which is part of what you do, but not necessarily 
related to this hearing, but it is related to what the 
Administrator said, you were, I know you are very much involved 
in the issue of computer-related crimes and so on, and yet I 
understand that the FBI was given money by this committee to do 
that kind of work, but you were not, you folks were not. Does 
that create a problem? Is that something we should be looking 
at?
    Ms. Bucella. Yes. Thank you for asking that question. It 
does create a big problem.
    One of the words that just echoes in my head every time is 
balance. For the U.S. Attorneys' offices, every time a new 
appropriation is given to a different agency, not just the DOJ 
investigative agencies, but also Treasury, ATF, Postal, Secret 
Service, they bring cases in. If we don't have a number of new 
assistants assigned, we will have to have those cases 
unaddressed. So I ask for balance again when adding new agents. 
We have to account for what is going to happen with the cases.
    In the area of computer technology, unlike drugs, in the 
area of drugs, we usually use a ratio of 1 to 3 or 1 to 4, one 
Assistant United States Attorney to 3 or 4 DEA agents or FBI 
agents in the narcotics area. But in the computer crime area, 
because it is so complex, so technical, that many instances, 
both our Assistant United States Attorney and our investigators 
are learning together and working out, because the technology 
is so new, so complex and ever-changing, we are almost at a 1-
to-1 ratio. So that has become a big problem, because we are 
trying to play catch-up and trying to move whatever resources 
that we currently have that are not specifically earmarked for 
drugs or for civil enforcement to get them over to do some of 
the computer crimes.
    Mr. Serrano. And you are requesting dollars to try to deal 
with that problem?
    Ms. Bucella. Yes, we are. We are this time. Last year, we 
had requested it, 36 positions were, in fact, earmarked from 
our existing budget. That did not necessarily help us. So I ask 
if you are going to give us any resources, we can use them, 
especially in the computer crime area.

              drug issues in puerto rico and the caribbean

    Mr. Serrano. Now, I know we are running short of time, so 
what I am going to do is ask some questions probably from the 
three of you. Just answer them as you see fit on the whole 
issue of the drug issue and what is happening in Puerto Rico. 
Now, a lot of people in this country when they look at Puerto 
Rico and that issue, they see it as a place in the Caribbean, 
but the fact is that it is an American territory, so it is no 
different than drugs coming into Miami. It is the same issue. 
Yet, I would like to note what is the issue, you know, what 
percentage of our drugs is coming through there. We were told a 
long time ago that it is one of the beauties of being an 
island. It is hard to invade you militarily. However, it seems 
that drug people can invade islands very easily, unlike 
military forces.
    I also understand that there is a problem with keeping 
agents. Now, I am sure it is not because they hate the sun or 
the beaches, so what is the problem in keeping agents and what 
are we doing specifically to address the issue of the 
Caribbean?
    Mr. Constantine. Let me answer that, because most of that, 
at least some of it is my issue.
    Early in my tenure as Administrator of DEA, I met several 
people that had a big impact on me. One was the Governor of 
Puerto Rico, Governor Rossello, and the second was the acting 
U.S. Attorney. He was then the Attorney General of Puerto Rico 
whose brother had been killed in a carjacking. They came to my 
office at different periods of time talking about the impact of 
drug trafficking through Puerto Rico and the impact in Puerto 
Rico as drug trafficking was starting to disrupt a lot of the 
systems and increasing violent crime.
    I was so impressed with all three of them that we decided 
to make Puerto Rico the focal point of a new division for the 
DEA, the Caribbean Division. We used to run it out of Miami, 
and paid a lot of attention to the Bahamas. We have since 
opened our central location for the Caribbean and Puerto Rico. 
We have tripled the number of agents that are stationed in 
Puerto Rico, as has the FBI, and we have worked very closely 
with the chief of police there. I think we have been very 
effective. What had occurred was criminal organizations sent 
people either from Colombia or more likely from the Dominican 
Republic. There came a close distribution system involving the 
leaders from Colombia moving the drugs to the Dominican 
Republic and then from the Dominican Republic to Puerto Rico, 
because as you said, once the drugs are in Puerto Rico, the 
movement of the contraband becomes that much easier.
    We have had some major investigations that never would have 
occurred before as a result of these assets, and I think we are 
making inroads. I give great credit to the leadership of Puerto 
Rico for making crime an issue, and drug distribution. Anything 
more we can do, we will do.
    It happened at the same point in time that we were required 
to put agents in Peru, Bolivia, Colombia, Mexico, and 
eventually, the Southwest border. We started to exhaust a lot 
of our agents who would be fluent in Spanish and would have to 
go to language training. What would occur is if an agent is 
then going to say well, what do I put in for? I can go to 
Puerto Rico or I can go to Colombia. If I go to Colombia, I 
then can avail myself of some enhanced benefits that are being 
provided, government schools for example and so it really 
became like a market who would we get to go.
    I did several things. One was, which tended to violate the 
first agreement in talking to this Congresswoman, was if you 
come from Puerto Rico and you want to go back there as a young 
agent, we would send them back for a period of time to make 
sure we had this dramatic buildup over a short period of time. 
Working with the Attorney General, who was excellent on this, 
and the FBI, we were able to develop some enhancements in 
salary and in education for people who would go there.
    Now, what has happened, is we have stabilized the 
situation, Congressman. We now have virtually full staffing in 
Puerto Rico and we are not facing the needs for those 
enhancements. The trafficking system is still very difficult, 
because--I can't tell you whether it is 25 percent today or 35 
percent, but the Caribbean is the next area of vulnerability 
after the Southwest border in Mexico. That includes Haiti, the 
Dominican Republic, a lot of the out islands all the way from 
Aruba.
    Mr. Serrano. Does it come in by plane?
    Mr. Constantine. Well, the primary way that they do that is 
the general aviation planes, King Airs, Aero Commanders. They 
fly out of the north coast, usually of Colombia, and they go to 
any of the islands that they want to go to. They may drop at 
Jamaica and then bring it in by boat, go-fast boats, but they 
bring it in maybe over the top of Cuba masked in the air 
traffic there; they then have people in what we call go-fast 
high-speed twin-engine boats. They will each have global 
positioning satellites. They will connect with each other by 
radio and by global positioning satellites. They will meet each 
other at an intersection within 15 minutes. They will drop the 
sealed bails of cocaine out of the plane, and then they will 
keep themselves right off the top of the water so no radar can 
pick them up right away, so that when they pop back up, we are 
not sure of exactly where that drop took place. Then eventually 
from there, one of the things that they used to do, before we 
had a lot of the assets, was to get it to Puerto Rico and move 
it to other places.
    But I think eventually over time, we will be more 
successful in Puerto Rico than we will be in other places, 
because there is a sincere interest on the part of the 
leadership at every level that I have dealt with to try to help 
us to do something about it.
    Mr. Robinson. Just let me add, we have spent a fair amount 
of time addressing the issue of getting agents who encounter 
difficulties with, as the Administrator said, if you go on a 
foreign assignment, you have enhancements of a pay package. 
There are issues relating to the recruitment of agents and 
Assistant United States Attorneys who the Criminal Division has 
sent prosecutors down to assist the U.S. Attorney's Office. I 
think it is absolutely critical to the drug war to have 
effective personnel there, and also to provide the kind of 
assistance to the people of Puerto Rico with the gang violence 
and other activities. So it seems to me that anything that 
could be done to assist with regard to our ability to encourage 
people to be able to go to Puerto Rico to fulfill these very 
important positions and deal with this problem that we have had 
of the recruitment and retention of DEA and FBI agents and 
Federal prosecutors in that area, that is something we have 
been spending a lot of time working on.

                       use of the national guard

    Mr. Serrano. Thank you, Mr. Chairman. I just have one 
quick, quick question.
    The governor took a lot of heat for using--heat from some 
groups for using the National Guard.
    Mr. Constantine. The housing projects.
    Mr. Serrano. The housing projects. But the people in the 
housing projects supported it. Do we have any statistics on how 
that worked?
    Mr. Constantine. You would probably have to ask him. I will 
tell you something. I meet a lot of people in life and I don't 
know anything about politics or anything. He is probably one of 
the most impressive people that I have met. It took a lot of 
guts for him to do that. What had happened was the traffickers 
from Colombia, and this happens all the time, rather than 
paying off the workers in Puerto Rico in cash, paid them off in 
dope. So the only way they can make money is selling.
    Mr. Rogers. We have run out of time. There is a vote on the 
floor and we have kept you here beyond the time that we had 
intended. But you have been very forthcoming and helpful to us. 
We appreciate your testimony, and the jobs you are doing.
    Mr. Constantine. Thank you.
    Ms. Bucella. Thank you.
    Mr. Robinson. Thank you.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Tuesday, March 16, 1999.

                    STATE AND LOCAL LAW ENFORCEMENT

                               WITNESSES

LAURIE ROBINSON, ASSISTANT ATTORNEY GENERAL, OFFICE OF JUSTICE PROGRAMS
JOSEPH E. BRANN, DIRECTOR, OFFICE OF COMMUNITY ORIENTED POLICING 
    SERVICES
SHAY BILCHIK, ADMINISTRATOR, OFFICE OF JUVENILE JUSTICE AND DELINQUENCY 
    PREVENTION

                           Opening Statement

    Mr. Rogers.  The Subcommittee will come to order.
    We are pleased to welcome this afternoon Laurie Robinson, 
the Assistant Attorney General of the Office of Justice 
Programs; Shay Bilchik, the Administrator of the Office of 
Juvenile Justice and Delinquency Prevention; and Joseph Brann, 
the Director of the Office of Community Oriented Policing 
Services, also known as the COPS Program.
    Your agencies represent the Federal Government's primary 
assistance to State and local law enforcement agencies and 
their fight against crime in our communities. You are 
responsible for administering grants totaling over $4 billion, 
an amount that has increased over 100 percent from fiscal year 
1995 through fiscal year 1999.
    That covers a full arsenal of programs from adding more 
police officers, building new prisons, addressing domestic 
violence, and combatting and preventing juvenile crime. I am 
concerned that the Administration is proposing cutting 
important programs with proven records, such as the State 
Prison Grant, Law Enforcement Block Grant, and Juvenile 
Accountability Block Grant, and initiating other programs which 
have no track records.
    Obviously, money is not the only answer because not only 
has the Federal crime effort substantially increased, the State 
and local governments are also spending more and more, all for 
the sake of our struggle to reduce crime.
    We all have ideas about how best to tackle these problems. 
With the limitations on funding that we face, we will have to 
pool our knowledge, talent, and resources to make sure that we 
are investing in truly effective programs.
    You are the experts. You must look closely at State and 
local needs, and to recommend strategies for them that work and 
make a difference. Your leadership is essential to addressing 
the crime and drug problems facing this Country. We expect you 
to give it everything that you have.
    We will continue to support you as we have over the past 
years to the best of our ability, to give you the resources you 
need to address the most significant crime problems. We will 
include your written statements in the record.
    We will like you to summarize your statements, hopefully, 
within 5 minutes each, but we will not bring the gavel down on 
you. General Robinson.

                Ms. Laurie Robinson's Opening Statement

    Ms. Robinson.  Mr. Chairman, thank you so much for having 
us here again this year to talk about the important work that 
we are doing together to ensure that States and localities have 
the funding and the help they need to combat crime and ensure 
public safety.
    I want to specifically express my appreciation to you, Mr. 
Chairman, for this Subcommittee's bipartisan support over a 
number of years now to OJP.
    As you know, crime rates are down again this year, for the 
sixth year in a row. The programs we are proposing in the 
budget are designed to build on this momentum and on what we 
learned about what works in reducing crime. Back to the 
earliest days of our program, three decades ago in LEAA, it is 
clear to me that a mix is needed of Block Grant funds, 
discretionary monies, technical assistance, research, and 
training.

                   choices on spending level programs

    It is also clear, however, that difficult choices had to be 
made by the Administration within spending levels available. I 
would like to briefly highlight today five critical areas where 
we propose to target OJP funds in the next fiscal year to build 
on efforts that are making our communities safer.
    First, the important task of ensuring offender 
accountability through programs we know have an impact. Our 
research has shown over and over the link between drug use and 
crime.
    We know from that research that coerced treatment, while we 
have offenders in the system, works. We also know that 
transition treatment under post-release supervision is really 
essential to making those changes in behaviors stick.
    So, we propose to continue and expand the successful Drug 
Treatment in Prison Program, as well as the Drug Court Program. 
We also propose new drug testing sanctions and intervention 
initiatives, to help primarily local communities to hold drug-
involved offenders who are out on probation or parole, 
responsible for changing their behavior, getting off drugs, and 
staying away from offenders.
    A second important focus for OJP is enhancing criminal 
justice technology. Law enforcement professionals tell us today 
that they need a solid technological infrastructure if we are 
going to fight crime effectively.
    They need computer hardware and software for crime mapping 
and they need resources to help reduce the backlog of DNA 
sampling in our Nation's Crime Labs. They need inner- operable 
wireless communications, and they need sophisticated technology 
to improve their forensic science capabilities.
    The funding we are seeking today cannot bring to scale this 
technology for every jurisdiction in the Country. I think it 
can play a vital role by providing seed money for pilot 
projects, demonstration programs, and important advances in our 
knowledge.
    Third, OJP will also continue its focus on addressing crime 
and drug abuse by juveniles. My colleague, Mr. Bilchik, will be 
addressing that in further detail.
    I think it is important that we recognize despite 
statistics showing declines in juvenile crime, that we know 
that this remains very much a continuing concern.

                            budget proposals

    So, among other proposals in the budget, we are requesting 
$20 million for the next fiscal year, a $10 million increase 
for the Drug Prevention Demonstration Program, which you 
started 2 years ago, Mr. Chairman.
    We are seeking funding as well for a new Youth Gun Violence 
Initiative, recognizing that the impact of gun violence on 
young people remains tragically high.
    I was shocked recently, as the mother of a 15-year-old boy, 
to read that a teenager today is more likely to die of a gun 
shot wound than of any disease.
    So, we are proposing in the budget an initiative that 
builds on a pilot effort now underway in four cities to 
aggressively address juveniles' illegal access to guns.
    The fourth area I want to highlight is enhancing community-
based public safety efforts. I view OJP's role here as one of 
providing hands-on technical assistance, knowledge, and funding 
support to empower local communities to help them identify 
their unique crime problems, develop a comprehensive strategy 
to address those specific needs, and then implement efforts to 
put those plans into action.
    We have seen how successful that approach can be, for 
example, through the Weed and Seed Program, which as you know 
was developed by the last Administration, and is now underway 
in some 200 communities. It has been so effective in reducing 
crime, revitalizing neighborhoods, and increasing public 
confidence in law enforcement.
    The final area I would like to mention this afternoon is 
counter-terrorism domestic preparedness. I want to thank you, 
Mr. Chairman, and the Congress, for your vital support in this 
area.
    OJP is proud to be a key part of the Justice Department's 
team that is tackling this issue, working with the FBI, and our 
other Federal branch agencies. While this may be a new mission 
for OJP, working in close partnership with state and local 
jurisdictions is not.
    We are now putting this experience to work to aggressively 
address the problem of state and local domestic preparedness. 
Over the last few months, I have had the chance to visit the 
five Counter-Terrorism Training Centers for first responders 
that we help support, and to talk to those front-line people, 
the first responders, about their needs in this critical area.
    From those discussions and those visits, it is clear to me 
that our budget request for training, technical assistance, and 
equipment funding can go a long way in helping to provide those 
needed resources.
    In conclusion, Mr. Chairman, I recognize that this budget 
request may not be everything that you--or I--might want it to 
be, but I pledge my personal commitment to working with you to 
ensure that State and local criminal justice practitioners have 
the resources they need to protect our Nation's communities.
    I look forward to continuing to work with you toward this 
goal. Of course, I would be happy to answer your questions. 
Thank you.
    [The statement of Ms. Robinson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                    Mr. Bilchik's Opening Statement

    Mr. Rogers.  Thank you. Mr. Bilchik.
    Mr. Bilchik.  Mr. Chairman and members of the Subcommittee, 
it is my pleasure to be here today to discuss the activities of 
the Office of Juvenile Justice and Delinquency Prevention.
    I am able to report to you today that with the support 
provided by Congress, the Department of Justice has been able 
to effectively partner with communities and State and local 
jurisdictions in addressing juvenile crime.
    It is true that youth crime is still a serious problem; 
however, as Ms. Robinson noted, I believe we are making 
progress. We are moving in the right direction. After steady 
increases from 1989 to 1994, the juvenile arrest rate for Part 
I, violent crimes, has dropped for 3 straight years; falling 23 
percent during the time period from 1994 to 1997.
    Every type of violent crime index offense has declined 
significantly. This includes a 43 percent drop in the juvenile 
murder arrest rate from 1993 to 1997. This positive trend is 
due in part to a movement toward a balanced approach to 
attacking juvenile crime.
    It is one that combines prevention programs for at-risk 
youth, with early intervention and sanctions that hold 
offenders accountable at every stage of the Juvenile Justice 
System. Entire communities, with the support that you have 
provided, are coming together; law enforcement, schools, 
businesses, youth services, and the community to protect their 
children, to hold them accountable, and to steer them away from 
crime and drug abuse.
    As a Nation, we can celebrate these achievements, but we 
cannot rest. Although juvenile crime rates are falling, and are 
now approximately where they were in 1990, they are still 23 
percent above where they were as recently as 1988.
    Mr. Chairman, we recognize that juvenile crime is primarily 
a State and local issue. Our Federal role is to provide 
assistance and guidance to support research, evaluation, 
statistics, the seeding demonstration of replication of 
effective programs, training, technical assistance, and 
information sharing.
    I can assure you we will continue to work with State and 
local communities toward balanced, comprehensive, and 
community-wide approaches to preventing and combating juvenile 
crime.

                          objective highlights

    I would like now to highlight some of our recent work and 
outline our objectives for the future for this budget. Since 
1993, the Office has promoted a comprehensive strategy for 
serious violent crimes and offenders, which has served as our 
foundation for our programming.
    The strategy is based on three decades of research on what 
causes delinquency and what works to address it; emphasizing 
six key areas of activity: strengthening families, supporting 
core social institutions. By providing prevention it is the 
most cost effective approach to reduce delinquency.
    While intervening immediately and effectively at the first 
sign of high risk behaviors that can lead to delinquency, and 
by establishing a system of graduated sanctions designed to 
hold every offender accountable.
    To identify and control the small percentage of serious, 
violent and chronic juvenile offenders who account for the 
great majority of serious and violent juvenile crime in this 
Country.
    This type of work, which has taken hold across the Country, 
needs to be supported by a range of prevention and intervention 
programs addressing the most critical issues facing our 
communities today; violence in our families, schools, and 
communities, gang activity, drugs, guns in the hands of 
juveniles, and juvenile crime in our communities.

                           type of tools used

    The tools we have to attack these problems include program 
support for activities, and for the research of OJJDP and other 
institutes and organizations-- We know it can work--Mentoring 
strategies that attack gangs; community-based delinquency 
prevention programs that mobilize communities around juvenile 
gun violence reduction; school and community-based substance 
abuse reduction efforts; multi-disciplinary school violence 
reduction strategies, which involve members of the broad 
community; and programs that reduce child abuse and neglect and 
the victimization of children.

                       president's budget request

    The President's budget request for OJJDP and the Department 
seeks support for each of these areas of activity. It 
complements the support with several other proposed budget 
increases which provides funding for community prosecutors, 
community crime prevention, drug courts, and drug testing of 
offenders.
    Mr. Chairman, we are having success and we are getting the 
word out to communities around the Country about how to be 
successful. In 1998, we distributed over 3.5 million copies of 
our publications; a 45 percent increase from 1997.
    We received over 44,000 requests from communities and 
individuals for information about what works; a 14 percent 
increase over 1997. Our Web site was visited over 90,000 times 
in 1998.
    We sponsored six satellite tele-conferences, each on 
average attended by 13,000 people. We also provided support to 
136 National and local conferences.
    I want to thank the Subcommittee for the support it has 
provide to OJJDP in the past. I look forward to working with 
you, Mr. Chairman, and members of this Subcommittee in the 
future to continue the progress we have seen over the past 
several years. I will be pleased to respond to any questions 
you may have. Thank you very much.
    [The prepared statement of Mr. Bilchik follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                     Mr. Brann's Opening Statement

    Mr. Rogers.  Thank you. Mr. Brann.
    Mr. Brann.  Mr. Chairman and members of the Subcommittee, I 
am very pleased to appear before you once again on behalf of 
the Office of Community Oriented Policing Services.
    Today, what I would like to do is to update you on the 
progress of the Policy Office and show you the results the 
communities are achieving with the help of these grants across 
the Country; and also to discuss the Administration's budget 
request, to continue to work with the Policy Office in fiscal 
year 2000.

              results of hiring community police officers

    I am pleased to report today that the COPS Office will, 
this year, achieve its goal of funding 100,000 additional 
community policing officers, under budget, and ahead of 
schedule.
    We are seeing results from Bangor, Maine to San Diego 
California; North Pole, Alaska, to Brownsville, Texas. Across 
this Country, COPS is planning the hiring and redeployment of 
over 92,000 community police officers.
    More than 50,000 of these new officers are already on the 
beat and fighting crime in their communities. I think it is 
reasonable to ask why there are not even more COPS-funded 
officers on the beat.
    I do have a chart here that I think may be helpful in 
explaining this. This addresses primarily the movement, hiring, 
and selection process, and the training process. It does not 
address the local fiscal steps that an agency has to go 
through.
    In looking at this, what we see typically is it takes 7 to 
10 months for recruitment; to go through the actual classes 
related to selection, and then bring those folks in for the 
various testing phases they go through.
    Once that is completed, we are still looking at 6 to 8 
months, on average, to enroll them into a police academy 
throughout this Country. So, as you can see, the answer is 
actually tied to the challenges of local police hiring 
practices.
    In the course of my career, I did at one time serve as the 
Commander of the Personnel and Training Operations at Santa 
Ana, California. I found that my experience is consistent with 
this.
    Also, ultimately in addition to this with 5 out of every 
100 applicants who begin this process, will make it all the way 
through the process and actually go out there on the street to 
function as a police officer.
    My colleagues in law enforcement across this Country tell 
me that this experience is not unusual. In my opinion, it 
should not be either. As a Former Police Chief, I can assure 
you from personal experience that it is dangerous and foolish 
to rush unprepared officers into service prematurely.
    After our second goal, enhancing community policing, the 
COPS Office continues to help local law enforcement implement 
innovative and effective community policing strategies. 
Community policing has become law enforcement's principal 
weapon in the fight against crime.
    The reason for this is that community policing works. I can 
attest to this based on my number of years in the law 
enforcement arena.
    Having risen through the ranks from that old patrol officer 
in Santa Ana, California to that of the Police Chief in 
Hayward, California, I have witnessed and experienced first-
hand the benefits and the impact of community policing.
    As the Director of the COPS Office for the past 5 years, I 
have had the privilege of visiting many communities across this 
Country; large and small agencies, and urban and rural ones as 
well.

                            crime reduction

    I have seen how COPS funding has served as a catalyst for 
this revolutionary shift that we are seeing and we are 
experiencing towards committee policing. Community policing and 
the COPS Program all reduce crime in the communities all across 
the Country.
    In Boston, violent crime is at a 30-year low. In Mesquite, 
Texas they have recently reported that they are experiencing 
the lowest crime they have had in 25 years. In Reno, Nevada 
gang violence plunged 40 percent in the last year alone. Right 
across the River here in Arlington, Virginia burglaries have 
dropped to their lowest level reported in nearly 40 years.
    In addition, there are a number of examples, that I have 
here in the back of the room that contain just some examples of 
how COPS Funds and community policing are making a very real 
difference in the lives of Americans.
    Crime has dropped 6.5 consecutive years. In the last 6 
years, violent crime has dropped more than 20 percent and the 
murder rate has fallen to its lowest level in 30 years.
    Now, I will not sit here and tell you that the COPS Program 
is solely responsible for this dramatic decrease in crime. I 
can, however, tell you that the number of officers on the 
street is up, and this increases every day.
    Police Chiefs, Sheriffs, and Criminal Justice Experts say 
that if more police were in community policing, it means less 
crime. I would now like to turn to the Administration's budget 
request for the COPS Office for fiscal year 2000.
    Mr. Rogers.  I wonder if we could interrupt your testimony? 
We have a vote on the Floor and time is just about out. We are 
going to take about a 2-minute recess.
    Mr. Brann.  Okay.
    Mr. Rogers.  So, hold that thought.
    [Recess.]
    Mr. Rogers.  The Subcommittee will come to order.
    Mr. Brann, we will hear the rest of your statement.
    Mr. Brann.  Thank you. As I said, we will reach our goal of 
funding 100,000 community policing officers in fiscal year 
1999. We are proud of this accomplishment.
    I think we agree that now is not the time to sit back and 
simply pat ourselves on the back. Crime is down, but it is 
still far too high. In 1997 alone, there were more than 18,000 
murders in this Country.

                           funding and hiring

    When you think about that in terms of the human impact and 
social consequences, that is a truly frightening number. It 
represents 18,000 of our family and friends; 18,000 
constituents; and it is 18,000 too many.
    That is one of the reasons why we are requesting a total of 
$1.27 billion to add more officers to the street to support 
measures to engage the entire community in preventing crime, to 
fund community prosecutors, and to provide local law 
enforcement with the technology needed to keep pace with 
increasingly sophisticated criminals.
    We are requesting $365.7 million to hire or redeploy 
additional community policing officers. We need to continue to 
add officers to the street, especially in those areas that have 
not benefited from this historic drop in crime.
    We also need to help economically distressed communities 
keep their officers on the street. With this in mind, we are 
targeting $50 million for a Retention Program. This 
Subcommittee has wisely provided local law enforcement with the 
funds necessary to make great strides in the fight against 
crime.
    If we are going to continue to drive crime rates down and 
to keep them down, we must take the next logical steps in 
community policing.
    That is why we are proposing a $125 million Comprehensive 
Community Crime Prevention Program to prevent juvenile crime, 
recruit seniors to help police, establish citizen problem 
solving academies, and promote police partnerships with other 
service providers.
    To build on the success of community policing, we are also 
proposing $200 million to help communities hire community-based 
prosecutors and establish or expand innovative Community 
Prosecution Programs.
    I think we would all agree with the need to make officers 
on the front line more effective by providing them with the 
best available technology. For that reason, we are seeking $350 
million for vital crime fighting technologies.
    This Technology Program will promote telecommunications and 
systems compatibility among criminal justice agencies, foster 
improvements of the forensic science capabilities of state and 
local agencies, and encourage the use of technology to predict 
and prevent crime.
    Finally, for the management and the administration of the 
COPS Office, we are requesting $36 million from the total 
program dollars.
    Again, I want to thank you for the opportunity to testify. 
I especially want to acknowledge this Subcommittee for your 
support of Local law enforcement.
    I look forward to continuing to work with you. On behalf of 
the COPS Office, I do appreciate your consideration of this 
budget request. I will be pleased to answer any questions you 
might have.
    [The prepared statement of Mr. Brann follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rogers.  Thank you for your testimony.
    Mr. Serrano, do you have any opening comments?
    Mr. Serrano.  Mr. Chairman, just to thank these good folks 
for appearing before us. I apologize for not being here at the 
beginning of the testimony. I was caught up where I was and 
where the Chairman was.
    He was where he was supposed to be and I was not. I 
apologize for that. I will have some questions later because 
this area is of great interest to me and the people that I 
represent.
    Mr. Chairman, thank you.

                              block grants

    Mr. Rogers.  Ms. Robinson, once again this year the 
Administration's budget eliminates the Local Law Enforcement 
Block Grant, as you have for several years. That puts this 
Subcommittee in the position of finding additional funds from 
other programs to continue to support much needed assistance 
for local communities' crime efforts.
    I would also point out that the Congress has been fair 
about supporting the COPS Program over the last 3 years, even 
though the Administration continues to eliminate the Block 
Grant Program, which was the Congressional alternative to the 
COPS Program.
    The Attorney General told us at her hearing that the 
Department requested funding for the Block Grant of OMB and 
that obviously the White House nixed it. You mentioned in your 
statement the need for a balanced mix of programs, both 
discretionary and formula grants to address various crime 
problems in communities.
    Do you agree that the Block Grant is critical to that 
balance in order to support local communities' crime fighting 
efforts?

                   local law enforcement block grants

    Ms. Robinson.  Mr. Chairman, as you know, because I have 
made this statement in prior hearings, we are very proud of the 
way that we have implemented the Local Law Enforcement Block 
Grant Program. We have set up a new automated grant system 
through our Bureau of Justice Assistance.
    We have been able to move out roughly 2,700 grants on a 
very good schedule to localities. We are seeing a lot of good 
work done with that funding.
    As a criminal justice professional, it is my view that what 
is needed is a mix, as I indicated in my statement; a mix of 
block grants, discretionary, technical assistance, research, 
statistics, and training.
    On the Local Law Enforcement Block Grant Program, as you 
know, the Department did request that funding from OMB. It has 
been an integral part of the mix of programs that we have 
offered.
    As you also are aware, the Administration is looking at 
spending caps that were in existence, as well as tough choices 
among competing priorities; and made a different decision on 
that and came back with a mix of programs.
    We do believe that the Local Law Enforcement Block Grant 
Program has been implemented well, and has served in many ways 
as a complementary program to COPS and other programs within 
the funding mix.
    Mr. Rogers.  Well, the Local Law Enforcement Block Grant 
will have provided over $1.1 billion over the last 2 years to 
local communities to fight crime, hire cops, pay overtime, buy 
equipment, and technology for law enforcement officers, Crime 
Prevention Programs, security measures in and around schools 
and public places, to enhance the adjudication of criminals; 
that is, courts and prosecutors. The Department is proposing in 
place of those very successful Block Grants $1.3 billion, 
mostly unauthorized, in new programs for things which these 
Block Grant Programs can already be used.
    Why are you proposing a series of new piecemeal programs to 
replace the more successful and flexible Block Grant Programs?
    Ms. Robinson.  First of all, on the issue of the 
authorization, the Administration is going to be sending up a 
piece of legislation or several pieces of legislation to 
address that, as I understand it, within the coming few weeks--
authorization in areas that do not exist would now be 
available.
    Secondly, Mr. Chairman, in a number of the programs that 
are proposed, and I would single out in particular some of the 
technology areas, there is a strong belief, with which I agree, 
that there are certain things that could be done with 
discretionary money which may not be able to be addressed as 
well by Local Block Grants.
    One example of that, that I would pull out is the DNA 
samples backlog. Here we have potentially up to a million 
samples in that backlog, as of the year 2000. In order to get 
that backlog erased, and to get those samples into CODIS so 
that we can be running samples against them from offenders who 
have been arrested, it really is critical.
    In our view, we need a targeted investment. In this case, 
it is $15 million to address that. Similarly, the Community 
Prosecution Program is something that we feel is a natural next 
step in the progression past community policing.
    That is something that can take us to ensuring that there 
are convictions, that there are partnerships with the 
communities, and that we take the lessons learned out of 
community policing and take that as, in effect, the next step.

                    block grants used by localities

    Mr. Rogers.  Well, Block Grant funding has been used by 
localities to hire police officers. Can you tell me how many 
were hired with that funding in fiscal years 1997 and 1998? 
Also, if those were in localities that could not afford the 
COPS Program?
    Ms. Robinson.  About 11 percent of the funding last year--
there was $523 million that you all had appropriated--and 11 
percent was spent on hiring. I do not have the exact figure, 
but we can get that to you.
    I think, equally important, money was also spent on 
overtime and on the equipment and technology areas that, again, 
were compliments to hiring them under COPS.
    Mr. Rogers.  Again, pointing out, those Block Grants are 
100 percent money. In many towns, communities, counties that 
cannot afford the 25, 50, 75 percent local share.
    The COPS Program could go to the Block Grant Program and 
get 100 percent. Can you tell me how many communities that 
could not afford the COPS Program took advantage of the Block 
Program?
    Ms. Robinson.  Mr. Chairman, I do not have that figure with 
me. We would be happy to get that to you. We do know that a 
number of communities have done that. I think one of the 
challenges faced is that the funding is spread over so many 
communities.
    In many cases, the award amount given is quite small. So, 
the question would be whether, in addition to that, they might 
also be going after the COPS funding.
    Mr. Rogers.  Well, if we were to begin funding a $200 
million Community Prosecutor Program, what level of commitment 
would we be taking on? How much money and over how many years?
    Ms. Robinson.  In other words, into the future. Is that 
your question?
    Mr. Rogers.  Yes.
    Ms. Robinson.  The thought here would be that at least for 
several years, and the authorization decisions have not been 
finally made in the crime bill that will be sent to Congress 
shortly, but our thinking at this point is that it would be an 
authorization to go 3 or 4 years into the future.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

    The Local Law Enforcement Block Grant (LLEBG) Program has 7 
authorized purpose areas including Purpose area number 1: Law 
Enforcement Hiring, Overtime, and Equipment/Technology.
    In 1999, approximately $54 million, or 14% of available 
LLEBG funding was targeted for the hiring of law enforcement 
officers. In 1998, $47 million, or 11% of available funding, 
was targeted for this purpose.
    At this time, we are unable to determine the actual number 
of law enforcement officers hired. OJP is continuing to work 
with LLEBG grantees regarding their reporting requirements and 
will address this issue further in our development of the new 
LLEBG grants management system.

                  juvenile accountability block grants

    Mr. Rogers.  Now, your proposal also includes $35 million 
for a new Juvenile Gun Courts Program. The Juvenile 
Accountability Block Grant, which you propose to eliminate can 
already be used for Juvenile Gun Courts, plus Juvenile Drug 
Courts, community prosecutors, juvenile detention facilities, 
technology, and things that you are proposing to do another 
way.
    What evidence do we have that the Juvenile Crime Block 
Grant will not meet the needs that you say we have?
    Ms. Robinson.  I need to defer to my colleague.
    Mr. Bilchik.  I do not think we have any evidence that it 
would not meet our needs, Mr. Chairman. I think that the 2 
years' funding of the Juvenile Block Grant is really just 
beginning to reach the first set of communities.
    Records indicate that the first 10 states have made awards 
in the past several months, that indeed the first year of 
funding is still in the pipeline, let alone the second year 
funding.
    I do not think we have the record yet, but we have no 
reason to doubt that it may meet those needs. What I think we 
are trying to do here is just focus on what we are hearing from 
the field. There is a very specific need; particularly the 
juvenile gun problem.
    As I have testified in one of our prior hearings about the 
increase in juvenile homicides, when we chart out the increase 
in juvenile violent crimes, particularly homicides, the entire 
increase in juvenile homicides is attributable to juvenile 
firearm deaths. The entire decrease we have had in the past 4 
years has been attributable to a decrease in the juvenile 
firearm deaths.

                        juvenile crime reduction

    Mr. Rogers.  We have pumped zillions of dollars in the last 
couple of years into juvenile crime prevention and treatment. 
Most of it through Block Grants that allow communities--they 
can use it for whatever they think is best for their community, 
rather than us, up here, trying to force a one size fits all on 
a lot of the communities in this Country.
    Juvenile crime is entirely the responsibility of the 
states. Are they not in the best position to decide the 
particular programs that would best address the juvenile crime 
issues in their communities, rather than us telling them how to 
spend the money?
    Mr. Bilchik.  I think you are right. I think a lot of 
support would still be provided to local communities through a 
formula approach. With the formula program, the Title V 
Prevention Program, the At-Risk Children's Program, those are 
monies that go out in a formula fashion.
    This was really an attempt, as I have said, to focus on one 
issue that we have heard universally that needs to be addressed 
and then try to help replicate a couple of the programs 
location where we have seen some effectiveness with the 
juvenile gun court. I would equate this in a very similar way, 
Mr. Chairman, to where we were on drug courts 10 or 15 years 
ago.
    A couple of communities experimenting and showing very, 
very good results in reducing juvenile gun violence, and us 
having the opportunity with an investment of this $35 million 
to help replicate that across the Country.
    Hopefully, it would catch fire and indeed there would be 
enough knowledge about it that the Formula Program could 
support it.

                       juvenile gun court program

    Mr. Rogers.  If we were to begin funding a new $35 million 
Juvenile Gun Court Program, what level of commitment would we 
be taking on? How much money would that mean per year over the 
next several years?
    Ms. Robinson.  Again, I think the crime legislation that we 
sent to Congress will clarify that. My recollection is it would 
be for a 3- to 4-year period.

                      truth in sentencing funding

    Mr. Rogers.  Now, you also propose to eliminate, except for 
a few earmarks, the $720 million State Prison Grant Program.
    Your own Bureau of Justice Statistics concluded that the 
average time served by a violent offender has increased as a 
result of States changing their laws to meet the requirements 
of the State Prison Grant Program. That is, State prison grants 
have resulted in keeping violent criminals off the streets for 
longer periods of time. Would you not agree that the State 
Prison Grant Program has been a very effective program?
    Ms. Robinson.  Mr. Chairman, we now do have, as I think you 
know, 28 States that qualify for the Truth in Sentencing 
Funding. We know of 3 additional States that are likely to 
newly qualify this year.
    So, it clearly has had a real impact in states changing 
their laws to ensure that violent offenders spend a longer 
portion of their sentence behind bars. The original 1994 Crime 
Act contemplated that funding would end in the year 2000. The 
authorization ended at that point.
    The States have been aware that this was not support over 
the long term. As they have had the funding support to build 
prison cells, they have had to bear the cost of operations.
    So, it has been a joint venture, if you will, the states 
and Federal Government. But to date, we do think that the 
program has had a substantial impact.
    Mr. Rogers.  Yet, you propose to eliminate it. Why?
    Ms. Robinson.  Mr. Chairman, as I indicated, there were 
tough decisions made by OMB among the priorities and limited 
amounts of money.
    Mr. Rogers.  I do not know why we do not have the OMB up 
here to testify. Every time we hear from anybody, well, we 
asked for it and OMB denied it. I do not know why we do not 
just cut to the chase and subpoena them up here, put them under 
oath on the grill.
    Mr. Serrano.  We would need a larger room for that.
    Mr. Rogers.  You are right about that.
    Well, the State Prison Grant Program is not only Truth in 
Sentencing funds, 50 percent of the funds are available for 
State detention needs, without the Truth in Sentencing 
requirements.
    If we were to eliminate those grants now, I think we would 
be reneging on our commitment to the States that we made a few 
years ago. Mr. Serrano.
    Mr. Serrano.  Thank you, Mr. Chairman.

                           domestic violence

    Ms. Robinson, a few weeks ago, this Subcommittee had a 
hearing with the Legal Services Corporation. One topic of 
discussion at that hearing was LSC's request for directing 
funding in their own budget; specifically associated with 
domestic violence, even though several grantees are receiving 
funding through your Justice Department program.
    Would you comment on this whole issue? Is the funding you 
are requesting under the Justice Department enough to cover 
these needs at this point?
    Ms. Robinson.  The request for $23 million, which is an 
increase from the $12 million this year and the $12 million 
that Mr. Rogers started last year, actually only begins to meet 
the needs out there in many ways. For the $12 million program 
this past year, we had $85 million in requests that came in. 
So, I think the needs are great.
    I think in many ways what we do is a little bit different 
from what LSC has contemplated. For example, under our grant 
program, applicants have to come in and show--did they have a 
collaboration with a local domestic violence advocate's group 
who do training and support.
    We provide funding, for example, to bar associations to 
train pro bono lawyers to provide this assistance free of 
charge. We provide support to legal services clinics. They have 
student help to assist in addressing these needs.
    It is a little bit different than, I think, what LSC has 
specifically requested. In addition to that, our figures show 
that about $7 million of the $12 million from last year went to 
Legal Services providers at the local level.
    So, while we certainly do not give money directly to LSC, 
many of their local affiliates in fact are recipients of this 
funding. It meets a critical need.
    Mr. Serrano.  No doubt that it does meet a critical need. 
My concern is I wonder if there is more that Legal Aid Offices 
could be doing in this area to complement your programs and 
more that you could be doing to assist them in some more 
coordination.
    It just seems at times, and I am one who supports 
innovative and different programs that could be replicated 
throughout the Nation. It seems at times that programs have 
cris-crossed each other. You wonder how much coordination takes 
place.
    I am wondering if there is something you could tell us as 
to how best you could help them and what you would demand from 
them if you had your way to help you.
    Ms. Robinson.  Coordination is always a challenge in 
Government, though we have taken a number of steps here to try 
to meet that. When we first had the funding proposed for this 
program about a year and a half ago, we sat down and met with 
LSC to make sure that, if the appropriations came through, that 
our efforts would be coordinated.
    We have had several meetings since that time. Even more 
importantly, we are trying to ensure that localities are having 
that kind of collaboration and coordination as well.

                         violence against women

    In almost every instance with successful applicants who 
came in under the $12 million program, they showed a 
collaboration between the number of people at the local level 
with different services, domestic violence victim advocates, 
law schools, bar associations, and local legal services 
provided. It seems to me that, that kind of collaboration is 
essential to moving ahead.
    Mr. Serrano.  There was a press article recently that 
indicated that the focus of funding on violence against woman 
had lead to a reduction in deaths associated with these crimes.
    The interesting part of the article is that it says it is a 
reduction in the deaths of men killed in acts of desperation by 
the women they have abused, which then leads to an obvious 
question.
    First of all, could you comment on this? Secondly, are we 
using our limited resources in the right way? I mean, I do not 
want to seem to be in favor of men getting killed.
    It seems to me that if the victims are the children and the 
women, and we seem to be almost celebrating the fact that 
something else did not happen, is that still targeting--is this 
the result of the right actions being taken?
    Does that mean that we are definitely then providing 
through these programs more support for women and children?
    Ms. Robinson.  I think these programs are taking us in the 
right direction. I am familiar with that research from Carnegie 
Mellon. I happened to be out there last year when they were 
presenting the initial findings from this.
    The explanation, if you will, behind the research is that 
many of these collaborative community-based programs have 
assisted women in being able to leave before the violence has 
escalated to the point where, in an act of revenge, perhaps 
while their husband is sleeping, they kill him. That is the 
explanation the researchers gave. I think we need to look 
behind that and see that progress in many jurisdictions--
Quincy, Massachusetts is one that is often cited. In over 10 
years, there has only been one death of a woman who was court-
involved with one of the victim services of the Violence 
Against Women Program. That case in Quincy involved one of our 
sexual abuse case.
    There are now many, many Quincys. That kind of 
collaboration involved the courts and prosecutors in an 
effective kind of collaboration that is actually protecting 
victim's safety and holding offenders accountable.
    So, yes, I think we are very much moving in the right 
direction here.
    Mr. Serrano.  I am glad to hear that, and certainly stand 
assure that we support you in that effort. I know that this is 
a bipartisan effort to deal with this most cowardly of all 
crimes in this society and to protect women and children in 
that situation. So, please, whatever it is that we need to do, 
remind us so that we can deal with this.

                            policing issues

    On the policing issues, as you know on February 4, 1999 in 
my Congressional District, a West African immigrant with no 
criminal record was killed during the morning hours by four New 
York City police officers who fired 41 shots at him in the 
doorway of his Bronx apartment building. It is unclear why the 
police officers opened fire.
    The man, Ama Dou Diallo, was 23 years old. He came here to 
America more than 2 years ago from Ghana and worked as a street 
peddler in Manhattan. He died at the scene. The Bronx District 
Attorney's Office is investigating the shooting; the details of 
which are still murky.
    There are some in New York who have suggested that Federal 
funds should be whipped out for the local police departments 
until issues of police brutality and misconduct are sorted out 
and properly addressed.
    While I do not, at this time, support that kind of action 
to achieving accountability, could you discuss with us other 
ways to hold local police departments accountable in return for 
Federal dollars?
    Is there a way or can you devise a way to impose training 
and diversity requirements on grantees of COPS funding? Let me, 
before you answer, just tell you that I have said it over the 
last couple of weeks.
    Every time it comes up, we will have to repeat it. In the 
25 years that I have been an elected official, I have never 
seen the outcry in my community and in New York with this issue 
of the police. The best way to explain it to you is that for 
years in my ethnic community, the Puerto Rican community, there 
was a division as to the feelings about the police. Older 
Puerto Ricans telling younger Puerto Ricans they are our 
friends. They are the people who protect us.
    Do not gripe so much about them. Stay out of trouble and so 
on. Now, these older folks, most of them retired, are on the 
picket lines, are in the demonstrations saying we do not feel 
safe. We do not feel safe for our children. We do not feel safe 
for our grandchildren.
    I have been quoted as saying, and it was not on my part 
irresponsible, that I know how to avoid the local mugger in my 
South Bronx District. I do not know how to avoid the arrogance 
of many police officers.
    While we celebrate the numbers have gone down in crime, we 
somehow are being told by some people that in the war against 
crime, there are victims and that these are the victims.
    At what point do you get involved? At what point do other 
people get involved? We have starting May 26th a Federal Civil 
Rights Commission Investigation. We have other things 
happening.
    I will tell you, and let me close with this. When the 
people who support the police department throughout this 
country the most begin to complain, it should be a message to 
Government that something is terribly wrong. I will give the 
example.
    If I step out on the street and I see three individuals who 
have spent 25 years criticizing my legislative work, and they 
curse me out, I know where it is coming from.
    If I step in the street and see three people who I know 
have been my supporters for 25 years tell me I am not doing the 
right thing, I had better pay attention because something is 
wrong. That is what has happened in New York.

                           community policing

    Mr. Brann.  Mr. Serrano, I would like to respond in the 
context that not only is it directed at the COPS Office, but in 
a very personal sense as well.
    This having to do, as I indicated, 30 years in the policing 
industry. I think that one of the problems that we have in this 
profession and in this industry relates to the model policing 
that we have subscribed to that we have been following for many 
years.
    That in fact is being turned on its head, as a result of 
community policing. Let me just interject here that community 
policing is not as some people have tried to label it, either 
soft on crime or a public relations or a community relations 
program.
    Nothing could be further from the truth. It is in fact 
effective policing that focuses on the responsibility of police 
to not do something to a community. Policing is not something 
that you do to a community. In fact, it is something that we do 
in concert with, on behalf of a community. The community has to 
be directly involved in identifying the priorities and the 
solutions. I think that is the beauty that leads to community 
policing.
    I spent my career working with two agencies that are in 
fact the dominant population and the minority population. It 
has a very small Anglo population in both communities. We solve 
the same kinds of challenges that many other communities across 
this Country with respect to increasing cultural and ethnic 
diversity.
    I can tell you that earlier in my career, it was remarkably 
different from the last 25 years. The first 5 years, I was in 
very much a traditional organization, but one which in fact 
became a pioneer in community policing improvement.
    It forced us to change our assumptions, our values for that 
matter. It challenged us to take a look at our demeanor, our 
attitude, and our behavior in terms of how we dealt with the 
public.
    Out of that, I think we learned to far better appreciate 
the increasing diversity in our community, to better appreciate 
the circumstances that we were confronting, and to recognize 
that we had become more sensitive ethically, culturally, and on 
a lot of other fronts as well.
    That, to me, is one of the most phenomenal byproducts in 
outcomes of community policing. It does change the way that--
what I have seen is a remarkable shift in communities that have 
really embraced the concept and the philosophy that we have 
practiced for a number of years.
    I can tell you, again, from my own personal experiences, I 
saw a significant decline in both jurisdictions that I served 
in. I have seen this in other jurisdictions as well; a 
significant decline in not only the crime rate, but in the 
number of the complaints coming in.
    At the same time, a significant increase in the number of 
complaints that were being sustained internally within the 
Police Review Process. That told me that we were doing a far 
better job of reacting.
    With respect to the COPS Office and our role in all of 
this, it is in fact to support, to sustain, to expand the 
concept of--in this Country. In so doing, I think it will 
better position us to deal with these very kinds of issues.
    It is not just the change that we are looking in that it is 
gradual; the change that we are trying to effect here. I think 
at the same time, there are agencies where in fact there are 
significant problems.
    We can turn a variety of resources above and beyond the 
simple funding for additional officers, technology, and things 
of that nature. There are things that we are doing through our 
Regional Community Policing Institutes, COPS Office, the 
National Institute of Justice on ethics.
    We are making resounding success. It is very, very well-
accepted in the policing profession. We are expanding upon 
that. We are looking for new ways to get out there and 
addressing these kinds of issues in an over and above board 
manner. Therefore, getting the professional industry to take a 
look at itself.
    I think that the kind of funding you have provided in the 
past, the kinds of things that we have attempted to support in 
a way of professionalizing the police will continue to be 
addressed through what we are already doing, as well as the new 
initiatives that have been proposed.

                       qualified police officers

    Mr. Serrano.  You know, my concern here is at what point do 
we, at one level or another, begin or grow on the theory that 
somebody has to tell local police departments that we have to 
really find out if people are qualified to be police officers?
    Not just the things I saw on your chart; on your chart, you 
had the 100 applicants. They went down to apply and you follow 
the steps that it takes to become a police officer. In there, I 
wonder was there a step in which you asked someone, are you 
prepared to police this particular community?
    Are you fearful of this community? Do you have preconceived 
notions of what these people are? Were you told as a child that 
this is a problem? Were you told that there were a bunch of 
cheats, or Welfare recipients, or lazy people? If you feel 
that, do you think you should be a police officer?
    If you ask a priest, do you not believe in God and he says 
the answer is yes. Then you do not make that person a priest; 
right? If you go to a guy and you say, do you hate people? Do 
you want them to die? Then maybe you should not make them a 
doctor.
    No one seems to ask that question of police officers. All 
we hide in New York City--and New York is a good example of 
other cities. What we hide behind is residency requirement. If 
you had more people living in the City, it would make more.
    I will shock some of you by saying other people say if we 
had more minority cops it would be better. I am not sure. The 
question is do you have more people who understand that when 
there is a confrontation with an unarmed man who may look 
different, act different, that the first thing you do not do is 
pull out your gun and shoot?
    That has to be the last thing you do. You train somebody to 
do that. I am wondering at what point do you include in there, 
well we are going to try to help communities select people who 
are fit to be cops, not people who want to be cops because it 
is a good job or whatever; who are fit to be cops.
    Mr. Brann.  I will give you a quick example. The 
traditional method of selecting police officers historically, 
has been to have existing people at the organization who are 
sitting on these interview panels and administering the various 
written exams, physical agility tests, and what have you.
    In a community policing organization what you find is a 
very common practice is actually to bring the community in as 
members of the selection boards, the selection panels. They 
actually play a role.
    It forces us, again, to take a look at what we are doing--
psychological screening and examining your background 
investigations, and examining the very kinds of issues that are 
here.
    Mr. Serrano.  Let me just tell you the tragedies of what is 
happening in New York and other places. There are what, 98 
percent of the police officers doing the job that we want them 
to do? The department does not have enough public relations, if 
you will. They are quiet.
    The focus is on those four this one time; those two the 
other time. The feeling about the department is that----
    Mr. Brann.  Initially it is both in New York and Los 
Angeles to support minority outreach reach recruitment efforts 
in those two jurisdictions----
    Mr. Serrano.  Mr. Chairman, in closing let me just make a 
friendly request. I hope that it is revealed, all of these 
issues, this year and the coming years that we consider asking 
these folks--they can alert local police departments that the 
program under which they recruit and train has to include 
something else.
    That is some way of finding out if people really want to do 
this job and are they fit to do this job. Fit does not mean 
that they can run the 10, the 100 meter dash or whatever.
    Fit means am I afraid of that person? What do I think of 
that person I am policing. If it does not work that way, then 
we are never going get a police department that has a good 
relationship with the people. It is very tragic right now.

                          state participation

    Mr. Rogers.  Mr. Latham.
    Mr. Latham.  Thank you, Mr. Chairman.
    Welcome to all of you. I am pleased to report that 
representatives from the COPS Office here in Washington have 
worked very, very well with the staff at the Regional 
Methamphetamine Center in Sioux City.
    This law enforcement initiative in the quad-State area is a 
resounding success. We have had 477 officers from 164 
departments in 4 States participate in the first 7 classes that 
were offered; and 20 more classes are scheduled for the 
remainder of the year. We expect about 2,000 more officers to 
be trained in those classes.
    I have held drug meetings in my District, going on in 30 
counties. Law enforcement officials came up and thanked me and 
thanked you, I guess, for the opportunity for the training that 
they are experiencing. And I thank the Chairman very much for 
all of your help in securing the funds for this.
    It is really making a difference. The cooperation is very 
much appreciated from the COPS Office. It is a huge success. I 
represent the District in that whole upper mid-West area and we 
have a terrible meth problem.

                        video conferencing grant

    However, I would like to inquire about the status of the $3 
million video conferencing, tele-conferencing grant that the 
Subcommittee included in the COPS Technology Program last year.
    As you know, the grant is supposed to help rural areas who 
are without significant INS presence by providing them with the 
equipment to interface with INS via video tele-conferencing to 
identify illegal aliens.
    When I talked to the INS, they basically say that you are 
supposed to be doing it. They do not have grant authority. When 
I talked to your Office, they basically tell me that it is INS' 
responsibility.
    I would probably share the Chairman's opinion.
    I would trust you first, I guess, before INS to get it 
right. We are 5 months into the fiscal year. I just wondered 
where we are. Would you update me on the status?
    Mr. Brann.  Yes, Mr. Latham. Thank you, first of all, for 
those very kind comments. The process last year, I think, 
actually enabled us to create a model program here with what is 
being done with the Sioux City Police Department with this 
meter mark from last year.
    It has been serving as a model in terms of regional efforts 
and training. I am so very pleased to hear your experiences 
reflecting that as well. With regard to this earmark, we have 
been working with INS since last December.
    The funds from this, I remember we passed through from COPS 
to INS, that is the way that we set it up. Because this 
question has arisen as to whether or not they have grant making 
authority, we have been unable to complete this Memorandum of 
Understanding.
    We have been pushing on this issue and in fact have a 
meeting setup for this Thursday, the 18th, with INS to try to 
bring this to closure. The point is that we believe we could 
pass it through and they can administer it.
    If they cannot, then we have got to figure out a way to 
move this and move it now. There is no reason for this to 
continue to delay it. As you have said, we are 5 months into 
the fiscal year. We are anxious to get all of these earmarks 
done. This one should be done by now.
    Mr. Latham.  Do you have any idea how many grants could be 
done this fiscal year? Is there money in your budget for the 
year 2000?
    Mr. Brann.  Let me turn to staff on that. We can check on 
that for the record.
    Mr. Latham.  Do you expect to use the money that is in this 
year's budget to get it done before the end of the year?
    Mr. Brann.  Yes, we do. That is our expectation. I will be 
happy to get back to you later this week following that meeting 
on Thursday to let you know what the outcome of that is.
    [The information follows:]

    The COPS Office and officials with the Immigration and 
Naturalization Service (INS) are working together to finalize 
how these grants will be administered. We last met on March 18, 
1999, and we determined that the COPS Office would develop and 
implement a grant program to fund video teleconferencing 
projects and activities. INS will provide substantial input and 
support for this program. We hope to finalize a Memorandum of 
Understanding between the two agencies before the end of April.
    In addition we hope to send out applications to targeted 
jurisdictions (as identified by INS) by the end of May, and 
make awards in mid August. While all of the details have not 
been worked out, we are examining the possibiity of providing 
$100,000 grants to approximately 30 grantees nationwide.
    The Administration has not included funding for this 
specific initiative in its budget request for FY 2000.

    Mr. Latham.  I very much appreciate it. A lot of people are 
very anxious to see the results of it. The people at INS, I 
mean, they think they have it figured out how they are going to 
do it, but they seem to have problems executing occasionally.
    In addition, I want to associate myself with the Chairman's 
comments about the Truth in Sentencing Grants. I would like to 
submit, if I could Mr. Chairman, a letter from the Governor's 
Office, the new Democrat Governor from Iowa, from his Director 
of the Department of Corrections, stating his strong opposition 
to the reduction of that grant.
    [Mr. Kautzky's letter follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     drug court administrative cost

    Mr. Latham.  Again, I want to associate myself to what you 
have brought up before. As you know, I support the Drug Court 
Program. I was pleased to see Woodbury County in my District 
receive a grant to begin their own program.
    I am really supportive of the idea of the increase from $10 
million to $50 million in your budget request. However, I do 
notice that of the additional $10 million, 12 percent or $1.2 
million is allotted for administrative costs.
    In previous years, the entire program's administrative 
costs were under 2 percent of the total cost. In fact, with 
this new increase, you are increasing administrative costs by 
150 percent. What is the explanation.
    Ms. Robinson.  Mr. Latham, I do not know the answer. I will 
get back to you with that figure. Perhaps, though, it 
encompasses our set aside for technical assistance, evaluation, 
and research.
    Typically, our administrative costs have run very low, like 
at one percent or less. I will be happy to get back to you 
about that. We have been proud that we have kept our costs very 
low.
    [The information referred to follows:]

    On April 8, 1999, the Office of Justice Programs, Office of 
Budget and Management Services, directly contacted Congressman 
Latham's staff to discuss questions that arose regarding 
administrative costs associated with the Drug Court Program. 
This discussion was very productive and answered the concerns 
of Congressman Latham, therefore, no further information is 
required.

    Mr. Latham.  Of the $10 million, about 12 percent is 
administrative costs.
    Ms. Robinson.  That does not seem right to me. I will look 
into it and we will get back to you.
    Mr. Latham.  It does not seem right.
    Ms. Robinson.  Let me also say that we are delighted that 
Sioux City does have the drug courts starting and look forward 
to working with you all on that.

                  bullet proof vest partnership grant

    Mr. Latham.  Thank you. The Bullet Proof Vest Partnership 
Grant is a 3-year program. They are well into their first year 
already. Yet, not one vest has been able to be purchased by a 
state or a locality.
    As you know, in rural States like Iowa, small communities 
do not have the resources to afford that. Could you share with 
me what you are doing to expedite the full implementation of 
this vital life saving program?
    Ms. Robinson.  Certainly. This program has been, in many 
ways, a real challenge for us administratively. There are some 
30,000 jurisdictions that will be eligible to purchase vests.
    There are something like 1,200 vendors and hundreds and 
hundreds of available types of vests. So, in effect what we 
have done through our Bureau of Justice Assistance, reinvented 
the process. We are going to be using an Internet-based, in 
effect, shopping mall approach.
    A jurisdiction can register on-line. If they do not have 
Internet access, then we will do it through an 800 number. Then 
turn around payments within 3 days. We are beta testing it 
right now.
    We are going to have it up and running by the end of March. 
So, we are just about ready to go on it, and we are very 
excited about it.

                    family violence research program

    Mr. Latham.  That is good to hear. Just one last question. 
Included in your request, there is $5 million for a National 
Institute of Justice Family Violence Research Program.
    In your justification for the funding of this program, it 
cites the fact that according to the National Academy of 
Sciences, only 114 studies have been conducted in this field. I 
am just wondering is it really under-studied? Do we need the 
115th study?
    If so, I guess how do you know when you get to the point 
where you need to determine how many studies you need to make a 
decision?
    Ms. Robinson.  Mr. Latham, I often share your sense of 
frustration about some of that. In fact, the National Academy 
of Sciences--which is, as you know, is very well-renowned. What 
they did and what we are relying on is that they surveyed, not 
just the number, but what it is those studies looked at and 
said.
    Very frequently in academic research, studies address very 
narrow questions. There are still a number of issues to 
explore. Shay Bilchik here could attest to many of those 
relating to child abuse, relating to neglected children, 
relating to children exposed to violence, for example, in the 
homes that Mr. Serrano talked about where domestic violence 
occurrs.
    Elder abuse; is an issue that is really coming to light 
more and more. What we want to see is not obscure academic 
studies. We want to see evaluations of approaches that look 
like they are working, so that they can be taken and put into 
reality and moved into the program side; so they can actually 
change the behavior of practitioners and help address these 
basic problems.
    I guess I would rely on the National Academy of Sciences 
here. In having looked briefly at their review, I think there 
really is a need there.
    Mr. Latham.  So, you are saying we have only had 114 
studies. You would think that one of them in there would have 
done this already. My concern would just be that the money be 
spent to actually go out and help victims, rather than just to 
do the 115th study.
    It seems like sometime we have got to make a decision on 
what to do. Thank you Mr. Chairman.
    Mr. Rogers.  Ms. Roybal-Allard.

                        successful cops programs

    Ms. Roybal-Allard.  Thank you Mr. Chairman.
    First of all, let me just say that the COPS Program has 
been very, very successful in many of the cities that I 
represent. In addition to Los Angeles, I represent eight other 
small cities.
    One of the concerns of the various police departments has 
always been is that once the money runs out, then what is going 
to happen in terms of all of the progress that has been made?
    I noticed that you are asking for about $50 million for 
retention. I was really happy to see that because I think that 
is a very, very serious concern with the small cities that I 
have in the COPS Program and have been able to make some 
progress in turning the tide with regards to crime.
    We are extremely concerned that once the money runs out, 
that we will be going backwards. I just wanted to let you know 
that I was happy to see that retention money.

                      violent crime against women

    Ms. Robinson, when I was reading your testimony, I guess I 
was interested in more than what was not said rather than what 
was in your testimony, particularly as it pertains to your 
statements about crime going down.
    Although crime is going down, it is my understanding that 
crimes against women have either remained static or have 
somewhat, and you can argue that, actually increased. There was 
no mention of that increase in any of your testimony.
    I was just wondering, what is it that the Justice 
Department is doing to respond to crimes that are being 
committed to institutionalize the effort against crimes against 
women as a priority for the Justice Department?
    Also, if you could respond to if there is anything that 
could be done to strengthen the Violence Against Women Act that 
would help. Maybe the next time that you came before us, you 
would be able to say, crime overall is going down, and so are 
crimes against women.
    Ms. Robinson.  Thank you. There are about 55 different 
funding streams going into OJP. I could not mention all of them 
in the statement. The Violence Against Women area continues to 
be an extraordinarily high priority for the Administration, for 
the Justice Department, and I know for this Subcommittee as 
well.
    Our request is $282 million, which continues the amount 
enacted for 1999. I think it carries forward terribly, terribly 
important work dealing with law enforcement victim; advocates, 
prosecution, and--very importantly--the coordinated approach 
across all of those pieces of the system.
    What we are seeing in communities across this country, and 
I have the opportunity when I travel to go and visit domestic 
violence shelters to talk to victim advocates, to talk to 
victims, to see what kind of difference has been made here.
    In fact, our surveys show this, too, that the level of 
victim satisfaction in these cases has gone up substantially 
because of the support from this Subcommittee, because of the 
support from Congress, and the Administration for this.
    If I were to identify two areas where I think that there is 
real need, one of them, in fact this Subcommittee has 
addressed. That is the $25 million for rural domestic violence.
    The needs in rural areas, from my personal perspective, are 
even greater than in urban areas. For example, last year I was 
in West Virginia. I was in some of the rural counties there. It 
is not a situation that you might find, let us say, in 
Washington, D.C. where somebody could get on the Metro and go 
to a shelter that might even be in an adjoining jurisdiction.
    In many of these situations, the women are very isolated. 
They may not even have the keys to the truck or the car. They 
may not be able to use the telephone without their husband 
observing it.
    There are great issues about victim safety in those 
situations. So, I would urge the Subcommittee to continue the 
$25 million support for the rural program, in particular.
    Secondly, and this goes, I think, to the reauthorization of 
the Violence Against Women Act, rather than an appropriations 
issue. It is very important for the courts to be at the table 
on this. I think we have seen enormous support from law 
enforcement, from prosecution, and from many judges.
    I would also say that additional work needs to be done to 
really bring the judges and the courts on board. So, during the 
consideration of the Violence Against Women reauthorization, 
the Administration will be urging the courts be considered as 
perhaps one of the designated recipients of the Block Grant 
money.

                       corrections program office

    Ms. Roybal-Allard.  Also, when I read your testimony, I 
read where you have a program known as Corrections Program 
Office. Just recently an article came out where Amnesty 
International reported that women inmates in the Nation's 
prisons and jails are being routinely subjected to sexual abuse 
by the male guards.
    I was wondering if you envision any kind of role for that 
Corrections Program Office in working with the state and local 
agencies to investigate these allegations and to find ways to 
work with them so that we do not have these kinds of things 
happening?
    Ms. Robinson.  Our role from OJP would not be to 
investigate. It would be to share information, to do education, 
to assist on training and technical assistance. In fact, from 
our Corrections Program Office, we have a good working 
relationship with I think virtually every state correctional 
administrator in this country, including the one that Mr. 
Latham had referred to.
    One of the things we are planning to do, probably in early 
fall, is to hold a conference, not a huge one, but a real 
working symposium on the issue of women offenders. There are 
very special needs that women offenders have in terms of 
training, education, assistance, because of having minor kids 
at home with whom they still have relationships, issues of 
transition once they come out.
    These and many other issues we need to be addressing and 
addressing very seriously. The purpose of the conference will 
be to address that.
    Ms. Roybal-Allard.  Is this going to happen anyway or is it 
the result of the article? I mean, were you aware of these 
abuses that are taking place?
    Ms. Robinson.  Those kinds of abuses have been discussed 
for several years. In addition to that, I think the other thing 
that really caught our attention is the fact of the growth in 
female offending, which is much greater proportionately than 
for male offenders; the number of women offenders in prison. 
The increase is much greater than for men proportionately.
    Ms. Roybal-Allard.  They are usually drug abuses. Is that 
correct?
    Ms. Robinson.  Many of them are drug-related, correct.
    Ms. Roybal-Allard.  So, this conference, it will be 
actually working with the state and local agencies to do what? 
I mean, what is it that is going to come out of this conference 
that is going to help prevent these kinds of things from 
happening?
    Ms. Robinson.  What we try to do in this kind of setting is 
to raise issues and listen to state and local practitioners 
about the issues they think need to be addressed, and then--in 
our case from OJP--what is it that we can do to help respond?
    Is there help that we could give on training, for example, 
for correctional guards, or educational programs, or addressing 
things specifically for offenders, such as drug treatment?
    Ms. Roybal-Allard.  I was at the White House when the 
President gave his radio talk and introduced his Officer 
Training Initiative where he talked about--law enforcement 
agencies----
    Ms. Robinson.  Mr. Brann addressed some of that in the 
prior question I think on the education and training issues. 
One thing that we are already moving a head with through our 
Bureau of Justice Statistics is to add questions to the 
National Crime Victimization Survey to find out from citizens 
across the Country what their interactions have been with law 
enforcement and to try to really sort out issues relating to 
police use of force.
    This is not for identification of particular departments, 
but to try to get a handle on what kind of statistics that are 
out there. What are the facts? What can we learn from that?
    Ms. Roybal-Allard.  Thank you.
    Mr. Brann.  I would like to respond to that as well. 
Several months ago, the COPS Office and the Civil Rights 
Division co-sponsored a national symposium on this very issue.
    We brought together representatives from Mellon and the 
policing community from around the Country, but also ACLU and a 
variety of public interest organizations to begin discussion 
about this, to take a look at not only model programs and 
strategies, but some of the things that need to be done, both 
within the Justice Department, as well as within the profession 
as a whole.
    There is follow up work that is taking place on that 
thought. As Ms. Robinson indicated, there are really different 
components here in the Justice Department, with Civil Rights 
and other having responsibility to investigate and pursue 
certain kinds of allegations.
    The funding of agencies is looking more towards training 
and creating opportunities for change.
    Ms. Roybal-Allard.  This is interesting. I just want to 
support what Mr. Serrano said in regards to the fact that if we 
are really going to have good community policing or good police 
departments, then we really do need to go beyond. I apologize 
for not being here.
    From what I have seen, we have to go beyond their physical 
capability on whatever task that is important to really test 
somehow what their attitudes are about the communities that 
they are being asked to work.
    I think that, in itself, will make a tremendous difference 
and really help us to move forward towards the objectives that 
we all want.
    That is a good relationship between communities and police 
officers so that they can work together towards the common goal 
of stopping crime in communities. I think that was a very good 
point.
    Thank you, Mr. Chairman.

                           cops authorization

    Mr. Rogers.  Director Brann, I understand as of September 
30, 1998, grants for over 88,000 new police officers had been 
awarded.
    In your testimony you state that you will need to go over 
100,000 ahead of schedule. How many new cops will be provided 
with the fiscal year 1999 appropriated net of $1.4 billion?
    Mr. Brann.  We expect to actually hit approximately 105,000 
to 106,000 by the end of this fiscal year.
    Mr. Rogers.  Are you planning on going beyond the 100,000 
cops in fiscal year 2000?
    Mr. Brann.  Yes. That would be a part of the proposal in 
the President's Initiative.
    Mr. Rogers.  How much is the COPS Program authorized to 
receive in fiscal year 2000?
    Mr. Brann.  The current authorization is for $360 million, 
thereabouts.
    Mr. Rogers.  Does $268 million sound better to you?
    Mr. Brann.  I would have to go back; if you have the 
figures in front of you.
    Mr. Rogers.  I think it is $268 million. Now, is your COPS 
II Program authorized?
    Mr. Brann.  No, not as of yet.
    Mr. Rogers.  Since most of that new COPS II Proposal, which 
is over a billion dollars, is not authorized, do you plan to 
submit proposed authorization legislation to the Congress to 
support that new proposal?
    Mr. Brann.  It is my understanding that, that is what will 
be coming to the Congress later this year.
    Mr. Rogers.  What if the Congress is unable or unwilling to 
authorize these programs, these proposals of yours, by the time 
the 2000 appropriation bill is completed?
    I would point out to you that we have not passed an 
authorization bill in 20 years, I think. What if we do not 
authorize that? What happens then?
    Mr. Brann.  I wish I could give you the right answers. To 
be quite honest, those are issues that I think would have to be 
addressed.
    Mr. Rogers.  You do not want us to fund unauthorized 
programs; do you?
    Mr. Brann.  Well, I am not sure how we would move forward 
with this. I do know that there will be a proposal that will be 
coming to the Hill shortly.

                  crime identification technology act

    Mr. Rogers.  In the last days of the last Congress, we 
passed the bipartisan Crime Identification Technology Act of 
1998. Yet, your COPS II Proposal does not follow that newly-
enacted program.
    Mr. Brann.  I am sorry. I am not--this is the DeWine 
legislation from last year?
    Mr. Rogers.  Right.
    Mr. Brann.  That is correct.
    Mr. Rogers.  How does your program differ from that?
    Mr. Brann.  I think I would have to defer to Ms. Robinson 
on this because of how the monies have been administered 
previously.
    Mr. Rogers.  The question is how do we know that you are 
not going to duplicate or overlap any of the programs we have 
authorized.
    Ms. Robinson.  Mr. Chairman, the separate pieces under both 
the OJP and COPS budgets do address every one of the purpose 
areas in the DeWine legislation. On the issue of overlap, it 
would be our intention to rely on the staffing components 
within OJP or within COPS that have already developed expertise 
in the various areas.
    For example, on the DNA and Crime Lab Improvement Program, 
the staff within NIJ who are already working with the State 
crime labs. I would further say that COPS and OJP would be 
working very closely to coordinate and ensure that there was 
not duplication.

                         ojp restructuring plan

    Mr. Rogers.  Now, Attorney General Robinson, we have been 
extremely supportive here of State and local assistance 
programs to address crime in our communities. Funding for OJP 
Grant Programs since 1995 has increased by 213 percent.
    We have gone from $1.1 billion to $3.4 billion. With that 
growth, we have also seen the complexity in scope of OJP's 
programs increase immensely. We have been concerned about 
instances of duplication and overlap that we believe are caused 
by your agency's structure, and magnified by the growth.
    In your report to the Subcommittee last year, you agreed 
that there are lost opportunities for responding to crime and 
tremendous inefficiencies in the use of resources, as a result 
of the current OJP structure.
    Last week, you submitted your proposal for restructuring 
OJP. Would you summarize your report and your recommendations 
and identify the benefits that you believe your recommendations 
would provide to us.
    Ms. Robinson.  Certainly. Let me say, first of all, a note 
about the process we went through on this. We thought it was 
terribly important, even though we were on a short time frame, 
to do some listening to the field about this.
    So, we outreached to about 50 practitioners and constituent 
groups to find out about their interactions with OJP and the 
kinds of things that they would like to see changed.
    We also did a similar kind of outreach within the Justice 
Department and within OJP itself. The report that was forwarded 
to you last week reflects a couple of central principles.
    One of them is, as you indicate, responsive to the notion 
of accountability and the need for a greater centralized 
management when the program has grown so substantially.
    So, rather than having a structure that incorporates a 
group of semi-autonomous agencies working with a common 
infrastructure, we have proposed a set of components that in 
fact have coherent functions organizationally and following a 
common mission. That would be the vision of the restructure 
plan. We would look to have all research, for example, done in 
one area; all statistics in one area; program work organized 
around subject area; and Formula Grants organized around what 
we call state desks, so that there could be responsiveness to 
individual geographic needs.
    Then, very importantly, we have also proposed that there be 
something that I call kind of an ``information central'' point. 
Even with a simplified structure, there are so many funding 
streams going into OJP, that it is hard for an individual 
mayor, D.A., police chief, or other practitioner to figure out 
how you penetrate, get in, and find out what kind of technical 
assistance or help is available.
    So, we thought it is very important to have one central 
point that is almost a triage point for a jurisdiction to come 
in seeking help--whether it is technical assistance or grant 
funding, finding out about conferences or publications. In 
other words, to find out the help that they need.
    Mr. Rogers.  Now, are you planning to provide legislative 
changes to enact that proposal?
    Ms. Robinson.  Mr. Chairman, the recommendation that we 
have made in the report was that if Congress chooses to act 
along this line, that they make the changes effective perhaps 
at the time of the change in Administration so as not to 
disrupt appointees who are currently in place.
    In the interim, we are happy to work with you and provide 
statutory language as you request.
    Mr. Rogers.  Do you think it is necessary that we pass 
legislation in order to do this?
    Ms. Robinson.  Yes. Statutory changes are needed. It is 
really the statutory infrastructure of OJP that really leads to 
these problems.

                     police corps in restructuring

    Mr. Rogers.  I see that you incorporated the Police Corps 
into OJP as the 1999 bill directed. Why is not the COPS Program 
incorporated into the OJP structure as well? It is due to 
expire in the year 2000.
    Ms. Robinson.  The structure that is proposed in the report 
that we forwarded to you last week is a flexible one so that 
Congress, in the future, if the COPS Office did go out of 
business or were addressed in some other way, those 
responsibilities could be incorporated within OJP.
    Mr. Rogers.  It makes sense, does it not, one-stop shopping 
for local authorities?
    Ms. Robinson.  Well, I will tell you that the practitioners 
out in the field are a little frustrated with us in Washington 
at times.
    Mr. Rogers.  Mr. Brann, would not merging the COPS Office 
into OJP eliminate the possibility of duplication and 
streamline the process, provide that one-stop shopping for 
State and local Governments and other grantees that we are 
looking for?
    Mr. Brann.  Mr. Chairman, honestly I am not sure of what 
duplication you may be referring to. What I see, the COPS 
Office was created specifically to be very responsive to local 
agencies in particular.
    A huge issue that exist out there that we have certainly 
realized as the result of the creation of this office is that 
there are many agencies. We are dealing with over 11,000 
agencies that the COPS Office is funding.
    The vast majority of those agencies have never been the 
recipients of Federal grant funding. We set ourselves up to be 
very responsible on that front to provide a high level of 
service.
    We have also specialized in focusing on the needs of local 
law enforcement, direct funding for obviously police positions, 
for technology, and for a variety of issues there. I think in 
effect what we have is a degree of expertise and a service 
level that has been created, vis-a-vis the COPS Office that is 
somewhat different from that which we find through the other 
OJP Programs and components.

                      juvenile drug abuse program

    Mr. Rogers.  Mr. Bilchik, we provided a $10 million grant 
program to your office to develop initiatives that would warn 
teenagers of the risks and harm of drug use. Tell us what you 
are doing with those monies and what results you expect.
    Mr. Bilchik. We are extraordinarily optimistic about the 
implementation of this program, Mr. Chairman. We know the 
program that we selected for replication in the training 
program has been tested in a variety of jurisdictions and found 
to be effective at reducing juvenile substance abuse and 
alcohol abuse over a sustained period of time.
    What was important about this particular model was that it 
was not proven effective just in one place. It has been moved 
from jurisdiction to jurisdiction and found to be effective.
    What you have permitted us to do with this funding is to do 
a massive replication of this type of approach. It really is 
the first time something like this has been done in this 
country.
    What we did during the first year of the program was to 
identify the providers, train the trainers that would be going 
out to these communities across the Country to train the 
guidance counselors, the school teachers, and the communities 
that would be working with this model.
    That has been done. In fact, this month we have 16 
different jurisdictions that are being visited from whom and 
training is being setup. As of this fall, 34,000 youth will 
receive this particular curriculum.
    That is just beginning to use touching into the $10 
million. It is using first $5 million and then also additional 
funding. So, with the $10 million and then the additional $20 
million, we expect to reach over 280,000 youth with this 
school-based curriculum. It has been a difficult process 
because it has not been done before.
    Training people in how to replicate a particular approach, 
and maintain the integrity of that program design is not easy. 
It is where we often fail with other types of programs.
    It is how we learned through Big Brothers-Big Sisters how 
to do mentoring the correct way. Particular elements need to be 
in place in order to be successful. That is what we are trying 
to do with this program as well.
    So, the numbers are fairly astounding to think that we have 
reached that many youth. I believe it will make a dent in the 
youth substance abuse problem.
    Mr. Rogers.  You are requesting $20 million, double the 
1999 figures.
    Mr. Bilchik.  We are excited about your program.

                    juvenile drug prevention program

    Mr. Rogers.  And quadrupled what you requested in 1999 for 
that Juvenile Drug Prevention Program. I assume that means it 
is showing some real results?
    Mr. Bilchik.  The model itself is showing results. What we 
have done, during the initial stages of this program, is to 
setup the massive replication. This is what has caused so much 
excitement in the field. I cannot tell you today that there are 
children for whom I have measured the outcome for this program. 
What we do know is the training has begun. The curriculum will 
start for 34,000 children. That is a significant undertaking.

                      ONDCP anti-drug abuse media

    Mr. Rogers.  Last year, Congress provided $185 million to 
ONDCP for an anti-drug abuse media campaign. Last year we 
learned that the infrastructure for responding to calls for 
help from either kids or parents as a result of that media 
campaign was inadequate.
    While I understand that this campaign is being handled by 
ONDCP, has there been any improvement on the infrastructure to 
respond to calls for help?
    Mr. Bilchik.  If my information is correct, Mr. Chairman, 
the answer is yes. The Web site was setup to facilitate 
Internet connections for parents and children to make inquiry.
    In addition, the ONDCP Drug Policy Information 
Clearinghouse has been setup. They have received a over a 200 
percent increase for information and are now supposed to be 
handling those increases without any problems.
    There is an 800 number that has been setup. As you know, 
most PSAs do not have 800 numbers and this one does have an 800 
number. I might add that one of the things we have seen early 
in this campaign is that the amount of exposure that you have 
had for this ad campaign is almost double what was anticipated.
    We are hopeful, as we research, that we can impact the 
perception of youth about the risk of using drugs. That we will 
also then see the decrease in substance abuse. So, we hope the 
campaign will have that effect.
    You know there is an impact evaluation to be done as well, 
but the results are not in yet to see what impact we have on 
these children's perception of risk.
    Mr. Rogers.  When do you expect that?
    Mr. Bilchik.  I have been told it will be about another 
year before we can get those results. I can double check on 
that, Mr. Chairman. Again, it is not something that we are 
overseeing directly. Would you like for me to report to you on 
that?
    Mr. Rogers.  Please do.
    Mr. Bilchik.  Yes, sir.
    [The information follows:]

    In FY 1998, the Office of National Drug Control Policy, with 
support from Congress, initiated a $195 million anti-drug advertising 
campaign to educate and enable America's youth to reject illegal drugs. 
Support from communications firms; an expert panel which is guiding the 
advertising message and direction; testing of the advertisements; 
research projects; surveys; and a multi-million dollar evaluation of 
the campaign promise to ensure its quality and integrity. The 
independent evaluation is being managed by the National Institute on 
Drug Abuse and the National Institute for Health. The contract for this 
evaluation was awarded September 30, 1998 and the baseline data 
collection will begin in September 1999. Evaluators expect results on 
(1) change in perception and attitude regarding drug abuse within 2 
years and (2) changes in behavior within 3 years.
    Early results indicate that the advertisements are making an 
impact. According to ONDCP, anti-drug coalitions in the twelve-city 
test markets reported three times their average number of phone calls 
from kids and parents who have been exposed to the ads and are seeking 
guidance and help for drug-related problems. Community anti-drug 
coalitions in those same cities also experienced increases in requests 
from local business, schools, and organizations for presentations about 
anti-drug programs and increased volunteerism from people who want to 
help with the campaign. Businesses also volunteered to fund continued 
anti-drug advertising, and local news coverage of drug issues has 
increased.
    Some additional preliminary outcomes of the national campaign 
effort include:
    32 network television episodes have incorporated issues, scenes or 
themes supportive of important drug prevention concepts (i.e. ER, 
Dawson's Creek, and Home Improvement).
    The campaign's new Web site for parents and teens (www.projectknow) 
has received over 4.5 million hits.
    More than a 200% increase, as compared to this time last year, in 
requests for material from National Clearinghouse on Alcohol Abuse and 
Drug Information. Most calls are from print public service 
announcements or advertisements (PSAs). The television PSAs are aired 
in 105 media markets across the country--the 800#s are identified by 
the local network affiliates in order to link individuals to local 
resources.
    While an early goal of the media campaign has been to reach 90 
percent of the general teen target audience with four strategic anti-
drug messages a week, the paid and matching funds advertising effort 
generated resources sufficient for an exposure rate of almost seven 
messages a week seen by 95 percent of that audience. For African 
American audiences, the exposure rate is almost eight exposures a week, 
reaching 95 percent of the teen audience. For the Hispanic target 
audience the exposure rate is 5.6 times per week, seen by 94 percent of 
the Hispanic teen audience.

                       drug treatment initiative

    Mr. Rogers. Ms. Robinson, your budget request includes a 
new $100 million initiative for drug treatment, both during and 
after incarceration; and $65.1 million for the Residential 
Substance Abuse Program for State prisoners. Please describe 
for us specifically who would be targeted by that new 
initiative.
    Ms. Robinson.  Mr. Chairman, the new initiative would 
target a group that is not captured either by the Drug Court 
funding or by the Residential Substance Abuse, increase in drug 
treatment--that is primarily offenders who are out on pre-trial 
release or back in the community on parole. One of the things 
that we have been hearing over and over from local mayors is 
about the influx of offenders returning to the community after 
they have served their term of incarceration, and the kinds of 
problems that can lead to in the community.
    We also know, of course, the link between drug use and 
crime. That $100 million would be specifically targeted for 
local jurisdictions, primarily, to hold offenders who are 
returning to the community or, as I said, out on pre-trial 
release, hold them accountable for their behavior through drug 
testing, interventions with sanctions, and couple that with 
treatment. The goal here, which we have seen from our research 
work, is to reduce drug use and thereby reduce associated 
crime. One of the things that I have been very struck by during 
my tenure with the Justice Department is just how clear the 
research is about the impact we can have from these kinds of 
programs.
    For example, the Amity Drug Treatment Program out in 
California, which couples in-prison treatment with prison after 
care treatment back in the community has shown remarkable 
reductions in recidivism.
    In the control group, they had 63 percent who had 
recidivated within a year. That dropped to 42 percent, if they 
had the drug treatments in prison.
    Again, that dropped from 42 down to 26 percent, if they had 
the after-care. So, this is remarkable, black and white, very 
clear research that shows a drop in drug use and associated 
crime.
    Mr. Bilchik.  Can I add to that? I think that the area of 
activity that Ms. Robinson just described also applies to the 
juvenile area. We are hearing from communities that they also 
need this capacity to be testing and treating juvenile 
offenders as they reenter communities and hold them accountable 
for any relapses.
    We have worked hard at working with juvenile probation 
officers and sensitizing them to the issue of juvenile 
substance abuse. We have worked hard with empowering 
communities on how to set up testing programs.
    One of the things we have heard is there are not sufficient 
funds to actually implement those programs. Whatever support we 
can provide in the juvenile area, would be welcomed as well.

                     use of existing grant programs

    Mr. Rogers.  Well, the Crime Block Grant that we funded 
last year could be used for this purpose. You are not 
requesting that this year.
    Mr. Bilchik.  Correct.
    Mr. Rogers.  How come?
    Mr. Bilchik.  As I indicated before, Mr. Chairman, I think 
what we are trying to do is target a few specific areas, rather 
than 12 different areas, that we have heard are the greatest 
problem areas.
    So, looking at reentry issues, drug testing issues, 
community prosecution issues, we thought those would be the 
most intensive areas of concern right now.
    Mr. Rogers.  Ms. Robinson, why cannot the HHS existing 
grant program be used for this purpose? Why do we need a new 
one in Justice when we already have one in HHS?
    Ms. Robinson.  Mr. Chairman, that is a very good question 
and one that I would not have known the answer to before I came 
into Government.
    It is very clear that HHS targets its money primarily, 
almost exclusively, to non-criminal justice populations. They 
do not view public safety and crime as their primary 
jurisdictional area. That is why it seems to me that the 
Justice Department, because of its link with crime and public 
safety, needs to come to the forefront here.
    Again, the research is so clear that we can, in the end, 
change offender behavior and affect public safety. That is not 
HHS's primary goal.
    Mr. Rogers.  It is the local community who decides what 
they want to apply for. It is not HHS that tells them what they 
have to do with the money. It is the local community who vies 
for the monies if they are available.
    They can use them for this very purpose. I would hate to 
see another bureaucracy set up when we already have one set up 
for this type of program; admitting it is a good program.
    Ms. Robinson.  Traditionally, the state and local agencies 
to whom the HHS Block Grants go, again, serve non-criminal 
justice populations. We have actually worked with them, Mr. 
Chairman, to try to raise their consciousness about that.
    There is huge demand for treatment. The general reaction 
has been--we are going to get it to the people who are the kind 
of up-standing citizens in the community and not to offenders. 
I wish it were otherwise, but that is the reality out there.

                           prison transition

    Mr. Rogers.  We already provide residential testing and 
treatment for state prisoners. You want us now to fund 
treatment after the state prisoners are released. I am 
wondering where can we draw a line?
    Ms. Robinson.  It seems to me, again, going back to the 
statistics that I cited about the Amity Program in California, 
if we do not ensure the transition back into the community, 
that they are really making that transition back successfully 
when they are back with all of the temptations of their old 
neighborhood, their old peers, and their old friends, then in 
many cases we should not have invested in the treatment in 
prison.
    It is essential to ensuring the successful transition so 
that they can actually make it back into the column of the law 
abiding, and not fall back into the old habits, which 
frequently are tied up with drug use.
    Mr. Rogers.  What percent of the monies would you expect 
would be spent on treatment of prisoners after they have been 
released?
    Ms. Robinson.  Under RSAT funds, we would anticipate that a 
pretty small percentage would be spent on that. What we have 
heard from some States is that they already have funding 
available for the in-prison piece. What they really need is the 
after-care help.
    Mr. Rogers.  What percent of the monies would you expect to 
target towards juvenile offenders?
    Ms. Robinson.  At this point, I think it is about a quarter 
of the funding that goes to juvenile offenders. I can get you 
that exact figure. A number of the States do have programs 
addressing juvenile drug use while the juveniles are 
incarcerated.
    [Clerk's note.--Subsequent to the hearing the following 
information was provided:]

    The Office of Justice Program's Corrections Program Office 
(CPO) administers the Residential Substance Abuse Treatment 
(RSAT) program, which is formula based grant program that was 
first funded in 1996:

                                                                Millions
1996..............................................................   $27
1997..............................................................    30
1998..............................................................    63
1999..............................................................    63
2000 (request)....................................................  65.1

    RSAT funds are provided to States, for use by States and 
local governments to develop and implement residential 
substance abuse treatment programs within State and local 
correctional and detention facilities, where inmates are 
incarcerated for sufficient time to permit substance abuse 
treatment (typically, 6 to 12 months).
    Since the implementation of this program, approximately $11 
million has been targeted by the States for the use in the 
treatment of juveniles.

    Mr. Rogers.  This program is not authorized; is it?
    Ms. Robinson.  The program?
    Mr. Rogers.  Your proposal.
    Ms. Robinson.  The proposal for the $100 million will be in 
the Crime Bill II that the Administration sends to the Hill 
later this spring.
    Mr. Rogers.  What if it is not authorized by the time we 
must appropriate here? What do you propose that we do?
    Ms. Robinson.  Well, I guess I would suggest that we 
regroup at that point.

                   drug testing and treatment program

    Mr. Rogers.  Now, if we were to fund an extensive drug 
testing and treatment program, what level of commitment would 
we have? How much money and for how long?
    Ms. Robinson.  The total package here is $215 million. That 
would cover from the pre-trial release stage to the post-
incarceration.
    Mr. Rogers.  Let me ask Mr. Brann, you heard Ms. Robinson's 
questions. We are living on a budget cap. We are short of 
money. We have to make choices in what things we fund and do 
not fund.
    If you had to choose between hiring more cops and the new 
drug testing and treatment initiatives, which one shall we 
choose?
    Mr. Brann.  I think we are going to be funding--at the same 
time--COPS Offices is specifically set up to try to represent 
and be responsible to the needs of local law enforcement.
    At the same time, I must tell you that I hear from local 
law enforcement officials about their needs and their 
interests. Funding for prevention programs is spread over 
things to deal with; drug prevention, drug enforcement, and the 
whole range of issues.
    It is a tough decision. I think everybody in this room 
understands there are going to be great budget decisions to be 
made here.
    What we have come up with and what the Administration is 
proposing in the form of this initiative I think is responsive 
to what we have been hearing from customers out there; the 
kinds of issues they have identified. We have tried to develop 
a plan around that 21st Century Police Initiative.
    Mr. Rogers.  I do not think I heard your answer to my 
question.
    Mr. Brann.  I am going to end up pushing for the additional 
officers and a combination as provided for in this 21st Century 
Police Initiative; the combination of funding that will allow 
them to do some of the things that they are trying to do at the 
local level. This initiative addresses that.
    Mr. Rogers.  Ms. Robinson.
    Ms. Robinson.  If it were up to me, I would fund the Drug 
Treatment and Testing Program. Let me explain why. I think that 
it is terribly important to develop some models in this area.
    I would agree with my colleague, Mr. Brann, that law 
enforcement has been very, very supportive of things like drug 
courts in many communities. We do not have sufficient models of 
carrying this drug testing, treatment, sanctions, and 
accountability through the system.
    That is something that is very much needed and does not now 
exist. I think it is a terribly important investment, and that 
the Federal Government could make a real difference and help 
states and localities see the direction in which to go.

                   health clinic security initiative

    Mr. Rogers.  Finally, Ms. Robinson, you have requested a 
Health Clinic Security Initiative using funds from within the 
Byrne Discretionary Program. Would you briefly describe that 
proposal?
    Ms. Robinson.  Yes, Mr. Chairman. This $4.5 million 
proposal would invest in three things that have really come to 
light from the law enforcement and prosecution work which the 
Department has done relating to clinic security and some of the 
bombings that have occurred.
    The first would be to provide to local law enforcement and 
clinics security assessments.
    The second would be technical assistance and training for 
local law enforcement in terms of how to assist clinics in 
protecting their security.
    The third would be to target health clinics in the form of 
equipment. It might be lighting or such for particularly high 
risk clinics.
    Mr. Rogers.  Under what authority are you proposing that 
program?
    Ms. Robinson.  Mr. Chairman, our General Counsel has told 
us that Byrne Formula Grant Purpose area No. 26, which deals 
with domestic terrorism, could cover the first two areas, but 
not the third dealing with equipment.
    So, the President's budget requests that specific language 
in it which, if the appropriators choose to pass it, would 
carry in effect the authorization.
    Mr. Rogers.  I think it is a real stretch, the legal 
interpretation, that is being made. I am very skeptical about 
the use of Byrne Grants for that purpose. I doubt that it falls 
within any acceptable statutory prudence. So, I hope we can 
talk further about that.
    Ms. Robinson.  We would be happy to talk with you about 
that, Mr. Chairman. Mr. Serrano.

                                inmates

    Mr. Serrano.  Thank you, Mr. Chairman.
    Mr. Chairman, one of those occasions when I am going to 
show the difference, one of the major differences, between 
being on this Subcommittee 15 years as you have, and a couple 
of months as I have or a month, and that is when we speak about 
inmates, are we talking about programs where you assist 
localities with their inmates?
    Are we talking about Federal inmates; inmates in Federal 
prison? If we are, when we talk about juveniles, you might 
teach me something. Do we have juveniles in the Federal prisons 
also?
    Ms. Robinson.  Sir, all of our money goes to states and 
localities in the form of grants.
    Mr. Serrano.  That is what I thought. If I had my way, I 
would fund both, but I do not have my way. You just used a 
phrase, domestic terrorism. Was that correct in correct in 
using that? What are we talking about here?
    Ms. Robinson.  As opposed to international. I just meant 
within the United States.
    Mr. Serrano.  Within, but not caused by local folks. That 
is terrorism; right?
    Ms. Robinson.  That is correct. I think the term is usually 
used, for example, in the domestic preparedness discussions 
about events that actually take place within the Continental 
United States or Alaska, Hawaii.
    Mr. Serrano.  In Territories.
    Ms. Robinson.  And Territories.
    Mr. Serrano.  Territories are important. I am being nice 
today, Mr. Chairman. I am not saying colonies. The anti-drug 
use ads, you said there is a recidivism report coming to show 
how successful they have been?

                              campaign ads

    Mr. Bilchik.  It was an interim report that showed what 
level of exposure youth and families have had to the ad 
campaigns thus far. There will be a follow up report. I think 
Westat is doing the evaluation of the project; of the impact, 
whether they have changed children's impressions of the dangers 
and risks involved with using drugs. That is the critical goal.
    If you do increase the awareness of the risk involved with 
using drugs, our research shows that the use will go down. 
There is a direct correlation to increased perception, decrease 
in use.
    Mr. Serrano.  Bring me up-to-date. Which one are your ads, 
the ones I see on TV?
    Mr. Bilchik.  The ONDCP ads are the one with the frying pan 
in the kitchen.
    Mr. Serrano.  Right.
    Mr. Bilchik.  That is an ONDCP ad. The ad you may have seen 
in the movie theaters recently of a youth who is taking the 
back alley to get home because he is afraid of the gang members 
in his community.
    Mr. Serrano.  Right.
    Mr. Bilchik.  That is one of those ads. Talking to your 
children about drugs and what happens if you do not talk to 
your children about drugs is a part of that ad campaign.
    What is happening with this campaign however is that the 
$185-something million that has been invested in it, has rolled 
into $400 million of ads that have been run by the television 
networks and different cable stations.
    Mr. Serrano.  How much?
    Mr. Bilchik.  Approximately $400 million total in leverage 
ads.
    Mr. Serrano.  So, again, close to $600 million.
    Mr. Bilchik.  So, when you see an ad that may be running a 
mentoring program, and we know mentoring programs reduce 
substance abuse, that is a direct result of the Congressional 
investment in this area.
    So, we see a variety. It does not look like they are from 
ONDCP, but they would not have been in prime time but for this 
undertaking. So, we are pleased with what is happening thus 
far. We are looking forward to finding what the impact is 
overall.
    Mr. Serrano.  These are TV ads, movie?
    Mr. Bilchik.  Radio. They are print ads.
    Mr. Serrano.  How many languages are you running?
    Mr. Bilchik.  I could not answer that off the top of my 
head, Mr. Serrano.
    Mr. Serrano.  You are running it in more than one language; 
right?
    Mr. Bilchik.  I really would be guessing. I would make an 
assumption.
    Mr. Serrano.  You do not know if you run them in languages 
other than English?
    Mr. Bilchik.  Not having the oversight of that campaign, I 
do not know how many languages are running besides English, 
Spanish, other languages.
    Mr. Serrano.  I hope we can run them.
    Mr. Bilchik.  I would imagine that they would reach more of 
the population in this Country if they were, but I do not want 
to guess.
    I could follow up and find out for you and let you know the 
answer. We are looking at different publications that reach 
targeted populations like our publication written by parents 
about abducted children. We are printing that in Spanish 
because we need to know we reach that population in this 
Country as well.
    Mr. Rogers.  Let us know what language the media campaign 
is in.
    [The information follows:]

    The National Youth Anti-Drug Media Campaign is disseminated 
in English and 8 other languages (Spanish and seven Asian 
languages--Korean, Vietnamese, Filipino, Japanese, Cambodian, 
Chinese--Mandarin and Cantonese). The campaign has also been 
localized (in the English language) for Native American 
communities, Guam, Puerto Rico, and the Virgin Islands; and 
ONDCP will soon be developing messages in the Aleut language 
and disseminating localized ads for Alaskan Native communities.

    Mr. Serrano.  I have nothing further.
    Mr. Rogers.  Well, thank you very much for your testimony. 
It has been a useful hearing to us and hopefully to you.
    The work that you are doing is all important because this 
is the money that goes to our local communities out of the 
Federal coffers to supplement what essentially are State and 
local responsibilities; juvenile crime, and most crime is State 
jurisdiction.
    So, these are not Federal crimes or Federal items that are 
normally on our plate. As has been said, this Subcommittee has 
helped beef up this section of what Justice does, in an 
enormous way in the last few years.
    It appears to be paying off. The juvenile crime rate is 
encouraging, very encouraging, as is the overall crime rate. I 
think a big part of that is a big reason for what you do with 
the funds that we have given.
    So, I think we can do a little bit of self-congratulations 
here, early on. We have got a long ways to go, but I think we 
are making some real progress.
    Thank you. The hearing is adjourned.
                                         Wednesday, March 24, 1999.

                 IMMIGRATION AND NATURALIZATION SERVICE

                                WITNESS

DORIS MEISSNER, COMMISSIONER, IMMIGRATION AND NATURALIZATION SERVICE

                            Opening Remarks

    Mr. Rogers. The Committee will come to order.
    This afternoon we would like to welcome the Commissioner of 
the Immigration and Naturalization Service, Doris Meissner, 
again to testify before the Committee on behalf of the INS' 
fiscal year 2000 budget request.
    You are requesting more than $4.2 billion for INS in fiscal 
year 2000, an increase of $388 million, 10 percent over the 
amount Congress provided in fiscal year 1999. The Congress has 
increased funding for the INS from $2.1 billion in fiscal year 
1995 to $3.9 billion in fiscal year 1999, an increase of $1.8 
billion.
    Despite this overwhelming increase, the problems of the INS 
continue, problems ranging from continuing backlogs for 
naturalization and their benefits to a detention space crisis. 
Most of INS' problems are not new ones. Some have continued for 
more than 10 years. Yet, the fiscal year 2000 increase does not 
provide for any additional Border Patrol agents, and absolutely 
no funding for immediate and necessary detention space. After 
all of the complaints that INS has received from not only this 
committee, but complaints from the citizens of this country, 
INS still ignores these pleas. I hope your testimony will shed 
some light on the continuing management problems which continue 
to plague INS.
    As you know, the Attorney General testified before this 
Subcommittee earlier this month. Both the Attorney General and 
I agreed that there are many dedicated and capable people 
within your organization, but that these people need to be 
provided a structure and function so that they can best do 
their jobs. The American people deserve to have a fair, 
efficient and effective Immigration and Naturalization Service.
    Commissioner Meissner, we have given you the funding to 
support your efforts to enforce the immigration laws. Now we 
will work to give this agency the structure it needs to 
function. In a moment we will recognize you for your opening 
comments. We will insert your written statement in the record, 
and we will ask you in a moment to summarize it, after I yield 
to Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. I will be very brief.
    I just want to welcome you here, Commissioner, and tell you 
that, as one who has worked within the Hispanic Caucus for all 
of my 9 years here, we have had conversations on both sides of 
the immigration issue and we have found you in your time to be 
very cooperative and willing to listen to us. I take that very 
seriously and I thank you for it. We are here to try to see in 
which way we can make your role and your job easier. You can 
help people who are here become citizens and deal with the 
immigration issue in general.
    So we welcome you and we look forward to your testimony, 
and we look forward to assisting you in any way that we can.
    Mr. Rogers. You may proceed.

                  Opening Statement of Doris Meissner

    Ms. Meissner. Thank you. Thank you, Mr. Chairman, Mr. 
Serrano, members of the subcommittee, for the opportunity to 
discuss the President's fiscal year 2000 budget request for the 
Immigration and Naturalization Service. This of course is my 
first appearance before the Subcommittee in the 106th Congress, 
and I want to begin by saying that I stand ready to continue 
building the partnerships that are necessary to address the 
many immigration issues that are of concern to us all.
    Since I have been Commissioner, INS has confronted and 
addressed all problems, responded to new mandates, fielded 
scores of needed new initiatives and, when we stumbled, worked 
diligently to fashion new solutions. As a result, enforcement 
of immigration laws has been strengthened significantly at our 
borders and in the Nation's interior, while the delivery of 
services to legal immigrants has improved. The President's 
fiscal year 2000 budget will allow INS to consolidate and to 
build on successes.

                          ins accomplishments

    I have submitted a detailed written account of the budget, 
so let me highlight some of the major issues and successes that 
we have recently achieved with the resources that this 
Subcommittee has generously provided. These are successes that 
we will be able to continue and expand under the fiscal year 
2000 proposed budget.

                           border management

    Our greatest achievements have come in the area of border 
management where more has been accomplished in the past 5 years 
than had been accomplished in decades. Nowhere is the 
effectiveness of our approach to enforcement more visible than 
on the Southwest border. To bring control and safety to the 
border, INS has developed a comprehensive multiyear Southwest 
border strategy to which we remain deeply committed. We have 
doubled the number of Border Patrol agents since 1993 to more 
than 8,000 today, including hiring and training 1,900 agents 
last year alone. And, we have implemented comprehensive 
operations to control illegal entries in all key crossing 
corridors.
    These operations, such as Rio Grande in south Texas, 
Safeguard in Arizona, and Gatekeeper in San Diego, have proven 
that deterrence works. In fiscal year 1998, apprehensions in 
Brownsville declined by 35 percent, and in San Diego, they have 
reached an 18-year low. Perhaps even more important for those 
who live in border communities, local officials credit our 
border operations for having contributed significantly to 
falling crime rates in communities all along the 2,000-mile 
frontier.
    Our border management strategy integrates activities 
between ports of entry with work at the ports of entry. They 
are vital to the Nation's economy, just as they are potential 
entry points for criminals and for contraband. By working 
cooperatively with other Federal agencies, we have achieved 
impressive results. At San Ysidro, the world's busiest land 
port, we have worked with the Customs service to reduce the 
average waiting time, recently as high as 2 hours, to under 20 
minutes, while enhancing enforcement results. With Customs, we 
are now replicating these efforts at all other ports along the 
southwest border.

                     interior enforcement strategy

    To fully establish the integrity of our Nation's 
immigration laws, enhanced border management needs to be linked 
to an effective approach to combating illegal immigration in 
the Nation's interior. We have developed a new interior 
enforcement strategy and are beginning to implement it 
nationwide. This new strategy, built on a foundation of 
cooperation and coordination with other law enforcement 
agencies, seeks to address illegal immigration inside the 
United States. It targets our enforcement resources on 
identifying and removing criminal aliens, disrupting and 
dismantling smuggling rings, responding to community reports 
and complaints about illegal immigration, combating benefit and 
document fraud, and blocking employers' access to and use of 
undocumented workers.
    Such an integrated enforcement approach to interior 
enforcement is already producing results. Last November, we 
dismantled the largest, most complex smuggling ring ever 
encountered by Federal authorities. It smuggled more than 
10,000 people into the United States, with organizers grossing 
nearly $220 million. That same month, INS agents in Los Angeles 
put out of business what is believed to be the largest U.S.-
based criminal enterprise producing fraudulent documents. They 
seized more than 2 million fake documents that had a street 
value of at least $800 million.
    The new interior enforcement strategy recognizes that much 
of the demand for illegal workers is generated by unscrupulous 
employers who often work in concert with alien smugglers. The 
strategy will allow us to develop more cases like our 
investigation of Atlantic Finishing, a Georgia-based apparel 
manufacturer. That probe culminated last April when 11 
defendants pled guilty, including the firm's president, who was 
sentenced to 10 months in jail and fined $10,000.

                        criminal alien detention

    We are also strengthening our capacity to detain and remove 
aliens who have committed serious criminal offenses. Today, we 
have more than 14,500 criminal aliens in detention. This 
quadruples the 1994 number. Last year, the number of criminal 
aliens we removed reached 56,100, which is double the number 
removed in 1993. Increased efficiency in the removal process 
will allow us to maximize our available bed space.
    Last year, we were able to detain a total of about 150,000 
aliens, 74 percent more than in 1995.

                          citizenship program

    As we strengthen our enforcement capabilities, we are also 
improving delivery of immigration services. Here, our top 
priority has been revitalizing the Nation's citizenship program 
which, as we all know, has experienced a variety of problems. 
Overhauling the citizenship process is a work in progress, but 
we have taken a series of critical steps in the past two years, 
beginning with restoring the system's integrity, as the 
foundation of rebuilding the program. The effectiveness of our 
quality assurance procedures to ensure the integrity of the 
naturalization process has been validated now by two audits 
conducted by an outside firm. In addition, we have opened more 
than 120 new fingerprinting sites in immigrant communities 
around the country, installed scores of electronic 
fingerprinting machines to reduce the rejection rate of 
fingerprints from almost 50 percent to only four percent today, 
and we have launched a massive conversion from incompatible 
computer and manual processing systems to a single nationwide 
automated system that supports naturalization case processing.
    Now, our emphasis is on reducing the historically high 
backlog of pending applications. The comprehensive nature of 
reengineering the entire naturalization process has prevented 
INS from reaching the high levels of productivity we had hoped 
to achieve during the first quarter of this year. Still, we 
have completed twice as many cases to date this year from the 
same period last year, and we have set performance targets for 
which our managers are being held accountable. With new staff 
from this year's budget coming on board in April, we believe we 
will meet our goal of $1.2 million completions in 
naturalization this fiscal year.
    Our effort with naturalization is to achieve improvements 
similar to those we have accomplished with the reform of the 
Nation's asylum system. Once a magnet for abuse, the asylum 
system has been restructured so that we can identify and grant 
valid claims quickly, while discouraging frivolous ones. As we 
enhanced the system's integrity, the number of new claims fell 
by 33 percent last year to 35,000, which is the lowest level in 
10 years.
    INS has undertaken other efforts that enhance both the 
delivery of services and the enforcement of the Nation's 
immigration laws. One critical step has been the development of 
easily verifiable fraud-resistant documents. Last year we 
introduced a new green card, one of the most sophisticated 
counterfeit-resistant documents produced by the Federal 
Government. To meet the demand for this card and other new 
documents, we expanded our production capacity, opening a new 
facility in Corbin, Kentucky, which has allowed us to become 
current in card processing. We also continue to strengthen and 
expand support operations that serve as the administrative and 
technological backbone for both enforcement and services. Last 
year, for example, we continued a 3-year effort to replace 
several outdated financial systems with a single integrated 
system that streamlines financial processes and procedures and 
brings us into compliance with Federal requirements.

                           ins restructuring

    The progress we have made on these and many other fronts 
demonstrates that we can achieve dramatic results. However, 
there is a barrier to achieving the effectiveness to which we 
are committed that no amount of resources or strategic planning 
can surmount, and that is INS's current structure. Since last 
spring, we have been developing the details of a proposal to 
restructure the agency by dividing its primary functions of 
enforcement and service into distinct, separate chains of 
command. We established an Office of Restructuring and hired a 
nationally renowned consulting firm to provide design support, 
drawing on best practices from other public and private 
organizations. By dividing INS's structure into separate chains 
of command for enforcement and service, we would establish a 
single point of accountability for performance in each of our 
primary functions, while keeping these interconnected, 
interdependent functions under one organizational roof.
    Our proposal represents fundamental reform in the culture 
and in the operations of the agency. It would replace our 
current region and district office structure with a design 
focused on assigning the proper mix of skills and management to 
meet the enforcement and the case adjudication needs of local 
communities and the Nation. We hope we will be able to work 
with the committee as we finalize this draft proposal in the 
weeks ahead.

                             budget request

    The fiscal year 2000 budget request totaling $4.27 billion, 
which is 8 percent more than 1999, continues to support the 
immigration goals and strategies that the administration and 
INS have effectively pursued over the past several years. The 
thrust of the budget is to extend ongoing initiatives, while 
maximizing the efficiency of current resources. It would allow 
us to strengthen a successful border management strategy, deter 
illegal immigration in the interior of the country, combat 
alien smuggling, and remove criminal and illegal aliens from 
the United States, while continuing to address the 
naturalization backlog and improve customer service.
    We must ensure the fiscal year 2000 budget provides INS 
with the resources necessary to meet our obligations to the 
American people, and I hope we can continue to work together to 
achieve those shared goals.
    Thank you very much, Mr. Chairman. I am happy to answer any 
questions you and the Members have.
    [The statement of Ms. Meissner follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                       naturalization processing

    Mr. Rogers. Thank you for your testimony.
    Now, is INS on target to process 1\1/2\ million 
naturalization applications this year, as we were promised last 
year?
    Ms. Meissner. Mr. Chairman, we began the year with the goal 
of 1.5 million naturalization completions. It quickly became 
clear in September and October that some changes, particularly 
systems changes that needed to be made, were not happening as 
quickly as they should, and so we have revised the goal to 1.2 
million. That is a very ambitious goal. We believe we can meet 
it. It would bring us to the point that we need to be in our 2-
year effort to reduce this backlog and restore timely 
processing.
    Mr. Rogers. But you are not on that--you are not even on 
the 1.2 million person curve yet, are you? I mean if you 
straight-lined what you have done so far this year, you would 
fall far short of that, would you not?
    Ms. Meissner. If we were to straight-line what we have done 
so far, we would fall short. However, the productivity schedule 
that we have established calls for, and did from the very 
outset, substantially increased productivity in the second half 
of the year from the first half of the year, because the new 
staff that was provided in the fiscal year 1999 budget is 
currently in the hiring pipeline and will only arrive on board 
beginning in April. So the productivity that is gained from 
those 200 adjudicators, and I believe it is 100 clerical staff, 
can be realized in the second half of the year.
    Mr. Rogers. Well, if you did just the straight-line 
projection from now, where would you be?
    Ms. Meissner. Right now, we have done in the first 4 months 
of this year about 300,000 completions. That is twice as many 
as we did during this period of last year. If we were to 
straight-line that, because it is 4 months, that would bring us 
to between 900,000 and 1 million. So we need to go up to 1.2 
million, and therefore, that additional 200,000-plus needs to 
be--is in our calculations for the second half of the year.
    Mr. Rogers. You understand why I am a little bit skeptical, 
because you promised us a million and a half last year that you 
would do this year, and you have already lowered that target to 
1.2, and you are on a straight line for even less. So some of 
us are skeptical that you can meet even your lowered 
expectations.
    Ms. Meissner. Well, we are trying to be very honest and 
forthright with the Committee and with others on this issue. It 
is a massive undertaking. There is not only a tremendous 
productivity requirement that we have put on ourselves, but we 
are doing it during a period while entirely redesigning the 
process. We have been successful in the first steps of that. It 
is very ambitious, but we will do everything we can to meet it, 
and we believe that we will be able to meet it.
    Mr. Rogers. Now, will INS be able to process applications 
no matter where they are filed in the U.S. within 12 months?
    Ms. Meissner. This is a 2-year program to reduce the 
backlog. It is our intention to reach an average processing 
time by the end of this fiscal year; in other words, by October 
of 1999, of 12 months. That then requires fiscal year 2000, to 
reach the 6-month processing goal, which is ultimately where we 
want to be in order to restore a timely process.
    Mr. Rogers. Where are the waits likely to be over 12 months 
in this fiscal year?
    Ms. Meissner. We have a list of offices. I don't actually 
have it in front of me. I can provide it to the committee. I 
think that our major focus is the largest district offices that 
account for the major share of the caseload. Los Angeles, for 
instance, accounts for almost a third of this caseload 
nationally. Los Angeles has been the target of our first 
efforts, because we must obtain productivity there properly in 
order to do it properly around the country. We have focused 
attention on Los Angeles. Los Angeles is meeting and exceeding 
its targets. It will reach 12 months or less by the end of this 
fiscal year, and we are moving those techniques and proven 
processes of production management in Los Angeles into the 
other big offices, office by office.
    Our next targets are New York and Miami, which are the next 
largest share of the caseload. We have had in-depth 
discussions, analyses and changes in the way the work is being 
done in those offices in order to bring them to the same level 
of effectiveness that we are now seeing in Los Angeles, and 
that is how we will continue to proceed.
    Mr. Rogers. What is the processing time averaging in those 
larger cities now?
    Ms. Meissner. I believe that the processing time in some of 
those larger cities is 17 or 18 months, up to about 22 months. 
When we started this whole endeavor we were 24- to 25-plus 
months. So we have been able to bring it down, but unevenly 
around the country. Obviously, ultimately we want this to be 
consistent everywhere. We have to start where we can and move 
from there.
    Mr. Rogers. We have a vote on the floor, Commissioner, so 
we will be in a short recess.
    Ms. Meissner. Thank you.
    [Recess.]

                     release of illegal immigrants

    Mr. Kolbe [presiding]. The Subcommittee will resume. Mr. 
Rogers has asked me, while he is voting, to go ahead and start 
and maybe I can get my questions in during the time that he is 
gone here.
    Commissioner, thank you very much, and thank you for taking 
the time that you have to come up and talk to me and answer 
questions and concerns that I have as representative of a 
border State. Because we share a border with Mexico, we 
obviously have a lot of concerns. So most of the things I am 
going to talk to you about here today are things that we have 
probably already personally discussed, but I just want to get 
them for the record here.
    The first has to do with the INS policy of apprehending 
illegal immigrants in one location and moving them to another 
location to let them go. The experience that we have had is 
that the illegal immigrants are apprehended over in the Nogales 
area and they are brought to Douglas to be led across the line 
into Agua Prieta.
    First, I have questions about the theory of this. I guess 
the idea is, as I understand it from talking to Border Patrol 
agents on the ground, the idea is to break the connection 
between the illegal immigrant and the ``coyote,'' or the 
smuggler. Do we have any empirical evidence that this works, 
that fewer of these people come back across? Or that they just 
give up? Do they somehow wander back down into Mexico or do 
they stay on the border there? Do we have any empirical 
evidence at all that this works?
    Ms. Meissner. I would have to go back and ask whether we 
have empirical evidence. We certainly have a very strong 
experiential base within the Border Patrol for believing that 
that is helpful, and I am very much guided by the Border Patrol 
judgments on the ground as to their experience on these 
matters.
    Mr. Kolbe. When you say experiential, do you mean 
anecdotal?
    Ms. Meissner. Whether it is more than anecdotal I couldn't 
tell you right now, but I would be happy to follow up and 
determine that. There is clearly increased smuggling and 
organized movement in order for people to come across the 
border because we have gotten so much better at the border, it 
is just much more difficult to do it without guidance. So the 
idea of breaking the connection with the smuggler is crucial.
    I mean, for instance, in the San Diego area, one of the 
things that is going on now in El Centro is the effort to 
prevent the smugglers that used to operate south of San Diego 
from transplanting their operations in El Centro, and there are 
a variety of things that the Border Patrol does in order to try 
to discourage that from happening.
    The particular issue that you and I discussed about the 
numbers and the difficulties that that causes in the Douglas 
area, because that area is now such a hotspot, are issues that 
I have now discussed with Johnny Williams, the regional 
director, and what I want to pass on to you is that there is 
not a formalized agreement on direct numbers of swapping.
    Operationally, the people on the ground are charged with 
the responsibility for balancing this out so that there is not 
an undue burden in any particular place. As a practical matter 
right now, the apprehensions are so much reduced in Nogales, 
that there really is not Nogales activity of any magnitude 
compared to Douglas. In fact, it is the other way around. There 
is so much activity in Douglas that people are being taken and 
returned to an extent through Nogales.
    Mr. Kolbe. Let me see if I understand. You are saying 
today, more of those apprehended in Douglas are being released 
in Nogales than vice versa, so larger numbers are actually 
being moved to Nogales? If there is any of this movement going 
on, which I still question, are being moved from Douglas to----
    Ms. Meissner. To Nogales.
    Mr. Kolbe. How recent a phenomenon is this, this apparent 
reversal? I was not aware that the numbers in Nogales were down 
that much yet.
    Ms. Meissner. Well, I spoke about this with the region 
yesterday, and in Nogales they are now running an average 
between 200 and 250 per day, which is dramatically down.
    Mr. Kolbe. In Douglas, a town one-tenth the size----
    Ms. Meissner. In Douglas, about 95 over the last several 
days, last week or so. So there is a marked and dramatic change 
in Nogales, and that is the shift that is taking place.

                     douglas--apprehension hotspot

    Mr. Kolbe. That then leads me to my next question. It 
appears that at least in our area, I don't know whether this is 
true for the whole border, but as far as I know, the last big 
unplugged spot right now, at least that has a town of any 
consequence on the border, on both sides of the border, the 
last big unplugged spot appears to be Douglas. Is that an 
accurate statement?
    Ms. Meissner. What I can say to you as an accurate 
statement is that Douglas right now is the busiest, most highly 
pressured----
    Mr. Kolbe. The number one spot in terms of apprehension.
    Ms. Meissner. That is correct.
    Mr. Kolbe. Though Douglas is 10,000--oh, maybe 90,000 to 
100,000 as compared to the Tijuana-San Diego area of many 
millions.
    Ms. Meissner. That's right.
    Mr. Kolbe. So if we translate those numbers of 
apprehensions means that you can extrapolate from that, to some 
degree, at least, to the number of people that are surging 
towards the border in that area, and you can imagine the kind 
of pressure that is being put on a town of that size.
    Ms. Meissner. Yes. It is a very extraordinary pressure. We 
recognize that. We have had to go through these transition 
periods all along the way over the last 4 years as we have put 
the border strategy into place. We have increasing experience 
with how to work with the community on this. We know that there 
will be a period of time where that pressure will continue 
before we are able to deter it. People will be returning to the 
Douglas area on a regular basis to work with the ranchers and 
Mexican officials. We are particularly concerned as the heat 
intensifies this spring. The Border Patrol and the region have 
a carefully developed plan that they are working through, which 
will address these issues and I think it would be a good idea, 
I have asked the regional director to be in touch with you and 
brief you on these issues in the next weeks as they evolve.

                    construction of douglas station

    Mr. Kolbe. Thank you. I would very much appreciate that. 
But let me segue from that into the more specific--and maybe 
before I do that let me, if I might, just share with you, which 
I think I may have shared with you the other day, this one 
paragraph of a letter from the Mayor of Douglas to give you 
some feel for the problem that exists, where he writes in his 
letter to, I believe it was all of the Members of the 
Congressional Delegation--no, Mr. Pastor and myself:

    The perception in Douglas is that our community is being 
overrun. Many of our citizens, especially the elderly, have 
been exposed to the phenomenon of strangers driving down their 
alleys, running down their streets, hiding in their yards, are 
afraid to leave their homes or answer their doors after dark. 
The UDA's nocturnal activities disturb the peace and quiet of 
our city and cast a shadow of fear that was never before 
present. The barking of dogs, along with other sounds 
associated with these activities, create a situation where 
people cannot get a peaceful night's rest. Property is trampled 
and destroyed, homes are broken into, and a trail of garbage is 
left behind, not only in the city, but also in the outlying 
area. Our biggest fear is that the people's desperation and 
fear eventually will result in a situation that ends 
tragically.

    Let me just ask you, you and I talked about the concern 
that we have of the facility there, and we had a plan that I 
understood was to expand that facility which then, as I read it 
in the budget, is now been pushed back 2 or 3 years. I have 
been to this facility, this Border Patrol station. They are 
literally standing around. When they have the call at muster, 
people are standing outside because they can't all get inside, 
there are so many people. It is a facility that is so tiny 
compared to the number of people that they have there today 
that there are no desks for them. They are writing their 
reports on top of file cabinets. It is an awful situation in 
which they are working right now. What can you tell me about 
what we are going to do about that?
    Ms. Meissner. A new station for Douglas is among our 
highest priorities for construction. The President's budget for 
fiscal year 2000 for the Border Patrol is supporting the Border 
Patrol through technology and construction funding requests. We 
have a terrible shortage of space because of the very dramatic 
growth of the Border Patrol over the last 4 years. That is 
demonstrated exactly by what you are saying with the Douglas 
station. There is a new Douglas station scheduled for 
construction in the year 2001. It remains in the budget. The 
design is taking place now. The site acquisition and all of 
those issues are always 3-year endeavors, but Douglas is in 
that schedule, and there will be a new station in Douglas.
    Mr. Kolbe. So the 2000 budget would have the money for the 
design and planning of it, and 2001 for construction, is that 
correct?
    Ms. Meissner. That is correct.
    Mr. Kolbe. Okay. I might want to see if there is anything 
we can do to accelerate it. It has really been an intolerable 
situation for a couple of years and I don't know for how much 
longer they can go with this; because if that is the last 
unplugged area, you are going to have to get some temporary 
facilities or something, because you can't put more people in 
there, literally.
    Ms. Meissner. Right. But we have moved in modular 
facilities. That continues to be an option.
    Mr. Kolbe. I know. I have seen those.
    Ms. Meissner. Sometimes it is the best you can do, but it 
is obviously better than nothing.
    Mr. Kolbe. Thank you very much, Mr. Chairman. I have some 
other questions. I may either submit them for the record or if 
I can, I will ask them.
    Mr. Rogers. Mr. Serrano.

               2000 census and ins enforcement activities

    Mr. Serrano. Thank you, Mr. Chairman.
    Commissioner, this morning we had our hearing with the 
Census Bureau, and among other things we discussed methods of 
reducing the undercount. As you know, the constitutional 
mandate for the census is to count everyone in the country on 
Census Day, regardless of citizenship status. But one group 
that tends to be more undercounted than others is immigrants, 
both documented and undocumented. Some come from countries 
where government is feared, some live in households where their 
landlords or local authorities may try to break them up; some 
are undocumented and fear any contact with government that 
might bring them to the attention of the INS. Census Director 
Prewitt said this morning that he has requested a moratorium on 
INS raids for the period of the 2000 census to make it 
absolutely clear that filling out a census questionnaire or 
answering an enumerator's knock at the door will not threaten 
any resident.
    Can you tell me what the INS plans are for encouraging all 
U.S. residents to participate in the 2000 census, and can you 
also assure me that INS does not and will not get information 
of any kind about individuals from the Census Bureau?
    Let me prior to your answer say that this is not just an 
issue for undocumented folks, which is obviously something that 
concerns you, but it is also about people who have just become 
citizens, who are still not fully understanding that in this 
country we don't have to fear the government to that extent, or 
at all, and they may just think that any participation might 
affect them also, whether they are here illegally or are here 
as citizens already.
    What can you tell me about this issue?
    Ms. Meissner. Well, participation in the census and an 
accurate census count is of overriding national importance. 
That is an issue that the INS and the Census Bureau have always 
agreed on. We have had discussions, I have had discussions with 
the prior Director of the Census about INS during the census 
period. Traditionally, INS has been very--``agreeable'' is even 
too weak a word. I mean, they have strongly supported the 
notion that we should make known during the period of the 
census that people need not have a fear of immigration 
enforcement in the process of the census being taken, and I 
would envision our doing the same thing for the 2000 census.
    I would also say that the issue of the way in which the 
Immigration Service enforces the law in communities and in the 
interior of the country is one that is changing. I made 
reference to that in my opening remarks. We are pursuing a 
strategy of enforcement in the interior of the country now 
which is much more targeted, which seeks to achieve high impact 
out of activities that are abusive, criminal in nature, or 
fraudulent. We are organizing our resources to focus them in 
those ways, so that we would increasingly see ourselves dealing 
with enforcement at the community level through removing 
criminals, through attacking smuggling, through focusing on 
benefit and document fraud. I think that that is the best way 
for us to enforce the immigration law. It also is a way that 
should create more confidence in communities about the nature 
of the immigration activity in their communities.
    Mr. Serrano. Now, would you categorize this as something 
that will be passively done by the INS, or is this something 
where you might go somewhat out of your way to make sure this 
happens. I remember the 1980----
    Ms. Meissner. We have gone out of our way in the past.
    Mr. Serrano. Well, but if you recall the 1980 census, one 
of the things that really broke our hearts in our communities 
was that the Catholic Church came out and said, We can't 
guarantee that people who come forth and say that they are in 
this country will be protected from the INS. Now, perhaps at 
that time the Church just spoke a little too quickly or 
whatever, but it created, I remember, an incredible feeling in 
my neighborhood among people who were legally here, waiting to 
apply or applying, which brings me to the whole issue of the 
backlog.
    You know, the backlog presents another problem in the 
census count. That is, if you are here legally, you are waiting 
to be processed, you are in the system, if you will, you still 
have a lot of these fears about how you deal with government 
and with the INS, especially the INS, and we have just got to 
make sure--and I don't know, Commissioner, that it would be 
enough to put out the word that it is okay.
    Is it possible as the census is going out there, for the 
Census Bureau in a very forceful way to say, ``Be counted,'' 
for the INS to say, ``This is not an issue for us.'' I know 
that is a touchy thing for you because you are not supposed to 
advertise you are okay, if a person is not okay, but we do want 
to count people.
    Ms. Meissner. Right. Well, let me say that I will do 
everything that I can and on behalf of the Immigration Service, 
we will do everything that we can institutionally to work with 
the Census Bureau so that there is nothing in the immigration 
context that undercuts the ability of the Census Bureau to do 
its job.
    Now, we always will have the issue of criminal aliens and 
of criminal activity on the part of aliens. So we would not 
stand down where that work is concerned. But apart from 
criminal activity, we have, I think, been very aggressive in 
doing things that are appropriate to communicate that, above 
all, people should feel safe in participating in the census and 
in cooperating with the census, and I will be very eager to do 
that again.
    Mr. Serrano. Let me just say that for the record, I don't 
want you to stand down or back off from any of your duties; I 
just want us all to find a way that perhaps the message can 
come out from your agency that your work is not directly 
related to being counted in the census. That doesn't mean 
people who are in fear of the INS are going to start loving you 
overnight; that is not what we are looking for; but certainly 
people should feel there is no relationship between one and the 
other.
    Ms. Meissner. We have talked about that with the Census 
Bureau. That is a continuous conversation with the census 
approaching, and we will do everything we can to assure that.

                       chinese detainees in guam

    Mr. Serrano. Great.
    My colleague, Robert Underwood, the Delegate from Guam, 
asked me to raise this issue with you today.
    During the past year, more than 500 Chinese undocumented 
immigrants and smugglers, mostly men, have been apprehended on 
Guam. Since January of this year, a total of 235 have been 
apprehended. Just this past Sunday, the largest group so far, 
97 undocumented immigrants, including women and children, ran 
aground on Guam. Each of them is expected to apply for asylum.
    I understand that the INS does not have sufficient funds to 
process immigrants on Guam. How does INS propose to address the 
situation and to ensure that undocumented immigrants on Guam 
are processed in a timely manner?
    Ms. Meissner. The undocumented immigration that you are 
referring to is, by and large, large-scale smuggling of 
Chinese. It is the most vicious of the international 
trafficking of aliens that we deal with around the world today. 
We don't have sufficient detention capacity in Guam when groups 
arrive there, and that is something that we are working on. But 
the extent to which people do arrive in Guam and do apply for 
asylum, we have a very effective, efficient system now for 
processing asylum claims. I believe that we handle Guam by 
sending asylum officers there, although I will verify that, to 
interview people and to provide a case-by-case review of 
whether or not they have a well-founded fear of persecution. It 
is very much in the interests of an effective asylum 
decisionmaking process to handle those cases in as timely a 
fashion as possible, because if they are not handled timely, it 
encourages people who might be interested in misusing the 
system to do so.
    So we react very quickly to those situations. We work very, 
very diligently with the Coast Guard to prevent those boats 
from arriving in the first place. If they are indeed 
trafficking on the high seas, when they do arrive, we move as 
quickly as we possibly can to adjudicate cases so that any 
among those people who might validly be refugees can, in fact, 
get protection. We find that the very large majority are not 
eligible for asylum, and then we need to move as quickly as 
possible to return them, so that the message goes back not to 
abuse the system in this way.

                       alien smuggling from cuba

    Mr. Serrano. Let me ask you my last question for this round 
on a related issue.
    It is interesting, and I probably will get a couple more 
chances to say this before this year ends, but the Chairman and 
I have an ongoing kind of a side conversation here as to how 
long it will take for the census issue to come up during any 
hearing, or for me to bring up Cuba during any hearing. Well, 
guess what? I just did the census, and watch this question now.
    Interrelated to this smuggling issue, it used to be that if 
you came from Cuba, you were welcome here immediately. That 
changed somewhat over the last few years. It also used to be 
that if you have been involved in getting people from Cuba 
here, in spite of immigration laws, you were considered a hero 
not only by some people in the Miami community, but by a lot of 
people at the State Department. That also seems to be changing. 
There have been quite a few incidents reported lately of people 
from this country involved in, I would say, the business of 
trafficking and smuggling people from Cuba. Some have died, 
some never made it here.
    And I know you are not in the business of indicting people, 
that is not what you do; you prepare information. Is it as hard 
to get an indictment on this issue as it used to be years ago 
when it was welcome for everybody to break the immigration law, 
or has that changed at all? Some people would say that the 
hardest indictment to get in Miami is for getting a person out 
of Cuba. That is always a welcome thing to do.
    Ms. Meissner. Well, in our experience, your observation 
that these practices are changing is a correct observation. We 
believe that some of these practices are changing, and these 
changes amount to organized smuggling of one form or another in 
the case of people coming from Cuba, not all together, but to 
some considerable extent. The United States Attorney in Florida 
has been increasingly concerned with these changing practices 
as well, and is beginning to bring some cases as smuggling 
cases.
    I think the direct answer to your question is to look at a 
very recent case where, indeed, there was an indictment and I 
believe that the jury found guilty, and there was a sentence on 
a person who brought a group--the boat capsized or something 
happened to the boat, a significant number of people drowned, 
including the wife of the smuggler. It was a very tragic 
situation all around, but it does demonstrate that these are 
life-and-death activities, very dangerous activities, and I 
think we are starting to see some change in the behavior of the 
criminal justice system in responding to them.
    Mr. Serrano. Thank you, Mr. Chairman.

                   border patrol request for fy 2000

    Mr. Rogers. Now, Commissioner, we have increased the number 
of Border Patrol agents from a fiscal year 1993 level of 3,900 
agents to fiscal year 1999 level of 9,000 agents, a 122 percent 
increase. Yet, while the stream of illegal aliens may have 
slowed in the San Diego area, it has moved east to Arizona, New 
Mexico and Texas, as Members of Congress and Border Patrol 
chiefs and agents will tell you.
    Additionally, we have barely begun to identify the needs 
for the U.S.-Canadian border, as alien smuggling and other 
forms of illegal immigration become more prevalent across the 
Northern border. Yet INS's budget request does not request one 
single additional Border Patrol agent for fiscal year 2000.
    You say in your testimony today that there are too many 
inexperienced agents, but Congressman Reyes, a former Border 
Patrol chief who has over 26 years of experience with INS and 
is a former Border Patrol chief, disagrees with you and says 
that the current level of less experienced agents is well 
within acceptable standards, as he testified on February 25th. 
He also says that all five Texas Border Patrol chiefs agree 
that they desperately need more agents, and that technology is 
irrelevant if you don't have Border Patrol agents to respond to 
it.
    What do you say to that?
    Ms. Meissner. Well, as you have noted, the Border Patrol 
has experienced very dramatic growth. It has more than doubled 
in the last 4 years and that has obviously been with very 
strong support from this Committee, and has involved a very, 
very aggressive hiring and training effort on the part of the 
Immigration Service. We have been able to bring this growth of 
several years into deployment. We have another 1,000 agents 
that are authorized and funded in this year's budget, the 
fiscal year 1999 budget. We are having some problems this year 
actually meeting our recruiting targets because of labor market 
issues, but we have the capacity to deal with these numbers; we 
have been able in the past 4 years to build this force up in a 
very, very aggressive fashion, and we continue to remain 
committed to the growth of the Border Patrol and to the 
strategy that we have put into place.
    The growth has been very substantial, however, and it has 
been explosive, and we have a very new work force.
    Mr. Rogers. I want you to stay on track. What about the 
charges that we need more Border Patrol agents?
    Now, you are not likely to hire all 1,000 that we provided 
for you in the current year bill. Six Border Patrol training 
classes have been canceled. Less than 400 agents are currently 
in training. In fact, if we continue as we are now, you will be 
lucky to hire 500 agents this year when we gave you 1,000. What 
are we doing to ensure that all of those agents that we gave 
you this year are on board by the end of 1999?
    Ms. Meissner. We have worked very aggressively this year on 
our hiring program. As I say, we have over the last 4 years met 
all of our hiring goals; we have opened a new training academy; 
we have not only maintained our training standards, we have 
improved the quality of the Border Patrol. We have the capacity 
to do this hiring. We have developed a recruitment and a 
training program that has been effective.
    This year, for the first year, we are hitting problems and 
they are problems that are labor market problems, similar to 
what the military is experiencing and what other law 
enforcement agencies are experiencing. We are in a business 
where the economy has, as we all know, very, very low 
unemployment, and where the standards that we are calling for 
with the Border Patrol are very stringent. We have the longest 
training period of any Federal law enforcement agency. We 
require Spanish language, which is an exceptional requirement 
as compared to other agencies, and so we are facing 
difficulties this year. We will not meet by the end of this 
fiscal year the hiring goal of 1,000.
    However, we are very aggressively changing our recruitment. 
We are working on the procedures to be sure that we are 
shortening the hiring period as much as we can, consistent with 
maintaining high standards, and that recruitment will, 
therefore, have to go over into the next fiscal year.
    However, the growth of the Border Patrol needs to continue. 
The Administration made the decision this year to support the 
Border Patrol through facilities, through technology. Our 
budget request is almost one-half support for the Border 
Patrol, $98 million in a combination of construction funds and 
technology funds. The technology is not a substitute for 
agents, we know that. At the same time, it is a very, very 
important force multiplier, particularly in areas like Texas 
and the more remote areas of the border.
    Mr. Rogers. What do you say to the five Texas border 
chiefs, Border Patrol chiefs that say that they desperately 
need more agents, and that technology is, and I am quoting 
them, ``irrelevant, if you don't have Border Patrol agents to 
respond to it,'' end of quote. Are they in error?
    Ms. Meissner. They are not in error. They know, as we all 
know, that the effectiveness of our efforts on the border is a 
combination of people, technology, and equipment. In all of the 
sectors we have provided a combination of those three factors. 
There are places where technology can be of more assistance 
than in others. The Texas Border Patrol sectors will be getting 
basically half of the 1,000 agents this fiscal year that will 
help them considerably. The technology that is in the budget 
for fiscal year 2000 will also help them very considerably, 
because it is state-of-the-art technology that will allow 
agents----
    Mr. Rogers. It just seems to me that every time we give you 
a goal and give you the money to do it and you promise us that 
you will do something, you always come up short. I mean, 
everything I have asked you about so far today, you have come 
up short. The naturalization, you are falling way short. Border 
Patrol agents, you can't hire them. And I have a lot more that 
I want to cover with you, but so far you are batting pretty 
close to zero.
    Ms. Meissner. Well now on the Border Patrol, the hiring 
that has taken place in the Border Patrol for the last 4 years 
has been an extremely ambitious program. We have met the goal 
every year. We have the capacity and we have demonstrated that 
we can meet the goal with a very high-quality work force. This 
year, we are dealing with a labor market situation that is 
beyond our control. We are adjusting to that situation as 
quickly as we can, but we are in the same boat as sister 
Federal agencies and the military. One cannot overcome those 
factors in simply a month or two. One has to recalibrate the 
pipeline, has to look for different sources of recruiting. This 
is an issue that is government-wide, and we are adjusting as 
quickly as we can in order to meet our obligations in the year.

                       southwest border strategy

    Mr. Rogers. Now, in January of this year, the GAO released 
their report on the Department of Justice management problems. 
In relation to the Southwest border, they said, quote, ``INS 
has spent billions of dollars on border enforcement, but has 
not yet done a comprehensive evaluation to determine whether 
its strategy to deter illegal entry has been effective.''
    Why haven't you done a comprehensive evaluation so that we 
can definitively know whether this very sizable investment that 
we are making in resources at the southwest border has been 
effective?
    Ms. Meissner. It is very important to be able to determine 
how the investment is paying off. We know that where we have 
applied resources, we are seeing results. We have a 
comprehensive evaluation, which is underway. Any evaluation of 
an issue of this magnitude takes some time to do. The 
evaluation has been contracted and we expect to have results--I 
actually need to verify for you when we will have the results 
of the evaluation, but I believe that it is within the coming 
fiscal year. And we recognize that we need to have a 
comprehensive evaluation, which is why we have made 
arrangements to accomplish that.
    Mr. Rogers. Who did you----
    Ms. Meissner. I believe that we are working with the Center 
for Naval Analysis, which has the skills and the background to 
assess an issue of this magnitude across this broad a 
geographic area.
    Mr. Rogers. Naval?
    Ms. Meissner. I believe so.
    Mr. Rogers. Naval Analysis?
    Ms. Meissner. Yes. It is one of the DOD research activities 
which now, since changes in the Defense Department, is working 
with domestic agencies on issues that are relevant to the 
techniques that they have developed over the years in analyzing 
DOD issues.
    Mr. Rogers. But you can't tell me when that is going to be 
finished?
    Ms. Meissner. I don't have it with me right now, but I will 
get back to you on that.
    Mr. Rogers. Does anybody in the room have that information 
with them? Surely somebody does.
    Ms. Meissner. Well, I believe that we will have some 
preliminary information late this spring, and more 
comprehensive information later in the year, but I will check 
that for you.
    Mr. Rogers. Okay. That's 0 for 3.
    Mr. Latham.
    Mr. Latham. Thank you, Mr. Chairman, and welcome. I thank 
you for dropping by yesterday and having the opportunity to 
visit about the quick response teams and the video 
teleconferencing and Operation Vanguard. I am going to be, 
because of the hour of the day, quite brief here today and I 
will submit some questions for the record on those 
conversations we had yesterday.

                proposed detention facility in nebraska

    Mr. Latham. But there is a critical issue in the Iowa-
Nebraska region where the Omaha District Office has been 
attempting to construct and operate a 300-person capacity 
prefabricated detention facility in Grand Island. However, no 
funds have been made available by INS to do so. The region's 
jails are so overcrowded, probably as a result of the INS and 
other Federal prisoners, that the courts are going to start 
releasing prisoners. Opening up this planned detention facility 
which officials estimate could be done within 2 months is 
critical to addressing the problem. Is there a way for INS to 
find the funds to get this facility up and running this year?
    Ms. Meissner. I have to be honest with you to say that we 
have a very serious situation with funding for detention this 
year. The Grand Island facility is an idea that our central 
region has developed. We know that we need more detention in 
that part of the country. I would be very reluctant, however, 
to say that we would be able to fund that out of this year's 
funding, given what the funding picture is.
    Mr. Latham. Is there funding requested in the year 2000?
    Ms. Meissner. Funding for this is not currently in the 
fiscal year 2000 budget. We, however, have a continued funding 
issue in the fiscal year 2000 budget where detention is 
concerned, and we are working with OMB on solutions that we 
will bring to the Congress.

                     cooperative agreement program

    Mr. Latham. Okay. As you know, the Attorney General is 
requesting $35 million for the cooperative agreement program. 
Do you know how much of that INS will get, and do you have any 
idea where those funds are going to go in INS?
    Ms. Meissner. The cooperative agreement?
    Mr. Latham. Well, it is to help pay for incarceration of 
Federal prisoners.
    Ms. Meissner. Oh, the reimbursed funding to States.
    Mr. Latham. Right.
    With the Marshals Service.
    Ms. Meissner. Are we talking about the U.S. Marshals 
Service IGSA contract?
    Mr. Latham. Right, right.
    Ms. Meissner. Okay. A good deal of our detention capacity 
now is as a result of agreements with local jails to buy and 
use space from them, and that takes place all over the country, 
but that again is a function of dollars. So to the extent that 
we have funding limitations, those agreements are affected by 
those funding issues.

                             fingerprinting

    Mr. Latham. What I would like to do is, I am going to have 
a delegation out here from Sioux City, Woodbury County, and if 
we could possibly get a meeting set up and visit to see if we 
can work on the problem. It is a major, major concern for the 
area.
    Just one final area. Do you know how many of the portable 
IDENT fingerprint systems INS has, and in the budget are you 
going to procure anymore portable systems in Sioux City? 
Basically, their computer system does not match up and they 
can't use it; they need a portable system up there.
    Ms. Meissner. I would be pleased to get back to you on what 
the plans are for that. There are a number of local areas that 
are interested in this and we work with them as comprehensively 
as we can. Actually, the best support that we are able to give 
to local law enforcement is through the Law Enforcement Support 
Center, which is this phone-in capability that we have to a 
center in Vermont that checks all of the criminal databases and 
responds to local law enforcement in the case where they have 
arrested somebody that they believe might be a criminal alien.
    Mr. Latham. You don't know if there is in the budget, 
though, anything for additional portable IDENT systems?
    Ms. Meissner. It would be part of our base budgeting. It is 
not a new request, but there is a good deal of that kind of 
technology in our base budgeting, so let me check to see 
whether any of it meets what you are asking about.
    [The information follows:]

    Using FY 1998 funding, INS has developed and deployed 55 
Portable IDENT (Mobile IDENT Stations) to 28 sites around the 
country.
    Presently, Sioux City does not have IDENT capability. In FY 
1999, we have $500,000 for the continuing deployment and 
development of Portable IDENT. That budget was approved by the 
INS Investment Review Board (IRB). We have received a request 
for portable units for the two agents in Sioux City and Omaha. 
That request was approved by INS Office of Field Operations, 
and they will have their equipment before the end of FY 1999.

    Mr. Latham. Thank you. I have some questions that I will 
submit.
    Thank you, Mr. Chairman.

           effect of fingerprinting on naturalization backlog

    Mr. Rogers. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman. Welcome, Ms. 
Meissner.
    Ms. Meissner, as you know, one of the greatest concerns 
that many of us have is the tremendous backlog that has 
existed, and it is my understanding that you are not going to 
be able to meet the projected numbers in terms of reducing the 
backlog as originally anticipated.
    I was wondering, considering the backlog, what was the 
thinking behind a policy that you currently have that requires 
applicants that have not been naturalized within 15 months of 
their original FBI clearance to have to be reprinted and 
recleared. Because my understanding is that that is extremely 
costly and it really does slow down the process. In fact, last 
year, the INS testified before the House Judiciary Committee 
that there was an estimated 500,000 naturalization applicants 
that would have to be refingerprinted at a cost of about 
$19,600,000.
    Could you explain why the fingerprinting records of 
applicants are not stored at least for some period of time by 
the FBI to reduce the costs, or if there is some way to perhaps 
target applicants, for example, like the elderly, those who are 
less likely to be criminals, target them so that they don't 
have to go through this process again, and it would save time 
and money?
    Ms. Meissner. Well, first, let me reference the target 
number here, because as we have discussed earlier, at the 
beginning of the fiscal year, we had set a target of 1.5 
million cases, which we have revised to 1.2 million. That 
remains a very, very substantial completion rate. It is an 
historic high, would be a historic high for the Immigration 
Service and remains a very ambitious target, which we are 
working very hard to meet.
    The fingerprinting requirements that exist in the 
immigration process are of paramount importance to us because 
they go to the core of the integrity of the naturalization 
program, and of the new foundation of integrity that we have 
built for the naturalization program. Moreover, the 
fingerprinting technology that we are now using and the new 
fingerprint centers that we have put into place have been a 
very, very important advance and achievement in improving the 
process.
    The 15-month rule is a rule that is there in order to 
prevent or preclude the possibility of somebody committing a 
crime after the fingerprint check has been completed but before 
the naturalization decision is made. That is a quality issue. 
We have been in a catch-up period because the backlog cases had 
accumulated for so long; sometimes 2 to 3 years to create a 
backlog, and fingerprints had been cleared a long time ago. We 
had to submit fingerprints again to be certain that there 
wasn't current criminal information on those people. We have 
done that at no charge to the applicant, where we have had to 
reprint. But more importantly, now that the new fingerprinting 
procedures are in place, now that the quality assurance 
procedures are working correctly, and the integrity measures 
are in place the way they need to be, we are now calling people 
for their fingerprints only when it is sufficiently close to 
the interview so that we can be sure the time will not elapse 
to call for a fingerprint again.
    Now, we are still in the process of switching; where we are 
still dealing with older cases of people that were cleared 
longer than 15 months ago, and so we do have to inconvenience 
them. The pattern for the future and the newer cases that are 
coming in is to only call them to take their fingerprint when 
we can see the interview time is going to be available, and 
they, therefore, would fall within the proper time period and 
not have to come again.
    Ms. Roybal-Allard. So that is the method whereby you are 
actually going to be eliminating the cost and the delay?
    Ms. Meissner. Exactly. Exactly.

                       naturalization denial rate

    Ms. Roybal-Allard. Great. One of the concerns that we have, 
particularly in Los Angeles, and I know you have heard this 
before, is the significant increase in the denial rates. In 
fact, in Los Angeles, the denial rate increased from 7 percent 
to 43 percent during the same 1-year period.
    Could you explain for the committee why there is such a 
high denial rate? Also, why there is such a wide variation in 
denial rates between various INS district offices. For example, 
in the first quarter of 1999, the denial rate for INS districts 
ranged from 7 percent in Portland, Maine to a high of 67 
percent in Miami.
    Ms. Meissner. We are seeing some very dramatic changes in 
the denial rate. The denial rate had typically been somewhere 
in the neighborhood of 20 percent or less, and there are some 
districts, as you say, that are now in the 40 percentiles. 
There are actually some districts where there have been denials 
in the 50 percentiles. It is a function, we believe, of 
beginning to process the backlog in a very serious way. That is 
to say that we are requiring that our district offices go back 
into the old caseload. They have had a habit over time of often 
setting the difficult cases aside, or of setting the cases that 
were to be denied aside because it takes more work to write the 
denial letters and process the paperwork. As we require and put 
the procedures into place to work through all of those old 
cases, a lot of cases are now coming forward that are simply 
cases to be denied.
    In addition to that, we find that people have filed 
multiple applications, and so in joining the applications to be 
sure that we are operating out of one file, several are denied 
even though the person ultimately, in a consolidated 
application, may have an approvable case which is approved.
    We also are finding, particularly in locations like Miami 
where there have been a high proportion of elderly applicants, 
we are finding large numbers of people abandoning their 
application, and we believe that that is because the initial 
impetus for some people to apply had been changes in the 
welfare laws, which now have changed again, so that the urgency 
that they felt for naturalization is no longer so critical to 
them. That is particularly the case with elderly people who are 
having difficulty learning the English language and now that 
there is a change in their eligibility for particular programs, 
it is no longer necessary, in their view, for them to proceed.
    So there are all of those kinds of reasons. At the same 
time, we are concerned about these changes and we have to be 
absolutely certain that those reasons are indeed the reasons. 
So we have been monitoring this very closely. We have the very 
troubling issue of change of address that also creates an issue 
with denials. Some of these applicants who have been with us 
for a long time have changed their residences. The change in 
address may not have caught up with the file the way it should. 
If we have denied somebody improperly because we didn't know of 
their change of address and they filed the change of address 
with us, we will reopen that case at no cost to the applicant. 
Instructions on that procedure are going out to our district 
offices this week so that if you do hear of cases where people 
have filed with us an address change form and received a denial 
because we believe they abandoned their application, but, in 
fact, they didn't know that they were supposed to come in, then 
we will rectify that.
    Finally, I would tell you that on this change of address 
issue, this is a very significant issue for us overall, not 
just with denials. We need to have a centralized automated way 
of dealing with changes of address, and we are developing that 
and hope we will be able to put something into place later this 
year so that that is much easier for applicants and for the INS 
to handle and match up.
    Ms. Roybal-Allard. Okay. Now, if they did not file a change 
of address, they forgot or whatever, and then later come back 
and ask what has happened, will they be able to be processed?
    Ms. Meissner. Well, probably not. I mean, it is their 
responsibility to tell us if their address changed, and if they 
fail to do so and the time has tolled on their response to us 
for an interview or additional information, I think in those 
cases, then they would be required to be filed.
    Ms. Roybal-Allard. What kind of proof? In other words, they 
send a form in saying they have a change of address, it gets 
lost or something happens, and what----
    Ms. Meissner. We will give the benefit of the doubt in 
these cases because we know we are dealing with massive 
conversion here.
    Ms. Roybal-Allard. Okay. Thank you.
    Mr. Rogers. Mr. Wamp.

                          interior enforcement

    Mr. Wamp. Thank you, Mr. Chairman.
    Commissioner, thanks for being here. I have great empathy 
for you. I can't even imagine the challenges that you face. I 
know misery loves company, and if it will make you feel a 
little better, the census guy, he is in more trouble than you 
are in.
    But I got home----
    Mr. Serrano. We are hoping you don't have any more trouble.
    Mr. Wamp. I got home last weekend to a story in Chattanooga 
of 24 illegal aliens that were rounded up by the authorities 
and, there wasn't anything they could do with them. They were 
headed to a tomato farm in south Georgia, so they just loaded 
them back up and sent them on their way. Then, by the time the 
weekend was over, the same situation happened again in a 
neighboring county, in Polk County, and again, there was 
nothing that could be done, and they literally put them back in 
the truck and sent them on their way.
    The folks back home are asking me, ``Have we just given up, 
or are we just so overloaded that we can't deal with any of 
these problems?''
    Now, I think it was someone with the INS, interviewed on 
television and he said--and my wife and I were commenting, that 
it was a really heartwarming response, because he said, ``You 
can't blame these folks. They are basically just trying to feed 
their families. They are just trying to provide for 
themselves.''
    So I certainly have great empathy for them as well. But I 
do wonder if we are in effect having to just give up on some of 
the immigration problems that our country faces. We are pretty 
far inland, but there is an awful lot of aliens in southwest 
Tennessee and northwest Georgia.
    Ms. Meissner. Well, I think that we have to say quite the 
opposite from giving up. We are not only not giving up, we are 
making significant headway. Now, that is not to say that we 
have been able to, or will be able to solve all of the problems 
that surround illegal immigration. At the same time, what you 
are seeing is changes in the patterns of moving people into the 
country, largely because we have been far more successful in 
our enforcement at the southwest border. And what has happened, 
unfortunately, is that, as always happens with law enforcement, 
we are finding far more organization and organized activity in 
the response to the enforcement that has taken place and 
therefore a need for us to respond in new and different ways, 
more aggressively, and in more complex situations than has been 
the case in the past.
    Now, the most immediate thing that I can tell you is work 
that this Committee did in the last budget round, which is by 
giving us 200 positions for what is being called ``Quick 
Response Teams,'' which will be located in places around the 
country that are experiencing these trafficking patterns 
changing, as well as other local law enforcement implications 
of changes in illegal immigration. Those quick response teams 
will be precisely for the purposes of supporting local law 
enforcement when occurrences like this take place. Those people 
will begin to be hired on site later this fiscal year. So you 
can tell your constituents that we will be doing everything 
that we can with the support of this Committee and of the 
Congress to meet their needs.

                           foreign adoptions

    Mr. Wamp. Shifting gears real quick, we have a lot of 
nonprofit and faith-based groups that work adoptions from 
foreign countries, and it is very complicated. We are inundated 
with it in our office, local casework, and constituent work. 
But can you just talk about the trends and challenges that we 
face? Obviously, as we try to discourage abortion around the 
world, adoption is the best alternative, and a lot of people in 
this country are seeking to adopt people from other countries, 
and I guess it is overloading you as well.
    Can you speak to that issue?
    Ms. Meissner. Yes, I can. I would say that the adoption 
cases, we call them orphan cases, are probably among the two or 
three most complex adjudications that we perform. They are not 
only complex from the standpoint of the legal requirements and 
all of the bases that need to be touched to approve an adoption 
as a proper adoption; they are also very labor-intensive 
because they don't lend themselves to automation; they involve 
coordinating with foreign governments, with foreign attorneys, 
with adoption agencies that operate abroad, with home study 
social services agencies in the United States, and they also 
function in the context of extreme emotional anxiety and 
feelings on the part of the new parents.
    So I wish we could devote more resources to adoptions. We 
actually have some of our very best people around the country 
that handle these cases in our offices, and the critical thing 
for us is to be absolutely certain that the babies indeed are 
legitimately available for adoption. That can be very complex 
in particular countries around the world because, as we know, 
poor parents can be very desperate and there are some real dark 
practices that take place in the name of humanitarianism in 
this arena.
    Mr. Wamp. One final question. Are you aware of the fact 
that Mr. Serrano's nephew is now a professional baseball player 
and was drafted last year? I thought, Jose, you might want to 
talk about that just for a minute. You have got the card in 
your pocket.
    Mr. Serrano. He is not playing in that Cuba game on 
Saturday. He is on his way to San Jose.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Serrano. Thank you for mentioning it.
    Ms. Meissner. Congratulations all around.
    Mr. Rogers. Is the gentleman finished?
    Mr. Wamp. Yes.

                          quick response teams

    Mr. Rogers. The gentleman from Tennessee is advised that 
this Subcommittee, as the Commissioner mentioned, established a 
Quick Response Team network in our bill for the current year, 
and we are halfway through that year, but I understand the 
Quick Response Teams, which there will be one in most States, 
most interior States, including Tennessee, so that your law 
enforcement officials will have a number they can call and the 
team will be based in Tennessee and they will be able to come 
and quickly work in the situation like the situation you 
mentioned. That is due to the work of your trusted 
Subcommittee.
    Mr. Wamp. Thank you.

                 immigration enforcement and the census

    Mr. Rogers. Now, Commissioner, did you say during your 
conversation with Mr. Serrano that during the census taking, 
that deportation would be suspended?
    Ms. Meissner. I did not.
    Mr. Rogers. Tell me what you said.
    Ms. Meissner. I said that we would of course, continue our 
work where criminal alien activities are concerned but that we 
would seek to cooperate with the census as fully as we can to 
be sure that people feel free to participate in the census.
    Mr. Rogers. Well, what does that mean? Are you going to 
cease to work on evicting illegal aliens?
    Ms. Meissner. The census period is a very short period and 
the arrangement that has taken place in the past during the 
census period, which as I recall is usually a week or two, is 
that the Immigration Service has tried to make clear that it 
would work only where criminal matters are concerned and would 
not have operations in immigrant neighborhoods that might 
create a chilling effect on the ability of the census to be 
taken.
    Mr. Rogers. It is a separate question. Are you going to 
continue to seek out and evict illegal aliens, people who are 
here illegally, who enter the country illegally?
    Ms. Meissner. We will continue to remove criminal aliens 
from the country and people who are in the deportation----
    Mr. Rogers. I didn't say criminal. I said illegal aliens.
    Ms. Meissner. I would think that our normal activities 
where people who are subject to deportation and in immigration 
proceedings of one sort or another--if their date for removal 
were to arrive during that census week, I would think that we 
would enforce those deportation orders.
    Mr. Rogers. You are only talking about the one week?
    Ms. Meissner. Traditionally it has been the week or two 
during which the census takers are in neighborhoods that have 
been of concern.
    Mr. Rogers. That is the only time you are talking about 
easing up at all?
    Ms. Meissner. That is correct.
    Mr. Rogers. What about the Border Patrol? Will they 
continue to patrol the border?
    Ms. Meissner. Absolutely. That has nothing to do with the 
census.
    Mr. Rogers. And the law enforcement agents within the 
interior will continue to do their work?
    Ms. Meissner. They will continue to investigate cases.

              emergency supplemental funding for detention

    Mr. Rogers. All right. Now, you are asking for $80 million 
in emergency funding for nearly 3,000 additional detention beds 
for criminal aliens from Central America and illegals from 
Central America apprehended at or near the border. If we don't 
provide the funds, criminal aliens, criminal aliens could be 
released into the community while they are awaiting deportation 
and waves of new illegal aliens may reach our Southwest border 
on the hopes of being released for a lack of detention space. 
The need for emergency detention space is in large part a 
direct result of INS's failure to plan for and request in a 
timely fashion sufficient detention space to meet its statutory 
requirements. We have had two years to prepare for that 
requirement. We knew it was coming and yet there is no planning 
done. It is not the first time that INS has not planned and 
requested sufficient detention space to house criminal and 
illegal aliens.
    In fiscal year 1997 we provided program increases of over 
$114 million, $70 million over what you ask us for detention 
due to the then shortage of space which resulted in INS 
releasing criminal and illegal aliens. Since then, your 
requests have focused on building some detention space but not 
requesting immediate contract space to provide for the 
immediate detention needs. In fiscal year 1999, the first year 
that the mandatory criminal alien detention rules became fully 
effective, your request was far short of its need for immediate 
space. Knowing that INS did not have enough detention space to 
detain all the criminal aliens required by law, why weren't 
funds requested for additional and immediate detention space 
earlier?
    Ms. Meissner. As you say, there has been a very dramatic 
increase in detention funding over the last several years. We 
have, with the Committee's support, increased by over 140 
percent the detention resources available in the INS. We have 
increased those resources both through a combination of INS 
resources, more through agreements with local jails in which we 
buy bed space, and those increases in bed space have been 
accompanied by very significant staffing increases, recruitment 
training, hiring of detention staff so that we have had a major 
buildup from about 6,000 beds to close to 15,000 beds over the 
course of a few years.
    The pressures that we are facing now, this year, in 
detention and the $80 million that is in the supplemental 
request comes about as a result of a number of different 
factors. The mandatory detention requirements that you 
referenced go into effect this year. We were on the track for 
being able to meet those requirements, along with a series of 
management changes and improvements in our own handling of 
detainees that we have been concerned with, particularly the 
Institutional Removal Program where we need to see improvements 
in our ability to remove more people from State and Federal 
prison custody without having them come back through our own 
facilities.
    We have put all of our district offices under requirements 
to improve their procedures. All of them have given us 
improvement programs which indeed have erased the backlog of 
cases that need to be interviewed in the seven large 
Institutional Hearing Program States. We are on track with 
meeting the IRP requirements for this year. There are 
additional management improvements that need to be made through 
administrative removals and use of other legal streamlining 
measures that are available to us.
    The mandatory detention is an area where we could have been 
better prepared from the standpoint of collecting data over the 
last several years that would have allowed us to work with the 
Congress on the best ways to meet those mandatory requirements. 
That data is now being gathered, but we were short in being 
able to rigorously estimate and demonstrate the needs that 
those mandatory requirements would bring about. Then those 
things combined with, of course, the unexpected element of the 
hurricane and what that has meant for us where the stays of 
deportation on Central Americans are concerned have created the 
difficulty this year.

                     institutional removal program

    Mr. Rogers. On top of all the monies we have given you, 
there are tremendous increases. No agency, I don't believe in 
the whole government, has gotten more consistent and large 
increases as we have given INS over the last 4 to 5 years. And 
yet here we are bailing you out again in the middle of the year 
for something you didn't anticipate or ask us about. And then 
to top it all off, in 1997 GAO concluded that many criminal 
aliens were released into the community and that if INS had 
completed proceedings for all aliens released from State and 
Federal prisons before their release, it could have avoided 
nearly $63 million in detention costs. And only now when the 
mandatory detention of criminal aliens required by law has 
become effective and INS by its own hand has a detention 
crisis, only now is INS looking at ways to improve the 
Institutional Removal Program. 0 for 4.
    Why hasn't the INS made the Institutional Removal Program 
the effective cost-saving program that it should be, briefly? 
We are running out of time.
    Ms. Meissner. The Institutional Removal Program has been in 
our line of sight for quite sometime. We instituted the changes 
that GAO recommended in its report. All of the cases that they 
brought to our attention have indeed been interviewed and 
identified. We put requirements last year on our district 
offices on more effective management of the program. Every 
district has a plan for how to improve its management of the 
Institutional Removal Program. The plans are being adhered to. 
Accountability is fixed to meeting the targets.
    This year we have set ourselves a target of 16,800, I 
believe is the number of removals under the Institutional 
Removal Program. We will exceed that target and are likely to 
achieve about 18,000 removals under that program. So the issue 
is being addressed. We believe that the Institutional Removal 
Program is an excellent way to deal with the criminal alien 
responsibility that we have and we are addressing it as 
aggressively as we can and will continue to do so.
    Mr. Rogers. GAO identified these problems over 2 years ago.
    Ms. Meissner. We began to work on them early last year, 
soon after we got the GAO report. I believe that we did have 
some period of time where we were not as aggressive internally 
with this as we might have been. We have been very aggressive 
on this for the last year, and continue to be so. I think the 
improvements are showing results.
    Mr. Rogers. Which GAO recommendations have been 
implemented?
    Ms. Meissner. GAO asked us to look at a series of cases. We 
have looked at all of those cases and dealt with them so they 
have been disposed of one way or the other. GAO recommended 
changes in our tracking system. We have put those changes into 
place. GAO recommended workload analysis measures. Those 
workload analysis measures have been developed. There are, I 
believe, two or three other recommendations that we have 
addressed.
    Mr. Rogers. In the fiscal 1999 conference report of our 
Subcommittee, the Congress recommended that INS replace the 
more experienced and higher-paid special agents used in IRP 
with immigration agents. Even detention officers might be used 
instead of special agents. Such a change as that would reduce 
the overall cost of IRP and would free up more experienced 
agents for alien smuggling and other higher priority 
investigative projects. Have you prepared a plan to make those 
adjustments?
    Ms. Meissner. We have had those adjustments. We run our 
Institutional Removal Program with the lower-graded immigration 
agent. We have, however, had very high turnover with that 
occupation and that has been one of the difficulties in the 
Institutional Removal Program. But the people who actually do 
that work who are located at the institutions interviewing the 
prisoners are always looking to bid on higher paying jobs and 
do so regularly. With the hiring that has been going on in the 
agency, particularly in the last year or two, the investigator 
hiring which is a higher-graded position, we have had very high 
turnover. I think we have had turnover sometimes in the 30 and 
40 percentiles on that immigration agent position.
    Mr. Rogers. Staff tells me that that is incorrect. It is 
only being studied, that there have been no moves yet in 
changing the personnel that I asked you about.
    Ms. Meissner. What I am saying to you is that we do the IRP 
work with the lower-graded agent. We do not believe that that 
is working as well for us as it ought to because of the 
attrition that we are seeing in that occupation. So we are 
looking at what we need to do to remedy that. There are a 
series of recommendations that are coming forward. We are 
likely to change the program direction where that effort is 
concerned in order to get a more consolidated overall direction 
for the program, but it is the lower-graded employee that is 
doing that interviewing, and we have got to solve the problem 
of attrition because that is not investigative work in the more 
technically skilled areas that things like antismuggling 
represent.
    Mr. Rogers. Mr. Serrano.

              immigration enforcement and the 2000 census

    Mr. Serrano. Mr. Chairman, I want to just very briefly, in 
response to your questions of the Commissioner, to reinforce my 
desire that the INS not stop their work during the census 
period; simply that they don't send mixed signals to the 
community. This is important so people will go out there and 
get themselves counted. Please understand that that is our only 
concern.
    Mr. Chairman, with your permission, is it proper--can I 
yield my time to the gentleman from North Carolina who has some 
very specific issues to ask?
    Mr. Rogers. Generally we allow visitors from the full 
committee on the subcommittee to ask questions when members of 
the subcommittee have exhausted themselves first.
    Mr. Serrano. I feel terribly exhausted right now.
    Mr. Rogers. If no member objects, I think we can do that.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Price.

            naturalization and adjustment of status backlogs

    Mr. Price. Thank you. I appreciate your courtesy, Mr. 
Chairman, and also our Ranking Minority Member and other 
members of the Subcommittee. I am a member of the Full 
Committee. I am only a former member of this Subcommittee, but 
I was eager to be here today and I appreciate your courtesy in 
allowing me to spend a few minutes and to raise some questions.
    Ms. Meissner, I want to welcome you, of course, to the 
Subcommittee, and thank you for your testimony.
    I am here, though, because I do have some very serious 
concerns about some experiences we have had in our region with 
your agency and with the handling of cases, and I just want to 
raise these issues with you and see what kind of understanding 
we can come to as to how these problems might be addressed.
    What we are talking about, and I am sure it is not news to 
you, is the backlog and the time that it is taking for people 
to get an answer from your agency, the backlog in citizenship 
and adjustment of status applications that you are facing, I 
suppose all over the country, but certainly in North Carolina 
and in the southeastern region of this country. In my district 
offices, I currently employ three caseworkers who spend between 
half and three-quarters of their time ironing out problems with 
the INS, and I can tell you that that is two or three times the 
amount of staff time I have had to dedicate to this in the time 
I have been in office, since the early years I was in office.
    I recently sent these staff members to an INS workshop in 
Atlanta to find out how we can do a better job on our casework. 
At that workshop my staff learned that Atlanta holds the 
dubious distinction of being the most inefficient INS office in 
the Eastern Region. Efficient, I guess, is what we say because 
it is a dubious distinction. It is measured as a ratio of the 
total percentage of work each office in the region is handling 
and the total percentages of the budget it receives. At that 
measure we have a 3.6 efficiency rating, meaning that we are 
doing a great deal of work with a relatively small amount of 
money.
    What that rating does not take into account is the pending 
and in this case an increasing workload. In the last 5 years, 
the number of pending cases that the Charlotte field office has 
handled has increased from 2,000 to over 16,000. That is an 800 
percent increase. As I understand it, there are currently 4,850 
citizenship applications pending, an additional 8,000 waiting 
input at the Texas Service Center. There are 5,400 pending 
applications for adjustment of status; an additional 6,400 
justifications other than citizenship and adjustment of status 
pending. That is a total of 16,650 pending applications not 
including 8,000 in Texas that ultimately will be referred to 
Charlotte. In addition, some 6,000 persons come into their 
office every month seeking information service.
    Now, remarkably, all of this work is being handled by a 
Charlotte field office of 33 employees. Of that number, three 
are term employees. Seven are in the incumbent or overhire 
categories. So in addition to having a disproportionate share 
of resources and an increasing backlog, we have the potential 
to lose up to 10 employees through attrition who would not be 
replaced.
    Now, I know you have made some effort to try to address the 
backlog. Charlotte, in fact, benefited from the deployment of 
one of your backlog reduction teams which conducted almost 
7,000 interviews and swore in over 3,500 citizens last fall. 
But the team did not eliminate the backlog and Charlotte is now 
left with just two officers who can conduct naturalization 
interviews.

                           backlog resources

    When I look at your budget, I don't see anything that will 
enable you to achieve the 6-month backlog goal that you have 
set for yourselves. Six months is still a long time, but it 
surely would represent a substantial improvement over where we 
are now. I know that you have increasingly focused on 
enforcement and border protection and that is very important. 
But it shouldn't come at the expense of services for legal, 
taxpaying immigrants.
    Your budget request, as I read it, does not add up to a 
game plan for addressing the problems that we are experiencing 
in the Southeast Region.
    For the enforcement account, you have requested 146 new 
FTEs. For the Citizenship and Benefits Immigration Support and 
Program Direction account, I see only 7 additional FTEs. That 
appears to be for immigration support data and communications 
systems. I would like to know how we are going to get this 
problem addressed, and these are my specific questions. I know 
we have got a vote and we are going to have to go. If you can 
respond orally or for the record.
    Number one, does the request for Citizenship Immigration 
Support and Program Direction account with just 7 new FTEs 
reflect what you have submitted to OMB? Is that your best 
judgment of what you need?
    Secondly, does INS have any realistic long-term plans to 
reduce or perhaps even eliminate the backlog?
    Third, can you provide me with some information about the 
nationwide backlog? How Charlotte compares to the national 
average and how many FTEs you would need to reduce the backlog 
on all pending applications to 6 months?
    And finally, can I at least get some assurance from you 
that the 3 term employees currently assigned to the Charlotte 
office will not be withdrawn or reassigned?
    Ms. Meissner. The reduction of the naturalization backlog 
is our first priority where our immigration services work is 
concerned. We have historic levels of citizenship applications 
in our caseload having developed over the course of several 
years. The backlog reduction program is a 2-year target for the 
Immigration Service that has been supported by this committee. 
This is the first year in the backlog reduction. It is going to 
take through next fiscal year because we are dealing with a 
caseload nationally now of about 2 million cases. Those are 
historic levels and have been for several years.
    I will be happy to work with you on Charlotte where the 
resources are concerned and the comparison of those resources 
to be sure that they are equitable as around the whole country.
    But where the budget overall is concerned, the support for 
this case processing does come from the fees that people pay in 
order for their cases to be adjudicated. That has been for this 
backlog reduction effort amplified by additional funds in this 
fiscal year's budget and that funding is extending into next 
year, the fiscal year 2000 budget.
    I am not sure how it is displayed in the way that you are 
recounting it in your remarks, but there is funding support for 
backlog reduction this year and next year apart from the fees 
that applicants pay. We are doing everything that we can to try 
to move this agenda forward as aggressively as we possibly can, 
and I will try to work with you in every way that I can to be 
sure that that is felt in your district.
    Mr. Price. I appreciate that. Mr. Chairman, I appreciate 
the chance to raise these issues. Of course we need some help 
with Charlotte. We have said that repeatedly. We do mean that 
and we welcome your offer of cooperation and support.
    I do have questions and I think it would be useful for the 
record if you could provide a documentation of how your 
agency's goals in terms of reducing these various backlogs 
square up with what appear to be very modest FTE requests and a 
budget request that does not seem to reflect the kind of all-
out mobilization I would think these backlog numbers would 
require.
    Now, maybe I am missing something, but I would appreciate a 
fuller documentation of exactly how we get from point A to 
point B in terms of these backlog reductions.
    Ms. Meissner. We will provide that because that has been 
something we have worked very closely with the Committee to 
achieve and we have worked very closely within our agency to 
achieve. We are mobilizing everything we can.
    Mr. Rogers. We have votes on the floor and the gentlelady 
will submit a written report on the question.
    Ms. Meissner. I will do that.
    [The information follows:]

Immigration and Naturalization Service Naturalization Backlog Reduction 
                                  Plan

    At the end of FY 1998, the INS had 1,843,880 naturalization 
applications pending. Official INS receipt projections indicate that we 
will receive 700,000 new applications in FY 1999. INS's goal is to 
complete 1,200,000 applications this fiscal year. Based on these 
figures, we will have approximately 1,344,000 applications pending at 
the end of FY 1999. Based on these pending and completions projections, 
INS's target is to achieve a nationwide 12 months average processing 
time at the end of FY 1999.
    First Quarter FY 1999 Actual Production: INS received 224,009 
naturalization applications, and completed 238,062 naturalization 
applications during first quarter FY 1999. We had 1,836,715 
applications pending at the end of first quarter FY 1999.
    INS completed 97 percent more applications in first quarter FY 1999 
(238,062) than during first quarter FY 1998, when we completed 120,838 
applications.
    The INS received a record 253,105 applications in January 1999, 
more than in any other month in INS history. A total of 2,032,279 
applications were pending at the end of January 1999 and 69,419 
applications were completed. We had a completion goal of 95,000 for 
January. Actual production fell 27 percent short of the goal; however, 
116 percent more applications were completed in January 1999 than in 
January 1998 when 32,076 were completed.
    In some offices the backlogs have grown. To address these 
increases, the Boston, Dallas, and Houston offices have been allocated 
additional adjudications officer positions. Most offices will receive 
additional clerical support.
    The two hundred term district adjudication officer positions, 
provided in the FY 1999 Appropriations Act, have been distributed to 
the eight districts with the most critical need for additional officer 
resources (Los Angeles, San Francisco, Chicago, Miami, New York City, 
Boston, Houston, and Dallas account for 74 percent of INS' pending 
caseload). The one hundred immigration information officer positions 
have been distributed to the four service centers. All of the districts 
and service centers are expeditiously recruiting to fill these 
positions. Of the 357 authorized contract clerical positions allocated 
to most centers, 81 percent of these positions were filled on April 30, 
1999.

    Mr. Rogers. We will stand in short recess. Mr. Latham will 
return shortly to resume the hearing and then I will return 
shortly with Mr. Serrano.
    [Recess.]

                          quick response teams

    Mr. Latham [presiding]. The Chairman will be back shortly. 
In the meantime, I think maybe we could talk about the QRTs. 
QRTs are very, very important to Iowa and Nebaska and hopefully 
we will have some news soon on that issue. Can you tell me how 
much money is set aside in the INS budget for QRTs in your 
proposal for fiscal year 2000?
    Ms. Meissner. In fiscal year 2000, there would be the 
continuation of the support in 1999 for the QRTs. The full 
hiring and deployment of those people is going to happen at the 
end of this fiscal year because of the recruitment processes. 
They really become fully operational in fiscal year 2000 and so 
the funding support then is in the base. There is not 
additional funding right now in the President's request for 
that program.
    Mr. Latham. How many will you actually have this year? How 
many teams?
    Ms. Meissner. The budget this year provides for, I believe, 
200 positions.
    Mr. Latham. Fifty teams?
    Ms. Meissner. Basically. I think that actual number will be 
announced in the next days because that has been a discussion 
between the INS and the Committee, but there will be teams in a 
very large number of States.
    Mr. Latham. You don't know whether you are at this point 
anticipating, since we don't have the teams yet and thus don't 
know what kind of reaction we will have, how many teams you 
will have fielded by next year?
    Ms. Meissner. We intend to be as close to fully hired up 
with these as we possibly can, and it is our intention to hire 
all of them during this fiscal year and then they would be, as 
I say, operationally effective in the coming fiscal year. But 
our hiring plan calls for completing the hiring process between 
now and September 30.

                     video teleconferencing grants

    Mr. Latham. We visited yesterday about the video 
teleconferencing grants. It is something that is going to be 
very, very beneficial, I think, especially for the rural areas 
that aren't well served.
    Just for the record, where are you on the memorandum of 
understanding?
    Ms. Meissner. The videoconferencing is a combination of 
funding to the Immigration Service and to the Office of Justice 
Programs, particularly the COPS program which has grant-making 
authority. The INS does not have grant-making authority. The 
videoconferencing will be handled now through the COPS Program. 
A large share of the disbursing of those funds will be handled 
through the COPS program machinery. We have worked out an 
agreement verbally with the staff there that will be formalized 
in a memorandum of understanding which we would expect to have 
completed, I think, by the end of April, and then the COPS 
program would anticipate soliciting proposals for the 
videoconferencing later in the spring, I believe, in the May/
June time frame.
    The actual awards of the grant money would occur according 
to the timetable in August, and after that there is a certain 
amount of training and so forth that needs to take place, but 
again these would be fully operational in the next fiscal year 
with planning and the grant-making taking place this fiscal 
year.

              staffing for video teleconferencing centers

    Mr. Latham. Do you foresee any problems as far as the 
regional centers getting up and operating there? Obviously we 
have the local entities that are going to be applying and 
getting the equipment. But as far as your office, say, in 
Chicago or wherever, as far as that actually being operational 
24 hours a day, do you foresee any problem there?
    Ms. Meissner. I don't foresee any technical problems. The 
technology is available to do it. Moreover we have the 
commitment to do it because we believe it is a very cost-
effective way of linking with areas that are far afield where 
we would not otherwise be able to provide coverage.
    We will need and want to put together a sufficiently 
comprehensive network of communities participating to justify 
the 24-hour coverage, because we always have tugs and pulls 
where that kind of staff resource is concerned. But we want to 
be able to do that. The idea of a hub, a command center where 
you can have 24-hour coverage, then, to really leverage that 
staff resource is something that we think makes an enormous 
amount of sense, so we are going to do everything we can to 
accomplish it.
    Mr. Latham. How many people do you envision at one of the 
centers? Twenty-four hours a day, but what kind of staffing 
requirement do you think that is going to take?
    Ms. Meissner. Well, I would have to check. Actually, given 
the amount of coverage that you can achieve for it, it is not a 
burdensome commitment of staff. Obviously it is 24 hours, so 
you are talking about a minimum of three people every day in 
order to be able to do it. But part of doing this--of course, 
we haven't done this before, so we have done it in a certain 
form. We have done it in the San Diego area so we have some 
experience, but each part of the country is a little different, 
so some of this will be testing out how much staff coverage 
actually is required in order to meet the 24-hour requirement. 
Can we do it with one person on watch or do we need more than 
that?
    Mr. Latham. In the memorandum with the COPS, because of the 
distance different police departments would be from INS, are 
you suggesting any preferences as far as eligibility? Such as 
the distance from a current INS office, say, from Omaha or from 
Sioux City?
    Ms. Meissner. I don't believe that distance is a 
constraint. I think the constraint, to the extent that it 
exists, has to do with the command center, the staffing of the 
command center, how much traffic, as it were, the command 
center can handle and be responsive.
    Mr. Latham. Do you have any idea how many grants will be 
able to be given with the $3 million provided by the 
Subcommittee?
    Ms. Meissner. I believe that we are talking about 20 sites 
for that funding amount.
    Mr. Latham. Right. Not 20--for rural police departments? It 
should be more than that. There is 3 million dollars.
    Ms. Meissner. I guess there would be----
    Mr. Latham. You are talking about the centers, right, and 
not the individual grantees?
    Ms. Meissner. And not the individual police department.
    Mr. Latham. Right.
    Ms. Meissner. I believe that the 20 sites are INS locations 
and then there would be spokes off of those wheels.
    Mr. Latham. You don't know how many that would fund as far 
as the spokes out there?
    Ms. Meissner. We can try to provide that information. I 
don't know right now.
    [The information follows:]

    Immigration and Naturalization Service Number of COPS VTC Grants

    As a very preliminary estimate, we understand that the COPS 
Office will issue about 30 $100,000 grants with the $3 million 
funding it received in FY 1999. The grants will cover such 
items as the purchase of VTC equipment, installation of 
necessary circuits, and building modifications. The grants will 
also cover hiring consultants if necessary, to advise on the 
most appropriate type of equipment, where it should be 
installed, and any building modifications required.

    Mr. Latham. You ever try to talk with someone from your 
staff talking in your ear? [Laughter.]
    Is there someone at INS who is--and I guess just so that we 
know who to contact--that is in charge of the memorandum and as 
far as working out the details specifically?
    Ms. Meissner. We have a contact point now at the COPS 
program. That was really the issue; that we needed to be 
certain that we had somebody there fixed with this 
responsibility, because this is a new endeavor for them. We are 
handling it out of our field operations program. The person 
responsible for that, Mike Pearson, is here and members of his 
staff who are taking this on.
    Mr. Latham. I am very pleased the Chairman is back. We were 
just about to start talking about the weather.
    Thank you.

                            citizenship usa

    Mr. Rogers [presiding]. Now, Commissioner Meissner, in a 
March 1, 1999 report by Justice on Citizenship USA, I note with 
grave concern two things: 71,413 new cases were recently 
discovered and, ``INS is weighing the cost and potential 
benefits of submitting them to a case review process.''
    And the second point is only 12 revocations out of 1.1 
million people granted citizenship in Citizenship USA have 
taken place since that fiasco occurred. As you recall, 263,000 
individuals were granted citizenship without having a full 
criminal history check, one of the black days of this Agency's 
history. As it turns out, 77,000 of those people had criminal 
history records with the FBI of which nearly 17,250 had at 
least one felony arrest; 26,000-plus had one or more 
misdemeanors. Now we hear that you have discovered another 
71,413 new cases. How could that many cases have been 
overlooked?
    Ms. Meissner. The number of cases that we are dealing with 
from the standpoint of improper naturalizations came to a 
universe of about 7,000. That was made up of cases where 300 
were clearly improperly naturalized cases where people had 
disqualifying convictions that were not identified properly. In 
addition, the remaining cases, between 300 and 7,000, were 
cases where people made misstatements.
    Mr. Rogers. The question is how could you overlook 71,000 
cases and just now recently discover them? How many more cases 
are there to be recently discovered before this thing finally 
is over with? These are new cases, never before dealt with. How 
could you overlook that many? What happened? And I don't want a 
history book. I want to know what happened on these cases.
    Ms. Meissner. These cases are part of the overall review 
that took place of Citizenship USA. That review has been 
completed. There is a follow-up to that review that is involved 
with the revocation question. All of the procedures have been 
changed.
    Mr. Rogers. The point is, these were not part of the 
original review. These are not part of what we have talked 
about. These are new; 71,000-plus new cases not part of the 
original review. My question is, how did you not discover those 
until now?
    Ms. Meissner. The Citizenship USA review was completed. An 
entirely new set of procedures was put in place. The follow-up 
on the cases that were improperly naturalized has continued. 
The entire program from the integrity and quality assurance 
standpoint has been redesigned. The fingerprint issues that 
were the deficiency in the program have been addressed. We now 
do 100 percent fingerprint checks through automated procedures. 
The program is today on a sound footing.
    Mr. Rogers. What are you doing about these new 71,413 cases 
that we had not known about before now?
    Ms. Meissner. If there are cases where there were criminal 
convictions that would have made the person ineligible for 
naturalization, they will be part of the revocation 
denaturalization activity.
    Mr. Rogers. Well, the Justice Department's report to 
Congress on efforts to correct problems in the naturalization 
process March 1, 1999, I am looking at page 5, bottom right, 
page 5, and Justice says, quote, ``At this point no action is 
being taken regarding the 71,413 cases, although INS is 
weighing the costs and potential benefits of submitting them to 
a case review process.'' Is that correct?
    Ms. Meissner. I am looking at what I think that you are 
looking at. Could I have a moment to review this?
    Mr. Rogers. Yes.
    Ms. Meissner. Mr. Chairman, I will have to provide the 
Committee with that information. I don't have the updated 
information on the status of those cases and I will get it.
    Mr. Rogers. Is any action being taken regarding those 
cases? That is the point.
    Ms. Meissner. I will get you the information.
    Mr. Rogers. You don't know whether they are or not?
    Ms. Meissner. I will get you that information. I don't 
know.
    Mr. Rogers. Well, can I have your assurance that these 
cases will be reviewed as we have reviewed all of the others?
    Ms. Meissner. I will find out what the status of these 
cases is, and I will get back to you on what we are doing with 
them.
    Mr. Rogers. This report goes on to say in the same 
paragraph, quote, ``Based on the experience of the original 
criminal history case review, approximately 5,000 could be 
found to have FBI records. A thousand of those  could  involve  
arrests  for  felonies, C-I-M-T----''
    Ms. Meissner. Crimes of Moral Turpitude.
    Mr. Rogers [continuing].``Or other potentially 
disqualifying offenses,'' and so on. So we are talking about 
the possibility, Justice says, of up to a thousand of these 
people could have felony records and they are out there running 
around.
    Ms. Meissner. I will follow up on this and we will get back 
to you as quickly as we possibly can.
    [The information follows:]

  Immigration and Naturalization Service Status of New Naturalization 
        Cases Identified as Missing Full Criminal History Checks

    In 1997, using INS' automated case tracking systems, INS determined 
that a universe of 1,049,876 persons had been naturalized between 
August 31, 1995 and September 30, 1996, during the Citizenship USA 
period. KPMG Peat Marwick oversaw an INS review of these cases, which 
found that 63 percent had been adjudicated properly, 35 percent 
required further action to determine whether they had been adjudicated 
properly, and 2 percent were presumptively ineligible for 
naturalization based on their criminal history. The cases requiring 
further action and those that were presumptively ineligible were 
referred to the INS Office of General Counsel for possible revocations 
proceedings.
    To find out whether the original universe of reviewed cases did in 
fact encompass all persons naturalized between August 31, 1995 and 
September 30, 1996, INS recently conducted a second system review. This 
review identified an additional 71,413 cases that had not been 
identified previously. These new cases were added to the database after 
the initial review. INS will review these cases to ascertain whether 
any were improperly naturalized. A plan is currently being developed 
for this review process.

                          detention resources

    Ms. Meissner. Mr. Chairman, could I go back on the 
detention issue because I did not fully round out the answer 
with the bottom line point, which is that we, as you know, are 
working with you on the issue of detention this year and in the 
fiscal year 2000 budget. We very much appreciate the support 
that the Committee gave in the supplemental, but it is critical 
that $80 million that is in the supplemental be made available. 
In addition to that, we are working with OMB in this fiscal 
year on a need beyond the $80 million. We will be coming to the 
Committee with the results of that work and we are also working 
with OMB on the fiscal year 2000 budget because the 
difficulties in detention this year extend into fiscal 2000 and 
need to be addressed.

            citizenship usa and revocation of naturalization

    Mr. Rogers. Now, the other question I wanted to ask you 
about Citizenship USA, so far of the 77,000 people who had 
criminal history records with the FBI, only 12 revocations have 
occurred since this whole thing began. Why?
    Ms. Meissner. The review of the 7,000 cases that were 
subject to revocation began after those cases were identified. 
We carried that review forward very aggressively until last 
July when we had reviewed more than 4,000 of the 7,000 cases 
and had issued notices of revocation in about half, about 
2,000-plus of the cases that were subject to review.
    At that point, we by that time had actually accomplished 16 
revocations, when a district court put an injunction on the 
process and prevented us from going forward with administrative 
revocation in administrative proceedings of any kind with 
revocation. As a result, we have had to switch gears and go the 
Federal district court route. We have put together a strategy 
for judicial denaturalization while we are fighting the 
injunction but the injunction remains in effect. That effort to 
bring cases before Federal district courts for denaturalization 
is a cooperative effort between the Immigration Service, 
attorneys in the Justice Department, prosecutors, and obviously 
ultimately the Federal courts. That effort goes forward with 
the preparation of cases to be filed. Those cases will be filed 
in the courts this year and the litigation of those cases will 
proceed over the course of the next 2 years.
    Meanwhile, we hope that the injunction will be lifted in 
which case, if we are successful, we will proceed with the 
administrative procedures that had been underway until last 
July.

                            problems at ins

    Mr. Rogers. Now let me just list a list of things for the 
record. These are what I consider failures, problems at INS:
    Your 2000 request does not include a single new Border 
Patrol agent in spite of an authorization of a thousand.
    You fail to plan for adequate and immediate detention space 
for criminal aliens and then put the Congress in the position 
of either granting an emergency supplemental request, which we 
are doing right now on the floor, or releasing those criminal 
aliens into our communities. Then you blame the Appropriations 
Committee for inadequate funding in your testimony before the 
House Judiciary Committee on the subject, when in fact INS 
failed to request adequate funds for 4 years, 1997 through 
1999, now 2000.
    INS failed to get the Institutional Removal Program running 
effectively, to swiftly but fairly remove criminal aliens with 
the benefit of saving detention space and costs.
    INS requested funds for an interior enforcement without a 
strategy; then produced a strategy 9 months late without a 
sufficient implementation plan. This is in FY 1999.
    Citizenship USA. Criminals were naturalized when INS simply 
did away with the FBI criminal background check. Three years 
later only 12 people have been denaturalized out of the 1.2 
million.
    INS represented to Congress, the press, and the American 
people that the naturalization application processing times 
would decrease to 12 months by the end of fiscal year 1999 as a 
result of the new resources and not abiding by that promise.
    INS has a 2 million person application backlog in benefits 
other than naturalization, primarily because INS is placing 
most of its service resources into making the naturalization 
process work and still falling short.
    INS misrepresented the 2000 budget to the Congress, the 
press, the public by stating that INS was proposing additional 
funds for naturalization backlogs and improvements when it was 
not proposing any additional funds.
    INS has serious financial management problems. Audits in 
1997 and 1998 state that INS does not have sufficient internal 
controls to ensure that accounting records and relevant 
documentation support balances in their financial statements. 
An outside organization report in 1999 gave INS a ``D'' in 
financial management. In January of this year we learned that 
INS has a $300 million shortfall in fiscal 1999 base funds.
    Next, INS also has an apparent failure in its managing of 
its automation program, evidenced by a March 1998 Inspector 
General report which has predicted unnecessary cost increases 
as a result.
    Next, INS failed to meet the Committee report deadline, 
even when an extension was granted and refused to postpone a 
press conference so that Members of Congress could be given 
adequate notice that they were about to receive new INS 
resources in their districts and a high-ranking INS official 
released Committee reports to the public over the expressed 
objection of the Committee. And no one was held accountable for 
any of these problems.
    All of these things beg the question: Does the agency need 
drastic reform? It does. It is time to recognize that the 
current structure for dealing with these responsibilities, 
important responsibilities for the American people, is 
unworkable, overloaded and swamped. Do you agree that INS must 
be reorganized?
    Ms. Meissner. I said in my opening statement and in other 
conversations that we have had that we are committed to 
fundamental reform on many fronts, including a fundamental 
restructuring of the agency. The range of things for which we 
are responsible, both through the tremendous growth that we 
have experienced over the last 5 years, the new mandates that 
have come with a succession of new statutes, as well as very 
ambitious reforms and new initiatives that we have launched, 
are a very, very broad set of responsibilities.
    We have spent a great deal of time and effort over the 
course of the last year looking at how this agency could be 
restructured to bring about fundamental reform to improve 
performance, because ultimately the purpose for a restructuring 
of the scope that we are talking about is valuable only if it 
does improve performance. We think we can show how improved 
performance would be tied to the planning that we have done.
    We want to work with the Committee to achieve a good 
government solution where the structure of the INS is 
concerned. I do believe that as I said earlier, we certainly 
have made mistakes. We certainly have had problems, but we have 
been very aggressive in attempting to fix those problems step 
by step on some very, very complicated, broad-ranging issues.
    I think in many ways it is a question of glass half empty, 
glass half full. We have a very, very strong record of reforms 
that we have been able to make, including in our management of 
such things as the financial management systems where we are at 
the culmination of a very aggressive difficult 3-year process 
to reform our financial management systems. We have been able 
to bring about this growth in a way that has met most of the 
major targets.
    We definitely will continue to work with the Committee as 
cooperatively as possible in producing reports, and the issues 
such as Citizenship USA where we all agree there were serious 
deficiencies that are now on a sound footing. The production 
problems that we are finding in the citizenship program are to 
a great extent the result of a total revamping that is taking 
place, but that is what has to be done in almost every area of 
the INS's work, a total revamping from beginning to end, and 
those things don't get done overnight.
    But where we have applied our efforts, we have shown that 
we can do it. Where we have turned our attention to the border, 
we are able to show results. Where we have reformed and rebuilt 
the asylum system, we have done it in a way that is lasting and 
reliable. Where we have turned our attention to interior 
enforcement, we are showing that we can bring cases that are as 
good as the cases brought by any federal law enforcement 
agency.
    So the issue of structure and the need to restructure the 
agency is coming at a time where we have grown to the point and 
shown the ability to function in ways that I believe will allow 
us to accomplish a fundamental restructuring, but we need to do 
it responsibly and we need to do it in a way that ultimately 
achieves the performance that we all want to see.

                           INS restructuring

    Mr. Rogers. Well, we must reform. And it must be radical 
reform. This agency doesn't work. I think it is mainly the 
Congress's fault because we designed an agency and gave it 
conflicting responsibilities: law enforcement, and at the same 
time dispensing rights under the Constitution, and people who 
are seeking rights are reluctant sometimes to give out 
information relative to that for fear of the enforcement coming 
at them from the other direction because it is part of the same 
organization. I don't think that we need to keep this agency 
with both enforcement and service functions. One or the other 
has to go.
    And I understand you have created a restructuring office, 
and you have hired some people to spearhead a restructuring 
effort, and you have spent about a million and a half on the 
details. And I am happy to hear the details but I am very 
skeptical about your premise that all existing functions of the 
INS must stay within. I don't see how that can take place. So 
either you do it or or we will help you.
    Ms. Meissner. Well, I hope that we can work together on 
this, as we have discussed. I do believe that the enforcement 
and the services responsibility of this agency are different 
sides of the same coin, because they all have to do with the 
legal status of people coming to this country prior to their 
becoming citizens and that legal status can sometimes, 
depending on what they do, put them into the jeopardy of being 
in an illegal status. Similarly, people who come here illegally 
have ways under the law of becoming legal. Those activities are 
very much related. If we split our responsibilities along the 
lines of separate chains of command so that there is more 
focus, more professionalism, clear points of accountability and 
responsibility for the enforcement activities separate from the 
service activities, but keep them joined at a macro-level for 
overall coherence, overall policy direction, and overall 
accountability in ways that overcome fragmentation, we believe 
that we can get a more effective performance out of the 
Immigration Service. As I say, we will want to work with you on 
this. I look forward to working with you on this, and I think 
that we can come out with a good government solution here.
    Mr. Rogers. Well, you will pardon me if I am a little bit 
skeptical of your promises because there have been a lot of 
them over the last few years and very few have been kept. So it 
is not that you are not attempting. I don't want to impugn your 
integrity, but this thing just will not work. I have spent 15 
years trying to make it work. Pumped money in--doubled the 
budget in the last 5, 6 years and did everything I knew to do, 
the Committee has, to help make it work and I have come to the 
conclusion that it has inherent incompatibilities that we have 
to deal with in a reorganization, restructuring of the 
organization. And so you and I just differ on a very essential 
point, I think.
    Does anyone have anything further?
    Mr. Serrano. Just one comment, Mr. Chairman. I think that 
your point is well taken. I think that many people would agree 
that there is a need to have a clearer picture of what the 
enforcement side is doing and what the naturalization side is 
doing, but I think what the Commissioner has suggested is 
something that we should take into consideration. I think it 
meets your needs and it meets the needs of other people who 
don't want a lack of cooperation or lack of relationship 
between the two services. The fact of life is that it is one 
straight line. It may be a bumpy line at times but it is a line 
from of how you get into this country to whether or not at the 
end of that process you become a citizen.
    How that happens, well, we can clean that up and I think 
that we can meet your concerns and the concerns of many of us 
that we need to know how enforcement is going. We need to know 
how the services part is going. But we don't have to separate 
them.
    And I think that what the Commissioner is suggesting is 
something we should really take seriously, the ability to do 
exactly what you are saying and leaving it under one agency 
with clear chains of command. That is what she has said. I know 
you heard everything I said.
    Mr. Rogers. I did.
    Mr. Serrano. Okay.
    Mr. Rogers. Mr. Latham?
    Thank you very much, Commissioner, for your appearance here 
today. Sorry it took a little longer than usual. We appreciate 
your testimony.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                      Wednesday, February 24, 1999.

                           BUREAU OF PRISONS

                                WITNESS

KATHLEEN HAWK SAWYER, DIRECTOR

                           Opening Statements

    Mr. Rogers. This morning we welcome to the subcommittee the 
Director of the Bureau of Prisons, Dr. Kathleen Hawk Sawyer, to 
discuss the fiscal year 2000 budget request for the Federal 
prison system and the challenges you face in providing for 
custody of an ever-growing population of inmates.
    For fiscal year 2000, the Bureau of Prisons is requesting a 
total budget of $3.8 billion, which includes $559 million for 
the construction of new prisons to expand the capacity for the 
continued transfer of D.C. sentenced felons and non-returnable 
aliens into the Federal prison system, as well as the 
continued, steady growth of the inmate population in general.
    While this Subcommittee has substantially increased funding 
for the Federal prison system over the past years, from $1.7 
billion in fiscal year 1991 to $3.3 billion in fiscal year 
1999, I believe that we can say our investment is paying off. 
The Nation's violent crime rate fell almost 7 percent during 
1997, and has dropped for the sixth consecutive year, and I 
would attribute this decline in part to our efforts to keep 
criminals off the streets.
    In addition, as this Subcommittee is faced with many 
pressures, and you take on the additional population of the 
District of Columbia inmates and the non-returnable aliens, we 
must also ensure that we fulfill our responsibilities to the 
growth in the Federal prison population so that there will be 
adequate bed space to continue to lock up violent criminals.
    We appreciate your being here with us today. Before I 
recognize you for a statement, let me congratulate you on your 
almost first anniversary with your husband who is here today, 
Reverend Jack Sawyer. Please stand so we can get a look at you. 
Lucky man. Welcome to the Subcommittee, Mr. Serrano.
    Mr. Serrano. If I may, Mr. Chairman, first of all I want to 
welcome you, and we have had an opportunity to chat before. I 
look forward to your testimony and assisting you in any way 
that I can.
    Mr. Chairman, I want to thank my colleague, Alan Mollohan, 
for the work that he did as the ranking member on this 
subcommittee. He was kind enough, I think he did it purposely, 
to spend some time with me during my first hearing to see if I 
survived it. I would like to tell you, Alan, that I appreciate 
all of your kind words and I look forward to your support and 
your expertise. If I can do half the job that you have done in 
the last few years on this subcommittee, I will be a major 
success.
    Mr. Mollohan. I thank my colleague. I know that Mr. Serrano 
is going to do an outstanding job. He will appreciate the 
opportunity of working with a very fine Chairman and looking at 
the bill favorably and professionally. In addition to treating 
the minority appropriately, Mr. Rogers is also a very capable 
and bright guy. It is a pleasure to take the bill to the floor. 
We are in good hands and he has good jurisdictions. The hearing 
we have today is one of the best agencies and witnesses. The 
witness is from my district, Mr. Chairman. She is very 
effective. It is a pleasure to be here.
    Mr. Rogers. Let me echo Mr. Serrano's comments. Alan 
Mollohan is the best ranking member anybody ever had, and he 
and I shared a warm personal and professional relationship on 
and off this Committee. It is with a great deal of sadness that 
I saw him move on to higher and greater things, but we have 
been blessed. Mr. Serrano is a great guy and is working hard to 
try to quickly grasp the issues here, and I am impressed with 
him. But we can't do without your wisdom, and we appreciate 
your coming back every minute you can.
    We are also pleased to have a new member, Ms. Roybal-Allard 
from California, whose father broke me in on the Treasury, 
Postal Subcommittee, and we have several other new members that 
I will introduce as they arrive.
    But I join you in saluting the witness. I wish she were 
from my district. She has done a wonderful job over there, and 
I have said publicly and privately that BOP, in my opinion, is 
the best run agency in the Federal Government. Do you think she 
would like INS?
    Mr. Mollohan. Well, she would certainly do a good job, but 
we need her where she is.
    Mr. Rogers. You are recognized.

               bureau of prisons director opening remarks

    Ms. Sawyer. Thank you, Mr. Chairman. I am pleased to appear 
before you today to discuss the fiscal year 2000 budget request 
for the Bureau of Prisons. Let me begin by thanking you, 
Chairman Rogers, for your leadership, and express my 
appreciation to the subcommittee for your interest and support 
of the Bureau of Prisons. You have closely monitored the growth 
and changing requirements of the Federal inmate population, and 
have provided the resources necessary for the BOP to confine 
offenders in facilities that are safe, humane, cost-efficient 
and appropriately secure.
    The BOP continues to face multiple challenges, and the 
fiscal year 2000 request of $3.8 billion reflects our efforts 
to meet these challenges. The major focus is adding prison beds 
to keep violent offenders off the streets, and to absorb the 
D.C. felon population, and also begin to transfer INS 
nonreturnable criminal aliens to the BOP. We also need to 
better maintain the infrastructure of our existing 94 Federal 
prisons which are getting older and older each year.
    We have made substantial progress with the resources 
Congress has already provided. Since the beginning of fiscal 
year 1996, we have added nearly 15,000 new prison beds, and 
have an additional 24,000 new beds planned or under 
construction. Unfortunately, our projections are such that the 
Federal inmate population will continue to grow quite 
significantly, and we must continue to add prison capacity.
    At the beginning of fiscal year 1999, the total BOP 
population was 122,316. That is, with nearly 12 percent housed 
in privately managed prisons, contract facilities, and other 
alternative confinement. By the end of fiscal year 2006, we 
project that nearly 178,000 inmates will be in the BOP's 
custody. This is a growth of almost 50 percent in eight years.
    The 2000 request includes $86.8 million to activate five 
new facilities, or 4,320 beds. Also requested is $80.7 million 
to house 3,000 short-term sentenced criminal aliens and 2,000 
D.C. sentenced felons in private contract facilities, and to 
absorb 1,000 INS nonreturnable criminal aliens in the Federal 
Prison System. An additional $2 million is requested for 
expansion of our residential drug treatment programs and 
community based transitional drug treatment services.
    A program increase of $411 million is requested for 
construction of new prison capacity. This includes: 
construction of two facilities, one USP and one FCI, for D.C. 
sentenced felons; construction of one penitentiary in the 
western region for sentenced inmates; site and planning for 
three medium security facilities for sentenced inmates, one in 
Yazoo City, Mississippi and two in the western region; and site 
and planning funds for three facilities, two USPs and one FCI, 
for INS nonreturnable criminal aliens. Finally, the 2000 
request includes an increase of approximately $27 million for 
the modernization and repair program. This amount equals nearly 
2 percent of the replacement value for BOP facilities, and will 
provide a constant funding level to support a long-term planned 
program for the maintenance of safe and sound facilities.
    Mr. Chairman, we recognize that the 2000 budget is larger 
than any previous request for the BOP, but it is necessary to 
meet the challenges we face now and in the future. Historical 
overcrowding, transfer of D.C. sentenced felons and INS non-
returnable criminal aliens, and a 50 percent population 
increase expected by 2006, demand our attention, careful 
planning and adequate resources.
    I would like to thank you, Mr. Chairman, and members of the 
subcommittee for your continued support. This concludes my 
prepared remarks, and I would be pleased to answer any 
questions you may have.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                        inmate population growth

    Mr. Rogers. Thank you for your testimony. In your testimony 
you talk about the growth in the population caused not only by 
the D.C. felons and INS nonreturnable aliens, but simply by the 
sheer growth of the number of successful Federal prosecutions 
and longer sentences?
    Ms. Sawyer. Yes, sir.
    Mr. Rogers. During fiscal year 1998 you experienced the 
largest one-year inmate population increase in history?
    Ms. Sawyer. Yes, sir.
    Mr. Rogers. An increase of more than 10,000 inmates in one 
year, just a phenomenal growth rate. We have had the good 
fortune to work with you closely to make sure that you have the 
resources to see that you can manage those kinds of increases, 
but I am concerned about your ability to keep up with that 
capacity growth, given the current overcrowding levels and the 
work load, the population that you are experiencing.
    Your request includes a request for $178 million, of which 
$137 million is for construction of one prison with a work camp 
in the Western region, and $33 million for site and planning 
preparation for three additional prisons to increase your 
capacity for sentenced felons. Will your request keep up with 
the expected annual increase and the overall population growth?
    Ms. Sawyer. The request will certainly go a long way to 
help us keep up. You oftentimes share with us that money is not 
unlimited, and that we should be reasonable in what we request; 
and so we are trying to be very reasonable this year. We know 
that the population is going to continue to grow. We will 
probably be back again next year with additional requests to 
help us keep up with the growth in the outyears. But with the 
nine facilities that we are asking for this year, if the money 
we are requesting could be forthcoming, we will do very well in 
trying to keep up with the growth.
    Mr. Rogers. We have some overcrowding in maximum and 
minimum security facilities. Will these monies help ease that 
overcrowding?
    Ms. Sawyer. Yes. Our most dangerous overcrowding is at high 
security and medium security. Those are the two security levels 
that hold our most dangerous inmates, along with the super max 
at the Florence facility. And if you note in our request, we 
are asking for medium and high security beds. If these beds can 
be forthcoming, they will help us tremendously in reducing the 
crowding at these security levels.
    Mr. Rogers. What is the percent of overcrowding?
    Ms. Sawyer. Overall the Bureau of Prisons is at 28 percent 
overcrowding, which is really a meaningless figure because our 
minimums are not very crowded. It is our medium and highs that 
are so overcrowded. Right now, we are at 57 percent over 
capacity at high security and 50 percent over capacity at 
medium. Again, that is why our requests this year are almost 
solely for medium and high security beds.

                        transfer of d.c. inmates

    Mr. Rogers. One of the biggest challenges that you face is 
absorbing the D.C. inmates into the system. I understand that 
you are currently incarcerating about 1,100 of those inmates?
    Ms. Sawyer. Yes, Mr. Chairman.
    Mr. Rogers. What is your plan for 1999 and 2000 for the 
transfer of more of those?
    Ms. Sawyer. In the Revitalization Act, we are required to 
have 2,000 D.C. inmates in contract facilities by the end of 
1999, and the remainder of the total 7,500 will be transferred 
by BOP by the end of 2001. That is our plan at this point in 
time.
    Mr. Rogers. Are those prisoners being classified under 
BOP's classification so they are placed in an appropriate level 
of security?
    Ms. Sawyer. Yes. We went in and reclassified all of them in 
order to know for what security level prisons to ask for 
construction monies. We needed to know what their security 
levels were, so they are now reclassified under our system.
    Mr. Rogers. Mr. Serrano.

                          immigrant detainees

    Mr. Serrano. Thank you, Mr. Chairman. Could you just give 
me an explanation of the relationship between you and the INS? 
We give them dollars to do what they do and then they send 
people over to you for detention. The obvious question is, do 
they share any of the dollars that they give you and how does 
that work? Do you have anything to say about the numbers that 
come over or is it just the numbers that come over?
    Ms. Sawyer. Immigration detention primarily holds inmates 
that are not sentenced. Either they are pre-sentence, or they 
have not yet been accused of a crime. So they are not a 
sentenced felon, or they get them back again once their 
sentence has been served.
    We hold INS detainees when they are a Federal felon under 
sentence. We house them in our facilities. The only exception 
to that would be our facility in Oakdale, Louisiana, which is a 
joint facility built with an agreement between us and INS where 
we do house some sentenced offenders who have already served 
their sentence and they are waiting for INS to finalize their 
deportation. For the most part, the distinction between who 
they hold and we hold, is that we house them when they are 
actually serving a felony sentence for an offense that they 
committed here.
    Mr. Serrano. Who holds them when they are just being 
detained?
    Ms. Sawyer. INS, and then they contract out a significant 
number of beds throughout the country.
    Mr. Serrano. You don't oversee that.
    Ms. Sawyer. Not normally. The non-returnables would be ones 
that belong to INS, but because of their unique situation we 
would house them. And right now we are also holding 
approximately 1,000 Mariel Cubans who have served out their 
sentences, but Cuba will not take them back. It was more 
appropriate for us to house them in a long-term facility than 
Immigration, which has shorter term detention facilities.
    Mr. Serrano. When you say longer time, in some cases we are 
talking 10, 15 years or so?
    Ms. Sawyer. Yes. Some have been serving a sentence. Others 
have finished the service of their sentence and are being held 
because their country of origin will not take them back.
    Mr. Serrano. Do we know what percentage? You have 1,100?
    Ms. Sawyer. Yes.
    Mr. Serrano. How many of those have served their sentence?
    Ms. Sawyer. I think the majority of those 1,100 have served 
their sentence.
    Mr. Serrano. So those are really no longer a Federal prison 
issue, they are an Immigration issue?
    Ms. Sawyer. Primarily, yes.
    Mr. Serrano. And you keep them under what kind of a ruling? 
Obviously it is not a Federal prison, it is a State 
Department----
    Ms. Sawyer. It is kind of a combination State Department-
Justice Department situation where they are not releasable. 
They are deemed to be too dangerous or their history of 
offenses have been too serious to release them back into our 
own communities. They cannot be deported either, and someone 
has to house them. Since we have longer term facilities, we 
house them for them.
    Mr. Serrano. Has anyone ever done a study on how much that 
is costing your Department or the Federal Treasury, people who 
have served their sentence and are awaiting their--because it 
seems to me that those folks are not one of your issues. In 
other words, you are funded to carry out a certain duty. Those 
folks are there for another reason.
    Ms. Sawyer. Right. But it wouldn't take a very elaborate 
study. Our costs are roughly $20,000 per year and you could 
multiply that by the number of inmates. We could give you a 
figure. But the Appropriations Committee has been very aware 
that we house them, so it is not as though we are using the 
money improperly. The Committee is aware that we house them, 
but it is pretty expensive.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

    The BOP currently has 996 Mariel Cubans in custody who have 
finished serving their sentence, and the cost of housing them 
is approximately $21.8 million annually. The BOP does not house 
any inmates who have entered the country under the Cuban 
Adjustment Act and then committed a crime. However, there are 
13 non-returnable Cuban inmates who are not Mariels being 
housed in BOP facilities for the INS at this time.

    Mr. Serrano. I am going to go vote.
    Mr. Rogers. We will have another round.
    Mr. Mollohan.

                    privatization of d.c. prisoners

    Mr. Mollohan. Thank you, Mr. Chairman.
    I have all of these press articles discussing the problems 
associated with the Ohio prison. What is the status of that 
prison and its contracting with the District of Columbia for 
D.C. prisoners at this time?
    Ms. Sawyer. It is still an operational contract. D.C. still 
has several hundred inmates there. D.C. did move out the higher 
security inmates from that facility, and they also moved out 
the minimum and lower security ones whose safety was thought to 
be in jeopardy because they had been placed in too secure a 
facility. They now house medium security inmates for the most 
part, and they are being monitored by D.C. Corrections and the 
Department of Justice's Trustee who was named to help oversee 
that facility. It has been running better. They have not had 
the volume of homicides and escapes that they had last year, 
but they are still monitoring it closely.
    Mr. Mollohan. Are those all D.C. prisoners?
    Ms. Sawyer. Yes.
    Mr. Mollohan. They have approximately 200 inmates in the 
facility?
    Ms. Sawyer. It is several hundred. More than 700, I 
believe.
    Mr. Mollohan. How does the decrease in the population there 
affect the privatization requirement?
    Ms. Sawyer. The privatization requirement for us?
    Mr. Mollohan. For D.C. prisoners.
    Ms. Sawyer. The immediate privatization requirement is that 
we privatize the 2,000 lows, females, Youth Act inmates and 
minimum security inmates by the end of 1999.
    Mr. Mollohan. You were counting the inmates in Youngstown 
towards that requirement at some point?
    Ms. Sawyer. Not towards the first 2,000. The first 2,000 
are lows, minimums and females. The Administration's position 
is that the private sector has demonstrated an ability to 
privatize minimums, lows and females. We are not too troubled 
by that contract, although there was the issue of how you split 
the contract in the last year.
    The piece of the Revitalization Act that we were very 
concerned about and we discussed with this Subcommittee before 
is the 50 percent requirement by the year 2003. That then 
brings in many of the medium and high security inmates, because 
the vast majority of the D.C. inmates are medium and high, and 
it is still the position of the Administration that the private 
sector has not demonstrated an ability to safely manage medium 
and high security inmates. That is still in the statute for 
2003 and that still concerns us very much.
    Mr. Mollohan. I read somewhere that Eleanor Holmes Norton 
was introducing legislation to remove that requirement. Are you 
aware of that, and is there any effort to do that?
    Ms. Sawyer. I am aware that she has crafted legislation to 
that effect and it is my understanding that she is beginning to 
try to get support on that legislation, but I don't know its 
exact status right now.
    Mr. Mollohan. What is your position on the issue? Taking 
into consideration the privatization requirement, your 
professional view, how should these prisoners be managed?
    Ms. Sawyer. As I indicated, I am very comfortable with the 
prospect of us privatizing 2,000 of the D.C. inmates, because 
when we reclassified the population, we found there are roughly 
2,000 minimum, low and females in the D.C. population. When you 
go above 2,000, though, you are getting into medium and high 
security inmates.
    I still feel it is a great threat to public safety to 
privatize medium and high security inmates. I think that 
situations that have occurred in private corrections in the 
last year have spoken very loudly to that effect. There have 
been numerous problems throughout the country, not only in the 
Youngstown facility, but facilities that were privatized in New 
Mexico and in Tennessee and others that have had very serious 
life-threatening problems, attacks on staff, inmates dying and 
escaping. And when you get to medium and high security, you 
have a very serious threat to public safety. I still have great 
difficulty with the prospect of us privatizing medium and high 
security.
    Now as part of the Revitalization Act, we were directed to 
do a study of the feasibility of privatizing all security 
levels. It was a one-year study, and that study was completed 
and forwarded to Congress. The study was not done by us, but 
was done by a private consulting firm. They looked at all 
information that exists, to date, and their analysis was that 
there is no indication, yet, that the private sector has had 
sufficient experience running medium and high security 
facilities. There isn't any assurance that they are ready to 
handle that kind of population. I still feel strongly that it 
is a threat to public safety for us to privatize above low 
security.
    Mr. Mollohan. I think in West Virginia as a matter of State 
law, we cannot allow privatization of medium and high security.
    Ms. Sawyer. There have been a number of States watching 
that over the last several years. I am not being negative on 
private corrections. They have served us very well, and we are 
indicating here we are looking for 3,000 more beds, but low 
security, in private corrections. But it is a different picture 
when you move into medium and high security. You have much more 
violent inmates. The threat to public safety if they escape or 
act up is much more dangerous.
    Mr. Mollohan. What would happen if the privatization 
requirement was changed?
    Ms. Sawyer. Nothing would change in this request for 2000 
because we went ahead and requested sufficient beds to house 
the D.C. medium and high security inmates in our own 
institutions. So we have requested capacity to house them.
    If the statute stays as written right now, we would simply 
have to move some of those inmates out of those facilities and 
put them in private corrections. We know that our numbers are 
going to be great enough and we would have other inmates to 
move in, but it would require us to privatize medium and high 
security D.C. inmates.
    Mr. Mollohan. So there is no impact on this year's budget 
request?
    Ms. Sawyer. No, it would be in the outyears, 2002 and 2003.
    Mr. Mollohan. And there is no impact for the 2001 request?
    Ms. Sawyer. That is correct.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Rogers. Ms. Roybal-Allard.

                       staffing levels in prisons

    Ms. Roybal-Allard. You are requesting significant FTE 
increases in new facilities. My question is, in order to do 
this, are you also cutting the FTEs from prisons where 
originally you had increased them? And if so, why, and what is 
going to be the impact?
    Ms. Sawyer. When our crowding levels were grossly high a 
few years ago, before we were able to start getting the funding 
from Congress to build new institutions, Congress was very 
helpful and this Committee was very helpful by giving us a lot 
of new positions to help offset the overcrowding levels at our 
institutions. We were able to beef up staffing because the 
inmate populations were so huge.
    Now as the new institutions get built and we are able to 
bring down the crowding levels at some of those institutions, 
we have been able to realign the staffing. We request some new 
positions coming in to open up new facilities, and later we'll 
be able to pull some of those positions back from existing 
institutions to meet an appropriate staff-to-inmate ratio. If 
we end up with more staff than we need because the crowding 
level has gone down, then we'll redeploy those staff or return 
FTE's to the Appropriations Committee.
    Ms. Roybal-Allard. What is the ratio right now?
    Ms. Sawyer. Three to one, but that is misleading because in 
a high security, a penitentiary, obviously your staffing is a 
little richer. In a medium it is a little lighter. But on 
average it is a 3-to-1 ratio.
    Ms. Roybal-Allard. The reason that I am asking these 
questions is because my office in the district is right next to 
the Federal prison in Los Angeles, and I have had an 
opportunity to meet with some of the correctional officers and 
they have expressed real concern about their safety, their 
quality of life, and the fact that reductions are being made 
where they feel that ultimately the quality of not only their 
protection but their ability to do their job is being 
jeopardized. Could you expound on that?
    Ms. Sawyer. Sure. We are trying to do a major reeducation 
for our staff. We have grown so much in the last five to eight 
years. A large number of our staff has only been with us as 
Bureau of Prison employees during this time of heavy 
overcrowding, so the only staffing pattern that they are 
accustomed to is this very rich staffing pattern.
    Those staff with us before the heavy overcrowding days know 
that we can run our prisons well with a 3-to-1 average ratio. 
But we are really having to work hard to educate our newer 
staff, to help them allay their fears and help them realize 
that they are not suddenly going to be in great jeopardy if the 
staffing levels come down, as long as the population comes down 
in a commensurate fashion.
    If the population stays up and we pull out staff, there is 
a grave concern. But if the staffing levels come down as the 
population levels come down, we feel that staff are not at risk 
at all, any more than in any other kind of correctional 
setting. We really have had to do a lot of education because 
they only have been with us during the rich days, the large 
staffing patterns, and it is taking a lot of work to help them 
feel safe.
    Ms. Roybal-Allard. Can you do a little more education in 
Los Angeles, please?
    Ms. Sawyer. Yes, we will do that.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.

                 prison space for nonreturnable aliens

    Mr. Rogers. Twenty-five percent of your prisoners are 
criminal aliens. In your request you plan to transfer 3,000 
short-term criminal aliens to contract facilities?
    Ms. Sawyer. Yes, that is correct.
    Mr. Rogers. To free up space for more serious criminals and 
nonreturnable aliens?
    Ms. Sawyer. The 3,000 contract beds that we are asking for 
really are not directly related to the nonreturnables. They are 
not with us yet. That is an additional 1,000.
    Mr. Rogers. That is what I am saying. You are transferring 
3,000?
    Ms. Sawyer. Right.
    Mr. Rogers. To make room for more serious criminals and 
nonreturnables?
    Ms. Sawyer. Right. Yes, sir.
    Mr. Rogers. I understand that you currently house about 
1,000 criminal nonreturnable aliens.
    Ms. Sawyer. Yes.
    Mr. Rogers. In addition, you also include $20 million for 
planning funds for the eventual construction of three 
facilities to absorb the nonremovable criminal aliens from INS?
    Ms. Sawyer. Yes.
    Mr. Rogers. Will you be taking additional nonreturnable 
aliens from INS custody in fiscal year 2000 beyond the 1,000 
that you have in custody, or will you be waiting for 
construction of your new facilities?
    Ms. Sawyer. We hope not to take very many from INS because 
we don't have the capacity for them, but there is a concern 
that we not jeopardize public safety, collectively, at the 
Justice Department. So, if any of the nonreturnables in 
Immigration custody act up in such a dangerous way that it is 
more safe for the public for us to take them, we may take more, 
but we are so grossly overcrowded that we are trying to assist 
INS in finding other housing for them.
    Mr. Rogers. Will those three new facilities provide enough 
room to absorb the expected nonreturnables?
    Ms. Sawyer. In the short term they will do very well. INS's 
long-term projection is that they will have up to 5,000 
nonreturnables in the next five to six years. Our three 
facilities will take in about 3,000 more than the 1,000 that we 
already have, and that will not meet the 5,000 bed outyear 
requirement. If it looks in the outyears as though their 
projections are going to be met, we could come back again for 
another nonreturnable facility.
    Mr. Rogers. What is your current timetable for transferring 
all of the INS long-term detainees?
    Ms. Sawyer. Basically when the beds are built.

        health care and population management of nonreturnables

    Mr. Rogers. What special concerns do you have about the 
nonreturnable aliens?
    Ms. Sawyer. Two primary concerns. The first is health care 
issues, because the rate of tuberculosis with non-citizens is 
significantly higher than the rate of active tuberculosis for 
our own citizens being incarerated. From a health care 
standpoint there are some additional concerns, additional 
costs, and fears of transmission of infectious disease, and we 
will have to deal with those.
    The other issue is more of a population management concern. 
These inmates, such as the Mariel Cubans that we have held for 
many years in the BOP, are basically in a hopeless situation. 
They don't know what tomorrow will hold for them because we 
cannot release them into this country, nor will their country 
take them back. They are in a limbo status, which is a very 
dangerous situation to hold anyone.
    You recall back in 1987 when we had the terrible riots and 
hostage situations at Atlanta, in Oakdale, Louisiana, when 
these individuals in this hopeless status reacted to a claim 
that we were going to send them all back to Cuba. They were 
afraid, at that time, that they were going to be harmed, and 
they burned down two institutions and took over one hundred 
staff hostage. It is a continual challenge to manage them 
effectively without being heavy-handed, which we don't want to 
do either. Most of them behave relatively well in an open 
population setting, but they do pose a unique threat in terms 
of population management.

                          hiv and tb concerns

    Mr. Rogers. What about HIV infection? Is that a major 
problem?
    Ms. Sawyer. That is more of a concern with D.C. inmates 
coming to us. Our own rate is roughly 1 percent of HIV positive 
inmates. The D.C. system has an 8 to 10 percent positive rate 
for HIV. So the medical concern, especially in terms of cost, 
is going to be more directly impacted by the D.C. inmates 
coming our way than the nonreturnable aliens for which the big 
concern is tuberculosis, and D.C. is HIV.
    Mr. Rogers. Some of these are quarantinable?
    Ms. Sawyer. Right. We have an elaborate system of screening 
when an inmate is first received into our system. We don't move 
them anywhere until we determine whether or not they have 
active TB, and then we put them in the reverse pressurized 
rooms. The concern is how many they may infect when they first 
come to us. We can catch them quickly after we get them, but if 
you consider that they come on buses or airlifts, they come 
into a holding area where we do the first test, the prick, and 
you don't get your final test until a week or so after. It is 
controllable, but it is far more expensive because you are 
having to do additional testing and screening.
    Mr. Rogers. I assume that you have to more or less 
quarantine these individuals?
    Ms. Sawyer. If they have a positive first test.
    Mr. Rogers. What about the HIV patients?
    Ms. Sawyer. Those are maintained in an open population 
unless their symptoms become so severe they require inpatient 
hospitalization, and then we place them in one of our hospital 
facilities. They are not quarantined. They are just very ill 
and they need inpatient hospitalization.

               criminal alien population per capita cost

    Mr. Rogers. The cost per capita of the criminal alien 
population is higher than your normal population?
    Ms. Sawyer. It is somewhat from a health care standpoint, 
yes.
    Mr. Rogers. Can you estimate the cost and the impact?
    Ms. Sawyer. I don't have those numbers with me. We could do 
that, Mr. Chairman.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

               Criminal Alien Population Per Capita Cost

    The cost per capita of the criminal alien population is somewhat 
higher than your normal population from a health care standpoint. 
Inmates arriving from other countries are likely to have had little or 
no previous health care or access to many medications available in the 
United States (U.S.) for treatment of chronic diseases. For example, 
inmates arriving with HIV infection are more likely to present with 
AIDS and its complications requiring hospitalization than persons with 
HIV in the U.S. who now routinely enter jails and prisons on therapy 
when medically indicated. Also, while TB incidence has been on the 
decline in the U.S. for the past few years, the percentage of TB cases 
among foreign-born persons has continued to increase. Of 33 diagnosed 
TB cases in 1998, 76 percent occurred among criminal aliens, and 11 of 
these cases were identified at intake at MCC San Diego. Because of the 
increase in TB cases at San Diego, a universal chest x-ray screening 
for TB has been instituted for all inmates entering the institution. 
This is an expensive screening process and results in more inmate 
evaluations in the hospital setting. The practice may be expanded to 
other BOP detention centers with large numbers of arriving criminal 
aliens.

                 sufficient resources for dc population

    Mr. Rogers. Now, given the likely growth in the D.C. prison 
population, do you expect that the seven prisons that you plan 
to absorb them will provide sufficient capacity?
    Ms. Sawyer. As of right now seven should be fine. The 
unknown in here is that D.C. created a new sentencing 
commission, on which the Department has a member, and there are 
a lot of people involved in it. Depending on what changes that 
they make in the sentencing structure in D.C., our needs could 
change somewhat. If the numbers start going up, we will be 
coming back to request more capacity.
    The other thing, we do not know for sure whether the courts 
are going to change their sentencing practices for D.C. felons 
now that they have facilities they feel more positive about. We 
could find them violating parole more readily and some other 
things that are still unknown. So right now the seven will be 
fine for the 7,500 existing D.C. inmates. Some things could 
change to make those numbers go up, and if so, we may have to 
come back.

                       transfer of d.c. prisoners

    Mr. Rogers. Does your request include enough money to 
accommodate the transfer of all those D.C. prisoners after the 
closing of Lorton by 2001?
    Ms. Sawyer. The transfer costs would not yet be in this 
budget because they would come into effect in 2001. The beds 
are here, but the transfer costs of actually moving these 
inmates will occur in 2001.
    Mr. Rogers. We are joined on our Subcommittee by another 
new member, Mr. Wamp from Tennessee.
    Mr. Wamp. Thank you, Mr. Chairman, but I don't know enough 
yet to ask an intelligent question, so I will yield back the 
balance of my time.

                          testing new inmates

    Mr. Serrano. I don't know enough either yet, but I had some 
staff who know this jot me some questions down.
    As I was listening to you, as troubled as I have always 
been about the whole issue of testing and so on, I still know 
the importance in a situation like yours to deal with this 
serious issue. You keep telling us about testing people as they 
come to you. In the case, for instance, of D.C., there could be 
no arrangement where you could test people prior to so at least 
you know what is coming in, so you would be able, from the 
beginning be able to deal with that, rather than a week later?
    Ms. Sawyer. On the D.C. inmates we have the advantage of 
knowing that they are coming to us, so we are already doing 
some work with the D.C. prison system to get their medical 
system functioning well, so that the protocols for drugs or 
whatever should be occurring before we get the inmates. Testing 
will be occurring before they come and we will know for sure in 
those cases. As they come to us, we will know what their 
medical status is. It is the others, non-citizens or our 
regular population that is coming in. Those are the ones that 
are unknown.

                        nonreturnables from ins

    Mr. Serrano. The whole issue of INS, do you have a choice? 
Do you have to take these folks as INS sends them over? Do we 
mandate that?
    Ms. Sawyer. We generally have to take the ones that have 
been sentenced in this country because that is our mission, 
that is our responsibility.
    Mr. Serrano. Right.
    Ms. Sawyer. Separate from those, we do in essence have a 
choice, although the Justice Department tries to manage its 
assets as best as possible to serve the American public, as 
well as the detainees. And so that is when a discussion comes 
in, where are they best served? The nonreturnables are more of 
a Justice Department decision, and I think a wise one from a 
public safety standpoint. These offenders are looking at a lot 
of time and are in a hopeless situation, it is very difficult 
to manage that population in a detention facility where there 
is very little to do. In our institutions we keep them 
constructively occupied and the time goes by faster. It just 
works out better all the way around.

                           educating inmates

    Mr. Serrano. That leads me to a question: If you were to 
ask people on the street about Federal prisons their thoughts 
would be about white-collar professionals. That has changed 
quite a bit. We forget then in that case, since it has changed, 
that there also have to be services for rehabilitation. 
Especially with the INS issues, then, are you satisfied with 
the services you are providing in languages other than English 
or is there a need to expand on that? How do you communicate 
with some folks who are still not fluent in English?
    Ms. Sawyer. Language is always a concern. And there are 
many languages that come to us, not just Spanish, although the 
larger percentage of them are Hispanic. We do have English as a 
second language classes for these inmates. We try to teach them 
good survival skills in English. They can also get their GED in 
Spanish, and if space is available they are also able to get 
their GED in English.
    We try to spread the resources that we do get, and we try 
to be reasonable with what we ask for. We could always do more, 
if we had more resources, in terms of teaching English skills, 
both for the non-citizens and our own inmates, in terms of 
helping them be more productive when they are released. I think 
we do a very good job in terms of teaching, education.
    Our three primary emphases in the BOP are basic education, 
work skills and drug treatment, because all three of those have 
proven to have a direct nexus as to whether or not someone gets 
involved in a crime again later. We have gotten tremendous 
support from this Subcommittee in terms of resources, and I 
think we do a reasonably good job in terms of teaching every 
inmate who has a need for work skills, education and drug 
treatment.

                      violent criminal population

    Mr. Serrano. Was there a time when----
    Ms. Sawyer. That time is long gone. If you look at our 
population now, roughly 18 percent of our 120,000 inmates are 
in minimum security institutions. Many people think that the 
Federal system has all these country club camps around and all 
of these white-collar offenders, but only 18 percent of our 
120,000 inmates are in these minimum security institutions.
    We have a much more violent population. The major Federal 
emphases are drug crimes, violent drug gangs, the major cartels 
bringing drugs in from outside the country, as well as what you 
see happening in our cities and urban areas with drug 
trafficking. Our population has changed dramatically in the 
last 10 years, and the old image is not at all what we have in 
our prisons today.
    Mr. Serrano. So it is possible that part of your planning 
has to be to deal with what some of these State and local 
facilities have dealt with in terms of inmate violence and 
everything else?
    Ms. Sawyer. Absolutely. In our request, the vast majority 
of the beds are medium and high security, and that is because 
the numbers of inmates coming to us are higher security inmates 
with bad histories.

                           federalizing crime

    Mr. Serrano. You also might be impacted by what was in the 
Washington Post on the 23rd, federalizing crime and the trend 
in the country by us, I guess, to federalize a lot of crimes 
that were dealt with at the local level previously. You have 
felt some of that impact already. Do you foresee this growing 
out of hand, perhaps?
    Ms. Sawyer. I don't know off hand, but it is definitely 
growing. Many of the offenses that we receive inmates for now, 
would have never come to Federal prisons years ago because they 
were purely State offenses.
    Mr. Serrano. Such as?
    Ms. Sawyer. A lot of the drug offenses. Some of the violent 
offenses. I think those are it for the most part. Carjacking 
never used to be a Federal offense until the last few years 
here in this country.
    So there are a number of things that used to be handled by 
States and locals, and that is why they had the more violent 
population in the old days and we didn't. Now we are getting so 
many more of these inmates. Two-thirds of our inmates are in 
for some kind of drug offense, and that is where we are seeing 
the huge numbers coming our way; drug and weapons offenses. The 
next grouping are the criminal aliens coming across the 
Southwest border with the huge influx of Border Patrol agents. 
But the federalization of crime has had a significant impact on 
who our population is and the numbers that we get.
    Mr. Serrano. Thank you.

                          prison overcrowding

    Mr. Rogers. I learned a long time ago on this Subcommittee 
that in the criminal justice system when you increase the FBI 
agents, you have to increase the number of prosecutors, the 
number of judges, and the number of prison beds and the number 
of everything else, and the whole chain increases when any one 
part increases.
    We, this Subcommittee, have added thousands of new Border 
Patrol agents. We have quadrupled the FBI budget and the 
Justice Department budget in the last few years. We have not 
increased very dramatically the judges. We increased 
prosecutors. The need for bed space in prisons is going to go 
up. But when we increase one item or one part of the chain, the 
whole chain is affected, and we are seeing now the fruits of 
that labor because we are overcrowding. Some of the prisons are 
90 percent or a hundred percent over capacity.
    Ms. Sawyer. Yes, they are.
    Mr. Rogers. I suspect that is the more violent, high 
security prisons.
    Ms. Sawyer. It is kind of a combination. Some of our 
detention facilities, you mentioned L.A., and Brooklyn is at 
117 percent of their capacity and some of our penitentiaries 
are 60 and 70 percent.
    But when you reference the increase in agents and all of 
those other categories, one of the other things that we have 
been watching in more recent years is how technology has 
increased within the agencies in the Justice Department and 
other departments. The technologists oftentimes talk about how 
the law enforcement agents are going to be that much more 
efficient and they will be able to do many more things. And so, 
we have to count those dollars in terms of the impact, of what 
it does for our numbers, and not just the number of agents 
coming to the table. As they become more efficient, that gives 
us more inmates.
    Mr. Rogers. And as Mr. Serrano has said, the Congress has 
passed a lot of new criminal laws that formerly were State 
violations, and now we have created Federal crimes and put 
those people in Federal prisons. We have lots of new Federal 
crimes.

                       impact of hurricane mitch

    Mr. Serrano. On a related subject, Mr. Chairman, I heard 
something which troubles me because of my philosophies. 
Supposedly in the disaster package, the aid for Hurricane 
Mitch, there is $80 million for detention of illegal 
immigrants. It seems that as a result of the hurricane there 
are people who are coming north. I understand that is a 
problem, but somehow the whole idea that you are going to end 
up with some of these folks who are running away from a 
hurricane or mudslide presents just a whole new situation for 
us to deal with, and my understanding is that there is a large 
amount of money for that.
    Mr. Rogers. Every time we get an influx of new immigrants 
for whatever reason, a certain percent of them will commit a 
crime on our soil and will have to be detained in our prisons.
    Ms. Sawyer. With Hurricane Mitch we are seeing the 
detention beds that are being strained, and then if you take 
any percentage of those because they commit an offense, because 
they have no money or whatever it might be, it just escalates 
in terms of the problem.
    Mr. Rogers. This is also to increase our capability of 
catching those who are entering illegally, as well.
    Ms. Sawyer. Right. We never see them because they send them 
back.
    Mr. Rogers. Do you have any comment on the recent newscast 
that INS may release a lot of their criminal detainees?
    Ms. Sawyer. I don't think that I should speak for INS, but 
I do know that they are having a real shortfall in terms of 
detention bed space for this reason and many others. I know 
that they are looking at those who pose the least amount of 
risk to anyone, but they only have x amount of beds and x 
amount of money to house them, and it is hard to hold inmates 
if you don't have the money or the beds. We can't help them. 
Our own institutions are grossly overcrowded. We can only help 
them to a limited degree, and those are for the most serious 
offenders.
    Ms. Roybal-Allard. Mr. Chairman, part of that $80 million 
is to address that problem, criminal detainees.
    Mr. Rogers. By the way, you are recognized.

                   screening of communicable diseases

    Ms. Roybal-Allard. I just have a couple of follow-up 
questions. You said that when you get the prisoners that you 
screen them for TB?
    Ms. Sawyer. Yes.
    Ms. Roybal-Allard. Do you screen them for AIDS and other 
communicable diseases as well?
    Ms. Sawyer. We screen for TB because that is the most 
readily communicable disease. HIV, we do a random testing of 
all of the inmates coming in, a certain percentage. And then we 
work closely with those that have any of the risk factors that 
indicate that they could have HIV, drug users or homosexual 
experiences or they have been involved with someone who has 
AIDS. We encourage them to get tested also.
    Thus far, we have a hit rate of 1 percent of our inmates 
who are HIV positive, and our rate of conversions that ever 
shift is minuscule. Those that have converted are generally 
converted within the first--there is a window when you could 
have been positive and it takes you three or six months to 
convert. All of our conversions have been within that window, 
which leads us to believe that they contracted it on the 
outside and we identified them once they became more active in 
the prison population.

                     treatment of infected inmates

    Ms. Roybal-Allard. Do you know what percentage of your 
budget is for treating inmates with those diseases? Is it a 
large percent or relatively small?
    Ms. Sawyer. I think there are some numbers in my written 
testimony that speak to that. I do know that the average 
medication for an active HIV case is $12,000 per inmate; and 
when they become very symptomatic and require inpatient 
hospitalization, that is generally $100 or so a day. We could 
work out those numbers specifically.
    Ms. Roybal-Allard. So it is not a separate line item?
    Ms. Sawyer. No, it is all part of our medical budget.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

    Approximately three percent of the BOP medical budget of 
$355 million was spent on treating inmates with infectious 
diseases in FY 1998. This percentage is expected to increase 
over the next five years as new drug therapy becomes the 
standard of care and more effective treatments are developed 
and approved.

                nonreturnable aliens: mariels and cubans

    Ms. Roybal-Allard. I believe you were answering this 
question when I came back from the vote, and it had to do with 
the non-returnable aliens and the INS. Is this a long-term 
commitment or is this something that is temporary?
    Ms. Sawyer. These are long-term. These are from countries 
where we do not have diplomatic relationships such as Vietnam, 
Somalia, Laos, Cambodia and Cuba. That is why the Department 
has made the decision to go to a permanent solution of us 
building prisons and taking them into our population.
    Mr. Serrano. Just for a second, Mr. Chairman. I would 
appreciate, as you promised before, if you would get us figures 
on how much the 1,100 Mariel people are costing the system, and 
if it is possible to separate those who truly are Mariel people 
and then those who are folks who showed up here, and under the 
Cuban Adjustment Act they are allowed to stay simply because 
they said that they were running away from communism, and then 
committed a crime, because I think there is a distinction 
between the two. I guess that government could claim the ones 
that we sent you we will take back, but the ones that you took 
and made a big fuss about, maybe that is your problem.
    Ms. Sawyer. I don't believe that we have many of those in 
our system. I know that Immigration has roughly 500 Cubans that 
are in this limbo status and are not Mariel, but we will try to 
get you those numbers.
    Mr. Rogers. Mr. Wamp.

                           juvenile offenders

    Mr. Wamp. Thank you, Mr. Chairman. You have three new 
members of the Subcommittee here, and maybe you can help us 
understand the process. If you are 16 years old and you are 
convicted of carjacking, where do you end up in the justice 
system?
    Ms. Sawyer. You could be prosecuted locally in your State, 
and in fact, the Justice Department encourages most of them to 
be handled at the State level and not federalize them. Many of 
these cases go either way. If it should go Federal and you 
become prosecuted federally. We contract out all of our 
juveniles. The Federal Prison System has responsibility for 256 
Federal juveniles. At least 50 percent of those are Native 
Americans from Indian reservations, and the remaining are non-
Native Americans. We contract those out primarily with State-
run or county-run detention facilities because our goal is to 
get them as close to home as possible. We try to contract with 
the nearest facility that can meet their needs, and hopefully 
they can be placed close to home.
    Mr. Wamp. Some of the hearings claim that one of the 
threats is a juvenile super predator that emerges from the 
terrible drug culture in our society. Are you concerned about 
the proliferation of Federal juvenile offenses in the future 
that you might have to deal with other than contracting out 
locally, or is that not a threat, or do you think that the 
Federal judicial system is capable of handling an increasing 
number of juvenile cases?
    Ms. Sawyer. It is always somewhat of a concern for us 
because of the number of pieces of legislation that are put 
forward that would federalize more and more offenses for 
juveniles, and some are even talking about them being 
mandatory. Thus far, they are all discretionary, and the locals 
and the Feds can discuss who is going to take the case.
    Until there are more resources, judges and prosecutors, I 
don't think that you are going to see Federal courts taking in 
the juvenile cases because they don't have the resources to do 
so. I know that the Attorney General asks us, periodically, to 
identify what we would do in the system if suddenly we got a 
thousand more juveniles. And it could result, if there were not 
enough beds out there for us to buy from counties and States, 
in our having to go back into the juvenile business and provide 
housing, which is something that we do not want to have to do 
because, I think, juvenile issues are local issues, and should 
be dealt with closer to home.
    Mr. Wamp. On that line, are you comfortable that they are 
handling the situation adequately for juvenile Federal 
offenders?
    Ms. Sawyer. For the juvenile Federal offenders, yes. We 
monitor those contracts very carefully. The problem, 
oftentimes, is we cannot find a facility close enough to home 
that meets the other criteria and we have to house them a 
little farther away. But the States and locals are having 
difficulty keeping enough juvenile beds available to manage 
their own population, and we have to work pretty hard to find 
adequate beds to meet our criteria of housing these offenders 
relatively close to home.
    Mr. Wamp. What is the likelihood that a juvenile that is 
incarcerated, what is the likelihood that they will return to a 
productive life?
    Ms. Sawyer. Very good. There are a lot of different factors 
involved. I don't know the rate of recidivism for juveniles and 
it would vary. It is based on where they are being housed and 
programs available, but they are certainly worth the effort and 
the resources and time and energy to try to catch them at a 
young age; otherwise, we are going to be paying $22,000 a year 
for them in our Federal and State prisons.
    Mr. Wamp. What is that $22,000?
    Ms. Sawyer. Our average cost is $22,000 per year. That 
varies from minimum security to high security.
    Mr. Wamp. How does that rank with States?
    Ms. Sawyer. It is comparable with the States. We are 
probably at the two-thirds mark.
    Mr. Wamp. Thank you, Mr. Chairman.

                         design/build contracts

    Mr. Rogers. Now, finally, you have begun using a new method 
of building called design/build contracts. Tell us about that.
    Ms. Sawyer. Prior to 1997, civilian agencies were not 
allowed in the government to use the design/build award. What 
we had to do was go out on one contract for the architect and 
the engineering firms, and once the design was done, go out on 
another contract for the construction. That changed in 1997 and 
opened the door up for civilian agencies to be able to do a 
design/build contract, which means one bid, and we get a 
company who will both design it and actually build it.
    We looked carefully at it to make sure this was the right 
way to go, and we have several projects that are under the 
design/build award mechanism. One has been completed, and we 
think that it is very good for the government.
    What we were finding in the old days was that you go in and 
hire an architect, and then you would hire your contractor. If 
the contractor was running into problems, they would blame them 
on the architect, and the architect would blame it on the 
contractor, and we were stuck with a lot of change orders. And 
usually there was a legal battle as to whose fault it was and 
who had to pick up the cost, and it took longer to split the 
contracts like that.
    We are very optimistic and we have had a good experience on 
our first award that, number one, it is going to save time; 
and, two, it is going to save a lot of that finger-pointing if 
there are things that are not quite as they should be, because 
the one who designed it is also the one building it. So far our 
first contract came in a little ahead of schedule.
    Mr. Rogers. So you have it for one completed project?
    Ms. Sawyer. That is correct, and we have seven more that we 
are in negotiations with or about to award. We feel very good 
about moving in that direction.
    Mr. Rogers. Would you use that, do you think, on all 
projects?
    Ms. Sawyer. Probably. If these go well and we don't have 
any reason to question the wisdom of it all, I think our plan 
is to use this in the future.
    Mr. Rogers. Did you notice, the one completion that you 
had, did it impact the time of the process?
    Ms. Sawyer. It came in a little under expectation and the 
cost was good. We saved some money on the one contract.
    Mr. Rogers. Good.
    Ms. Sawyer. And that was simply a camp. So if you make it a 
whole facility, we envision the money savings to be more 
dramatic.
    Mr. Rogers. Whether or not you complete your acquisitions 
for fiscal year 1999 and fiscal year 2000 timely impacts how 
much money you need to spend somewhere else.
    Ms. Sawyer. Yes.

                      fy 1999 and 2000 activations

    Mr. Rogers. Any delays in the opening of new prisons in 
1999 or fiscal year 2000?
    Ms. Sawyer. We are ahead of schedule on three of them, and 
we are going to be using some of our carryover money from 1998 
to 1999 to bring a couple of those on line early, the Houston 
facility, the Victorville facility, and maybe even 
Philadelphia.
    The only one that may be a little delayed is the Butner 
Medical Facility. We have had a lot of problems with the 
contractor there. We have actually removed that contractor and 
we are getting a new contractor. We don't have a new activation 
date on it, but we fully understand if it is beyond when it is 
supposed to be, we would come back to you with money that we 
don't use.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

    BOP has recently selected the new contractor for the FMC 
Butner project, but still does not have the activation date. We 
will inform the Subcommittee as soon as the activation date has 
been determined.

    Mr. Rogers. We would want to know where you stand as we get 
very close to markup.
    Ms. Sawyer. Okay.
    Mr. Rogers. And, by the way, we are going to mark up 
earlier than usual this year, so we would want to know around 
April 1 or maybe a little sooner.
    Ms. Sawyer. We will give you the best numbers that we have 
at that time.
    Mr. Rogers. Does anyone else have any questions?

                     gender population of criminals

    Ms. Roybal-Allard. Mr. Chairman, I have one quick question.
    What is the breakdown in the criminal population, women 
versus the men?
    Ms. Sawyer. Seven percent of our population are female. 
That used to be much smaller, we used to run around 4 percent, 
but with the changes in the sentencing guidelines, which became 
less discretionary on the part of the judges, and they were 
basically forced to provide a certain sentencing guideline to 
the female offenders, that rate shot up faster than the rate of 
males coming in. It has now flattened out. The rate of our 
female population right now is 7 percent, and it tends to grow 
about the same rate as males, so we envision that 7 percent 
will stay pretty consistent.
    Ms. Roybal-Allard. And the kinds of crimes?
    Ms. Sawyer. They tend to be much less violent. Most females 
tend to be able to be housed in minimum and low security 
levels. They don't have a history of violence. They are mostly 
drug offenses. Again, two-thirds are drug offenders and most of 
them are carriers. They transport drugs.
    Ms. Roybal-Allard. Are there separate facilities?
    Ms. Sawyer. We have 17 institutions that hold females. 
Seven are pretrial, like L.A., for example, that has a floor 
for women. We have 10 other institutions that hold women. Now 
five of those institutions are almost solely female: 
Tallahassee, Florida; Carswell, Texas, which has the major 
medical facility; Dublin, California; Danbury, Connecticut and 
Alderson, West Virginia. There are five that house almost all 
females.
    We have been able to get the women closer to home because 
we have built satellite camps attached to some of our male 
institutions where the main institution may be a medium, like 
at Pekin, Illinois or Phoenix, Arizona. The main institution is 
male, but the satellite camp next door to it is female. That 
gives us more opportunity to have smaller populations of women, 
but get them closer to home, so you get the economies of scale 
from the larger facility. So we have a total of 10 institutions 
which house long-term sentenced females, five are big 
institutions and roughly five more are satellite camps which 
are attached to another facility.
    Ms. Roybal-Allard. Thank you.
    Mr. Rogers. We thank you for your testimony and your 
presence and your hard work and your success. We are proud of 
what you do, and we cannot say the same for some of the others, 
but BOP is a good organization.
    Ms. Sawyer. Thank you, Mr. Chairman. We have wonderful 
staff, and they just do a terrific job.
    Mr. Rogers. Thank you very much. The hearing is adjourned.


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Bilchik, Shay....................................................   469
Brann, J. E......................................................   469
Bucella, D. A....................................................   347
Constantine, T. A................................................   347
Freeh, L. J......................................................   275
Meissner, Doris..................................................   561
Reno, Attorney General Janet.....................................     1
Robinson, J. K...................................................   347
Robinson, Laurie.................................................   469
Sawyer, K. H.....................................................   651


                               I N D E X

                              ----------                              --
--------
                                                                   Page
Attorney General.................................................     1
    Antitrust:
        Budget Request...........................................   251
        Cartel Activity........................................247, 250
        Global Competition.......................................   252
        Industry Competition...................................230, 247
    Biography, Attorney General Janet Reno.......................    33
    Budget:
        INS Detention Shortfall..................................    21
        Request..................................................     4
        Summary..................................................    34
    Bulletproof Vest Grant Program...............................   259
    CALEA:
        Implementation of........................................   203
        Rural Carriers...........................................   205
    Cartel Activity.......................................247, 248, 250
    Community Oriented Policing Service (COPS):
        Budget Request...........................................   236
        Community Policing.......................................   229
        COPS II Initiative................................243, 246, 257
        Policing Initiative......................................     5
    Community Prosecution Program................................   246
    Cooperative Agreement Program (CAP).........................20, 260
    Counterrorism:
        Budget Request...........................................    13
        Cybercrime...............................................    12
        NIPC.....................................................    12
    Crime Analysis Program.......................................   244
    Criminal Records Upgrade Program.............................   243
    Detaining Felons.............................................    18
    Diallo, Amadou...............................................   227
    Drug Enforcement Administration:
        Enhancements.............................................    15
        Foreign Program Allocation...............................   233
        Juvenile Drug Abuse......................................    17
        Management, Financial....................................   232
        Reprogramming............................................   234
        Zero Tolerance Initiative................................    16
    Drug Trafficking.............................................    15
    Employment Diversity.........................................   272
    Etraditions:
        Del Toro.................................................   210
        Delays...................................................   212
        Mexico, Fleeing to.....................................211, 213
    Federal Bureau of Investigation Request......................    30
    Federal Prison Detention.....................................    20
    Federal Prison System Request................................    18
    Female Inmates, Treatment of.................................   266
    Gun Control:
        Gun Strategy.............................................     7
        Juvenile Gun Courts Initiative...........................    10
        NICS.....................................................    10
        Youth Violence........................................... 9,246
    Immigration and Naturalization Service:
        Application Processing.................................215, 222
        Backlog, Naturalization..................................   263
        Border Patrol Agents...............................22, 214, 221
        Budget Request...........................................
        Citizenship USA........................................219, 221
        Detention..............................................216, 222
        Disciplinary Action......................................   218
        Emergency Supplemental..................................21, 217
        Institutional Removal Program............................   221
        Late Amnesty--Section 377................................   264
        NACARA Regulations.......................................   264
        Problems, General......................................220, 225
        Restructuring of.........................................   223
    Indian Country:
        Budget Request...........................................    26
        Crime....................................................    25
    Information Resource Management..............................    29
    Initiative, Department.......................................    28
    Litigation...................................................    27
    Local Law Enforcement Block Grants...........................   242
    Methamphetamine..............................................   261
    Narrowband Communication.....................................    29
    National Instant Check System (NICS).........................    10
    National White Collar Crime Center (NWCCC)...................   242
    Office of Inspector General Request..........................    30
    Office of Justice Programs:
        Bulletproof Vest Program.................................   259
        Grant Program Requests...................................   235
        Request..................................................    30
        Title V At Risk Program..................................     9
        Youth Gun Violence.......................................     9
    Police Misconduct............................................   227
    Port Industry, Competition in the............................   230
    Procurement Diversity........................................   272
    Prosecutors Grant Program....................................     6
            Public Safety Wireless Telecommunications Assistance 
        Program245.....................................................
    Regional Information Sharing System (RISS)...................   243
    Questions for the Record.....................................   238
    Statement:
        Formal, Janet Reno.......................................     4
        Opening:
            Ms. Reno.............................................     2
            Mr. Rogers...........................................     1
            Mr. Serrano..........................................     2
    Team Names.................................................207, 209
    Tobacco Litigation..........................206, 208, 209, 238, 253
    U.S. Marshals Request........................................    19
    U.S. Trustees Request........................................    31
    Violent Crime:
        Decline in...............................................   255
        Resources................................................   255
        Violence Against Women...................................   265
        Violent Offender and Trust in Sentencing Grants........256, 258
        White Collar Crime, vs...................................   255
        White Collar Crime Resources.............................   255
    Youth Violence...............................................   246
Federal Bureau of Investigation..................................   275
    Activities, Intelligence.....................................   341
    Allegations, Investigation of................................   304
        Recommendations, Department of Energy....................   304
        Responses..............................................305, 306
    Amadou Diallo................................................   333
    Appropriation Language.......................................   345
    Atlanta Bombing Investigation................................   304
    BATF.........................................................   342
    Biography....................................................   303
    Budget Request
        Funding Requirements...................................282, 300
        Overview.................................................   288
    CALEA......................................................323, 324
    Certification of Mexico......................................   320
    Challenges.................................................276, 283
    Computer Crimes..................................279, 292, 330, 339
    Cooperation, Private Sector..................................   328
    Counterterrorism.............................................   291
    Crime:
        Bank Robberies, Iowa...................................317, 337
        Indian Reservations......................................   317
    Cyber Crime................................................279, 292
        Efforts..................................................   339
        New Technology, Criminal Use.............................   330
    Danger Pay...................................................   282
    Defensive Arming Proposal....................................   334
    Department of Energy.......................................304, 311
    Enforcement, Firearms........................................   341
    Espionage:
        Cases, Motivation........................................   319
        Investigations, Complexity.............................309, 315
        Prevention, Responsibility for...........................   314
        Progress.................................................   311
        Punishing Individuals....................................   308
        Recommendations..........................................   304
        Responses..............................................305, 306
    Firearms Enforcement.........................................   341
    Hiring of Personnel, Status..................................   337
    IAFIS........................................................   320
        Update...................................................   322
    IDENT........................................................   320
    Indian Reservations, Crime...................................   317
    Information Collection.....................................278, 288
    Infrastructure.............................................299, 328
    Initiatives:
        Information Sharing......................................   324
        Southwest Border.........................................   318
        Technology Crimes......................................279, 292
    Intelligence.................................................   341
    Investigations:
        Eric Rudolph.............................................   313
    Laboratory.................................................281, 326
    Law Enforcement Services...................................281, 296
    Legislative Proposals........................................   301
    Memorandum of Understanding, BATF............................   342
    Mexico, Certification........................................   320
    National Infrastructure Protection Center....................   293
    National Instant Criminal Background Check System..........281, 298
    NCIC 2000, Update............................................   322
    NICS.......................................................281, 298
    NIPC.........................................................   293
    Opening Remarks
        Chairman Rogers..........................................   275
        Director Freeh...........................................   276
    Polygraph....................................................   335
    Priorities, National.........................................   278
    Privacy......................................................   331
    Private Sector Cooperation...................................   328
    Proposals, Legislative.......................................   301
    Recognition of Wade Houk.....................................   275
    Security, Need for Conscious Culture.........................   316
    Services, Law Enforce........................................   281
    Sioux City:
        Methamphetamine Problem..................................   338
        Mexican Drug Organizations...............................   338
        Special Agents & Support Staff...........................   337
        Tri-State Drug Task Force................................   338
    Statement:
        Formal...................................................   283
        Opening..................................................   276
    Strategic Plan...............................................   285
    Technology Crimes..........................................279, 292
    Terrorist Incident Response, Aircraft for....................   329
    Title V Exemption............................................   327
    Wade Houk....................................................   275
    Wiretaps.....................................................   324
Drug Enforcement Program.........................................   347
    Criminal Division............................................   366
    Activities...................................................   384
    Asset Forfeiture.............................................   392
    Biography, Deputy Assistant Attorney General, James K. 
      Robinson...................................................   404
    Budget Request.............................................366, 369
        Antidrug.................................................   399
        Non-Drug.................................................   402
    Caribbean Initiative.........................................   387
    Colombia:
        Black Market Peso Exchange System........................   390
        Certification............................................   395
    Drug, Primary Objective......................................   367
    Drug Control:
        Strategic Plan.........................................371, 375
    Extradition:
        Alternatives.............................................   444
        Cases....................................................   430
        International............................................   441
        Mexican Nationals........................................   429
        Recordkeeping............................................   443
    Federal Capital Cases........................................   393
    Initiatives:
        Southwest Border.......................................374, 385
    International:
        Drug Trafficking Organizations...........................   372
        Efforts..................................................   395
        Emergency Economic Powers Act............................   397
        Training.................................................   398
    Methamphetamine, Strategy..................................374, 388
    Money Laundering Strategy....................................   392
    National Drug Control Strategy...............................   366
    OCDETF:
        Accomplishments...................................376, 372, 376
        Budget Request...........................................   383
        Funding Mechanism........................................   446
    Prosecutorial Practices......................................   441
    Southwest Border Initiatives.................................   459
    Special Operations Division..................................   386
    Statement, Robinson, James K:
        Formal...................................................   370
        Opening..................................................   366
    Drug Enforcement Administration..............................   347
    Accomplishments, 1998........................................   351
    Biography, DEA Director, Thomas A. Constantine...............   365
    Budget Request.............................................350, 363
    Colombian Certification......................................   431
    Compromised Agents and Inspectors............................   438
    Diversion Control Initiative.................................   364
    Domestic Enforcement Initiative..............................   363
    Drugs:
        Addressing Problems on Regional Basis....................   356
        Caribbean................................................   455
        Crime Increase...........................................   432
        Enforcement Training Curriculum..........................   361
        Heroin...................................................   359
        International, Trafficking...............................   435
        Merthamphetamine.........................................   359
        Migration Problem........................................   349
        Primary Objectives.......................................   367
        Puerto Rico..............................................   455
        Shipment Patterns........................................   433
        Threat.................................................357, 360
    Drug Investigations, Joint...................................   348
    Electronic Surveillance......................................   450
    Extradition:
        Alternatives.............................................   444
        Cases....................................................   430
        Recordkeeping............................................   443
    Financial Management.........................................   451
    Heroin.......................................................   359
    Infrastructure:
        Improvements.............................................   356
        Initiative...............................................   363
    Intelligence, Role...........................................   448
    International:
        Drug Trafficking.........................................   435
        Extraditions.............................................   441
    Kosovo Liberation Army.......................................   462
        Methamphetamine........................................359, 436
    Mexico:
        Certification..........................................426, 434
        Extradition of Mexican Nationals.........................   429
        Law Enforcement Cooperation..............................   427
    Mobile Enforcement Teams.....................................   349
    National Guard, Use of.......................................   457
    Operation Pipeline...........................................   464
    OCDETF:
        Funding Mechanism........................................   446
    Personnel, Availability of Qualified.........................   437
    Profiling..................................................439, 454
    Regional Drug Enforcement Teams..............................   460
    Southwest Border Initiative..................................   459
    Statement, Thomas A. Constantine:
        Formal...................................................   351
        Opening..................................................   348
    Technology, Improvements.....................................   356
    Trafficking:
        International, Drug Organizations Targeting..............   354
    Violent Crime, Reducing in American Communities..............   352
    Wiretapping..................................................   450
    United States Attorneys (USA)................................   405
    Biography, Director, USA, Donna A. Bucella...................   425
    Budget Request...............................................   414
    Child Support Enforcement....................................   423
    Civil Defensive Litigation...................................   419
    Computer Crime.............................................417, 455
    Counterterrorism.............................................   417
    Drug:
        Convictions..............................................   406
        Program..................................................   405
    Firearms Prosecutions........................................   421
    Indian Country, Violent Crime................................   415
    OCDETF, Funding Mechanism....................................   445
    Southwest Border Initiative..................................   459
    Statement, Donna A. Bucella:
        Formal...................................................   407
        Opening..................................................   405
State and Local Law Enforcement..................................   469
    Community Oriented Policing Services (COPS)................511, 534
    Biography, Director COPS, Joseph E. Brann....................   526
    Budget Request, FY 2000......................................   470
    Community Policing....................................511, 534, 543
    COPS Office..................................................   537
    COPS Program, Extension....................................543, 547
    Crime Identification Technology Act..........................   547
    Crime Reduction..............................................   512
    Funding and Hiring...........................................   513
    Grants.....................................................540, 542
    Grants, Video Conferencing...................................   537
    Local Law Enforcement Block Grant Program:
        Versus COPS Grants.......................................   528
    Police Corps Program.........................................   549
    Police Officers, Qualified...................................   536
    Policing Issues..............................................   533
    Statement, Joseph E. Brann, Director:
        Formal...................................................   514
        Opening..................................................   511
    Witnesses, Introduction of...................................   469
    Office of Justice Programs...................................   469
    Biography:
        Bilchik, Shay............................................   510
        Robinson, Laurie.........................................   490
    Block Grants.................................................   527
        Juvenile Accountability..................................   529
    Budget Request:
        Proposals................................................   471
        Spending Levels, Choices.................................   470
    Chairman's Opening Remarks...................................   469
    Child Protection.............................................   503
    Community-Based Prosecution, Weed and Seed...................   485
    Comprehensive Strategy.......................................   495
        Gun Violence.............................................   498
        Prevention...............................................   496
    Corrections Program Office...................................   545
    Counterterrorism/Domestic Preparedness.......................   486
    Crime Rates, Decline.......................................477, 530
    Criminal Justice Technology..................................   481
    Domestic Violence Programs...................................   531
    Drugs:
        Drug Court's Program.....................................   542
        Drug Treatment Initiatives...............................   555
        Drug Use and Crime, Breaking the Cycle...................   554
        Drug Use and Juveniles...................................   499
    Family Violence Research Program.............................   543
    Gangs and Youth Violence...................................484, 501
    Grants, Existing Programs....................................   553
    Gun Violence.................................................   498
    Initiatives:
        Drug Treatment...........................................   552
        Health Clinic Security...................................   556
        Juvenile Drug Demonstration..............................   550
    Inmates......................................................   556
    Juvenile Justice & Delinquency Prevention:
        Anti-Drug Abuse Media Campaign.........................551, 557
        Budget Request, FY 2000..................................   509
        Information Sharing......................................   508
        Juvenile Accountability Block Grants.....................   529
        Juvenile Crime Reduction.................................   530
        Juvenile Drug Demonstration Initiative...................   550
        Juvenile Drug Use........................................   551
        Juvenile Gun Court Program...............................   530
        New Programs, 2000 Appropriation.......................550, 556
        Research and Evaluation..................................   506
        Tribal Youth Programs....................................   506
    Local Law Enforcement Block Grant Program....................   527
        COPS Grants, Versus......................................   528
    Media and Drugs:
        Anti-Drug Abuse Campaign...............................551, 557
    Objectives, OJP..............................................   491
    Offender Accountability......................................   478
    Programs, Choices on Spending Levels.........................   470
    Restructuring Plan, OJP......................................   548
    Strategy, Comprehensive......................................   495
    Statement, Laurie Robinson, AAG:
        Formal...................................................   473
        Opening..................................................   470
    Statement, Shay Bilchik, Administrator, Office of Juvenile 
      Justice and Delinquency Prevention:
        Formal...................................................   493
        Opening..................................................   491
    Technology...................................................   492
    Truth in Sentencing..........................................   530
    Violence Against Women.....................................532, 544
    Violence, School.............................................   501
    Weed and Seed, Community-Based Prosecution...................   485
    Witnesses, Introduction of...................................   469
    Youth Crime & Violence.....................................484, 503
Immigration and Naturalization Service (INS).....................   561
    Achievements, INS:
        Border Management............................562, 568, 572, 598
        Citizenship Program....................................564, 570
        Criminal Alien Detention.................................   563
        Interior Enforcement Strategy..........................563, 599
        Restructuring................................565, 570, 594, 635
        Worksite Enforcement.....................................   586
    Adoptions, Foreign...........................................   619
    Asylum Processing............................................   593
    Authority, Delegation of.....................................   640
    Backlog, Texas Service Center................................   644
    Biography, INS Commissioner, Doris Meissner..................   601
    Border:
        Management...................................562, 568, 572, 598
        Remote Video Inspection System...........................   576
    Border Patrol Agents:
        Florida..................................................   645
        Number Requested.......................................574, 611
    Budget Request.............................................565, 597
    Census 2000...........................................607, 620, 624
    Chinese Detainees, Guam......................................   609
    Citizenship USA............................................630, 632
        Program..................................................   564
        Cooperative Agreement Program..........................614, 642
    Criminal Alien, Removal of...................................   563
    Detention:
        Center, Reimbursement....................................   637
        Resources................................................   632
    Douglas:
        Apprehension Hotspot.....................................   606
        Construction of Station..................................   606
    Emergency Supplemental Funding, Detention....................   621
    Expansion:
        Agent....................................................   644
        Iowa.....................................................   642
    Fingerprinting...............................................   615
    IDENT System.................................................   615
    Illegal Aliens, Removal of:
        Achievements.............................................   576
        Detention................................................   563
        Numbers Removed..........................................   576
        Processing...............................................   647
        Release of...............................................   604
        Smuggling, Cuba..........................................   610
    Immigration:
        Enforcement and Census.................................620, 624
        Services.................................................   600
    Inspect......................................................   593
    Institutional Removal Program..............................622, 645
    Interior Enforcement Strategy...............563, 585, 599, 618, 637
    Local Law Enforcement Calls..................................   643
    N-648 Denials, Status of.....................................   649
    Naturalization:
        Backlog...........................................616, 624, 649
        Cases, Status of.........................................   632
        Denial Rate............................................617, 648
        Improvements.............................................   590
        Process..................................................   603
        Reduction, Plan..........................................   627
        Resources, Backlog.......................................   625
    Nebraska, Detention Facility...............................614, 637
    Operation Vanguard.........................................637, 641
    Problems.....................................................   633
    Questions for the Record.....................................   637
    Quick Response Teams..................................620, 628, 643
    Remote Video Inspection System...............................   576
    Restructuring.........................................565, 594, 635
    Southwest Border Strategy....................................   613
    Statement:
        Formal...................................................   566
        Opening..................................................   562
    Technology Improvements......................................   581
    Video Teleconferencing:
        COPS, Number of..........................................   630
        Grants.................................................628, 639
        Staffing.................................................   629
Bureau of Prisons................................................   651
    Activations, FY 1999 and FY 2000.............................   685
    Aliens, Nonreturnable:
        Criminal Alien Population Per Capita.....................   677
        Health Care and Populations Management...................   675
        Immigration and Naturalization Service...................   678
        Mariels and Cubans.......................................   682
        Prison Space.............................................   675
    Biography, BOP Director, Kathleen M. Hawk....................   667
    Budget Request.............................................651, 655
    Design/Build Contracts.......................................   684
    District of Columbia:
        Privatization of D.C. Prisoners........................671, 673
        Resources................................................   677
        Transfer of Inmates....................................670, 677
    Educating Inmates............................................   678
    Federalizing Crime...........................................   679
    FMC Butner Project...........................................   685
    Hurricane Mitch, Impact of...................................   681
    Immigrant Detainees..........................................   682
    Infectious Diseases:
        HIV and TB...............................................   676
        Inmate Care..............................................   677
        Screening................................................   681
        Testing New Inmates......................................   678
    Juvenile Offenders...........................................   683
    Overcrowding...............................................674, 680
    Population:
        Gender...................................................   685
        Inmate Growth............................................   669
        Violent Criminals........................................   679
    Privatization................................................   673
    Staffing Levels, Prison......................................   673
    Statement, Kathleen Hawk:
        Formal...................................................   654
        Opening..................................................   652
    Summary......................................................   665
    Testing New Inmates..........................................   678

                                <greek-d>

</pre></body></html>
